APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the United States Court of Appeals for
the Second Circuit (February 3, 2020) .............. 1a
Opinion of the United States Court of Appeals for
the Second Circuit (May 30, 2019)..................... 3a
Order of the United States Court of Appeals for
the Second Circuit Denying Plantiff’s Motion
to Extend (January 1, 2020) ............................ 30a
Opinion and Order of the United States District
Court for the Southern District of New York
Granting Motion to Dismiss
(February 26, 2018) .......................................... 32a
CONSTITUTIONAL AND STATUTORY PROVISIONS
Constitutional and Statutory Provisions ............... 59a
CONGRESSIONAL RECORD
Congressional Record ........................................... 100a
OTHER DOCUMENTS
Transcript of the Oral Argument in the United
States District Court, Southern District of
New York (February 14, 2018)....................... 107a
Amended Complaint
(September 6, 2017)........................................ 159a

APPENDIX TABLE OF CONTENTS (Cont.)
Letter from Petitioners’ Counsel Michael S. Hiller
to the Clerk of Court of the Second Circuit
Court of Appeals (September 10, 2019) ......... 280a
United States Patent: Cannabinoids as
Antioxidants and Neuroprotectants
(October 7, 2003) ............................................ 289a
Guidance Memorandum from the United States
Department of Treasury (FinCEN Guidance)
(February 14, 2014) ........................................ 295a
Justice Dept Press Release: “Justice Department
Issues Memo on Marijuana Enforcement”
(January 4, 2018)............................................ 309a
Press Release by Senator Cory Gardner (R-CO)
(April 13, 2018) ............................................... 311a
ISU Missoula Study (2002) .................................. 313a
In the Matter of Marijuana Rescheduling, DEA
Dkt.No.: 86-22 (1988) (Relevant Excerpts).... 383a
Invitation from Congressman
J. Luis Correa to Alexis Bortell
(September 6, 2017)........................................ 389a
New York Times Article: “Haldeman Diary Shows
Nixon Was Wary of Blacks and Jews”
(May 18,1984) ................................................. 391a
Harpers Magazine Article— “Legalize It All:
How to win the war on drugs”
(April 1, 2016) ................................................. 395a

APPENDIX TABLE OF CONTENTS (Cont.)
Affidavit of Roger Stone
(June 16, 2017) ............................................... 420a
United Nations Single Convention on
Narcotic Drugs, 1961, (Relevant Excerpts) ... 427a

App.1a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
(FEBRUARY 3, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
MARVIN WASHINGTON, DEAN BORTELL,
as Parent of Infant ALEXIS BORTELL,
ALEXIS BORTELL, JOSE BELEN,
SEBASTIEN COTTE, as Parent of Infant
JAGGER COTTE, JAGGER COTTE,
CANNABIS CULTURAL ASSOCIATION INC.,

Plaintiffs-Appellants,
v.
WILLIAM PELHAM BARR, In His Official Capacity
as United States Attorney General, UNITED
STATES DEPARTMENT OF JUSTICE
UTTAM DHILLON, In His Official Capacity as the
Acting Administrator of the Drug Enforcement
Administration, UNITED STATES DRUG
ENFORCEMENT ADMINISTRATION,
UNITED STATES OF AMERICA,

Defendants-Appellees.
________________________
Docket No. 18-859

App.2a
Before: DENNIS JACOBS, GUIDO CALABRESI,
Circuit Judges., Jed S. RAKOFF, District Judge.*
On May 30, 2019, we gave Appellants six months
to file a petition with the Drug Enforcement Administration to reclassify marijuana under the Controlled
Substances Act, noting that a failure to do so would
result in affirmance of the district court’s judgment
dismissing the case. On January 3, 2020, we denied
Appellants’ motion for an 18-month extension to file
their petition. Moreover, on January 17, 2020, Appellants informed us that they do not plan to file a
petition. Accordingly, it is hereby ORDERED that the
district court’s judgment is AFFIRMED and the case
is DISMISSED with prejudice.
For the Court:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

* Judge Jed S. Rakoff, of the United States District Court for the
Southern District of New York, sitting by designation.

App.3a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
(MAY 30, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
MARVIN WASHINGTON, DEAN BORTELL,
as Parent of Infant ALEXIS BORTELL,
JOSE BELEN, SEBASTIEN COTTE,
as Parent of Infant JAGGER COTTE,
CANNABIS CULTURAL ASSOCIATION INC.,

Plaintiffs-Appellants,
v.
WILLIAM PELHAM BARR, in His Official Capacity
as United States Attorney General, UNITED
STATES DEPARTMENT OF JUSTICE
UTTAM DHILLON, in His Official Capacity as the
Acting Administrator of the Drug Enforcement
Administration, UNITED STATES DRUG
ENFORCEMENT ADMINISTRATION,
UNITED STATES OF AMERICA,

Defendants-Appellees.1
________________________

1 The Clerk of Court is respectfully requested to amend the
official caption as set forth above.

App.4a
Docket No. 18-859
Before: JACOBS, CALABRESI, Circuit Judges.,
RAKOFF, District Judge.2
GUIDO CALABRESI, Circuit Judge:
This is the latest in a series of cases that stretch
back decades and which have long sought to strike
down the federal government’s classification of marijuana as a Schedule I drug under the Controlled
Substances Act (CSA), 21 U.S.C. § 801 et seq. See, e.g.,
Krumm v. Drug Enforcement Admin., 739 F. App’x 655
(D.C. Cir. 2018) (mem.); Ams. for Safe Access v. Drug
Enforcement Admin., 706 F.3d 438 (D.C. Cir. 2013);
Alliance for Cannabis Therapeutics v. Drug Enforcement Admin., 15 F.3d 1131 (D.C. Cir. 1994) (mem.).
The current case is, however, unusual in one
significant respect: among the Plaintiffs are individuals who plausibly allege that the current scheduling
of marijuana poses a serious, life-or-death threat to
their health. We agree with the District Court that
Plaintiffs should attempt to exhaust their administrative remedies before seeking relief from us, but we are
troubled by the Drug Enforcement Administration
(DEA)’s history of dilatory proceedings. Accordingly,
while we concur with the District Court’s ruling, we do
not dismiss the case, but rather hold it in abeyance
and retain jurisdiction in this panel to take whatever
action might become appropriate if the DEA does not
act with adequate dispatch.

2 Judge Jed S. Rakoff, of the United States District Court for the
Southern District of New York, sitting by designation.

App.5a
STANDARD OF REVIEW
The trial court granted Defendants’ motion under
Federal Rules of Civil Procedure 12(b)(1) and (6) to
dismiss Plaintiffs’ case. We therefore review its decision
de novo, accepting as true all of the complaint’s wellpleaded facts. See d’Amico Dry Ltd. v. Primera
Maritime (Hellas) Ltd., 886 F.3d 216, 222 (2d Cir.
2018); Harris v. Mills, 572 F.3d 66, 71 (2d Cir. 2009).
BACKGROUND
A.

Parties

As this case reaches us at the motion to dismiss
stage, we must treat the well-pleaded facts alleged in
Plaintiffs’ complaint as true. According to their pleadings, Plaintiffs are several individuals and a membership organization with an interest in the regulation of
marijuana. They assert that the classification of
cannabis as a Schedule I substance under the CSA
harms them in one or more ways.
Marvin Washington is an African-American businessman working in the medical marijuana space. He
would like to expand his business into whole-plant
cannabis products and take advantage of the federal
Minority Business Enterprise Program, but, he alleges,
he is impeded from so doing by the drug’s scheduling.
Alexis Bortell and Jagger Cotte are children with
dreadful medical problems. Bortell suffers from
chronic and intractable seizures; Cotte from Leigh’s
disease. They allege that they exhausted traditional
treatment options before finding success medicating
with cannabis. They claim that marijuana has saved
their lives. Because of its Schedule I classification,
however, they cannot bring their life-saving medicine

App.6a
with them when they travel onto federal lands or into
states where marijuana is illegal. For Bortell, these
travel limitations also mean that she cannot take full
advantage of the veteran’s benefits to which she is
entitled through her father. In addition, both Bortell
and Cotte live in constant fear that their parents
might be subject to arrest and prosecution for their
involvement in their children’s medical treatment.
Jose Belen is a veteran of the war in Iraq and
suffers from post-traumatic stress disorder. After his
honorable discharge, he became suicidal and was
adjudged 70% disabled. He alleges that he pursued
conventional therapies unsuccessfully. In despair, he
turned to medical marijuana. This, he claims, has
allowed him to manage his symptoms. He further
asserts, like Bortell, that marijuana’s Schedule I
classification restricts his ability to travel and to take
full advantage of his veteran’s benefits.
The Cannabis Cultural Association, Inc. (CCA) is
a not-for-profit organization dedicated to assisting
people of color develop a presence in the cannabis
industry. CCA is particularly focused on the way past
convictions for possession, cultivation, distribution, and
use of marijuana have disproportionately affected
people of color and prevented minorities from participating in the new state-legal marijuana industry.
Defendants are the United States, the Attorney
General, the Department of Justice, the Acting
Administrator of the DEA, and the DEA itself. They
are responsible for implementing the CSA and, more
particularly, for updating the classification of controlled
substances. See 21 U.S.C. § 811(a); 28 C.F.R. § 0.100(b).

App.7a
B.

Proceedings below

Plaintiffs initiated the instant suit in the Southern
District of New York in July 2017 and filed the
amended complaint now at issue on September 6,
2017. Plaintiffs raised numerous arguments for re– or
deschedule marijuana, including, as relevant to this
appeal, (a) that the classification of marijuana as a
Schedule I drug exceeded Congress’s powers under
the Commerce Clause and was without a rational
basis, (b) that the classification was arbitrary and
capricious, (c) that marijuana’s inclusion in the CSA
was racially animated and is an act of viewpoint discrimination, and (d) that the law, as applied to Plaintiffs, violates variously their (or, in CCA’s case, its
members’) First, Fifth, and Ninth Amendment rights,
including, inter alia, substantive due process and the
fundamental right to travel.
The crux of Plaintiffs’ case is that new facts
related to the acceptance of medical marijuana treatment regimens and the federal government’s own
involvement in medical marijuana research require a
reexamination of marijuana’s scheduling under the
CSA. The complaint seeks declaratory relief, as well
as an injunction restraining Defendants from enforcing
the CSA with respect to cannabis. In reply, Defendants
moved to dismiss.
After argument, the District Court granted the
government’s motion and dismissed Plaintiffs’ suit. It
further held that amending the complaint would be
futile. As a threshold matter, the Court determined
that Plaintiffs had failed to exhaust their administrative remedies and that they did not qualify for an
exception to the exhaustion rule. On the merits, the
Court did not find Plaintiffs’ arguments persuasive

App.8a
and deemed their claims to be either foreclosed by
precedent or without legal authority. The Court additionally held that CCA failed to establish that it had
standing to pursue its claim, since the relief it sought
would not redress the injury its members had
allegedly suffered. The District Court entered judgment on February 26, 2018, and this appeal timely
followed.
DISCUSSION
We resolve this case without reaching most of
Plaintiffs’ disparate arguments. As the District Court
correctly observed, Plaintiffs challenge the current
classification of marijuana as a Schedule I substance
under the CSA but did not first bring this challenge to
the agency that has the authority to reschedule marijuana, the DEA.3 Although the CSA does not expressly
mandate the exhaustion of administrative remedies,
our precedents indicate that it is generally to be required as a prudential rule of judicial administration.
We agree with the District Court that exhaustion was
3 The CSA places in the Attorney General the power to schedule,
reschedule, or deschedule drugs. See 21 U.S.C. § 811(a). The
Attorney General has promulgated rules delegating this power
to the head of the DEA. See 28 C.F.R. § 0.100(b). The CSA further
requires that, before scheduling, rescheduling, or descheduling a
drug, the Attorney General “shall . . . request from the Secretary [of
Health and Human Services] a scientific and medical evaluation
[of the drug], and [the Secretary’s] recommendations, as to
whether such drug or other substance should be so controlled or
removed,” which “shall be binding on the Attorney General as to
such scientific and medical matters.” 21 U.S.C. § 811(b). The
process for reviewing a drug’s scheduling can be initiated by the
Attorney General, the Secretary of Health and Human Services,
or “on the petition of any interested party.” Id. § 811(a).

App.9a
appropriate here. But in light of the allegedly precarious situation of several of the Plaintiffs, which at
this stage of the proceedings we must accept as true,
and their argument that the administrative process
may not move quickly enough to afford them adequate
relief, we retain jurisdiction of the case in this panel,
for the sole purpose of taking whatever action might
become appropriate should the DEA not act with
adequate dispatch. We wish to make clear, however,
that, in doing so, we express no view whatever on the
merits of Plaintiffs’ case—that is, on whether
marijuana should be listed or not.
A.

Exhaustion of Administrative Remedies Is Appropriate Here

The administrative state is a topic of much debate
these days. See Gillian E. Metzger, The Supreme Court,
2016 Term—Foreword : 1930s Redux : The Administrative State Under Siege, 131 Harv. L. Rev. 1 (2017).
Distinguished jurists and scholars have been critical
of its expansion. See, e.g., Gutierrez-Brizuela v.
Lynch, 834 F.3d 1142, 1149 (10th Cir. 2016) (Gorsuch,
J., concurring); Philip Hamburger, Is Administrative
Law Unlawful? (2014). Others understand it as a
central part of our modern republic. See generally
Stephen Skowronek, Building a New American State:

The Expansion of National Administrative Capacities,
1877-1920 (1982); see also Jerry L. Mashaw, Creating
the Administrative Constitution: The Lost One
Hundred Years of American Administrative Law
(2012) (tracing the roots of the administrative state
back to the Founding). Regardless of one’s point of
view, it remains at the moment a key part of our legal
regime. The doctrines that regulate the relationship
between courts and administrative agencies are thus

App.10a
of particular importance. They attempt to reconcile
the advantages of expertise, flexibility, and efficiency
with the safeguards of government under law. See
Daniel R. Ernst, Tocqueville’s Nightmare: The Administrative State Emerges in America, 1900-1940 (2014).
Exhaustion of administrative remedies is one such
doctrine. It holds that federal courts should refrain
from adjudicating a controversy if the party bringing
suit might obtain adequate relief through a proceeding before an administrative agency. See Woodford
v. Ngo, 548 U.S. 81, 88-89 (2006) (“[N]o one is entitled
to judicial relief for a supposed or threatened injury
until the prescribed administrative remedy has been
exhausted.”) (internal quotation marks and citations
omitted). The duty to exhaust administrative remedies
can spring from legislation or from judicial decision.
“Where Congress specifically mandates [it], exhaustion
is required.” McCarthy v. Madigan, 503 U.S. 140, 144
(1992), superseded by statute on other grounds as
recognized in Porter v. Nussle, 534 U.S. 516 (2002).
“But [even] where Congress has not clearly required
exhaustion,” a court may still impose it as an act of
“sound judicial discretion.” Id.
Before requiring exhaustion as a “rule of judicial
administration,” Myers v. Bethlehem Shipbuilding
Corp., 303 U.S. 41, 50 (1938), a court should, however,
look to “legislative purpose, which is of paramount
importance.” Patsy v. Bd. of Regents of State of Fla.,
457 U.S. 496, 501 (1982). Simply put, “a court should
not defer the exercise of jurisdiction under a federal
statute unless it is consistent with [congressional]
intent.” Id. at 501-02; see also id. at 502 n.4 (“Even
where the statutory requirement of exhaustion is not
explicit, courts are guided by congressional intent in

App.11a
determining whether application of the doctrine would
be consistent with the statutory scheme.”).
Although the CSA does not mandate exhaustion
of administrative remedies, we agree with the court
below that exhaustion here is consistent with congressional intent and is therefore appropriate. This judgment flows from our analysis of the text and structure
of the Act.
The text of the CSA shows that Congress sought
to favor administrative decision-making. In several
places, the words of the statute either presume or
create an administrative process to review the classification of drugs under the
Act’s schedules. Thus, 21 U.S.C. § 811(a) instructs
the Attorney General to schedule, reschedule, or
deschedule drugs under the Act by rules “made on the
record after opportunity for a hearing pursuant to the
rulemaking procedures prescribed” by the Administrative Procedure Act, 5 U.S.C. § 551 et seq. Similarly,
21 U.S.C. § 811(b) details the procedures the Attorney
General should follow when scheduling, rescheduling,
or descheduling drugs, including a duty to defer to the
Secretary of Health and Human Services on certain
medical and scientific matters. And § 811(c) lists several
factors the Attorney General must consider before
initiating classification. See generally Ams. for Safe
Access, 706 F.3d at 439-41.
These provisions, among others, establish that
Congress intended to implement scheduling decisions
under the CSA through an administrative process. Requiring would-be plaintiffs to exhaust that process
before turning to the courts is consonant with that
intent. Were plaintiffs able to go directly to federal

App.12a
court to pursue reclassification, the language Congress
devised to erect an administrative review process would
be rendered a nullity. It follows that construing the
Act to allow such behavior as a matter of course would
violate a basic canon of statutory interpretation: that,
if possible, every provision of a statute must be given
effect. See, e.g., Williams v. Taylor, 529 U.S. 362, 404
(2000).
The structure of the Act reinforces the language
used and hence our conclusion that Congress wanted
aggrieved parties to pursue reclassification through
agencies, and not, in the first instance, through the
federal courts. The CSA relies on an administrative
process to operate effectively. When Congress enacted
the CSA, it put, by legislative fiat, certain drugs
directly into schedules. See Controlled Substances
Act, Pub. L. No. 91-513, § 202, 84 Stat. 1236, 1247-52
(1970) (codified at 21 U.S.C. § 812); see also Gonzales
v. Raich, 545 U.S. 1, 14 (2005). But the statute contemplated that these initial lists would be regularly
revised and updated by the Attorney General, in
consultation with the Secretary of Health and Human
Services, and that this would be done according to a
specific procedure and set of standards. See 21 U.S.C.
§§ 811(a)-(c). The Act thus incorporates an administrative process into its structure. Indeed, its logic and
design depend on administration and agency actions
to realize its aims. Not to require exhaustion in the
ordinary case would therefore undermine the text and
structure of the CSA.
In addition, requiring exhaustion is eminently
sensible here. The Supreme Court has told us that
exhaustion furthers two important goals. First, it “protect[s] administrative agency authority.” McCarthy, 503

App.13a
U.S. at 145. By “defer[ing] to Congress’ delegation . . . to coordinate branches of Government,”
exhaustion recognizes “that agencies . . . have primary
responsibility for the programs that Congress has
charged them to administer.” Id. Second, exhaustion
“promotes judicial efficiency” by giving an administrative agency a chance to resolve a dispute, thus either
rendering controversies moot or “produc[ing] a useful
record for subsequent judicial consideration.” Id.
Both purposes are advanced by requiring exhaustion in the instant case. The Supreme Court has recognized that protecting agency authority is a particularly compelling aim where “the agency proceedings in
question allow the agency to apply its special
expertise.” Id. (citing McKart v. United States, 395
U.S. 185, 194 (1969)). That is the situation in the case
before us now. At its root, the question raised by
Plaintiffs’ suit is whether developments in medical
research and government practice should lead to the
reclassification of marijuana. This is precisely the
kind of question that calls for the application of special
knowledge. Exhaustion here “protect[s] administrative
agency authority” by leaving this decision in the first
instance to the specialists at the DEA and the Department of Health and Human Services. Id.
Administrative exhaustion will also promote judicial efficiency in the ways identified by the Supreme
Court. It is conceivable that, in response to a petition
from Plaintiffs along the lines advanced before us
now, the DEA would reschedule marijuana, rendering
the current case moot. And if the DEA did not, the
administrative process would generate a comprehensive record that would aid in eventual judicial review.
The Supreme Court has observed that the creation of

App.14a
such a record can be “especially” beneficial “in a
complex or technical factual context,” id., which is the
context involved in the case at bar. Accord Shenandoah
v. U.S. Dep’t of Interior, 159 F.3d 708, 713 (2d Cir.
1998); City of New York v. Heckler, 742 F.2d 729, 737
(2d Cir. 1984).
Moreover, we think that the kinds of arguments
Plaintiffs advance make this case well suited to
administrative evaluation and inappropriate for federal
court determination in the first instance. Plaintiffs do
not contend that a decisive event or singular discovery
has rendered the previous classification of marijuana
under the CSA indefensible. Rather, Plaintiffs
claim that a shift over time in our understanding of
the uses and dangers of marijuana warrants a
change in marijuana’s classification. This argument
raises a complex policy question: whether the extant
regulatory regime continues to advance the CSA’s
goals in light of the current state of our knowledge
about the drug. It is possible that the current law,
though rational once, is now heading towards
irrationality; it may even conceivably be that it has
gotten there already. Courts are not especially good at
dealing with situations of this sort by themselves. In
such circumstances, dialogue between courts and other
law-defining institutions, like agencies, often works
best. See United States v. Then, 56 F.3d 464, 468-69
(2d Cir. 1995) (Calabresi, J., concurring).
A sensible response to our evolving understanding
about the effects of marijuana might require creating
new policies just as much as changing old ones. This
kind of constructive governmental work, mixing adjudication and program-design, creating policy through
the balancing of competing legitimate interests, is not

App.15a
generally best accomplished by federal courts on their
own; it is, however, the stock-in-trade of administration. See, e.g., James M. Landis, The Administrative
Process (1938). Assuming, of course, that one can get
the administrative agency to act.
For the foregoing reasons, requiring exhaustion
is appropriate in the instant case. Although not
mandated by Congress, it is consistent with congressional intent, as manifested in the CSA’s text and
structure. And it advances the goals that the Supreme
Court has announced the doctrine serves. The District
Court’s decision to require exhaustion here was
therefore correct.
B.

None of the Recognized Exceptions to the Doctrine
Govern This Case at This Time

Even where exhaustion is seemingly mandated
by statute or decisional law, the requirement is not
absolute. The Supreme Court itself has recognized
exceptions to the exhaustion requirement under “three
broad sets of circumstances.” McCarthy, 503 U.S. at
146.
First, exhaustion may be unnecessary where it
would be futile, either because agency decision-makers
are biased or because the agency has already determined the issue. Id. at 148. It does not appear, however, that this futility exception currently applies
here. Plaintiffs cite to various public statements by
former Attorney General Jefferson Beauregard Sessions
III and former Acting Administrator of the DEA
Charles Philip Rosenberg to suggest that the administrative process would be biased against them. But
Plaintiffs’ evidence, even if given the interpretation they
suggest, does not qualify them for the exception, since

App.16a
the public statements relied on do not implicate the
relevant decision-maker. Neither Sessions nor
Rosenberg remains part of the review process. Nor,
indeed, would they have been the relevant decisionmakers at the time Plaintiffs initiated their suit. On
the medical and scientific claims central to Plaintiffs’
argument, it is the opinion of the Secretary of Health
and Human Services that matters, not the judgment
of the Attorney General or the head of the DEA. See
21 U.S.C. § 811(b) (stating that “[t]he recommendations
of the Secretary to the Attorney General shall be
binding on the Attorney General as to [the] scientific
and medical” evaluation of substances considered for
scheduling). Plaintiffs make no plausible allegations
of bias on the part of the Secretary. Futility on account
of bias has, therefore, not been adequately alleged.
The Supreme Court has further stated that
exhaustion may be unnecessary where the administrative process would be incapable of granting adequate relief. See McCarthy, 503 U.S. at 147. That
second exception, too, is inapposite at the moment. Although Plaintiffs style their claims in many different
ways, the gravamen of their argument is that marijuana should not be classified as a Schedule I substance under the CSA. Were a court to agree, the
remedy would be to re– or deschedule cannabis. It
cannot be seriously argued that this remedy is not
available through the administrative process. It is
precisely the remedy provided under 21 U.S.C. § 801
et seq. Plaintiffs are therefore not currently entitled
to bypass exhaustion under this second exception
either.
Finally, exhaustion may be unnecessary where
pursuing agency review would subject plaintiffs to

App.17a
undue prejudice. McCarthy, 503 U.S. at 146-47. In
particular, “an unreasonable or indefinite timeframe
for administrative action” may sufficiently prejudice
plaintiffs to justify a federal court in taking a case
prior to the complete exhaustion of administrative
remedies. Id. at 147. Not every delay will be sufficiently
severe to justify waiver, however. Although, in most
cases, “respondents would clearly prefer an immediate
appeal . . . rather than the often lengthy administrative
review process,” a mere preference for speedy resolution
is not enough. Heckler v. Ringer, 466 U.S. 602, 619
(1984). “[T]hreatened or impending irreparable injury
flowing from delay incident to following the prescribed
[administrative] procedure” militates in favor of waiving
exhaustion, but only if there is a “strong showing
. . . both [of] the inadequacy of the prescribed procedure
and of impending harm.” Aircraft & Diesel Equip.
Corp. v. Hirsch, 331 U.S. 752, 773-74 (1947).
Despite the apparently dire situation of some of
the Plaintiffs, they do not yet meet the requirement
for this exception to the exhaustion requirement. In
point of fact, the existing classificatory scheme has not
prevented Plaintiffs Bortell, Cotte, or Belen from
obtaining their allegedly life-saving medication. Nor
have Plaintiffs otherwise explained how pursuing
agency review would subject them to an additional
“irreparable injury flowing from delay incident” to the
administrative process itself. Id. at 773. Accordingly,
despite their concededly difficult position, Plaintiffs
are not currently entitled to bypass agency review.

App.18a
C.

United States v. Kiffer Does Not Require That
We Waive Exhaustion Here at the Moment

The exhaustion requirement under the CSA is,
however, prudential, not jurisdictional. It is not
mandated by the statute. Rather, it is a judiciallycreated administrative rule, applied by courts in their
discretion.
This explains why this Court has, on at least one
previous occasion, considered a challenge to the
scheduling of marijuana under the CSA without requiring exhaustion, in United States v. Killer, 477
F.2d 349 (2d Cir. 1973). That case is readily distinguishable, however, and its holding does not mean
that exhaustion should not be required in the current
case at this time. The Killer Court began by observing
that “timely and successful use of th[e] administrative
[process] would have obtained for [the] appellants [in
that case] the very relief they seek from us—a declaration either that mari[j]uana should not be subject to
the [CSA] or that it should be covered only in another
schedule.” Id. at 351. The Court began, then, with the
assumption that exhaustion did apply. It waived the
normal requirement only because of two factors that
do not obtain in the instant case: first, because the
“application of the . . . doctrine [of exhaustion] to
criminal cases is generally not favored,” id. at 352, and,
second and more significantly, because, at the time
Kiffer was heard, the federal government had taken
the position that it did not have the power to re- or
deschedule marijuana at all, as a result of foreign
treaty commitments, id. at 351. Under those circumstances, where “there [wa]s some doubt whether appellants in fact [had] an administrative remedy,” the
Court declined to require exhaustion. Id. The instant

App.19a
case is different. It is, of course, civil. And, as the D.C.
Circuit has since held, foreign treaty commitments
have not divested the Attorney General of the power to
re- or deschedule marijuana. See Nat’l Org. for Reform

of Marijuana Law (NORML) v. Drug Enforcement
Admin., 559 F.2d 735 (D.C. Cir. 1977). Kiffer’s result

is therefore not controlling. In fact, the case’s logic reinforces our conclusion that Plaintiffs should attempt
to exhaust their administrative remedies before
seeking relief from us. But Kiffer also makes clear
that, when appropriate, we do have the power to act
even if the administrative agency has not.
D.

Strong Interests Compel This Court to Retain
Jurisdiction

This case reaches us as an appeal from a ruling
on a motion to dismiss. Under settled principles of
adjudication, we must, therefore, accept the wellpleaded facts in the complaint as true. Taking the
facts as alleged, and, accordingly, taking the supposed
benefits some Plaintiffs have experienced from marijuana as true as well, we—like the District Court
below—are struck by the transformative effects this
drug has assertedly had on some Plaintiffs’ lives. As a
result, we are troubled by the uncertainty under
which Plaintiffs must currently live. Plaintiffs claim
that marijuana has extended their lives, cured seizures,
and made pain manageable. If true, these are no small
things. Plaintiffs should not be required to live
indefinitely with uncertainty about their access to
allegedly life-saving medication or live in fear that
pursuing such medical treatment may subject them or
their loved ones to devastating consequences.

App.20a
Plaintiffs argue that the administrative process
will prolong their ordeal intolerably. And their argument is not without force. Plaintiffs document that the
average delay in deciding petitions to reclassify drugs
under the CSA is approximately nine years. Such long
delays cast doubt on the appropriateness of requiring
exhaustion. Accord Gibson v. Berryhill, 411 U.S. 564,
575 n.14 (1973). And where, as here, health is involved,
delay can be even more problematic. See Abbey v.
Sullivan, 978 F.2d 37, 46 (2d Cir. 1992) (observing that,
“if the delay attending exhaustion would subject
claimants to deteriorating health . . . then waiver [of
exhaustion] may be appropriate”).
Indeed, on the alleged facts, which, we repeat, we
must for now take as true, undue delay by the agency
might make applicable each of the three exceptions to
exhaustion that the Supreme Court has recognized
and which we discussed earlier. Specifically, undue
delay, if it in fact results in catastrophic health
consequences, could make exhaustion futile. Moreover,
the relief the agency might provide could, because of
undue delay, become inadequate. And finally, and
obviously, Plaintiffs could be unduly prejudiced by
such delay.
To be clear, Plaintiffs have not alleged that they
will necessarily suffer sufficient harm as a result of
the time it would take to pursue the administrative
process to justify an exception to exhaustion now.
Plaintiffs do, however, plausibly raise the specter of
delay and plausibly suggest that the delay could
become problematic. And although agencies, like
legislatures, are often the best decision-makers, this
is so only when they actually do decide.

App.21a
Courts have, moreover, on occasion deemed it proper to encourage prompt decision-making. Thus, where
agencies have a history of dilatory proceedings, federal
courts have sometimes retained jurisdiction of related
cases to facilitate swift review. In Telecommunications
Research and Action Center v. F.C.C., 750 F.2d 70
(D.C. Cir. 1984), our sister circuit retained jurisdiction
of a case in part because of the failure of a federal
agency to act with adequate speed. See 750 F.2d at 8081. “Whether or not the[] [agency’s] delays would
justify mandamus,” the court stated, they were
significant enough that it should retain jurisdiction to
promote a quick resolution. Id. at 81; see also, e.g., In
re Pesticide Action Network N. Am., 532 F. App’x 649,
652 (9th Cir. 2013) (summary order) (observing that “it
is well established that we may retain jurisdiction over
[a case] to ensure that [the agency] acts expediently”);
cf. Then, 56 F.3d at 468-69 (2d Cir. 1995) (Calabresi,
J., concurring).4
We think it possible that future action by us may
become appropriate here. Plaintiffs have not asked
for—and we do not even consider issuing—a writ of
mandamus to force the DEA to act. But we exercise
our discretion to keep jurisdiction of the case in this
panel, to take whatever action may become appropriate if Plaintiffs seek administrative review and the
DEA fails to act promptly. And we note that, under
4 Some courts in other jurisdictions have gone even further in
asserting a role for courts to ensure prompt action by lawmakers.
See Vincent v. Pabst Brewing Co., 177 N.W.2d 513, 517 (Wis. 1970);
Corte Cost., 24 ottobre 2018, n. 207 (It.); see generally Guido
Calabresi, A Common Law for the Age of Statutes (1982), especially
id. at 35-37. We wish to make clear that we make no such
assertion of power in the federal courts generally.

App.22a
the unusual health-related circumstances of this case,
what has counted as appropriate speed in the past
may not count as appropriate speed here.
In doing this, we specify that we are not retaining
jurisdiction to review the actions the agency may take.
Jurisdiction over those may well lie solely in another
circuit. Nor do we intend to retain jurisdiction
indefinitely. Unless the Plaintiffs seek agency review
and so inform us within six months, we will affirm the
District Court’s judgment dismissing this case. (And
if only some Plaintiffs seek agency review, we will
dismiss the complaint as to those who do not.) But if
Plaintiffs do seek agency review, and the agency fails
to act with alacrity, Plaintiffs may return directly to
us, under our retained jurisdiction.5
To be clear, we repeat that this case remains in
our purview only to the extent that the agency does
not respond to Plaintiffs with adequate, if deliberate,
speed. In other words, we retain jurisdiction exclusively
for the purpose of inducing the agency to act promptly.

5 Because Plaintiffs’ allegations with respect to the catastrophic
harm they are facing are not implausible, we must take them as
true at this stage of the litigation. Should the agency fail to act,
we would, before proceeding further, however, have to look into
the allegations more deeply. Accordingly, should the case return
to us, it may be appropriate to remand to the District Court for
further fact-finding. At that time, if Plaintiffs have not at least
raised a disputed issue of material fact as to the veracity of their
allegations, summary judgment against them would be appropriate.

App.23a
CONCLUSION
Because Plaintiffs failed to exhaust their administrative remedies and do not at this time qualify for
an exception to the exhaustion doctrine, the District
Court did not err in requiring Plaintiffs to bring their
claims to the relevant agency first. But, in light of the
unusual circumstances of this case, we hold the case
in abeyance and retain jurisdiction in this panel to take
whatever further action might become appropriate
should Plaintiffs initiate administrative review and
the administrative process fail to operate with adequate
dispatch.

App.24a
DISSENTING OPINION BY JUDGE
DENNIS JACOBS
DENNIS JACOBS, Circuit Judge, dissenting:
The plaintiffs seek a declaration that the classification of marijuana as a Schedule 1 substance is unconstitutional because it does not reflect contemporary
learning regarding the drug’s medicinal uses. I agree
with the District Court that this case must be dismissed for failure to exhaust administrative remedies
in the Drug Enforcement Agency (“DEA”). The
majority opinion does not actually disagree, though it
seems to treat lack of jurisdiction as a prudential
speed bump. I dissent from the majority opinion’s
decision to hold the case in abeyance so that we may
turn back to it if, at some future time, we get jurisdiction.
The majority posits that jurisdiction may
materialize if the plaintiffs, claiming emergency, do
not obtain a prompt decision on their not-yet filed
petition to the DEA-but this seems to be no all-fired
emergency, given that the plaintiffs are afforded half
a year to file a petition on which hang supposed
“serious, life-or-death” consequences. Majority Op. 3.
For the following reasons, the plaintiffs’ claims of
emergency are tenuous, and constitute a further argument against retaining jurisdiction that we do not
have in order to hurry along an administrative decision on a petition that has not been filed.
•

Plaintiffs Dean Bortell and Sebastien Cotte sue
on behalf of their severely ill children, who rely
on marijuana for treatment. Bortell and Cotte
concede that their children get all the treatment they need, including marijuana, and

App.25a
dwell in states that do not outlaw it or that do
not enforce any vestigial prohibition; their
grounds for claiming urgency are that their
children are unable to take that medicine with
them if they travel onto federal lands or into
states where marijuana is illegal. The parents
add that they suffer fear they might be subject
to federal prosecution because they are
involved in their children’s medical treatment.
I view these claims as contrived and fanciful.
Nobody need fear severe consequences for
administering medical marijuana to sick
children.
•

Jose Belen is a veteran with post-traumatic
stress disorder who successfully uses marijuana
to manage his symptoms, but complains that
his travel is restricted and that he cannot take
full advantage of his veterans benefits
(presumably for the government to pay for the
marijuana).

•

Plaintiff Marvin Washington asserts that he is
impeded from seeking federal aid to expand his
business so that he can sell cannabis products.
No emergency here, and likely no standing
either.

•

Finally, the Cannabis Cultural Association
assists people of color who wish to participate
in the cannabis industry but who cannot
because they jumped the gun, and have been
arrested or convicted for cannabis use. I cannot
see that this Association has standing to challenge the classification of marijuana under the

App.26a
nation’s drug laws, let alone to seek an
emergency resolution of that issue.
[***]
As to the Judgment below, which dismissed the
claims for failure to exhaust administrative remedies,
I agree with the District Court-and with the majority
opinion, which agrees that exhaustion is required (at
least for now).
I part company with the majority opinion insofar
as it holds the case in abeyance with the expectation
of taking some measures if the DEA fails to act with
“adequate dispatch.” Majority Op. 27. Our failure to
dismiss the case now is error for several reasons that
are easily stated.
First, it is common ground that the case was
properly dismissed under 12(b)(1) for failure to exhaust
remedies; so neither this Court nor the District Court
has jurisdiction to grant a remedy. And we cannot
simply decide to wait for jurisdiction that (as we are
properly ruling) we do not have. Our job as a circuit
court is to issue mandates. We do not fulfill the
requirements of the job by holding a case in abeyance
on the off chance that we may get jurisdiction to
decide it in the future.
Second, the terms of the hold on this case are
without content: we may take “whatever further
action” if the agency fails to act “promptly” or “with
adequate dispatch” or “[with] appropriate speed” or
“with alacrity”. Majority Op. 25-27. This is of no helpthe DEA is unlikely to discern what “adequate
dispatch” or “appropriate speed” may mean for an

App.27a
issue that (as the majority opinion observes)
“stretch[es] back decades”.1 Majority Op. 2.
[***]
Given all this, it would be surprising if solid precedent supported this procedural invention. The
majority opinion adduces none. The majority thinks
that United States v. Kiffer, 477 F.2d 349 (2d Cir.
1973), “makes clear that, when appropriate, we do
have the power to act even if the administrative
agency has not.” Majority Op. 22. But in that case, the
Court excused administrative exhaustion only
because the defendant had shown that exhaustion
would be futile and unduly prejudicial. Id. at 351-352
(“[I]t appears now that the administrative route for
[the defendants] would at best provide an uncertain
and indefinitely delayed remedy . . . [and impose on
them a] severe burden.”). Accordingly, Kiffer stands
only for the uncontroversial proposition that exhaustion
may be excused where it would be futile or unduly
prejudicial; it does not condone waiting around until
an exception is met. The majority opinion (correctly)
concludes that the plaintiffs do not meet the requirements for either exception. The relevance of Kiffer
ends there.

1 The majority opinion also limits its “purview” to a failure of the
agency to act with “adequate, if deliberate, speed.” Majority Op.
26. The echo of that phrase from Brown v. Board of Education II
is unfortunate, however, given that, in the many decades since,
school integration is an unfinished project. The phrase seems to
be derived from Admiralty law in the days of sail, which likewise
offers no useful context. And in Francis Thompson’s “Hound of
Heaven,” “deliberate speed” is the pace by which God pursues us.
No help there either.

App.28a
The majority opinion relies on Telecommunications
Research & Action Center v. F.C.C., 750 F.2d 70 (D.C.
Cir. 1984) (“TRAC v. F.C.C.”); but that Court decided
a mandamus petition (none is before us here). Moreover, the court did not hold the case in abeyance, but
retained jurisdiction (that it already had) only to
ensure that the agency fulfilled its sua sponte promise
to address the issue expeditiously. And the court gave
the agency specific direction. Id. at 80-81 (directing
the agency to advise the Court of its progress every 60
days).
The majority opinion’s “e.g.” cite to a single Ninth
Circuit summary order does not bespeak a wealth of
examples. In that case as well, the court considered a
mandamus petition. It decided that a writ of mandamus was not warranted, and declined to retain jurisdiction, citing only TRAC v. F.C.C. for the proposition
that it could have retained jurisdiction if it wanted to.
In re Pesticide Action Network N. Am., 532 F. App’x 649,
652 (9th Cir. 2013). (The parenthetical quote from
Pesticide classifies itself as “well-established”-often a
tell that the point is a novation.) The majority’s
remaining authority, a concurring opinion by Judge
Calabresi, advances the speculative idea that courts
may prod government when laws outlive the views of
the Bien pensant community. None of these cases supports the idea that a court is permitted to hold a case
in abeyance because the court may on contingency gain
jurisdiction to hear it, and can bully the agency in the
meantime. As near as I can make it out, the holding
of the majority opinion is: a court without jurisdiction
should proceed with caution.
[***]

App.29a
I doubt that the DEA will be hurrying its work on
an application that these plaintiffs have not yet filed,
seeking administrative action on an old and ramified
controversy. Unless the panel opinion precipitates a
swift administrative rejection, there is no reason to
anticipate a swift ruling that entails the assessment
of countervailing risks, the pendency of legislation,
and the eliciting of opinions on issues of medicine and
public health. So I fully expect to see further proceedings in this appeal. No one can tell what this panel
could do then, or (more accurately) would do. In the
meantime, the one thing that will not happen is the
issuance of the mandate, since I presume the majority
will not thus oust this panel and this Court of the
ability to take “whatever further action” may be necessary. Majority Op. 26. As and when this case returns
to this Court and this panel, I will be an interested
and bemused spectator.
A True Copy:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.30a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT DENYING
PLANTIFF’S MOTION TO EXTEND
(JANUARY 1, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
MARVIN WASHINGTON, DEAN BORTELL,
as Parent of Infant ALEXIS BORTELL,
ALEXIS BORTELL, JOSE BELEN,
SEBASTIEN COTTE, as Parent of Infant
JAGGER COTTE, JAGGER COTTE,
CANNABIS CULTURAL ASSOCIATION INC.,

Plaintiffs-Appellants,
v.
WILLIAM PELHAM BARR, In His Official Capacity
as United States Attorney General, UNITED
STATES DEPARTMENT OF JUSTICE
UTTAM DHILLON, In His Official Capacity as the
Acting Administrator of the Drug Enforcement
Administration, UNITED STATES DRUG
ENFORCEMENT ADMINISTRATION,
UNITED STATES OF AMERICA,

Defendants-Appellees.
________________________
Docket No. 18-859

App.31a
Before: DENNIS JACOBS, GUIDO CALABRESI,
Circuit Judges., Jed S. RAKOFF, District Judge.*
Appellants move for an 18-month extension of time
to file a petition with the Drug Enforcement Agency
to de-schedule cannabis under the Controlled Substances Act.
IT IS HEREBY ORDERED that the motion is
DENIED.
For the Court:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

* Judge Jed S. Rakoff, of the United States District Court for the
Southern District of New York, sitting by designation.

App.32a
OPINION AND ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK GRANTING
MOTION TO DISMISS
(FEBRUARY 26, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________________
MARVIN WASHINGTON, ET AL.,

Plaintiffs,
v.
JEFFERSON BEAUREGARD
SESSIONS, III, ET AL.,

Defendants.
________________________
No. 17 Civ. 5625 (AKH)
Before: Alvin K. HELLERSTEIN,
United States District Judge.
ALVIN K. HELLERSTEIN, U.S.D.J.:
Plaintiffs Marvin Washington, Dean Bortell, Alexis
Bortell, Jose Belen, Sebastien Cotte, Jagger Cotte,
and the Cannabis Cultural Association, Inc. (“Plaintiffs”) filed this action on July 24, 2017. Broadly stated,
plaintiffs assert an as-applied constitutional challenge
to the Controlled Substances Act (“CSA”), 21 U.S.C.
§ 801 et seq., which classifies marijuana as a Schedule

App.33a
I drug—the highest level of drug classification. Plaintiffs attempt to demonstrate the CSA’s constitutional
infirmity in a number of ways, but the gravamen of
the complaint is that the current scheduling of marijuana violates due process because it lacks a rational
basis.
On September 8, 2017, plaintiffs moved the Court
for an order to show cause why a temporary restraining
order should not issue. The Court denied plaintiffs’
motion that same day, and issued a summary order
confirming that result on September 11, 2017. See
Order Denying a Temporary Restraining Order, ECF
26. After initially indicating a willingness to proceed
into discovery, the Court reconsidered and entered a
briefing schedule advancing defendants’ motion to
dismiss the complaint, see Order, ECF 33, filed October 13, 2017 under Federal Rules 12(b)(1) and 12(b)(6).
The Court held oral argument on February 14, 2018.
For the reasons discussed in this opinion, the defendants’ motion to dismiss the complaint is granted.
BACKGROUND
In response to President Nixon’s “war on drugs,”
Congress passed the Comprehensive Drug Abuse and
Control Act of 1970. Gonzales v. Raich, 545 U.S. 1, 10
(2005). “Title II of the Act, codified at 21 U.S.C. § 801
et seq., is the Controlled Substances Act (‘CSA’), and
it ‘repealed most of the earlier antidrug laws in favor
of a comprehensive regime to combat the international
and interstate traffic in illicit drugs.”‘ United States v.
Green, 222 F. Supp. 3d 267, 271 (W.D.N.Y. 2016)
(quoting Raich, 545 U.S. at 7, 12). Congress made a
number of findings associated with the CSA, including

App.34a
that “[t]he illegal importation, manufacture, distribution, and possession and improper use of controlled
substances have a substantial and detrimental effect
on the health and general welfare of the American
people.” 21 U.S.C. § 802(2).
“The Act covers a large number of substances,
each of which is assigned to one of five schedules; this
statutory classification determines the severity of
possible criminal penalties as well as the type of
controls imposed.” United States v. Kiffer, 477 F.2d
349, 350 (2d Cir. 1973); see also 21 U.S.C. § 812(a).
When the CSA was enacted, Congress classified marijuana as a Schedule I drug. “This preliminary classification was based, in part, on the recommendation of
the Assistant Secretary of [the Department of Health,
Education, and Welfare] that marihuana be retained
within schedule I at least until the completion of certain
studies now underway.” Raich, 545 U.S. at 14
(internal quotation marks omitted). In order to fall
within Schedule I, Congress determined that a drug
must have: (1) “a high potential for abuse,” (2) “no
currently accepted medical use in treatment in the
United States,” and (3) “a lack of accepted safety for
use of the drug or other substance under medical
supervision.” 21 U.S.C. § 812(b)(1). The chart below
describes the GSA’s various schedules and the findings required for each:

App.35a
Statutory Factors

Schedule
I

Schedule
II

Schedule
III

High potential for
abuse, no currently
accepted medical
use in treatment, and
a lack of
accepted safety for
use of the drug under
medical supervision.
See 21 U.S.C.
§ 812(b)(l).
High potential for
abuse, some currently
accepted medical use
in treatment, and
abuse may lead to
severe psychological
or physical dependence. See 21 U.S.C.
§ 812(b)(2).
Potential for abuse
less than substances
in Schedules I and II,
some
currently
accepted medical
use in treatment, and
abuse may lead to
moderate or low
physical dependence
or high psychological
dependence. See 21
U.S.C. § 812(b)(3).

Examples
Heroin, LSD,
Marijuana

Morphine,
Codeine,
Amphetamine
(Adderall ®),
Methamphetami
ne (Desoxyn ®)

Tylenol with
Codeine ®
Ketamine,
Anabolic Steroids

App.36a

Schedule
IV

Schedule
V

Potential for abuse
less than substances
in Schedule III, some
currently accepted
medical use in treatment, and abuse may
lead to limited
physical or psychological dependence.
See 21 U.S.C. § 812
(b)(4).
Potential for abuse
less than substances
in Schedule IV, some
currently accepted
medical use in treatment, and abuse may
lead to limited
physical or physical
dependence. See 21
U.S.C. § 812(b)(5).

Alprazolam
(Xanax ®
Diazepam
(Valium ®)

Robitussin AC ®

After placing marijuana in Schedule I, “Congress
established a process for reclassification, vesting the
Attorney General with the power to reclassify a drug
‘on the record after opportunity for a hearing.’’’ Green,
222 F. Supp. 3d at 271 (quoting 21 U.S.C. § 811(a)).
Before beginning the reclassification process, the
Attorney General must seek a scientific and medical
evaluation from the Secretary of Health and Human
Services (“HHS”), whose findings are binding on the
Attorney General. Id. § 811(b). In the relevant implementing regulations, the Attorney General has
delegated this reclassification authority to the Drug
Enforcement Agency (“DEA”). See 28 C.F.R. § 0.100(b).

App.37a
The CSA also provides an avenue for interested
parties to petition the DEA to reclassify drugs, consistent with the medical and scientific data provided
by HHS. See 21 U.S.C. § 811(a) (providing that the
Attorney General may reclassify drugs after an on the
record hearing “on the petition of any interested
party”); see also 21 C.F.R. § 1308.43(a). If a petitioner
receives an adverse ruling from the DEA, 21 U.S.C.
§ 877 provides for judicial review of the DEA’s determination in the D.C. Circuit, or another appropriate
Circuit:
All final determinations, findings, and conclusions of the Attorney General under this
subchapter shall be final and conclusive decisions of the matters involved, except that
any person aggrieved by a final decision of
the Attorney General may obtain review of
the decision in the United States Court of
Appeals for the District of Columbia or for
the circuit in which his principal place of
business is located upon petition filed with
the court and delivered to the Attorney
General within thirty days after notice of the
decision. Findings of fact by the Attorney
General, if supported by substantial evidence, shall be conclusive.
“Despite considerable efforts to reschedule
marijuana, it remains a Schedule I drug.” Raich, 545
U.S. at 15. “As of 2005, the D.C. Circuit Court of
Appeals had reviewed petitions to reschedule
marijuana on five separate occasions over the course
of 30 years, [and upheld] the DEA’s determination in
each instance.” Green, 222 F. Supp. 3d at 272. In 2011,
the DEA denied a rescheduling petition, see Denial of

App.38a
Petition to Initiate Proceedings to Reschedule Marijuana, 76 Fed. Reg. 40,552 (July 8, 2011), and the D.C.
Circuit upheld the DEA’s determination in Americans

for Safe Access v. Drug Enforcement Administration,

706 F.3d 438, 449 (D.C. Cir. 2013). The DEA denied
another rescheduling petition as recently as 2016. See
Denial of Petition to Initiate Proceedings to Reschedule
Marijuana, 81 Fed. Reg. 53,767 (Aug. 12, 2016).1
DISCUSSION
Defendants filed a motion to dismiss the complaint
under Federal Rules 12(b)(1) and (b)(6). In ruling on a
motion to dismiss, the court must accept the factual
allegations in the complaint as true and draw all reasonable inferences in favor of the nonmoving party.
Gregory v. Daly, 243 F.3d 687, 691 (2d Cir. 2001), as
amended (Apr. 20, 2001). In order to survive a motion
to dismiss, “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’’’ Ashcroft, 556 U.S.
at 678 (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id.
A.

Exhaustion and Plaintiffs’ Rational Basis Claim

Properly understood, plaintiffs have raised a
collateral challenge to the administrative decision not
to reclassify marijuana. As such, plaintiffs’ claim
1 It appears that one challenge to the DEA’s determination was
filed in the Tenth Circuit, but the petition was dismissed as
untimely. See Order, Krumm v. DEA, 16-9557 (10th Cir. Dec. 15,
2016).

App.39a
premised on the factors found in Section 812 of the
CSA is barred because plaintiffs failed to exhaust
their administrative remedies. Even if the Court were
to reach the merit of plaintiffs’ rational basis claim, I
hold that plaintiffs have failed to state a claim under
Rule 12(b)(6).
The parties first present a threshold question of
statutory interpretation, the resolution of which
illustrates that plaintiffs’ claim is an administrative
one, not one premised on the constitution. Plaintiffs
contend that, in analyzing the rationality of the CSA,
Congress should be bound by the factors set out in 21
U.S.C. § 812(b)(1), which include a finding that a drug
has “no currently accepted medical use in treatment
in the United States.” Alternatively, defendants
suggest that the Section 812 factors apply only to
reclassification determinations by the Attorney
General, as set forth in 21 U.S.C. § 811(a). Put
differently, the question is whether the statutory
factors outlined in Section 812(b)(1) are imputed into
the constitutional analysis, thereby binding Congress
to particular factors in conducting rational basis
review.
A fair reading of the statute reveals that the
factors set out in Section 812 apply only to the Attorney General’s reclassification proceedings-they do not
bind Congress on rational basis review. As
explained above, 21 U.S.C. § 811(a) vests the Attorney
General with the authority, through his or her
designated agent, to reclassify particular drugs if he
or she: (1) “finds that such drug or other substance has
a potential for abuse, and,” (2) “makes with respect to
such drug or other substance the findings prescribed
by subsection (b) of section 812 of this title.” And 21

App.40a
U.S.C. § 812(b) states that “[t]he findings required for
each of the schedules are as follows,” and thereafter
lists the three relevant factors, including, as relevant
here, whether the drug has any currently accepted
medical uses. Read in context with Section 811(a), it
is clear that the factors listed in 21 U.S.C. § 812(b)(1)
were intended to apply only to the executive officials in
reclassification proceedings.
More fundamentally, as a constitutional matter I
am persuaded by the logic of the opinion of Judge
Wolford of the Western District of New York in United
States v. Green, who analyzed this question as
follows:
It is difficult to conclude that marijuana is
not currently being used for medical purposes—it is. There would be no rational basis
to conclude otherwise. And if that were the
central question in this case, Defendants’
argument would have merit—but it is not
the central question. . . . The issue is not
whether it was rational for Congress or the
DEA to conclude that there is no currently
accepted medical use for marijuana—that
would be the issue if a claim were brought
in a circuit court challenging the DEA’s
administrative determination. Rather, the
constitutional issue for equal protection purposes is, simply, whether there is any
conceivable basis to support the placement of
marijuana on the most stringent schedule
under the CSA.
222 F. Supp. 3d at 275-80.

App.41a
By framing their claim in terms of the statutory
factors outlined in Section 812(b)(1), plaintiffs’
lawsuit is best understood as a collateral attack on the
various administrative determinations not to
reclassify marijuana into a different drug schedule. As
such, plaintiffs’ claim is barred because plaintiffs
failed to exhaust their administrative remedies. The
exhaustion rule generally requires “that parties
exhaust prescribed administrative remedies before
seeking relief from the federal courts.” McCarthy v.
Madigan, 503 U.S. 140, 144-45 (1992); see also
Beharry v. Ashcroft, 329 F.3d 51, 56 (2d Cir. 2003), as
amended (July 24, 2003) (“The general rule is that ‘a
party may not seek federal judicial review of an
adverse administrative determination until the party
has first sought all possible relief within the agency
itself.’ (quoting Howell v. INS, 72 F.3d 288, 291 (2d
Cir. 1995))). “Exhaustion is required because it serves
the twin purposes of protecting administrative agency
authority and promoting judicial efficiency.” McCarthy,
503 U.S. at 145. However, because federal courts have
a “virtually unflagging obligation to exercise the jurisdiction given them,” three exceptions to the
exhaustion requirement have emerged. Id. at 146
(internal quotation marks omitted) (quoting Colorado
River Water Conservation Dist. v. United States, 424
U.S. 800, 817-18 (1976)). The Supreme Court has
explained these exceptions as follows:
First, requiring resort to the administrative
remedy may occasion undue prejudice to
subsequent assertion of a court action. Such
prejudice may result, for example, from an
unreasonable or indefinite timeframe for

App.42a
administrative action. . . . Second, an administrative remedy may be inadequate because
of some doubt as to whether the agency was
empowered to grant effective relief . . . .
Third, an administrative remedy may be
inadequate where the administrative body is
shown to be biased or has otherwise predetermined the issue before it.

Id. 145-49 (internal quotation marks omitted) (quoting
Gibson v. Berryhill, 411 U.S. 564,575 n.14 (1973)).
None of these exceptions applies here.
Plaintiffs first suggest that the relief they seek—
a declaration that the CSA is unconstitutional—differs
from the relief available in an administrative forum,
which is limited to rescheduling based on the criteria
in 21 U.S.C. § 812(b)(1). But while framed in different
terms, these two remedies are ultimately two sides of
the same coin. Although plaintiffs couch their claim in
constitutional language, they seek the same relief as
would be available in an administrative forum—a
change in marijuana’s scheduling classification—based
on the same factors that guide the DEA’s
reclassification determination. As a district court in
this Circuit recently explained, “[w]hen [this] argument
is dissected, it essentially becomes an attack on the
scheduling of marijuana based on the criteria set forth
in the statute.” Green, 222 F. Supp. 3d. at 273. The
exhaustion requirement therefore bars plaintiffs’
claims.
To avoid this result, plaintiffs rely on United
States v. Kiffer, 477 F.2d 349 (2d Cir. 1973). Plaintiffs
do so in error. In Kiffer, criminal defendants convicted
of marijuana possession challenged the constitutionality of the CSA under the rational basis test. Kiffer,

App.43a
477 F.2d at 350. Responding to this very exhaustion
claim, the Second Circuit held that “the administrative route for these appellants would at best provide
an uncertain and indefinitely delayed remedy,” and
declined to require administrative exhaustion. Id. at
351-52. But at the time Kiffer was decided, the
designated executive official had taken the position
that he was barred by a treaty from even considering
a petition to reclassify marijuana. Green, 222 F. Supp.
3d at 273-74 (noting that “it was doubtful whether an
administrative remedy actually existed”); see also
Kiffer, 477 F.2d at 351-52. The D.C. Circuit later
rejected that position. See Nat’l Org. for Reform of
Marijuana Laws (NORML) v. Ingersoll, 497 F.2d 654
(D.C. Cir. 1974); see also Nat’l Org. for Reform of
Marijuana Laws (NORML) v. DEA, 559 F.2d 735
(D.C. Cir. 1977).

Kiffer is also distinguishable on a more fundamental ground: The Court held that imposing the
exhaustion requirement would also be unduly
burdensome to criminal defendants challenging their
convictions. See Kiffer, 477 F.2d at 353 (“Second, even
assuming the existence of a viable administrative
remedy, application of the exhaustion doctrine to
criminal cases is generally not favored because of ‘the
severe burden’ it imposes on defendants.” (quoting
McKart v. United States, 395 U.S. 185,197 (1969))).
Those concerns are less forceful in the civil context,
especially given that the DEA no longer takes the
position that it is categorically barred by a treaty from
considering reclassification petitions.2
2 Plaintiffs also claim that the administrative review process is
futile because the relevant executive officials are biased against
their cause and will not faithfully consider the relevant medical

App.44a
Even if the Court were to reach the merits of
plaintiffs’ rational basis claim, I would be bound by
precedent to reject it.3 The Second Circuit has already
resolved this question in United States v. Kiffer, 477
F.2d at 355-57, which upheld the constitutionality of
the CSA. Every other court to consider this issue has
held similarly.4 Even without the benefit of precedent,
evidence. See FAC, ECF 23, at ¶¶ 357-70. But this claim is
undercut by the statutory scheme, which specifically requires
these officials to defer to HHS on scientific and medical questions. See 21 U.S.C. § 811(b).
3 Plaintiffs rely heavily on United States v. Pickard, 100 F. Supp.
3d 981, 996 (E.D. Cal. 2015), for the proposition that the CSA is
not “insulated from constitutional review by Congressional
delegation of authority to an agency to consider an administrative petition.” But as explained above, by raising this challenge
based on the factors set out in 21 U.S.C. § 812(b)(1), plaintiffs’
claim is properly understood as a collateral attack on the administrative determination not to reclassify marijuana. To the extent
that plaintiffs attempt to raise a typical rational basis claim
based on whether Congress had any conceivable basis to classify
marijuana in Schedule I, which would not be the subject of an
administrative proceeding, such a claim is barred by precedent.
4 See, e.g., Sacramento Nonprofit Collective v. Holder, 552 F.
App’x 680, 683 (9th Cir. 2014) (rejecting rational basis challenge
to the CSA); Am. for Safe Access, 706 F.3d at 449 (upholding the
DEA’s decision not to reclassify marijuana in a different schedule
under the more stringent “substantial evidence” standard);
United States v. Oakland Cannabis Buyers’ Co-op, 259 F. App’x
936, 938 (9th Cir. 2007); United States v. White Plume, 447 F.3d
1067, 1075 (8th Cir. 2006) (holding that the CSA’s enforcement
against industrial hemp production was rationally related to a
legitimate government purpose); United States v. Greene, 892
F.2d 453, 455 (6th Cir. 1989); United States v. Fry, 787 F.2d 903,
905 (4th Cir. 1986); United States v. Fogarty, 692 F.2d 542, 547
(8th Cir. 1982); United States v. Middleton, 690 F.2d 820, 823
(11th Cir. 1982).

App.45a
it is clear that Congress had a rational basis for
classifying marijuana in Schedule I, and executive
officials in different administrations have consistently
retained its placement there.5 For instance, the DEA’s
most recent denial of a petition to reclassify
marijuana listed a number of public health and safety
justifications for keeping marijuana in Schedule I. See
Denial of Petition to Initiate Proceedings to
Reschedule Marijuana, 81 Fed. Reg. 53,767 (Aug. 12,
2016). The reasons offered by the DEA included
marijuana’s “various psychoactive effects,” id. at
53,774, its potential to cause a “decrease in IQ and
general neuropsychological performance” for adolescents who consume it, id., and its potential effect on
prenatal development, id. at 53,775. Even if marijuana
has current medical uses, I cannot say that Congress
acted irrationally in placing marijuana in Schedule I.
In sum, the Second Circuit has already determined that Congress had a rational basis to classify
marijuana as a Schedule I drug, see United States v.
Kiffer, 477 F.2d at 355-57, and any constitutional
rigidity is overcome by granting the Attorney
General, through a designated agent, the authority to
5 Under the rational basis test, “a statutory classification that
neither proceeds along suspect lines nor infringes fundamental
constitutional rights must be upheld against equal protection
challenge if there is any reasonably conceivable state of facts that
could provide a rational basis for the classification.” F. C. C. v.
Beach Commc’ns, Inc., 508 U.S. 307, 313 (1993). “On rationalbasis review, a classification in a statute . . . comes to [the court]
bearing a strong presumption of validity . . . and those attacking
the rationality of the legislative classification have the burden ‘to
negative every conceivable basis which might support it.’’’ Id. at
314-15 (quoting Lehnhausen v. Lake Shore Auto Parts Co, 410
U.S. 356, 364 (1973)).

App.46a
reclassify a drug according to the evidence before it
and based on the criteria outlined in 21 U.S.C.
§ 812(b)(1). There can be no complaint of constitutional error when such a process is designed to provide a
safety valve of this kind.6 The argument is made that
Attorney General’s refusal, through the DEA, to
quickly resolve reclassification petitions creates
sloth. But that sloth, if presented in the appropriate
case, can be overcome through a mandamus proceeding in the appropriate Court of Appeals. Judicial
economy is not served through a collateral proceeding
of this kind that seeks to undercut the regulatory
machinery on the Executive Branch and the process
of judicial review in the Court of Appeals.
I emphasize that this decision is not on the merits
of plaintiffs’ claim. Plaintiffs’ amended complaint,
which I must accept as true for the purpose of this
motion, claims that the use of medical marijuana has,
quite literally, saved their lives. One plaintiff in this
case, Alexis Borten, suffers from intractable epilepsy,
a severe seizure disorder that once caused her to
experience multiple seizures every day. After years of
6 As the Second Circuit explained in Kiffer:
The provisions of the Act allowing periodic review of
the control and classification of allegedly dangerous
substances create a sensible mechanism for dealing
with a field in which factual claims are conflicting and
the state of scientific knowledge is still growing. The
question whether a substance belongs in one schedule
rather than another clearly calls for fine distinctions,
but the statutory procedure at least offers the means
for producing a thorough factual record upon which to
base an informed judgment.

Kiffer, 477 F.2d at 357.

App.47a
searching for viable treatment options, Alexis began
using medical marijuana. Since then, she has gone
nearly three years without a single seizure. Jagger
Cotte, another plaintiff in the case, suffers from a
rare, congenital disease known as Leigh’s disease,
which kills approximately 95% of those afflicted
before they reach the age of four. After turning to medical marijuana, Jagger’s life has been extended by two
years and his pain has become manageable. I
highlight plaintiffs’ experience to emphasize that this
decision should not be understood as a factual finding
that marijuana lacks any medical use in the United
States, for the authority to make that determination
is vested in the administrative process. In light of the
decision of the Second Circuit, see United States v.
Kiffer, 477 F.2d at 355-57, and the several decisions
of the D.C. Circuit, see, e.g., Am. for Safe Access, 706
F.3d at 449, I am required to dismiss plaintiffs’
rational basis claim.
B.

Standing and Plaintiffs’ Equal Protection Claim

The Cannabis Cultural Association, Inc. (“CCA”),
a nonprofit entity dedicated to advancing the business
footprint of marginalized groups in the cannabis
industry, alleges that the CSA violates the Equal Protection Clause because it was passed with racial
animus. See FAC, ECF 23, ¶¶ 406-21. Defendants
claim that the CCA lacks standing to maintain this
claim and, alternatively, that the CCA has failed to
state an Equal Protection claim. I hold that the CCA
lacks standing to maintain its Equal Protection claim
because plaintiffs have failed to demonstrate that a
favorable decision is likely to redress plaintiffs’ alleged
injuries.

App.48a
To satisfy the “irreducible constitutional minimum of standing,” a “plaintiff must have (1) suffered
an injury in fact, (2) that is fairly traceable to the challenged conduct of the defendant, and (3) that is likely
to be redressed by a favorable judicial decision.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016),
as revised (May 24, 2016) (internal quotation marks
omitted) (quoting Lujan v. Defs. of Wildlife, 504 U.S.
555, 560 (1992)). Specifically, “[t]o) establish injury in
fact, a plaintiff must show that he or she suffered ‘an
invasion of a legally protected interest’ that is ‘concrete
and particularized’ and ‘actual or imminent, not
conjectural or hypothetical.’’’ Id. at 1548 (quoting
Lujan, 504 U.S. at 560). “The plaintiff, as the party
invoking federal jurisdiction, bears the burden of
establishing these elements.” Id. at 1547.
Plaintiffs do not claim that the CCA has standing
to sue on its own behalf, but rather is suing on behalf
of its members. In general,
an association has standing to bring suit on
behalf of its members when: (a) its members
would otherwise have standing to sue in
their own right; (b) the interests it seeks to
protect are germane to the organization’s
purpose; and (c) neither the claim asserted
nor the relief requested requires the participation of individual members in the lawsuit.

Centro de la Comunidad Hispana de Locust Valley v.
Town of Oyster Bay, 868 F.3d 104, 123 (2d Cir. 2017)
(internal quotation marks omitted) (quoting Hunt v.
Washington Apple Advert. Comm’n, 432 U.S. 333, 343
(1977)).

App.49a
In opposing this motion, plaintiffs submitted
three affidavits from members of the CCA: Kordell
Nesbitt, Leo Bridgewater, and Thomas Motley. See
Declaration of Michael S. Hiller, ECF 43, Ex. 12-14.
Kordell Nesbitt, the first affiant, is an African American male and a member of the CCA. See Declaration
of Michael S. Hiller, ECF 43, Ex. 12, ¶¶ 1. Mr. Nesbitt
was charged in 2013 with participating in a marijuana
conspiracy, and he pled guilty in 2014. See id. at ¶¶ 23. He claims that he continues to face collateral
consequences as a result of his conviction, including
difficulty finding employment. See id. at ¶¶ 7-9. Leo
Bridgewater, the second affiant, is a veteran of the
U.S. Army who previously served as a telecommunications specialist. See Declaration of Michael S.
Hiller, ECF 43, Ex. 13, ¶¶ 1-2. Mr. Bridgewater began
using medical cannabis in 2015 and claims that, as a
result, he cannot renew the government security
clearance necessary to work as a private military contractor. See id. at ¶¶ 7-9.7 Finally, Thomas Motley,
like Mr. Nesbitt, is an African-American male who
was indicted and pled guilty to violating federal law
by participating in a conspiracy to distribute and
cultivate marijuana. See Declaration of Michael S.
Hiller, ECF 43, Ex. 14, ¶¶ 1-3. Mr. Motley also states
that although he would like to participate in a
minority-owned business loan or grant, he believes
that his prior felony conviction would make him
ineligible to do so. See id. at ¶¶ 5-6.

7 Although Mr. Nesbitt and Mr. Motley claim that they are
African-American, Mr. Bridgewater’s affidavit does not disclose
his ethnicity. This technicality does not affect the Court’s reasoning.

App.50a
Although the affidavits demonstrate that members
of the CCA have suffered an injury-in-fact,8 the pleadings fail to demonstrate that “it is likely that a
favorable ruling will redress” those injuries.
Massachusetts v. E.P.A., 549 U.S. 497, 517 (2007).
Plaintiffs’ FAC seeks “a permanent injunction
. . . restraining Defendants from enforcing the CSA as
it pertains to Cannabis.” FAC, ECF 23, at 97. But
plaintiffs have not shown that, were they to receive a
favorable ruling that marijuana cannot be treated as
a Schedule I drug, their prior convictions would be
undone.9 Nor have plaintiffs shown, for instance, that
those within the government in charge of security
clearance determinations would no longer include
marijuana in a urine test if plaintiffs are successful in
8 Defendants are correct that City of Los Angeles v. Lyons, 461
U.S. 95, 105 (1983) forecloses plaintiffs’ claims that they have
standing based on a fear of future arrest. See Plaintiffs’ Memorandum of Law in Opposition, ECF 44, at 56. However, each of
the individuals who submitted an affidavit suffers from a
forward-looking injury-in-fact that is concrete, particularized,
and imminent. For instance, Mr. Nesbitt claims, with documentation from a potential employer, that his prior conviction
has harmed his ability to obtain future employment. As
described above, other affiants have similar claims that are sufficient to demonstrate an injury-in-fact.
9 The Supreme Court recently held for the first time that a guilty
plea, standing alone, does not bar a criminal defendant from
challenging the constitutionality of the statute of his conviction
on direct appeal Class v. United States, No. 16-424, 2018 WL
987347, at *8 (U.S. Feb. 21, 2018). But the challenge here is even
more attenuated, for plaintiffs are not challenging their
underlying convictions, either on direct appeal or in habeas proceedings. Plaintiffs have presented no basis, even a speculative
one, explaining how a favorable decision in this case would
redress their alleged injuries.

App.51a
having marijuana reclassified to a different drug
schedule. Although one could imagine how plaintiffs
might connect these dots, plaintiffs bear the burden of
pleading each element of standing, and their various
submissions have failed to do so. Spokeo, 136 S. Ct. at
1547.
Alternatively, even if plaintiffs had standing, I
hold that plaintiffs fail to state a claim under Rule
12(b)(6). To survive a motion to dismiss an Equal Protection claim, plaintiffs must plausibly plead that “the
decision-maker . . . selected or reaffirmed a particular
course of action at least in part ‘because of,’ not merely
‘in spite of,’ its adverse effects upon an identifiable
group.” Pers. Adm’r of Massachusetts v. Feeney, 442
U.S. 256, 279 (1979); see also Washington v. Davis, 426
U.S. 229, 239 (1976) (holding that a law violates the
equal protection clause if passed with discriminatory
purpose). If a plaintiff plausibly pleads such a claim, a
law is then subject to strict constitutional scrutiny,
which holds that “such classifications are constitutional only if they are narrowly tailored measures that
further compelling governmental interests.” Adarand
Constructors, Inc. v. Pena, 515 U.S. 200, 227 (1995).
Plaintiffs’ racial animus claim is based on a
patchwork of statements by former Nixon Administration officials, many of which were made after the
passage of the CSA. See FAC, ECF 23, at ¶¶ 235-52.
Even taking these allegations as true, plaintiffs have
failed to demonstrate that the relevant decisionmaker—Congress—passed the CSA and placed
marijuana in Schedule I in order to intentionally discriminate against African Americans. See Feeney, 442
U.S. at 279 (recognizing that the relevant “decisionmaker” in the case was the “state legislature”); United

App.52a

States v. Then, 56 F.3d 464, 466 (2d Cir. 1995)
(considering, in the context of the sentencing disparity
between powder cocaine and crack cocaine, whether
“Congress” acted “with discriminatory intent in
adopting the sentencing ratio at issue”). Plaintiffs
have cited no authority for the proposition that
various statements by Executive Branch officials,
such as those at issue here, which are untethered from
the Congressional process, can support an Equal Protection claim premised on racial animus. Therefore,
even if plaintiffs could demonstrate standing, I would
still hold that plaintiffs failed to state a claim.
C.

Remaining Constitutional Claims

Plaintiffs advance a number of additional constitutional challenges to the placement of marijuana in
Schedule I under the CSA, independent of plaintiffs’
rational basis challenge based on medical evidence,
largely in order to subject the CSA to heightened constitutional scrutiny. Because plaintiffs have failed to
state a claim under any constitutional theory, all of
plaintiffs’ remaining claims are also dismissed.
Plaintiffs first claim that the GSA’s regulation of
marijuana violates the Commerce Clause. There is no
need to belabor this point. The Supreme Court has
held, in no uncertain terms, that “intrastate manufacture and possession of marijuana for medical purposes,” even if legal under state law, does not exceed
Congress’s authority under the Commerce Clause.

App.53a

Raich, 545 U.S. at 15. I am bound to apply this precedent and plaintiffs’ claim under the Commerce
Clause is therefore dismissed.10
Plaintiffs also appear to assert a fundamental
right to use medical marijuana, which is then used to
prop up plaintiffs’ remaining causes of action. Plaintiffs frame their claim as “the right of Plaintiffs to
exercise personal autonomy and to preserve their
health and lives.” See Plaintiffs’ Memorandum of Law
in Opposition, ECF 44, at 68. No such fundamental
right exists. Every court to consider the specific, carefully framed right at issue here has held that there is
no substantive due process right to use medical
marijuana. The Ninth Circuit, on remand from the
Supreme Court’s decision in Raich I, analyzed this
question in detail, holding that “federal law does not
recognize a fundamental right to use medical marijuana prescribed by a licensed physician to alleviate
excruciating pain and human suffering.” Raich v.
Gonzales, 500 F.3d 850, 866 (9th Cir. 2007). Other
10 Apart from simply attempting to relitigate the issues firmly
decided in Raich, plaintiffs argue that “the classification of
cannabis as a Schedule I drug under the CSA is void under the
doctrine of desuetude.” Plaintiffs’ Memorandum of Law in Opposition, ECF 44, at 92. Plaintiffs’ argument borders on frivolous.
“Desuetude is the `obscure doctrine by which a legislative
enactment is judicially abrogated following a long period of nonenforcement.’’’ United States v. Morrison, 596 F. Supp. 2d 661,
702 (E.D.N.Y. 2009) (quoting Note, Desuetude, 119 Harv. L. Rev.
2209, 2209 (2006)). First of all, this civil law doctrine is not
applicable in federal courts. See D C. v. John R Thompson Co.,
346 U.S. 100, 113-14 (1953) (“The failure of the executive branch
to enforce a law does not result in its modification or repeal.”).
And even if this doctrine were viable, plaintiffs have not shown
that the federal government has entirely abandoned application of
the CSA as applied to marijuana.

App.54a
courts have reached the same conclusion. See, e.g.,
United States v. Washington, 887 F. Supp. 2d 1077,
1102 (D. Mont. 2012), adhered to on reconsideration,
No. CR 11-61-M-DLC, 2012 WL 4602838 (D. Mont.
Oct. 2, 2012) (rejecting a fundamental right to use
medical marijuana and applying rational basis review);
Elansari v. United States, No. CV 3:15-1461, 2016 WL
4386145, at *3 (M.D. Pa. Aug. 17, 2016) (noting “that
‘no court to date has held that citizens have a constitutionally fundamental right to use medical marijuana’
(quoting United States v. Wilde, 74 F. Supp. 3d 1092,
1095 (N.D. Ca. 2014))).11 Accordingly, plaintiffs’ substantive Due Process claim is dismissed.
Plaintiffs also raise an ill-defined right to travel
claim. The thrust of this claim appears to be that
because plaintiffs are more likely to be arrested for
possession of medical marijuana if they travel by
airplane or enter federal buildings (where they might
be subject to search), the CSA unconstitutionally
infringes on their right to travel. Saenz v. Roe, 526
U.S. 489, 500 (1999) (defining one element of the right
to travel as “protect[ing] the right of a citizen of one
State to enter and to leave another State”). This claim
fails for substantially the same reasons already
discussed above, for no fundamental right to use medical marijuana exists.
As a general matter, the right to travel has been
understood primarily as a restriction on state-created
11 Plaintiffs largely rely on Cruzan v. Director, Missouri Department of Health, 497 U.S. 261, 278 (1990) for the proposition that
“a competent person has a constitutionally protected liberty
interest in refusing unwanted medical treatment.” But Cruzan
speaks only to one’s right to refuse medical treatment, not a
positive right to obtain any particular medical treatment.

App.55a
obstructions to interstate travel, not as a bar on federal regulatory schemes. See, e.g., Minnesota Senior
Fed’n, Metro. Region v. United States, 273 F.3d 805,
810 (8th Cir. 2001) (noting that “the Court’s other
modern cases . . . have applied the federal constitutional right to travel to state legislation that had a
negative impact on travel between the various states,”
rather than to a “federal statutory regime because it
allegedly deters interstate travel”). The CSA is
facially neutral as to travel—it does not impose any
bar on plaintiffs’ movement from state to state. See
Five Borough Bicycle Club v. City of New York, 483 F.
Supp. 2d 351, 362 (S.D.N.Y. 2007), aff’d, 308 F. App’x
511 (2d Cir. 2009) (“A statute implicates the constitutional right to travel when it actually deters such
travel, or when impedance of travel is its primary
objective, or when it uses any classification which
serves to penalize the exercise of that right” (internal
quotation marks omitted) (quoting Soto—Lopez v.
N.Y.C. Civil Serv. Comm’n, 755 F.2d 266, 278 (2d Cir.
1985))).
Instead, the CSA makes possession and distribution of certain controlled substances, including
marijuana, illegal, regardless of one’s movement
between states. Properly understood, plaintiffs’ complaint is simply that they are deterred from travel
because they fear that they are more likely to be
arrested for marijuana possession at airport security
checkpoints. Such an interpretation of the right to
travel, if adopted, would invalidate any number of
bans on controlled substances or firearms simply
because the enforcement of these facially neutral laws
might have some conceivable, tangential impact on
travel. Plaintiffs have identified no authority for such

App.56a
an expansive interpretation of the right to travel, and
the Court has not found any. A suggestion has been
made that the CSA presents plaintiffs with a Hobson’s
choice between their fundamental right to use medical
marijuana and a right to travel. But as explained
above, no such fundamental right to use medical
marijuana exists. Plaintiffs’ right to travel claim is
therefore dismissed.
For substantially the same reasons, plaintiffs’
First Amendment claim also fails. The core of plaintiffs’ claim stems from the fact that Alexis Bortell has
previously been invited to speak with members of
Congress in Washington, D.C. about ongoing efforts to
decriminalize medical marijuana, but cannot do so
because she cannot fly on an airplane or enter federal
buildings without risking arrest and prosecution for
marijuana possession under the CSA. But the First
Amendment protects freedom of speech, first and
foremost. To be sure, the Supreme Court has extended
constitutional protection to certain kinds of expressive
conduct, but only such conduct that is “sufficiently
imbued with elements of communication to fall within
the scope of the First and Fourteenth Amendments.”
Spence v. Washington, 418 U.S. 405, 409 (1974); see
also United States v. O’Brien, 391 U.S. 367, 376 (1968)
(“We cannot accept the view that an apparently
limitless variety of conduct can be labeled ‘speech’
whenever the person engaging in the conduct intends
thereby to express an idea.”). Accordingly, the First
Amendment’s protections have been extended “only to
conduct that is inherently expressive,” see Rumsfeld
v. Forum for Acad. & Institutional Rights, Inc., 547
U.S. 47, 66 (2006), such as burning the American flag,
see Texas v. Johnson, 491 U.S. 397, 406 (1989), or

App.57a
conducting a sit-in to protest racial segregation, see
Brown v. Louisiana, 383 U.S. 131 (1966).
The CSA is not targeted at speech, nor does it
directly implicate speech in any way. Laws of this
kind, which are directed as “commerce or conduct,”
are not implicated by the First Amendment simply
because they impose “incidental burdens on speech.”
Sorrell v. IMS Health Inc., 564 U.S. 552, 567 (2011);
see also id. (“[R]estrictions on protected expression are
distinct from restrictions on economic activity or,
more generally, on non-expressive conduct.”). As the
Supreme Court has explained, “every civil and criminal
remedy imposes some conceivable burden on First
Amendment protected activities,” but such laws do not
automatically warrant First Amendment protection.
Arcara v. Cloud Books, Inc., 478 U.S. 697, 706 (1986).
Put differently, “the First Amendment is not
implicated by the enforcement o’ laws, like the CSA,
which are “directed at imposing sanctions on nonexpressive activity.” Id. at 707. Were plaintiffs correct,
any law regulating possession of illegal substances,
firearms, or any number of other things would be subject to First Amendment scrutiny simply because
those who possess such items risk arrest by carrying
them onto federal property. And as explained above,
because there is no fundamental right to use medical
marijuana, plaintiffs do not face a Hobson’s choice
with respect to the exercise of their constitutional
rights.
For the reasons stated herein, defendants’ motion
to dismiss the complaint is granted. Plaintiffs have
already amended their complaint once, and I find that
further amendments would be futile. Ruffolo v.
Oppenheimer & Co., 987 F.2d 129, 131 (2d Cir. 1993).

App.58a
The clerk is instructed to terminate the motion (ECF
36), mark the case as closed, and tax costs as appropriate.
SO ORDERED.
/s/ Alvin K. Hellerstein
United States District Judge
Dated: February 26, 2018,
New York, New York

App.59a
CONSTITUTIONAL AND
STATUTORY PROVISIONS
UNITED STATES CONSTITUTIONAL PROVISIONS
Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.

App.60a
STATUTES
Controlled Substances Act
21 U.S.C., Title 21, Chapter 13, Sec. 811
§ 811. Authority and Criteria for Classification of
Substances
(a) Rules and Regulations of Attorney General;
Hearing
The Attorney General shall apply the provisions
of this subchapter to the controlled substances listed
in the schedules established by section 812 of this title
and to any other drug or other substance added to
such schedules under this subchapter. Except as
provided in subsections (d) and (e) of this section, the
Attorney General may by rule—
(1) add to such a schedule or transfer between
such schedules any drug or other substance if
he—
(A) finds that such drug or other substance has
a potential for abuse, and
(B) makes with respect to such drug or other
substance the findings prescribed by subsection (b) of section 812 of this title for the
schedule in which such drug is to be placed;
or
(2) remove any drug or other substance from the
schedules if he finds that the drug or other
substance does not meet the requirements for
inclusion in any schedule.
Rules of the Attorney General under this subsection shall be made on the record after opportunity for a
hearing pursuant to the rulemaking procedures

App.61a
prescribed by subchapter II of chapter 5 of title 5.
Proceedings for the issuance, amendment, or repeal of
such rules may be initiated by the Attorney General (1)
on his own motion, (2) at the request of the
Secretary, or (3) on the petition of any interested party.
(b) Evaluation of Drugs and Other Substances
The Attorney General shall, before initiating
proceedings under subsection (a) of this section to
control a drug or other substance or to remove a drug
or other substance entirely from the schedules, and
after gathering the necessary data, request from the
Secretary a scientific and medical evaluation, and his
recommendations, as to whether such drug or other
substance should be so controlled or removed as a
controlled substance. In making such evaluation and
recommendations, the Secretary shall consider the
factors listed in paragraphs (2), (3), (6), (7), and (8) of
subsection (c) of this section and any scientific or
medical considerations involved in paragraphs (1), (4),
and (5) of such subsection. The recommendations of
the Secretary shall include recommendations with
respect to the appropriate schedule, if any, under
which such drug or other substance should be listed.
The evaluation and the recommendations of the
Secretary shall be made in writing and submitted to
the Attorney General within a reasonable time. The
recommendations of the Secretary to the Attorney
General shall be binding on the Attorney General as
to such scientific and medical matters, and if the
Secretary recommends that a drug or other substance
not be controlled, the Attorney General shall not control
the drug or other substance. If the Attorney General
determines that these facts and all other relevant
data constitute substantial evidence of potential for

App.62a
abuse such as to warrant control or substantial
evidence that the drug or other substance should be
removed entirely from the schedules, he shall initiate
proceedings for control or removal, as the case may be,
under subsection (a) of this section.
(c)

Factors Determinative of Control or Removal from
Schedules

In making any finding under subsection (a) of this
section or under subsection (b) of section 812 of this
title, the Attorney General shall consider the
following factors with respect to each drug or other
substance proposed to be controlled or removed from
the schedules:
(1) Its actual or relative potential for abuse.
(2) Scientific evidence of its pharmacological
effect, if known.
(3) The state of current scientific knowledge
regarding the drug or other substance.
(4) Its history and current pattern of abuse.
(5) The scope, duration, and significance of abuse.
(6) What, if any, risk there is to the public
health.
(7) Its psychic or physiological dependence liability.
(8) Whether the substance is an immediate
precursor of a substance already controlled
under this subchapter.

App.63a
(d) International Treaties, Conventions, and Protocols
Requiring Control; Procedures Respecting Changes
in Drug Schedules of Convention on Psychotropic
Substances
(1) If control is required by United States obligations under international treaties, conventions, or
protocols in effect on October 27, 1970, the Attorney
General shall issue an order controlling such drug
under the schedule he deems most appropriate to
carry out such obligations, without regard to the
findings required by subsection (a) of this section or
section 812(b) of this title and without regard to the
procedures prescribed by subsections (a) and (b) of
this section.
(2)
(A) Whenever the Secretary of State receives
notification from the Secretary-General of the
United Nations that information has been transmitted by or to the World Health Organization,
pursuant to article 2 of the Convention on
Psychotropic Substances, which may justify adding
a drug or other substance to one of the schedules
of the Convention, transferring a drug or substance
from one schedule to another, or deleting it from
the schedules, the Secretary of State shall
immediately transmit the notice to the Secretary
of Health and Human Services who shall publish
it in the Federal Register and provide opportunity
to interested persons to submit to him comments
respecting the scientific and medical evaluations
which he is to prepare respecting such drug or
substance. The Secretary of Health and Human
Services shall prepare for transmission through
the Secretary of State to the World Health

App.64a
Organization such medical and scientific evaluations as may be appropriate regarding the possible
action that could be proposed by the World Health
Organization respecting the drug or substance
with respect to which a notice was transmitted
under this subparagraph.
(B) Whenever the Secretary of State receives
information that the Commission on Narcotic
Drugs of the United Nations proposes to decide
whether to add a drug or other substance to one
of the schedules of the Convention, transfer a
drug or substance from one schedule to another,
or delete it from the schedules, the Secretary of
State shall transmit timely notice to the Secretary
of Health and Human Services of such information
who shall publish a summary of such information
in the Federal Register and provide opportunity
to interested persons to submit to him comments
respecting the recommendation which he is to
furnish, pursuant to this subparagraph, respecting
such proposal. The Secretary of Health and
Human Services shall evaluate the proposal and
furnish a recommendation to the Secretary of
State which shall be binding on the representative
of the United States in discussions and negotiations relating to the proposal.
(3) When the United States receives notification
of a scheduling decision pursuant to article 2 of the
Convention on Psychotropic Substances that a drug or
other substance has been added or transferred to a
schedule specified in the notification or receives
notification (referred to in this subsection as a “schedule
notice”) that existing legal controls applicable under this
subchapter to a drug or substance and the controls

App.65a
required by the Federal Food, Drug, and Cosmetic Act
[21 U.S.C. 301 et seq.] do not meet the requirements
of the schedule of the Convention in which such drug
or substance has been placed, the Secretary of Health
and Human Services after consultation with the
Attorney General, shall first determine whether
existing legal controls under this subchapter
applicable to the drug or substance and the controls
required by the Federal Food, Drug, and Cosmetic
Act, meet the requirements of the schedule specified
in the notification or schedule notice and shall take
the following action:
(A) If such requirements are met by such existing
controls but the Secretary of Health and Human
Services nonetheless believes that more stringent
controls should be applied to the drug or substance,
the Secretary shall recommend to the Attorney
General that he initiate proceedings for scheduling
the drug or substance, pursuant to subsections (a)
and (b) of this section, to apply to such controls.
(B) If such requirements are not met by such
existing controls and the Secretary of Health and
Human Services concurs in the scheduling
decision or schedule notice transmitted by the
notification, the Secretary shall recommend to
the Attorney General that he initiate proceedings
for scheduling the drug or substance under the
appropriate schedule pursuant to subsections (a)
and (b) of this section.
(C) If such requirements are not met by such
existing controls and the Secretary of Health and
Human Services does not concur in the
scheduling decision or schedule notice transmitted
by the notification, the Secretary shall—

App.66a
(i)

if he deems that additional controls are
necessary to protect the public health and
safety, recommend to the Attorney General
that he initiate proceedings for scheduling
the drug or substance pursuant to subsections
(a) and (b) of this section, to apply such
additional controls;

(ii) request the Secretary of State to transmit a
notice of qualified acceptance, within the
period specified in the Convention, pursuant
to paragraph 7 of article 2 of the Convention,
to the Secretary-General of the United
Nations;
(iii) request the Secretary of State to transmit a
notice of qualified acceptance as prescribed
in clause (ii) and request the Secretary of
State to ask for a review by the Economic
and Social Council of the United Nations, in
accordance with paragraph 8 of article 2 of
the Convention, of the scheduling decision;
or
(iv) in the case of a schedule notice, request the
Secretary of State to take appropriate action
under the Convention to initiate proceedings
to remove the drug or substance from the
schedules under the Convention or to transfer
the drug or substance to a schedule under
the Convention different from the one specified in the schedule notice.
(4)
(A) If the Attorney General determines, after
consultation with the Secretary of Health and
Human Services, that proceedings initiated under

App.67a
recommendations made under paragraph1 (B) or
(C)(i) of paragraph (3) will not be completed within
the time period required by paragraph 7 of article
2 of the Convention, the Attorney General, after
consultation with the Secretary and after providing
interested persons opportunity to submit comments respecting the requirements of the
temporary order to be issued under this sentence,
shall issue a temporary order controlling the drug
or substance under schedule IV or V, whichever
is most appropriate to carry out the minimum
United States obligations under paragraph 7 of
article 2 of the Convention. As a part of such order,
the Attorney General shall, after consultation
with the Secretary, except such drug or substance
from the application of any provision of part C of
this subchapter which he finds is not required to
carry out the United States obligations under
paragraph 7 of article 2 of the Convention. In the
case of proceedings initiated under subparagraph
(B) of paragraph (3), the Attorney General,
concurrently with the issuance of such order,
shall request the Secretary of State to transmit a
notice of qualified acceptance to the SecretaryGeneral of the United Nations pursuant to
paragraph 7 of article 2 of the Convention. A
temporary order issued under this subparagraph
controlling a drug or other substance subject to
proceedings initiated under subsections (a) and
(b) of this section shall expire upon the effective
date of the application to the drug or substance of
the controls resulting from such proceedings.
1 So in original. Probably should be “subparagraph”.

App.68a
(B) After a notice of qualified acceptance of a
scheduling decision with respect to a drug or
other substance is transmitted to the SecretaryGeneral of the United Nations in accordance with
clause (ii) or (iii) of paragraph (3)(C) or after a
request has been made under clause (iv) of such
paragraph with respect to a drug or substance
described in a schedule notice, the Attorney
General, after consultation with the Secretary of
Health and Human Services and after providing
interested persons opportunity to submit
comments respecting the requirements of the
order to be issued under this sentence, shall issue
an order controlling the drug or substance under
schedule IV or V, whichever is most appropriate
to carry out the minimum United States
obligations under paragraph 7 of article 2 of the
Convention in the case of a drug or substance for
which a notice of qualified acceptance was
transmitted or whichever the Attorney General
determines is appropriate in the case of a drug or
substance described in a schedule notice. As a
part of such order, the Attorney General shall,
after consultation with the Secretary, except such
drug or substance from the application of any
provision of part C of this subchapter which he
finds is not required to carry out the United
States obligations under paragraph 7 of article 2
of the Convention. If, as a result of a review under
paragraph 8 of article 2 of the Convention of the
scheduling decision with respect to which a notice
of qualified acceptance was transmitted in
accordance with clause (ii) or (iii) of paragraph
(3)(C)—

App.69a
(i)

the decision is reversed, and

(ii) the drug or substance subject to such decision
is not required to be controlled under schedule
IV or V to carry out the minimum United
States obligations under paragraph 7 of
article 2 of the Convention,
the order issued under this subparagraph with
respect to such drug or substance shall expire
upon receipt by the United States of the review
decision. If, as a result of action taken pursuant
to action initiated under a request transmitted
under clause (iv) of paragraph (3)(C), the drug or
substance with respect to which such action was
taken is not required to be controlled under
schedule IV or V, the order issued under this
paragraph with respect to such drug or substance
shall expire upon receipt by the United States of
a notice of the action taken with respect to such
drug or substance under the Convention.
(C) An order issued under subparagraph (A) or
(B) may be issued without regard to the findings
required by subsection (a) of this section or by
section 812(b) of this title and without regard to
the procedures prescribed by subsection (a) or (b)
of this section.
(5) Nothing in the amendments made by the
Psychotropic Substances Act of 1978 or the regulations
or orders promulgated thereunder shall be construed
to preclude requests by the Secretary of Health and
Human Services or the Attorney General through the
Secretary of State, pursuant to article 2 or other
applicable provisions of the Convention, for review of

App.70a
scheduling decisions under such Convention, based on
new or additional information.
(e) Immediate Precursors
The Attorney General may, without regard to the
findings required by subsection (a) of this section or
section 812(b) of this title and without regard to the
procedures prescribed by subsections (a) and (b) of
this section, place an immediate precursor in the same
schedule in which the controlled substance of which it
is an immediate precursor is placed or in any other
schedule with a higher numerical designation. If the
Attorney General designates a substance as an
immediate precursor and places it in a schedule, other
substances shall not be placed in a schedule solely
because they are its precursors.
(f)

Abuse Potential

If, at the time a new-drug application is submitted
to the Secretary for any drug having a stimulant,
depressant, or hallucinogenic effect on the central
nervous system, it appears that such drug has an
abuse potential, such information shall be forwarded
by the Secretary to the Attorney General.
(g) Exclusion of Non-Narcotic Substances Sold Over
the Counter Without a Prescription; Dextromethorphan; Exemption of Substances Lacking
Abuse Potential
(1) The Attorney General shall by regulation
exclude any non-narcotic drug which contains a
controlled substance from the application of this
subchapter and subchapter II of this chapter if such
drug may, under the Federal Food, Drug, and Cosmetic

App.71a
Act [21 U.S.C. 301 et seq.], be lawfully sold over the
counter without a prescription.
(2) Dextromethorphan shall not be deemed to be
included in any schedule by reason of enactment of
this subchapter unless controlled after October 27,
1970 pursuant to the foregoing provisions of this
section.
(3) The Attorney General may, by regulation,
exempt any compound, mixture, or preparation containing a controlled substance from the application of all or
any part of this subchapter if he finds such compound,
mixture, or preparation meets the requirements of
one of the following categories:
(A) A mixture, or preparation containing a nonnarcotic controlled substance, which mixture or
preparation is approved for prescription use, and
which contains one or more other active ingredients which are not listed in any schedule and
which are included therein in such combinations,
quantity, proportion, or concentration as to vitiate
the potential for abuse.
(B) A compound, mixture, or preparation which
contains any controlled substance, which is not
for administration to a human being or animal,
and which is packaged in such form or concentration, or with adulterants or denaturants, so that as
packaged it does not present any significant
potential for abuse.
(C) Upon the recommendation of the Secretary
of Health and Human Services, a compound, mixture, or preparation which contains any anabolic
steroid, which is intended for administration to a
human being or an animal, and which, because of

App.72a
its concentration, preparation, formulation or
delivery system, does not present any significant
potential for abuse.
(h) Temporary Scheduling to Avoid Imminent Hazards
to Public Safety
(1) If the Attorney General finds that the scheduling of a substance in schedule I on a temporary basis
is necessary to avoid an imminent hazard to the public
safety, he may, by order and without regard to the
requirements of subsection (b) of this section relating
to the Secretary of Health and Human Services,
schedule such substance in schedule I if the substance
is not listed in any other schedule in section 812 of this
title or if no exemption or approval is in effect for the
substance under section 505 of the Federal Food,
Drug, and Cosmetic Act [21 U.S.C. 355]. Such an order
may not be issued before the expiration of thirty days
from—
(A) the date of the publication by the Attorney
General of a notice in the Federal Register of the
intention to issue such order and the grounds
upon which such order is to be issued, and
(B) the date the Attorney General has transmitted
the notice required by paragraph (4).
(2) The scheduling of a substance under this
subsection shall expire at the end of 2 years from the
date of the issuance of the order scheduling such
substance, except that the Attorney General may,
during the pendency of proceedings under subsection
(a)(1) of this section with respect to the substance,
extend the temporary scheduling for up to 1 year.

App.73a
(3) When issuing an order under paragraph (1),
the Attorney General shall be required to consider,
with respect to the finding of an imminent hazard to the
public safety, only those factors set forth in paragraphs
(4), (5), and (6) of subsection (c) of this section,
including actual abuse, diversion from legitimate
channels, and clandestine importation, manufacture,
or distribution.
(4) The Attorney General shall transmit notice
of an order proposed to be issued under paragraph (1)
to the Secretary of Health and Human Services. In
issuing an order under paragraph (1), the Attorney
General shall take into consideration any comments
submitted by the Secretary in response to a notice
transmitted pursuant to this paragraph.
(5) An order issued under paragraph (1) with
respect to a substance shall be vacated upon the
conclusion of a subsequent rulemaking proceeding
initiated under subsection (a) of this section with
respect to such substance.
(6) An order issued under paragraph (1) is not
subject to judicial review.
(i)

Temporary and Permanent Scheduling of Recently
Emerged Anabolic Steroids

(1) The Attorney General may issue a temporary
order adding a drug or other substance to the definition
of anabolic steroids if the Attorney General finds
that—
(A) the drug or other substance satisfies the
criteria for being considered an anabolic steroid
under section 802(41) of this title but is not listed

App.74a
in that section or by regulation of the Attorney
General as being an anabolic steroid; and
(B) adding such drug or other substance to the
definition of anabolic steroids will assist in
preventing abuse or misuse of the drug or other
substance.
(2) An order issued under paragraph (1) shall
not take effect until 30 days after the date of the
publication by the Attorney General of a notice in the
Federal Register of the intention to issue such order
and the grounds upon which such order is to be issued.
The order shall expire not later than 24 months after
the date it becomes effective, except that the Attorney
General may, during the pendency of proceedings
under paragraph (6), extend the temporary scheduling
order for up to 6 months.
(3) The Attorney General shall transmit notice
of an order proposed to be issued under paragraph (1)
to the Secretary of Health and Human Services. In
issuing an order under paragraph (1), the Attorney
General shall take into consideration any comments
submitted by the Secretary in response to a notice
transmitted pursuant to this paragraph.
(4) A temporary scheduling order issued under
paragraph (1) shall be vacated upon the issuance of a
permanent scheduling order under paragraph (6).
(5) An order issued under paragraph (1) is not
subject to judicial review.
(6) The Attorney General may, by rule, issue a
permanent order adding a drug or other substance to
the definition of anabolic steroids if such drug or other
substance satisfies the criteria for being considered an

App.75a
anabolic steroid under section 802(41) of this title.
Such rulemaking may be commenced simultaneously
with the issuance of the temporary order issued under
paragraph (1).
(j)

Interim Final Rule; Date of Issuance; Procedure
for Final Rule

(1) With respect to a drug referred to in subsection (f), if the Secretary of Health and Human
Services recommends that the Attorney General control
the drug in schedule II, III, IV, or V pursuant to
subsections (a) and (b), the Attorney General shall,
not later than 90 days after the date described in
paragraph (2), issue an interim final rule controlling
the drug in accordance with such subsections and
section 812(b) of this title using the procedures
described in paragraph (3).
(2) The date described in this paragraph shall be
the later of—
(A) the date on which the Attorney General
receives the scientific and medical evaluation and
the scheduling recommendation from the
Secretary of Health and Human Services in
accordance with subsection (b); or
(B) the date on which the Attorney General
receives notification from the Secretary of Health
and Human Services that the Secretary has
approved an application under section 505(c),
512, or 571 of the Federal Food, Drug, and
Cosmetic Act [21 U.S.C. 355(c), 360b, 360ccc] or
section 262(a) of title 42, or indexed a drug under
section 572 of the Federal Food, Drug, and

App.76a
Cosmetic Act [21 U.S.C. 360ccc–1], with respect
to the drug described in paragraph (1).
(3) A rule issued by the Attorney General under
paragraph (1) shall become immediately effective as
an interim final rule without requiring the Attorney
General to demonstrate good cause therefor. The
interim final rule shall give interested persons the
opportunity to comment and to request a hearing.
After the conclusion of such proceedings, the Attorney
General shall issue a final rule in accordance with the
scheduling criteria of subsections (b), (c), and (d) of
this section and section 812(b) of this title.
(Pub. L. 91–513, title II, §201, Oct. 27, 1970, 84 Stat.
1245; Pub. L. 95–633, title I, §102(a), Nov. 10, 1978, 92
Stat. 3769; Pub. L. 96–88, title V, §509(b), Oct. 17,
1979, 93 Stat. 695; Pub. L. 98–473, title II, §§508,
509(a), Oct. 12, 1984, 98 Stat. 2071, 2072; Pub. L. 108–
358, §2(b), Oct. 22, 2004, 118 Stat. 1663; Pub. L. 112–
144, title XI, §1153, July 9, 2012, 126 Stat. 1132; Pub.
L. 113–260, §2(b), Dec. 18, 2014, 128 Stat. 2930; Pub.
L. 114–89, §2(b), Nov. 25, 2015, 129 Stat. 700.)

App.77a

Controlled Substances Act
21 U.S.C., Title 21, Chapter 13, Sec. 812
§ 812. Schedules of controlled substances
(a) Establishment
There are established five schedules of controlled
substances, to be known as schedules I, II, III, IV, and
V. Such schedules shall initially consist of the
substances listed in this section. The schedules
established by this section shall be updated and
republished on a semiannual basis during the twoyear period beginning one year after October 27, 1970,
and shall be updated and republished on an annual
basis thereafter.
(b) Placement on schedules; findings required
Except where control is required by United States
obligations under an international treaty, convention,
or protocol, in effect on October 27, 1970, and except
in the case of an immediate precursor, a drug or other
substance may not be placed in any schedule unless
the findings required for such schedule are made with
respect to such drug or other substance. The findings
required for each of the schedules are as follows:
(1) Schedule I.—
(A) The drug or other substance has a high
potential for abuse.
(B) The drug or other substance has no currently
accepted medical use in treatment in the United
States.

App.78a
(C) There is a lack of accepted safety for use of
the drug or other substance under medical supervision.
(2) Schedule II.—
(A) The drug or other substance has a high
potential for abuse.
(B) The drug or other substance has a currently
accepted medical use in treatment in the United
States or a currently accepted medical use with
severe restrictions.
(C) Abuse of the drug or other substances may
lead to severe psychological or physical dependence.
(3) Schedule III.—
(A) The drug or other substance has a potential
for abuse less than the drugs or other substances
in schedules I and II.
(B) The drug or other substance has a currently
accepted medical use in treatment in the United
States.
(C) Abuse of the drug or other substance may
lead to moderate or low physical dependence or
high psychological dependence.
(4) Schedule IV.—
(A) The drug or other substance has a low
potential for abuse relative to the drugs or other
substances in schedule III.
(B) The drug or other substance has a currently
accepted medical use in treatment in the United
States.

App.79a
(C) Abuse of the drug or other substance may
lead to limited physical dependence or psychological dependence relative to the drugs or other
substances in schedule III.
(5) Schedule V.—
(A) The drug or other substance has a low
potential for abuse relative to the drugs or other
substances in schedule IV.
(B) The drug or other substance has a currently
accepted medical use in treatment in the United
States.
(C) Abuse of the drug or other substance may
lead to limited physical dependence or psychological dependence relative to the drugs or other
substances in schedule IV.
(c) Initial schedules of controlled substances
Schedules I, II, III, IV, and V shall, unless and
until amended1 pursuant to section 811 of this title,
consist of the following drugs or other substances, by
whatever official name, common or usual name,
chemical name, or brand name designated:
Schedule I
(a) Unless specifically excepted or unless listed
in another schedule, any of the following opiates,
including their isomers, esters, ethers, salts, and salts
of isomers, esters, and ethers, whenever the existence

1 Revised schedules are published in the Code of Federal
Regulations, Part 1308 of Title 21, Food and Drugs.

App.80a
of such isomers, esters, ethers, and salts is possible
within the specific chemical designation:
(1) Acetylmethadol.
(2) Allylprodine.
(3) Alphacetylmathadol.2
(4) Alphameprodine.
(5) Alphamethadol.
(6) Benzethidine.
(7) Betacetylmethadol.
(8) Betameprodine.
(9) Betamethadol.
(10) Betaprodine.
(11) Clonitazene.
(12) Dextromoramide.
(13) Dextrorphan.
(14) Diampromide.
(15) Diethylthiambutene.
(16) Dimenoxadol.
(17) Dimepheptanol.
(18) Dimethylthiambutene.
(19) Dioxaphetyl butyrate.
(20) Dipipanone.
(21) Ethylmethylthiambutene.

2 So in original. Probably should be “Alphacetylmethadol.”

App.81a
(22) Etonitazene.
(23) Etoxeridine.
(24) Furethidine.
(25) Hydroxypethidine.
(26) Ketobemidone.
(27) Levomoramide.
(28) Levophenacylmorphan.
(29) Morpheridine.
(30) Noracymethadol.
(31) Norlevorphanol.
(32) Normethadone.
(33) Norpipanone.
(34) Phenadoxone.
(35) Phenampromide.
(36) Phenomorphan.
(37) Phenoperidine.
(38) Piritramide.
(39) Propheptazine.
(40) Properidine.
(41) Racemoramide.
(42) Trimeperidine.
(b) Unless specifically excepted or unless listed
in another schedule, any of the following opium
derivatives, their salts, isomers, and salts of isomers
whenever the existence of such salts, isomers, and

App.82a
salts of isomers is possible within the specific chemical
designation:
(1) Acetorphine.
(2) Acetyldihydrocodeine.
(3) Benzylmorphine.
(4) Codeine methylbromide.
(5) Codeine-N-Oxide.
(6) Cyprenorphine.
(7) Desomorphine.
(8) Dihydromorphine.
(9) Etorphine.
(10) Heroin.
(11) Hydromorphinol.
(12) Methyldesorphine.
(13) Methylhydromorphine.
(14) Morphine methylbromide.
(15) Morphine methylsulfonate.
(16) Morphine-N-Oxide.
(17) Myrophine.
(18) Nicocodeine.
(19) Nicomorphine.
(20) Normorphine.
(21) Pholcodine.
(22) Thebacon.

App.83a
(c) Unless specifically excepted or unless listed
in another schedule, any material, compound, mixture,
or preparation, which contains any quantity of the
following hallucinogenic substances, or which contains
any of their salts, isomers, and salts of isomers whenever the existence of such salts, isomers, and salts of
isomers is possible within the specific chemical
designation:
(1) 3,4-methylenedioxy amphetamine.
(2) 5-methoxy-3,4-methylenedioxy
amphetamine.
(3) 3,4,5-trimethoxy amphetamine.
(4) Bufotenine.
(5) Diethyltryptamine.
(6) Dimethyltryptamine.
(7) 4-methyl-2,5-diamethoxyamphetamine.
(8) Ibogaine.
(9) Lysergic acid diethylamide.
(10) Marihuana.
(11) Mescaline.
(12) Peyote.
(13) N-ethyl-3-piperidyl benzilate.
(14) N-methyl-3-piperidyl benzilate.
(15) Psilocybin.
(16) Psilocyn.
(17) Tetrahydrocannabinols.
(18) 4-methylmethcathinone (Mephedrone).

App.84a
(19) 3,4-methylenedioxypyrovalerone (MDPV).
(20) 2-(2,5-Dimethoxy-4-ethylphenyl)
ethanamine (2C–E).
(21) 2-(2,5-Dimethoxy-4-methylphenyl)
ethanamine (2C–D).
(22) 2-(4-Chloro-2,5-dimethoxyphenyl)
ethanamine (2C–C).
(23) 2-(4-Iodo-2,5-dimethoxyphenyl) ethanamine
(2C–I).
(24) 2-[4-(Ethylthio)-2,5-dimethoxyphenyl]
ethanamine (2C–T–2).
(25) 2-[4-(Isopropylthio)-2,5-dimethoxyphenyl]
ethanamine (2C–T–4).
(26) 2-(2,5-Dimethoxyphenyl) ethanamine (2C–H).
(27) 2-(2,5-Dimethoxy-4-nitro-phenyl)
ethanamine (2C–N).
(28) 2-(2,5-Dimethoxy-4-(n)-propylphenyl)
ethanamine (2C–P).
(d)
(1) Unless specifically exempted or unless listed in
another schedule, any material, compound, mixture, or
preparation which contains any quantity of cannabimimetic agents, or which contains their salts,
isomers, and salts of isomers whenever the existence
of such salts, isomers, and salts of isomers is possible
within the specific chemical designation.
(2) In paragraph (1):
(A) The term “cannabimimetic agents” means any
substance that is a cannabinoid receptor type

App.85a
1 (CB1 receptor) agonist as demonstrated by
binding studies and functional assays within
any of the following structural classes:
(i)

2-(3-hydroxycyclohexyl)phenol with substitution at the 5-position of the phenolic
ring by alkyl or alkenyl, whether or not
substituted on the cyclohexyl ring to any
extent.

(ii) 3-(1-naphthoyl) indole or 3-(1-naphthylmethane) indole by substitution at the
nitrogen atom of the indole ring, whether
or not further substituted on the indole
ring to any extent, whether or not
substituted on the naphthoyl or naphthyl
ring to any extent.
(iii) 3-(1-naphthoyl)pyrrole by substitution
at the nitrogen atom of the pyrrole ring,
whether or not further substituted in the
pyrrole ring to any extent, whether or
not substituted on the naphthoyl ring to
any extent.
(iv) 1-(1-naphthylmethylene)indene by substitution of the 3-position of the indene
ring, whether or not further substituted
in the indene ring to any extent, whether
or not substituted on the naphthyl ring
to any extent.
(v) 3-phenylacetylindole or 3-benzoylindole
by substitution at the nitrogen atom of
the indole ring, whether or not further
substituted in the indole ring to any
extent, whether or not substituted on
the phenyl ring to any extent.

App.86a
(B) Such term includes—
(i)

5-(1,1-dimethylheptyl)-2-[(1R,3S)-3hydroxycyclohexyl]-phenol (CP–47,497);

(ii) 5-(1,1-dimethyloctyl)-2-[(1R,3S)-3hydroxycyclohexyl]-phenol
(cannabicyclohexanol or CP–47,497 C8homolog);
(iii) 1-pentyl-3-(1-naphthoyl) indole (JWH–
018 and AM678);
(iv) 1-butyl-3-(1-naphthoyl) indole (JWH–
073);
(v) 1-hexyl-3-(1-naphthoyl) indole (JWH–
019);
(vi) 1-[2-(4-morpholinyl) ethyl]-3-(1naphthoyl) indole (JWH–200);
(vii) 1-pentyl-3-(2-methoxyphenylacetyl)
indole (JWH–250);
(viii) 1-pentyl-3-[1-(4-methoxynaphthoyl)]
indole (JWH–081);
(ix) 1-pentyl-3-(4-methyl-1naphthoyl)indole (JWH–122);
(x) 1-pentyl-3-(4-chloro-1-naphthoyl) indole
(JWH–398);
(xi) 1-(5-fluoropentyl)-3-(1-naphthoyl)
indole (AM2201);
(xii) 1-(5-fluoropentyl)-3-(2-iodobenzoyl)
indole (AM694);
(xiii) 1-pentyl-3-[(4-methoxy)-benzoyl] indole
(SR–19 and RCS–4);

App.87a
(xiv) 1-cyclohexylethyl-3-(2methoxyphenylacetyl) indole (SR–18 and
RCS–8); and
(xv) 1-pentyl-3-(2-chlorophenylacetyl) indole
(JWH–203).
Schedule II
(a) Unless specifically excepted or unless listed
in another schedule, any of the following substances
whether produced directly or indirectly by extraction
from substances of vegetable origin, or independently
by means of chemical synthesis, or by a combination
of extraction and chemical synthesis:
(1) Opium and opiate, and any salt, compound,
derivative, or preparation of opium or opiate.
(2) Any salt, compound, derivative, or preparation
thereof which is chemically equivalent or
identical with any of the substances referred
to in clause (1), except that these substances
shall not include the isoquinoline alkaloids
of opium.
(3) Opium poppy and poppy straw.
(4) coca3 leaves, except coca leaves and extracts
of coca leaves from which cocaine, ecgonine,
and derivatives of ecgonine or their salts
have been removed; cocaine, its salts, optical
and geometric isomers, and salts of isomers;
ecgonine, its derivatives, their salts, isomers,
and salts of isomers; or any compound,
mixture, or preparation which contains any
3 So in original. Probably should be capitalized.

App.88a
quantity of any of the substances referred to
in this paragraph.
(b) Unless specifically excepted or unless listed
in another schedule, any of the following opiates,
including their isomers, esters, ethers, salts, and salts
of isomers, esters and ethers, whenever the existence
of such isomers, esters, ethers, and salts is possible
within the specific chemical designation:
(1) Alphaprodine.
(2) Anileridine.
(3) Bezitramide.
(4) Dihydrocodeine.
(5) Diphenoxylate.
(6) Fentanyl.
(7) Isomethadone.
(8) Levomethorphan.
(9) Levorphanol.
(10) Metazocine.
(11) Methadone.
(12) Methadone-Intermediate, 4-cyano-2-dimethylamino-4,4-diphenyl butane.
(13) Moramide-Intermediate, 2-methyl-3-morpholino-1, 1-diphenylpropane-carboxylic acid.
(14) Pethidine.
(15) Pethidine-Intermediate-A, 4-cyano-1-methyl4-phenylpiperidine.
(16) Pethidine-Intermediate-B,
piperidine-4-carboxylate.

ethyl-4-phenyl-

App.89a
(17) Pethidine-Intermediate-C, 1-methyl-4-phenylpiperidine-4-carboxylic acid.
(18) Phenazocine.
(19) Piminodine.
(20) Racemethorphan.
(21) Racemorphan.
(c) Unless specifically excepted or unless listed
in another schedule, any injectable liquid which
contains any quantity of methamphetamine, including
its salts, isomers, and salts of isomers.
Schedule III
(a) Unless specifically excepted or unless listed
in another schedule, any material, compound, mixture,
or preparation which contains any quantity of the
following substances having a stimulant effect on the
central nervous system:
(1) Amphetamine, its salts, optical isomers, and
salts of its optical isomers.
(2) Phenmetrazine and its salts.
(3) Any substance (except an injectable liquid)
which contains any quantity of methamphetamine, including its salts, isomers, and
salts of isomers.
(4) Methylphenidate.
(b) Unless specifically excepted or unless listed
in another schedule, any material, compound, mixture,
or preparation which contains any quantity of the
following substances having a depressant effect on the
central nervous system:

App.90a
(1) Any substance which contains any quantity
of a derivative of barbituric acid, or any salt
of a derivative of barbituric acid.
(2) Chorhexadol.
(3) Glutethimide.
(4) Lysergic acid.
(5) Lysergic acid amide.
(6) Methyprylon.
(7) Phencyclidine.
(8) Sulfondiethylmethane.
(9) Sulfonethylmethane.
(10) Sulfonmethane.
(c) Nalorphine.
(d) Unless specifically excepted or unless listed
in another schedule, any material, compound, mixture,
or preparation containing limited quantities of any of
the following narcotic drugs, or any salts thereof:
(1) Not more than 1.8 grams of codeine per 100
milliliters or not more than 90 milligrams
per dosage unit, with an equal or greater
quantity of an isoquinoline alkaloid of opium.
(2) Not more than 1.8 grams of codeine per 100
milliliters or not more than 90 milligrams
per dosage unit, with one or more active, nonnarcotic ingredients in recognized therapeutic
amounts.
(3) Not more than 300 milligrams of dihydrocodeinone per 100 milliliters or not more
than 15 milligrams per dosage unit, with a

App.91a
fourfold or greater quantity of an isoquinoline
alkaloid of opium.
(4) Not more than 300 milligrams of dihydrocodeinone per 100 milliliters or not more
than 15 milligrams per dosage unit, with one
or more active, nonnarcotic ingredients in
recognized therapeutic amounts.
(5) Not more than 1.8 grams of dihydrocodeine
per 100 milliliters or not more than 90
milligrams per dosage unit, with one or more
active, nonnarcotic ingredients in recognized
therapeutic amounts.
(6) Not more than 300 milligrams of ethylmorphine per 100 milliliters or not more than 15
milligrams per dosage unit, with one or more
active, nonnarcotic ingredients in recognized
therapeutic amounts.
(7) Not more than 500 milligrams of opium per
100 milliliters or per 100 grams, or not more
than 25 milligrams per dosage unit, with one
or more active, nonnarcotic ingredients in
recognized therapeutic amounts.
(8) Not more than 50 milligrams of morphine
per 100 milliliters or per 100 grams with one
or more active, nonnarcotic ingredients in
recognized therapeutic amounts.
(e) Anabolic steroids.
Schedule IV
(1) Barbital.
(2) Chloral betaine.

App.92a
(3) Chloral hydrate.
(4) Ethchlorvynol.
(5) Ethinamate.
(6) Methohexital.
(7) Meprobamate.
(8) Methylphenobarbital.
(9) Paraldehyde.
(10) Petrichloral.
(11) Phenobarbital.
Schedule V
Any compound, mixture, or preparation containing
any of the following limited quantities of narcotic
drugs, which shall include one or more nonnarcotic
active medicinal ingredients in sufficient proportion
to confer upon the compound, mixture, or preparation
valuable medicinal qualities other than those possessed
by the narcotic drug alone:
(1) Not more than 200 milligrams of codeine per
100 milliliters or per 100 grams.
(2) Not more than 100 milligrams of dihydrocodeine per 100 milliliters or per 100 grams.
(3) Not more than 100 milligrams of ethylmorphine per 100 milliliters or per 100 grams.
(4) Not more than 2.5 milligrams of diphenoxylate and not less than 25 micrograms of
atropine sulfate per dosage unit.
(5) Not more than 100 milligrams of opium per
100 milliliters or per 100 grams.

App.93a
(Pub. L. 91–513, title II, §202, Oct. 27, 1970, 84 Stat.
1247; Pub. L. 95–633, title I, §103, Nov. 10, 1978, 92
Stat. 3772; Pub. L. 98–473, title II, §§507(c), 509(b),
Oct. 12, 1984, 98 Stat. 2071, 2072; Pub. L. 99–570,
title I, §1867, Oct. 27, 1986, 100 Stat. 3207–55; Pub.
L. 99–646, §84, Nov. 10, 1986, 100 Stat. 3619; Pub. L.
101–647, title XIX, §1902(a), Nov. 29, 1990, 104 Stat.
4851; Pub. L. 112–144, title XI, §1152, July 9, 2012,
126 Stat. 1130.)
Amendments
2012—Subsec. (c). Pub. L. 112–144, §1152(b), added
schedule I(c)(18) to (28).
Pub. L. 112–144, §1152(a), added schedule I(d).
1990—Subsec. (c). Pub. L. 101–647 added item (e) at
end of schedule III.
1986—Subsec. (c). Pub. L. 99–646 amended schedule
II(a)(4) generally. Prior to amendment, schedule
II(a)(4) read as follows: “Coca leaves (except coca
leaves and extracts of coca leaves from which
cocaine, ecgonine, and derivatives of ecgonine or
their salts have been removed); cocaine, its salts,
optical and geometric isomers, and salts of
isomers; and ecgonine, its derivatives, their salts,
isomers, and salts of isomers.”
Pub. L. 99–570 amended schedule II(a)(4) generally.
Prior to amendment, schedule II(a)(4) read as follows:
“Coca leaves and any salt, compound, derivative, or
preparation of coca leaves (including cocaine and
ecgonine and their salts, isomers, derivatives, and
salts of isomers and derivatives), and any salt, compound, derivative, or preparation thereof which is
chemically equivalent or identical with any of these

App.94a
substances, except that the substances shall not
include decocainized coca leaves or extraction of coca
leaves, which extractions do not contain cocaine or
ecgonine.”
1984—Subsec. (c). Pub. L. 98–473, §507(c), in schedule
II(a)(4) added applicability to cocaine and ecgonine
and their salts, isomers, etc.
Subsec. (d). Pub. L. 98–473, §509(b), struck out
subsec. (d) which related to authority of Attorney
General to except stimulants or depressants containing
active medicinal ingredients.
1978—Subsec. (d)(3). Pub. L. 95–633 added cl. (3).
Effective Date of 1990 Amendment
Amendment by Pub. L. 101–647 effective 90 days after
Nov. 29, 1990, see section 1902(d) of Pub. L. 101–647,
set out as a note under section 802 of this title.
Effective Date of 1978 Amendment
Amendment by Pub. L. 95–633 effective on date the
Convention on Psychotropic Substances enters into
force in the United States [July 15, 1980], see section
112 of Pub. L. 95–633, set out as an Effective Date
note under section 801a of this title.
Title 21 Chapter 13 Section 841(b)(1)(A)(vii)
(b) Penalties Except as otherwise provided in
section 849, 859, 860, or 861 of this title, any person
who violates subsection (a) of this section shall be
sentenced as follows:

App.95a
(1)
(A) In the case of a violation of subsection (a) of this
section involving—
(vii) 1000 kilograms or more of a mixture or
substance containing a detectable amount of
marihuana, or 1,000 or more marihuana plants
regardless of weight; such person shall be
sentenced to a term of imprisonment which may
not be less than 10 years or more than life and if
death or serious bodily injury results from the use
of such substance shall be not less than 20 years
or more than life, a fine not to exceed the greater
of that authorized in accordance with the
provisions of title 18 or $10,000,000 if the
defendant is an individual or $50,000,000 if the
defendant is other than an individual, or both. If
any person commits such a violation after a prior
conviction for a serious drug felony or serious
violent felony has become final, such person
shall be sentenced to a term of imprisonment of
not less than 15 years and not more than life
imprisonment and if death or serious bodily
injury results from the use of such substance
shall be sentenced to life imprisonment, a fine not
to exceed the greater of twice that authorized in
accordance with the provisions of title 18 or
$20,000,000 if the defendant is an individual or
$75,000,000 if the defendant is other than an
individual, or both. If any person commits a
violation of this subparagraph or of section 849,
859, 860, or 861 of this title after 2 or more prior
convictions for a serious drug felony or serious
violent felony have become final, such person
shall be sentenced to a term of imprisonment of

App.96a
not less than 25 years and fined in accordance
with the preceding sentence. Notwithstanding
section 3583 of title 18, any sentence under this
subparagraph shall, in the absence of such a prior
conviction, impose a term of supervised release of
at least 5 years in addition to such term of
imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of
at least 10 years in addition to such term of
imprisonment. Notwithstanding any other provision of law, the court shall not place on probation
or suspend the sentence of any person sentenced
under this subparagraph. No person sentenced
under this subparagraph shall be eligible for
parole during the term of imprisonment imposed
therein.
Title 21 Chapter 13 Section 841(b)(1)(B)(vii)
(B) In the case of a violation of subsection (a) of
this section involving—
(vii) 100 kilograms or more of a mixture or
substance containing a detectable amount of
marihuana, or 100 or more marihuana plants
regardless of weight;
such person shall be sentenced to a term of
imprisonment which may not be less than 5 years
and not more than 40 years and if death or
serious bodily injury results from the use of such
substance shall be not less than 20 years or more
than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of
title 18 or $5,000,000 if the defendant is an
individual or $25,000,000 if the defendant is
other than an individual, or both. If any person

App.97a
commits such a violation after a prior conviction
for a serious drug felony or serious violent felony
has become final, such person shall be sentenced
to a term of imprisonment which may not be less
than 10 years and not more than life imprisonment
and if death or serious bodily injury results from
the use of such substance shall be sentenced to
life imprisonment, a fine not to exceed the greater
of twice that authorized in accordance with the
provisions of title 18 or $8,000,000 if the
defendant is an individual or $50,000,000 if the
defendant is other than an individual, or both.
Notwithstanding section 3583 of title 18, any
sentence imposed under this subparagraph shall,
in the absence of such a prior conviction, include
a term of supervised release of at least 4 years in
addition to such term of imprisonment and shall,
if there was such a prior conviction, include a
term of supervised release of at least 8 years in
addition to such term of imprisonment. Notwithstanding any other provision of law, the court
shall not place on probation or suspend the
sentence of any person sentenced under this
subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during
the term of imprisonment imposed therein.
21 U.S.C. § 844—Penalties for Simple Possession
(a) Unlawful acts; penalties
It shall be unlawful for any person knowingly or
intentionally to possess a controlled substance
unless such substance was obtained directly, or
pursuant to a valid prescription or order, from a
practitioner, while acting in the course of his

App.98a
professional practice, or except as otherwise
authorized by this subchapter or subchapter II of
this chapter. It shall be unlawful for any person
knowingly or intentionally to possess any list I
chemical obtained pursuant to or under authority
of a registration issued to that person under
section 823 of this title or section 958 of this title
if that registration has been revoked or suspended,
if that registration has expired, or if the registrant
has ceased to do business in the manner contemplated by his registration. It shall be unlawful for
any person to knowingly or intentionally purchase
at retail during a 30 day period more than 9
grams of ephedrine base, pseudoephedrine base,
or phenylpropanolamine base in a scheduled
listed chemical product, except that, of such 9
grams, not more than 7.5 grams may be imported
by means of shipping through any private or
commercial carrier or the Postal Service. Any
person who violates this subsection may be
sentenced to a term of imprisonment of not more
than 1 year, and shall be fined a minimum of
$1,000, or both, except that if he commits such
offense after a prior conviction under this subchapter or subchapter II of this chapter, or a prior
conviction for any drug, narcotic, or chemical
offense chargeable under the law of any State,
has become final, he shall be sentenced to a term
of imprisonment for not less than 15 days but not
more than 2 years, and shall be fined a minimum
of $2,500, except, further, that if he commits such
offense after two or more prior convictions under
this subchapter or subchapter II of this chapter,
or two or more prior convictions for any drug,
narcotic, or chemical offense chargeable under

App.99a
the law of any State, or a combination of two or
more such offenses have become final, he shall be
sentenced to a term of imprisonment for not less
than 90 days but not more than 3 years, and shall
be fined a minimum of $5,000. Notwithstanding
any penalty provided in this subsection, any
person convicted under this subsection for the
possession of flunitrazepam shall be imprisoned
for not more than 3 years, shall be fined as
otherwise provided in this section, or both. The
imposition or execution of a minimum sentence
required to be imposed under this subsection
shall not be suspended or deferred. Further, upon
conviction, a person who violates this subsection
shall be fined the reasonable costs of the
investigation and prosecution of the offense,
including the costs of prosecution of an offense as
defined in sections 1918 and 1920 of title 28,
except that this sentence shall not apply and a
fine under this section need not be imposed if the
court determines under the provision of title 18
that the defendant lacks the ability to pay.
(b) Repealed. Pub. L. 98–473, title II, § 219(a),
Oct. 12, 1984, 98 Stat. 2027
(c) “Drug, Narcotic, or Chemical Offense” Defined
As used in this section, the term “drug, narcotic,
or chemical offense” means any offense which
proscribes the possession, distribution, manufacture, cultivation, sale, transfer, or the attempt
or conspiracy to possess, distribute, manufacture,
cultivate, sell or transfer any substance the
possession of which is prohibited under this
subchapter.

App.100a
CONGRESSIONAL RECORD
CONGRESSIONAL RECORD—
HOUSE OF REPRESENTATIVES
JUNE 19, 2019
COMMERCE, JUSTICE, SCIENCE,
AND RELATED AGENCIES APPROPRIATIONS ACT, 2020
GENERAL LEAVE
Mrs. LOWEY. Mr. Speaker, I ask unanimous consent that all Members may have 5 legislative days to
revise and extend their remarks and to include
extraneous material on H.R. 3055.
The SPEAKER pro tempore. Is there objection to
the request of the gentlewoman from New York?
There was no objection.
The SPEAKER pro tempore. Pursuant to House
Resolution 445 and rule XVIII, the Chair declares the
House in the Committee of the Whole House on the
state of the Union for the consideration of the bill,
H.R. 3055.
The Chair appoints the gentleman from Oregon
(Mr. BLUMENAUER) to preside over the Committee
of the Whole.
[…]
SEC. 530.
None of the funds made available by this Act may
be used in contravention of section 7606 (“Legitimacy of Industrial Hemp Research”) of the
Agricultural Act of 2014 (Public Law 113–79) by

App.101a
the Department of Justice or the Drug Enforcement Administration.
SEC. 531.
None of the funds made available under this Act
to the Department of Justice may be used, with
respect to any of the States of Alabama, Alaska,
Arizona, Arkansas, California, Colorado, Connecticut, Delaware, Florida, Georgia, Hawaii, Illinois,
Indiana, Iowa, Kentucky, Louisiana, Maine,
Maryland, Massachusetts, Michigan, Minnesota,
Mississippi, Missouri, Montana, Nevada, New
Hampshire, New Jersey, New Mexico, New York,
North Carolina, North Dakota, Ohio, Oklahoma,
Oregon, Pennsylvania, Rhode Island, South
Carolina, Tennessee, Texas, Utah, Vermont,
Virginia, Washington, West Virginia, Wisconsin,
and Wyoming, or with respect to the District of
Columbia, the Commonwealth of the Northern
Mariana Islands, Guam, or Puerto Rico, to
prevent any of them from implementing their own
laws that authorize the use, distribution,
possession, or cultivation of medical marijuana.
Rules Committee Print 115–66
Text of the House Amendment to the
Senate Amendment to H.R. 1625
[Showing the text of the Consolidated
Appropriations Act, 2018.]
SEC. 538.
None of the funds made available under this Act
to the Department of Justice may be used, with
respect to any of the States of Alabama, Alaska,

App.102a
Arizona, Arkansas, California, Colorado, Connecticut, Delaware, Florida, Georgia, Hawaii, Illinois,
Indiana, Iowa, Kentucky, Louisiana, Maine,
Maryland, Massachusetts, Michigan, Minnesota,
Mississippi, Missouri, Montana, Nevada, New
Hampshire, New Jersey, New Mexico, New York,
North Carolina, North Dakota, Ohio, Oklahoma,
Oregon, Pennsylvania, Rhode Island, South
Carolina, Tennessee, Texas, Utah, Vermont,
Virginia, Washington, West Virginia, Wisconsin,
and Wyoming, or with respect to the District of
Columbia, Guam, or Puerto Rico, to prevent any
of them from implementing their own laws that
authorize the use, distribution, possession, or
cultivation of medical marijuana.

115TH CONGRESS 1ST SESSION
S. 1662 [REPORT NO. 115-139]
Making appropriations for the Departments of
Commerce and Justice, Science, and Related
Agencies for the fiscal year ending September 30,
2018, and for other purposes.
In the Senate of the United States July 27, 2017
A BILL
Making appropriations for the Departments of
Commerce and Justice, Science, and Related
Agencies for the fiscal year ending September 30,
2018, and for other purposes.
Be it enacted by the Senate and House of Representatives of the United States of Anierica in
Congress assembled, That the following sums are

App.103a
appropriated, out of any money in the Treasury not
otherwise appropriated, for the Departments of Commerce and Justice, Science, and Related Agencies for
the fiscal year ending September 30, 2018, and for
other purposes, namely:
SEC. 537.
Of the funds appropriated or otherwise made
available in this Act for the National Oceanic and
Atmospheric Administration (NOAA), NOAA
shall, as part of fisheries science and management
activities, obligate funding for the placement of at
sea monitors on vessels before obligating funding
for observer-related costs associated with
standardized bycatch reporting methodology
requirements.
MEDICAL MARIJUANA
SEC. 538.
None of the funds made available under this Act
to the Department of Justice may be used, with
respect to any of the States of Alabama, Alaska,
Arizona, Arkansas, California, Colorado, Connecticut, Delaware, Florida, Georgia, Hawaii, Illinois,
Indiana, Iowa, Kentucky, Louisiana, Maine,
Maryland, Massachusetts, Michigan, Minnesota,
Mississippi, Missouri, Montana, Nevada, New
Hampshire, New Jersey, New Mexico, New York,
North Carolina, North Dakota, Ohio, Oklahoma,
Oregon, Pennsylvania, Rhode Island, South
Carolina, Tennessee, Texas, Utah, Vermont,
Virginia, Washington, West Virginia, Wisconsin,
and Wyoming, or with respect to the District of
Columbia, Guam, or Puerto Rico, to prevent any

App.104a
such State or jurisdiction from implementing a
law that authorizes the use, distribution, possession, or cultivation of medical marijuana.

114TH CONGRESS 1ST SESSION
H. R. 2578 [REPORT NO. 114-66]
June 8, 2015–Received—Read Twice and Referred to
the Committee on Appropriations June 16, 2015
Reported with an Amendment
AN ACT
Making appropriations for the Departments of
Commerce and Justice, Science, and Related
Agencies for the fiscal year ending September 30,
2016, and for other purposes.
SEC. 542.
None of the funds made available in this Act to
the Department of Justice may be used, with
respect to any of the States of Alabama, Alaska,
Arizona, California, Colorado, Connecticut,
Delaware, Florida, Georgia, Hawaii, Illinois, Iowa,
Kentucky, Louisiana, Maine, Maryland, Massachusetts, Michigan, Minnesota, Mississippi, Missouri,
Montana, Nevada, New Hampshire, New Jersey,
New Mexico, New York, North Carolina, Oklahoma, Oregon, Rhode Island, South Carolina,
Tennessee, Texas, Utah, Vermont, Virginia, Washington, and Wisconsin, or with respect to either
the District of Columbia or Guam, to prevent any of
them from implementing their own laws that

App.105a
authorize the use, distribution, possession, or
cultivation of medical marijuana.
This Act may be cited as the “Commerce, Justice,
Science, and Related Agencies Appropriations
Act, 2016”

113TH CONGRESS 2D SESSION
H. R. 4660
IN THE SENATE OF THE UNITED STATES
June 2, 2014–Received—June 10, 2014
Read twice and placed on the calendar
AN ACT
Making appropriations for the Departments of
Commerce and Justice, Science, and Related
Agencies for the fiscal year ending September 30,
2015, and for other purposes.
558.
None of the funds made available in this Act to
the Department of Justice may be used, with
respect to the States of Alabama, Alaska, Arizona,
California, Colorado, Connecticut, Delaware,
District of Columbia, Florida, Hawaii, Illinois,
Iowa, Kentucky, Maine, Maryland, Massachusetts, Michigan, Minnesota, Mississippi, Missouri,
Montana, Nevada, New Hampshire, New Jersey,
New Mexico, Oregon, Rhode Island, South
Carolina, Tennessee, Utah, Vermont, Washington,
and Wisconsin, to prevent such States from
implementing their own State laws that authorize

App.106a
the use, distribution, possession, or cultivation of
medical marijuana.

App.107a
TRANSCRIPT OF THE ORAL ARGUMENT
IN THE UNITED STATES DISTRICT COURT,
SOUTHERN DISTRICT OF NEW YORK
(FEBRUARY 14, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________________
MARVIN WASHINGTON, ET AL.,

Plaintiffs,
v.
JEFFERSON BEAUREGARD
SESSIONS, III, ET AL.,

Defendants.
________________________
17 Civ. 5625 (AKH)
Before: Hon. Alvin K. HELLERSTEIN,
District Judge.
(Case called)
THE COURT: The next time we hear that command
“all rise” it may be that Aaron Judge has hit his
first home run.
This is Marvin Washington and others against
Jefferson Beauregard Sessions, III in his official
capacity as United States Attorney General and
other officials and agencies of the government, 17
Civ. 5625.

App.108a
Who is going to speak for the plaintiff?
MR. HILLER: Your Honor, Michael Hiller of Hiller,
PC. I’ll be addressing five causes of action. With
the Court’s permission we would like Lauren
Rudick to argue the commerce clause claim and
Joseph Bondy to argue—
THE COURT: We are not going to do that. They can
get up and answer to my specific questions, but
I’ll look to you, Mr. Hiller, to do it all.
MR. HILLER: Very well, your Honor.
THE COURT: Why don’t you introduce everyone else
on your side.
MR. HILLER: Again, Michael Hiller from Hiller, PC;
my partner, Lauren Rudick also of Hiller, PC;
Joseph Bondy; David Holland. With the Court’s
permission I would just like to introduce the
plaintiffs who are all represented here today.
THE COURT: Sure.
MR. HILLER: The first gentleman on the aisle is Jose
Belen. The two gentlemen next to him are Jake
Plowden and Nelson Guerrero from the Cannabis
Cultural Association. Marvin Washington. Neil
Bridgewater, also of the Cannabis Cultural
Association. Dean and Liza Bortell, on behalf of
Alexis Bortell. Lastly, Sebastian Cotte on behalf
of his son, Jagger Cotte.
THE COURT: Welcome, all.
Defendants.
MR. DOLINGER: Good morning, your Honor, Samuel
Dolinger, Assistant United States Attorney, for

App.109a
the government. With me at counsel table is
David S. Jones.
THE COURT: Sorry?
MR. DOLINGER: David Jones.
THE COURT: Is Isodore Dolinger, the Bronx congressman, your grandfather?
MR. DOLINGER: He is not. Nor am I related to
Magistrate Judge Dolinger.
THE COURT: Just a coincidence.
MR. DOLINGER: I think that’s right, your Honor.
THE COURT: Mr. Dolinger, you are up. It’s your
motion.
MR. DOLINGER: Thank you.
Your Honor, we are here on defendants’ motion to
dismiss the amended complaint. The plaintiffs
assert a variety of constitutional challenges to the
federal regulation of marijuana under the
Controlled Substances Act. Courts around the
country have considered similar or identical claims
and have rejected them.
The Court should do the same here. The briefs in
support of our motion are lengthy, and I’m happy
to answer any questions the Court has.
THE COURT: I’ll have them along the way. Make
your argument.
MR. DOLINGER: Thank you, your Honor.
The plaintiffs’ principal challenge sounds in due
process, and they assert that the regulation of

App.110a
marijuana on schedule 1 of the CSA violates the
rational basis test.
Under rational basis review, a law passed by
Congress must only be rationally related to a
legitimate government interest. This is the most
deferential standard of review. Any conceivable
basis will suffice. It need not be a stated basis
that Congress made factual findings on or put
into a record. A law has a presumption of
rationality under this test. In order to state a
claim the plaintiffs’ complaint must negate every
conceivable basis that could support the law, and
they haven’t done so here.
Among the interests that Congress stated that it
was—
THE COURT: What is the relief that plaintiffs seek?
MR. DOLINGER: As I understand it, your Honor, they
seek the invalidation of the Controlled Substances
Act as relates to marijuana.
THE COURT: That narrow?
MR. DOLINGER: I’m sorry, your Honor?
THE COURT: Is it that narrow?
MR. DOLINGER: I don’t know whether they are
seeking a broader invalidation of the Controlled
Substances Act. It’s my understanding.
THE COURT: That’s what you just said. Is it a
validation of the act insofar as it places marijuana
on schedule 1?
MR. DOLINGER: Yes, your Honor.
THE COURT: That’s by act of Congress in 1972?

App.111a
MR. DOLINGER: 1970, your Honor.
At the time of passage Congress stated that its
goals were to protect public health and welfare
from drug abuse and drug trafficking. In 1998,
your Honor, Congress passed a supplemental
statement in which it opposed the legalization of
marijuana for medical use, citing the prevalence
of its use and abuse by children under the age of
18. This is one of the many bases that Congress
and others have cited for marijuana on schedule
1, is the potential of its abuse by children and
thereby to protect the health of minors. There are
also public safety concerns associated with
marijuana use, including—
THE COURT: There is another criteria also that’s
discussed. That is whether there was any medical
use. Was there any finding on that by Congress
in 19—when was the amendment, 1998?
MR. DOLINGER: In 1998, there was no amendment,
your Honor. It was a statement that was attached
to appropriations legislation.
THE COURT: What effect is that?
MR. DOLINGER: It states Congress’ intent and
findings and its opposition to the legalization of
medical marijuana.
THE COURT: It’s a statement of general policy. It’s
nothing more than that. I don’t know what kind
of legal consequence it has.
MR. DOLINGER: Among other things, your Honor,
it’s one of many legitimate rational bases that
Congress could have—

App.112a
THE COURT: This is 28 years after the law was
passed.
MR. DOLINGER: That’s right, your Honor. At the
time the law was passed Congress had a rational
basis for it as well.
THE COURT: Seems to me the only test that’s
relevant is what was before the Congress in 1970.
The escape valve in the law is a forward-seeking
law. It created a schedule, set of schedules that
would last, and Congress provided that from time
to time there would be review.
MR. DOLINGER: That’s right, your Honor.
THE COURT: A later event doesn’t necessarily invalidate the law.
MR. DOLINGER: I think that’s especially true in this
case, as you are pointing out.
THE COURT: All I think about is that the 1998 law
interfered with the due process set up by the law
that would be in Attorney General review.
MR. DOLINGER: Your Honor, the congressional purpose in setting up this administrative review
process was to permit the Attorney General and
his delegates to assess new scientific and medical
information on controlled substances.
THE COURT: Doesn’t the 1998 pronouncement in the
air by Congress, as it were, interfere with that
process by the Attorney General or his delegee?
MR. DOLINGER: No, your Honor. Because Congress
isn’t the ultimate decider here of federal drug
policy.

App.113a
THE COURT: Congress in 1970 passed a law. Congress
acts only through laws.
MR. DOLINGER: That’s true, your Honor.
THE COURT: If it’s not a law, whatever Congress
says doesn’t have any legal consequence.
MR. DOLINGER: This was, in fact, passed through an
appropriations bill that did have the force of law.
THE COURT: Which bill?
MR. DOLINGER: It was the appropriations legislation
for 1999. To your point, your Honor.
THE COURT: Mr. Dolinger, don’t go fast. You go
faster than I can think.
MR. DOLINGER: Sure, your Honor. My apologies.
THE COURT: Let me stop you there. It’s part of an
appropriations bill appropriating money for the
DEA, is that it?
MR. DOLINGER: I believe it was omnibus general
appropriations legislation.
THE COURT: What does that have to do with what
happened in 1970 or what the Attorney General
is supposed to be considering in 1998 or today?
MR. DOLINGER: The relevance of the bill is it
expressed Congress’ intent some years—
THE COURT: Fine. It gave money. What’s the big
deal? How much of that went to Schedule 1?
MR. DOLINGER: That, your Honor, I don’t have
information about.
THE COURT: Mr. Dolinger, that argument is not
getting anywhere.

App.114a
MR. DOLINGER: Understood, your Honor.
THE COURT: Stick with 1970 and the process after
that.
MR. DOLINGER: As of 1970, Congress made a list of
rationales for the law, principally among which
were these public health and safety concerns.
THE COURT: And it created five schedules.
MR. DOLINGER: That’s correct.
THE COURT: Teach me the importance of the
schedules.
MR. DOLINGER: And placed marijuana on schedule
1. The schedules are arrayed from 1 through 5 in
terms of the amount of control that the law places
on each substance.
THE COURT: What’s the difference among the different
schedules?
MR. DOLINGER: The only schedule that’s relevant
here is schedule 1, which requires that—
THE COURT: My mind goes beyond what’s focused
and relevant. What do the other schedules do?
MR. DOLINGER: The other schedules also provide for
the control of controlled substances that are
known to have some currently accepted medical
use.
THE COURT: What would be the consequence, for
example, if marijuana was shifted from schedule
1 to schedule 2?
MR. DOLINGER: The consequence would be that it
could be recognized to have some accepted medical
use if it were shifted.

App.115a
THE COURT: Would it still be criminal?
MR. DOLINGER: There would be criminal penalties
attached to the illegal distribution.
THE COURT: Resulting in custody.
MR. DOLINGER: Yes. Among other substances on
schedule 2 are certain opiates and amphetamines.
THE COURT: The scourge that’s now going on would
be a schedule 2 scourge.
MR. DOLINGER: There are drugs on schedule 2 that
are part of the current opioid crisis, your Honor.
Yes, that’s correct.
THE COURT: What happens if marijuana went to
schedule 3? What would be the consequence?
MR. DOLINGER: All of these schedules have potential
consequences for illegal distribution and use,
your Honor.
THE COURT: Even if it were on schedule 5, the most
lenient of the schedules, would there be criminal
consequences?
MR. DOLINGER: For illicit use, your Honor, and
distribution, that is my understanding, but I
would respectfully request to get back to the
Court on this.
THE COURT: What’s the answer to that question, Mr.
Hiller?
MR. HILLER: Not necessarily, your Honor. For
example, Robitussin is a schedule 5 drug. That’s
not an illicit drug. There are other drugs which
are prescription.

App.116a
THE COURT: If you periled Robitussin because of the
contents of the cough medicine, it could be illegal,
right?
MR. HILLER: Yes, it could.
THE COURT: Even though it’s an off-the-shelf drug?
MR. HILLER: That’s my understanding, Judge.
THE COURT: Off the record.
(Discussion off the record)
THE COURT: Mr. Hiller, even if it was on schedule 5
there would be circumstances where selling,
distributing an item on schedule 5 could be
criminal.
MR. HILLER: It could be, yes. There are circumstances.
THE COURT: Thank you, Mr. Hiller.
MR. HILLER: Sure.
MR. DOLINGER: As your Honor pointed out, there is
a scheduling process that the DEA follows by
delegation from the Attorney General to account
for developments in science and medicine—
THE COURT: Let’s say I’m a doctor specializing or
wanting to specialize in the administration of
marijuana for certain medical purposes, and we
recognize that there are now medical purposes
that can be useful to be treated with marijuana,
at least to remedy the problem of pain. How would
that doctor go about getting a reclassification?
MR. DOLINGER: Any person can submit a petition to
the DEA seeking a rescheduling of a drug and can
submit evidence that they assert supports the
rescheduling. In making the scheduling decision

App.117a
the DEA seeks a recommendation from the
Secretary of Health and Human Services.
THE COURT: Is there some kind of a trial?
MR. DOLINGER: There is an agency review process
that does result in an agency decision. There is
an extensive record.
THE COURT: Is a record created?
MR. DOLINGER: A record is created and is subject to
review in the courts of appeal.
THE COURT: Can the petitioner bring evidence?
MR. DOLINGER: Yes. The petitioner can submit
evidence.
THE COURT: So the petitioner is free to bring in all
kinds of evidence supporting his claim that there
should be a liberalization of the scheduling of
marijuana?
MR. DOLINGER: That’s right, your Honor. And that
is the forum in which—
THE COURT: Then there is a process and a final
determination by the agency.
MR. DOLINGER: Correct, your Honor.
THE COURT: Or under the Administrative Procedure
Act, there is a review by the D.C. Court of Appeals.
MR. DOLINGER: There is actually a specific statutory
provision under the Controlled Substances Act
that provides for review in any of the courts of
appeals. But the D.C. circuit has reviewed these
rescheduling decisions several times.

App.118a
THE COURT: As in any administrative agency cases,
the petitioner is free to ask the Court of Appeals
the jurisdiction where he lives to review the final
determination of the agency.
MR. DOLINGER: Yes, a petitioner may.
THE COURT: And then there is ultimate review in
the Supreme Court.
MR. DOLINGER: Yes, your Honor.
THE COURT: If the agency doesn’t do its duty, a writ
of mandamus can be taken out in an appropriate
Court of Appeals.
MR. DOLINGER: That’s true as well.
THE COURT: It’s just like any other situation in any
agency?
MR. DOLINGER: Yes, your Honor. With the specific
statutory guidelines that the agency must follow
in rescheduling decisions.
THE COURT: Like all other administrative agencies,
there are legal criteria that must be observed?
MR. DOLINGER: Yes, your Honor.
THE COURT: Indeed there have been such proceedings.
MR. DOLINGER: There have been a number of those
proceedings.
THE COURT: Was it part of your argument to tell me
about it?
MR. DOLINGER: Yes, your Honor.
THE COURT: Now would be a good time.

App.119a
MR. DOLINGER: This is addressed in our brief and
that is one of the grounds on which we have
moved to dismiss. There is this possibility of
administrative review that the plaintiffs have not
sought to take advantage of here.
THE COURT: They tell me it’s futile.
MR. DOLINGER: Yes, your Honor.
THE COURT: Meaning that a lot of people have lost.
MR. DOLINGER: That is correct, your Honor.
THE COURT: Then it takes a long time for the agency
to work.
MR. DOLINGER: These petitions have been unsuccessful in the past. But the last two decisions in 2011
and 2016 denying the scheduling of marijuana
found that there were not sufficient studies of
sufficiently high quality to show the efficacy of
marijuana.
THE COURT: Those aren’t decisions by the D.C.
Court of Appeals.
MR. DOLINGER: Those are decisions by the DEA on
the rescheduling petitions. One of those cases—
THE COURT: Affirmed by the District of Columbia
Court of Appeals.
MR. DOLINGER: Yes. One of them was affirmed. The
other, no review was taken. Or if a review was
taken, it was dismissed on jurisdictional grounds.
There was a 2013 D.C. Court of Appeals—
THE COURT: The substantive rule of the D.C. Court
of Appeals was established in 2013?

App.120a
MR. DOLINGER: The D.C. circuit did rule in 2013
and upheld the DEA’s refusal to reschedule the
drug, as supported by substantial evidence.
THE COURT: And the record that came up in 2013
was dated when?
MR. DOLINGER: That was the 2011 denial, your
Honor.
THE COURT: In 2011, six, seven years ago, the DEA,
after an administrative hearing and evidence and
the like, ruled that marijuana should remain
schedule 1?
MR. DOLINGER: Correct, your Honor.
THE COURT: And the petitioner didn’t like that rule,
so he appealed to the D.C. Court of Appeals that
the law says he should, and he lost in D.C. Court
of Appeals.
MR. DOLINGER: Yes, your Honor.
THE COURT: Although that rule is not binding on
me, it’s persuasive, isn’t it?
MR. DOLINGER: It’s very persuasive, your Honor.
Because in coming to that determination the D.C.
circuit applied a much more rigorous standard of
review than your Honor would apply under a
rational basis for a view to the law.
THE COURT: What was the standard review?
MR. DOLINGER: It is an APA type standard, your
Honor, substantial evidence.
THE COURT: Whether there is substantial evidence,
what is the determination of the agency?

App.121a
MR. DOLINGER: Supports factual findings which
reasonably support the legal conclusion.
THE COURT: And the D.C. Court of Appeals found
that there was.
MR. DOLINGER: That’s correct, your Honor.
THE COURT: As of 2011.
MR. DOLINGER: Yes. In a decision as of 2013. Among
other things, your Honor—
THE COURT: Plaintiff can go back now and say,
things have changed since 2011. Here are all
these medical uses and here are all these doctors’
testimonials about how much it is used and here
are my clients, and you have the people who have
been helped considerably by it, please change
your mind.
MR. DOLINGER: Exactly, your Honor. The administrative review process is the appropriate way to
present new evidence to the DEA concerning
allegations that there are scientific and medical
changes or advancements that could—
THE COURT: What is the doctrine of law that so
specifies?
MR. DOLINGER: I’m sorry, your Honor?
THE COURT: What is the doctrine of law that would
allow me to dismiss the case, as you want me to
do, on the ground that the proper remedy is in the
DEA and in the Court of Appeals?
MR. DOLINGER: It’s the doctrine of administrative
exhaustion, your Honor. Where there is an
available and adequate administrative remedy, a
court should not first hear a challenge before that

App.122a
administrative review process
exhausted. Here, the plaintiffs—

has

been

THE COURT: What does available mean? Administrative and available legal remedy?
MR. DOLINGER: It means that the process must
provide an opportunity for the relief that the
plaintiffs are seeking.
THE COURT: Suppose they just sit on their butts.
MR. DOLINGER: A writ of mandamus, as your Honor
stated, can be taken to a Court of Appeals seeking
to direct the agency to act if agency action has
been unduly delayed.
THE COURT: Plaintiffs say that there was a seven
and a half years’ delay. Do I remember correctly?
How many years, Mr. Hiller?
MR. HILLER: It’s nine, your Honor.
THE COURT: Nine years’ delay.
MR. DOLINGER: Your Honor, the agency.
THE COURT: Is anyone taking a writ in the D.C.
Court of Appeals and say, that’s unconscionable?
MR. DOLINGER: I understand there may have been
mandamus writs taken in the past in these cases,
your Honor. The most two recent rescheduling
petitions were pending for a shorter period than
that, for, I believe, five to six years, but the agency
process is exhaustive. It results in the compilation
of a record that is hundreds of pages long.
As I stated, the DEA takes a recommendation from
the secretary of HHS who delegates that responsibility to the Food and Drug Administration, which

App.123a
makes scientific findings that are binding on DEA.
That process necessarily takes time and provides
for this exhaustive record that is then available
to the Court of Appeals for administrative review.
THE COURT: Is there anything now pending before
the DEA?
MR. DOLINGER: Not to my understanding, your
Honor. There was this petition that was denied in
2016. Any party who is aggrieved by a DEA
decision of that type can take the appeal. But, as
I stated, no proper appeal was perfected from that
2016 decision.
THE COURT: I think I understand exhaustion. Let’s
move on to another point, unless I missed
something that you want to tell me about.
MR. DOLINGER: No, your Honor. Just that ruling on
exhaustion would dispose of all of the claims in
this case.
THE COURT: Including the constitutional claims?
MR. DOLINGER: Yes, your Honor. Because what
plaintiffs are seeking here is only a challenge to
the scheduling of marijuana on schedule 1.
THE COURT: By act of Congress.
MR. DOLINGER: By act of Congress. And if the drug
were rescheduled to another schedule, presumably
they would be getting all of the relief they are
seeking because they do not assert that marijuana
cannot be scheduled on any of the other schedules.
Actually, the Second Circuit ruled on that point.
THE COURT: In Kiffer.
MR. DOLINGER: In Kiffer. That’s right, your Honor.

App.124a
THE COURT: What year was Kiffer?
MR. DOLINGER: 1973. The case was cited with
approval in 2013 in U.S. v. Canori, also a Second
Circuit case, but held as—
THE COURT: Spell that last name.
MR. DOLINGER: C-a-n-o-r-i. Cited in our brief, your
Honor.
THE COURT: Why do you expose the fact that I don’t
remember it?
MR. DOLINGER: Just for reference, your Honor.
THE COURT: What year was Canori?
MR. DOLINGER: 2013.
THE COURT: It was a summary disposition, summary
order?
MR. DOLINGER: I know it was an opinion, I believe,
by Judge Cabranes.
THE COURT: You have two precedents that say that
the district court in the Southern District of New
York and other parts governed by the Second
Circuit cannot take up the proposition that the
act is unconstitutional.
MR. DOLINGER: Kiffer did hold that the scheduling
of marijuana as scheduled by Congress in 1970
was constitutionally rational and Canori—
THE COURT: It affirmed the conviction for violation
of the narcotics laws in the distribution of
marijuana, right?
MR. DOLINGER: It did not reopen the question. Yes,
your Honor.

App.125a
THE COURT: And the defense argument was that the
law is unconstitutional, right?
MR. DOLINGER: Yes.
THE COURT: And the Court held that it is constitutional?
MR. DOLINGER: Yes.
THE COURT: Is that preclusive?
MR. DOLINGER: Your Honor, these cases remain
binding on this court, yes.
THE COURT: Meaning it’s preclusive?
MR. DOLINGER: Yes.
THE COURT: Meaning I have no discretion.
MR. DOLINGER: That’s the government’s position,
your Honor.
THE COURT: Meaning if I rule for the plaintiff I
would be reversed.
MR. DOLINGER: Your Honor, that is our position,
yes.
THE COURT: More than your position. That’s the
ruling by the Second Circuit.
MR. DOLINGER: That’s right, your Honor. That is
the rule of the circuit and of the Supreme Court,
that the lower courts do not have the discretion
to disobey the binding precedents.
THE COURT: I once failed to follow a Second Circuit
precedent. I had found a Supreme Court precedent
that although not directly on point, I thought was
persuasive. And so I followed the Supreme Court
and my case went to the Supreme Court and the

App.126a
Second Circuit was reversed. And in the remand
the Second Circuit chastised me for not following
Second Circuit precedence. I suppose I could do
that now and get chastised again.
Why do you applaud a judge that’s going to be
chastised?
MR. DOLINGER: Your Honor, it is the rule that even
if there were some interceding precedent from the
Supreme Court, if it is not directly on point and if
it does not reverse that Second Circuit case, the
Second Circuit case does remain binding on this
Court.
THE COURT: Seems to me that I’m bound by Kiffer
and Canori.
MR. DOLINGER: We agree, your Honor.
THE COURT: What else do you want to tell me that’s
bad news for the plaintiff?
MR. DOLINGER: Most of the other claims, your
Honor, have also been rejected.
First, I’ll deal with the commerce clause claim.
That one was not rejected only by the Second
Circuit, but also by the Supreme Court itself in
Gonzalez v. Raich.
THE COURT: What’s the argument?
MR. DOLINGER: The plaintiffs’ argument, as I understand it, is, if there is solely intrastate distribution
or use of marijuana, that is not a proper subject
for a federal regulation under the commerce
clause.
THE COURT: What’s the case? Ogden v. something or
other established in 1938.

App.127a
MR. DOLINGER: Wickard v. Filburn is the precedent
that the Supreme Court ultimately relied on in
Raich to hold that economic effects of a law can
be aggregated—
THE COURT: Where does the distribution in a particular state, since it’s quite likely that the drug
can come from a different state, or be distributed
from a different state, interstate commerce exists
and there is jurisdiction on the part of Congress
to act. It’s like in a Hobbs Act. If someone sells
fruits and vegetables in a bodega and is held up,
the guy holding him up is subject to enhanced
penalties because he is violating the Hobbs Act.
Even though there is an argument that the
transaction is purely local, the bodega operates on
a particular street corner, their argument doesn’t
prevail because of interstate.
MR. DOLINGER: That’s right, your Honor. The effect
on interstate commerce can be minimal.
THE COURT: You are teaching me that the commerce
argument is not a valid argument.
MR. DOLINGER: It is foreclosed.
THE COURT: What else would you like to teach me?
I’m sorry that I’m disturbing your set argument.
You probably prepared for two days and two
nights on a sequence of argument and here the
judge is interrupting every minute.
MR. DOLINGER: We welcome your questions, your
Honor.
THE COURT: You do not.

App.128a
MR. DOLINGER: There are implications in the
plaintiffs’ papers concerning a fundamental right
either to use marijuana or to access the medication
of one’s choice. Those arguments have also been
rejected by all of the courts that have considered
them.
The applicable test for whether there is a
fundamental right comes from a Supreme Court
case from the late 1990s, Washington v. Glucksberg. It holds that a fundamental right exists only
if it is deeply rooted in the nation’s history and
traditions and is implicit in the concept of overt
liberty.
All of the cases that have considered whether there
is either a specific right to marijuana under the
fundamental rights jurisprudence or, more generally, to access medications of one’s choice, if they
are not approved under the regulatory regime—
THE COURT: By implication, that’s the rule of Kiffer.
MR. DOLINGER: Your Honor, Kiffer did not specifically
address fundamental—
THE COURT: I said by implication.
MR. DOLINGER: That’s right, your Honor.
THE COURT: If it were a fundamental right to
distribute marijuana, Kiffer would not have been—
MR. DOLINGER: That’s right, your Honor. And the
Court there did hold that there is no fundamental
right to distribute marijuana. It did not address
whether there is a fundamental right to use. But
subsequent cases have addressed that point and
have concluded that there isn’t.

App.129a
THE COURT: What else would you like to teach me?
MR. DOLINGER: Your Honor—
THE COURT: I think you have hit on all of the high
points.
MR. DOLINGER: Also, if you have further questions.
We are happy to rest on our brief.
THE COURT: Anything else in your brief that you
want to draw to my attention? Your brief is very
long.
MR. DOLINGER: Yes. The briefing is lengthy, your
Honor.
THE COURT: I read these at night, so my attention
span is very limited, even during the olympics.
MR. DOLINGER: Very briefly, your Honor, there are
claims concerning the constitutional right to
travel in the First Amendment.
THE COURT: Those are fundamental rights.
MR. DOLINGER: Those are fundamental rights. But
the Controlled Substances Act regulates only
possession of substances. It does not speak to
travel. It does not speak to expression. So under
the governing precedence there, too, there is no
constitutional claim.
THE COURT: If I wanted to hold up a bodega in New
Jersey, I couldn’t claim that I’m not allowed to
travel to New Jersey. My fundamental right to
travel is violated. I wouldn’t be able to argue that.
MR. DOLINGER: That’s right, your Honor.

App.130a
THE COURT: If it’s legitimately a crime, your right to
travel for purposes of having the drug for
distribution trumps the fundamental right.
MR. DOLINGER: Correct, your Honor.
THE COURT: However, if you just possessed the
marijuana to use it medicinally, without intending
to distribute it, it’s a federal crime.
MR. DOLINGER: Federal law does prohibit marijuana
and makes it contraband for all purposes as a
general matter.
THE COURT: But the law is it’s possession with intent
to distribute.
MR. DOLINGER: Distribution is treated differently
than simple possession, your Honor, but both are
illegal.
THE COURT: Simple possession is a misdemeanor?
MR. DOLINGER: That, your Honor, I would also have
to provide you something further on.
MR. BONDY: Yes, your Honor, it’s a misdemeanor.
MR. DOLINGER: Unless the Court has any questions.
THE COURT: I never had in 19 years a case of simple
possession. I’ve had cases of distribution.
MR. DOLINGER: I understand that it is—
THE COURT: If someone is using marijuana or carries
it, even for medicinal purposes, that person is
exposed to being arrested and tried for a misdemeanor.
MR. DOLINGER: It is regulated by the Controlled
Substances Act, yes, your Honor.

App.131a
THE COURT: It depends on whether that Controlled
Substances Act is legal. If it’s illegal, the travel is
violated. If it’s not legal, then you can’t travel
with it.
MR. DOLINGER: These claims do rely on their being
some other infirmity in the law. They cannot
stand on their own. That’s right.
THE COURT: Thank you.
MR. DOLINGER: Thank you.
THE COURT: Mr. Hiller, you want to make a speech
or you want to answer questions?
MR. HILLER: I think I want to start where your
Honor asked your questions so I can address
them directly, and maybe I’ll get into the speech
and maybe I won’t.
First, with respect to the petitioning process, Mr.
Dolinger argues that the petitioning process
constitutes a full defense to this action. As far as
I know, that argument that Mr. Dolinger has
made has been made twice and it’s been rejected
twice.
The first instance was Kiffer, actually was the
argument in Kiffer, was that the defendant had
no right—
THE COURT: That was a criminal case, Mr. Hiller. The
Second Circuit couldn’t duck that. An exhaustion
would not play a role there because they had to
rule on the validity of a conviction. What would
be the consequence if they didn’t rule?
MR. HILLER: That wasn’t the reason that they gave,
your Honor. What they said was, in order to get

App.132a
to the threshold point of arguing that it’s unconstitutional, the government came forward and
said, you can’t argue that because there is a
petitioning process and the judge said no. I am
going to allow the argument. So even though it
was a criminal case, your Honor, I don’t think it’s
distinguishable on that basis.
I would also point out that in U.S. v. Pickard,
which is one of the lead cases cited by the
government, the very argument that Mr. Dolinger
made was rejected by the court in U.S. v. Pickard.
If I could put my hand on the case, I could
actually direct you to the exact page.
Here we are. The citation is 100 F.Supp. 3rd 981
and it’s on page 996. And what the Court said
was: A provision conferring jurisdiction to entertain
such a constitutional challenge is not required to
be included in the CSA itself, nor is the statute
insulated from constitutional review by congressional delegation of authority to an agency to
consider an administrative petition. The government has not pointed to any clear and convincing
evidence that Congress intended to preclude
review of constitutional claims regarding the CSA.
On that basis, the Court entertained the
constitutional claims. I would respectfully
submit—
THE COURT: What happened?
MR. DOLINGER: In that.
MR. HILLER: In that particular case, because the
defendant bears the burden of proving his affirmative defense by a preponderance of the evidence

App.133a
on a motion to dismiss, he wasn’t able to meet
that standard.
But I would emphasize to this Court that the
standard in this case—
THE COURT: It’s also a criminal case, right?
MR. HILLER: It’s also a criminal case, your Honor.
But it’s cited by the defendants. If the defendants
are going to take the position that Pickard defeats
our case—
THE COURT: You are talking too fast. I can’t think
that fast.
MR. HILLER: Most of the cases upon which the
defendants rely in this matter are criminal
defense cases and this is one of them.
THE COURT: If I had a criminal case involving
distribution and a motion to dismiss were made,
I couldn’t say that I’m not entertaining that
because you have to go through an administrative
process that will take years. I have to address it,
as Pickard did. I don’t think there is an option in
the criminal case. You have to deal with it
directly.
MR. HILLER: There is a three-part test to determine
whether or not administrative remedies are
futile, your Honor. Even assuming that this
Court were not inclined to follow Pickard or Kiffer
on this point, we would respectfully submit that
the three-part test favors denial of the
defendants’ motion with respect to the administrative review process.
THE COURT: What are those three parts?

App.134a
MR. HILLER: We have to meet just one of them. First,
resort to the administrative remedy would cause
undue prejudice to a subsequent assertion of a
court action due to, for example, an unreasonable
or indefinite time frame for administrative
action. The second is, if there is any doubt that
the agency is empowered to grant relief, such as,
for example, if the agency lacks the institutional—
THE COURT: Can you slow up, please.
MR. HILLER: There is a doubt as to whether the
agency was empowered to grant effective relief
such as when an agency lacks institutional
competence to determine the constitutionality of
a statute.
THE COURT: That doesn’t apply.
MR. HILLER: Third, the administrative body is
shown to be biased or otherwise had predetermined
the issue before it.
I would submit, your Honor, at a minimum, the
first and the third fall squarely in our corner, and
I would say the second one does as well. If I may
just focus on the first.
The allegations in the complaint, which, as your
Honor is well aware, have to be assumed true for
purposes of this motion, are that the petitioning
process is a futile one. It takes nine years on
average.
THE COURT: Only if the argument is plausible.
MR. HILLER: Yes, your Honor. But I would respectfully
submit it’s not only plausible—

App.135a
THE COURT: What is the remedy, if there is an
administrative delay?
MR. HILLER: Historically what’s happened is that
petitioners have filed motions for writs of mandamus to require, for example, the DEA to render a
decision.
Mr. Holland, who is a co-counsel of ours, he was
one of the attorneys on the Americans for Safe
Access case, was required to file a motion for a
writ of mandamus to require the DEA just to
render a decision. It took six years for the DEA
just to render a decision before the administrative
process continued.
THE COURT: What happened on his writ?
MR. HILLER: I’m sorry?
THE COURT: What happened on the petition for a
mandamus?
MR. HILLER: Eventually what happened, as I understand it, was the DEA responds to the writ of
mandamus, actually did issue the decision which
then proceeded to go forward.
Your Honor, I represent people who need cannabis
to live.
Jagger Cotte was diagnosed with Leigh’s disease
before he turned the age of two and generally if
you are diagnosed before the age of two, you die
by the age of four. He was admitted to a hospice
before his fourth birthday, administered cannabis
to treat his pain, and he is seven now.
I represent Alexis Bortell, who was having multiple
seizures a day for 14 months and having repeat

App.136a
hospitalizations to the point where her doctor
said that part of the left side of her brain might
have to be removed, and even then they weren’t
sure it would work.
THE COURT: Is there a process for expedited review
by an agency when the pleasures of life and the
endurance of life are at stake?
MR. HILLER: No, your Honor.
THE COURT: Can’t I go to an agency and say, please,
agency, my client’s life is threatened?
MR. HILLER: Mr. Holland is gesturing to me and my
instinct is that the answer is no.
MR. HOLLAND: With regard to Americans with Safe
Access, which was also the coalition rescheduled
cannabis, a group of scientists, one of the
organizations with them was Patients Out of
Time, or POT, who are arguing that very thing,
that we are suffering immensely without any
further action that is expedited in any way. To my
knowledge, there has never been a way to
expedite—
THE COURT: What happened?
MR. HOLLAND: Ultimately, it was the mandamus
action that brought about the determination from
the DEA.
THE COURT: Why can’t you do that here?
MR. HOLLAND: I’m sorry?
THE COURT: Why can’t you do that here?
MR. HOLLAND: It’s not clear that our plaintiffs would
be alive at that time. I would defer to Mr. Hiller

App.137a
to answer that question directly. But Alexis
Bortell, on any given day that she doesn’t have
access to that, your Honor, she could pass away.
THE COURT: She has been doing it. No one has
bothered her.
MR. HILLER: Your Honor, the real problem with that
processTHE COURT: She has fears to move from her jurisdiction. Colorado is a safe jurisdiction. She moved
to Colorado, I think you alleged, because it was
the opportunity to get cannabis at the time when
Massachusetts didn’t allow it.
MR. HILLER: Texas, yes. Your Honor, my client, it’s
not—
THE COURT: Let’s stay with that for a while. I think
that’s the critical part of your case.
MR. HILLER: Yes, your Honor.
THE COURT: You are really arguing that basic issues
of human life are at stake.
MR. HILLER: Yes, your Honor.
THE COURT: Not just an opportunity for recreational
use of marijuana, but the opportunity to enjoy life
itself is threatened without marijuana.
MR. HILLER: Yes, your Honor.
THE COURT: That’s circumstance. What would happen
if you went to the agency and said, here is my
case, I need quick action, I need immediate
response? If there was no response, you take out
a mandamus to the Court of Appeals.

App.138a
MR. HILLER: Your Honor, it is my understanding
that petitioners have already been placed in that
situation and, nonetheless, the decisions don’t
come.
And the concern that I have, your Honor, quite
frankly, is, yes, Alexis Bortell and Jagger Cotte
and Jose Belen need their cannabis to live. Alexis
Bortell, who has not had a seizure in almost three
years, since she started the cannabis, while she is
allowed to stay within Colorado, your Honor, I
would remind the Court that 28 percent of the
United States is federal land. She is excluded
between a quarter and a third of American lands
from traveling anywhere.
THE COURT: If Congress can legislate, then she can’t
travel. If it can, she has got to abide by the law.
MR. HILLER: Your Honor, what I would say to that—
THE COURT: It all depends on the legality. I just put
to you that a district court is not the appropriate
forum to weigh all of the conflicting arguments
with regard to items on the schedules. It’s not only
that there is a medical use, but it has to be
weighed. That criteria has to be weighed against
other criteria, including the dangers to the
community by too-ready availability of the drug.
That has been the holdup, I think, in terms of
what Congress is feeling.
There is lots of things district judges have to do.
When agencies are set up to do the very kind of
thing that you want me to do, I think the right
thing is to defer to the agency.

App.139a
MR. HILLER: Your Honor, what I would suggest to
your Honor is, and in the greatest deal of respect,
is to review the language in Pickard that I have
referred to you because that language—
THE COURT: It’s the same issue as Kiffer. Kiffer is a
case where the Second Circuit took the case, took
the argument, and Pickard did the same thing,
ultimately holding that the argument did not
have merit. But they took it.
MR. HILLER: Your Honor, in each instance the courts
allowed the defendants to interpose a constitutional challenge and constitutional challenge was
deemed not to be precluded by the existence of the
petitioning program. The defendants argued
there—
THE COURT: The existence of what?
MR. HILLER: Of the petitioning program, of the
administrative review process. The very arguments
that were made today were made in those two
cases. And what the courts—
THE COURT: The court held that because there is a
petitioning process, the law is not unconstitutional.
MR. HILLER: No. I’m sorry, your Honor. What the
court did in Pickard and Kiffer was that when the
defense came forward with an affirmative defense,
arguing that the statute was unconstitutional,
the Federal Government said they are precluded
from making any constitutional challenge.
THE COURT: And the Court held not, but then they
held against the defendant.

App.140a
MR. HILLER: The Court held that they were not
precluded from raising the constitutional claim,
that the threshold issue that the defense is
raising now—
THE COURT: Mr. Hiller, let me suggest. I understand
you are passionate about your case, and you’ve
got a very strong case and a lot of human interest
involved. Unless you discipline yourself to slow
down, you lose your effectiveness.
MR. HILLER: Thank you, your Honor. I will do my
best.
The threshold argument that the defense made today
is the same threshold argument that was rejected
in Pickard.
THE COURT: I take your point. I take your point. I
have it. I really understand it. I may not follow it,
but I understand it.
The second part of my question, though, is what
I’m focused on. When the district courts and the
Second Circuit Court of Appeals focused on the
issue, they held that the Constitution was not
violated by having marijuana on schedule 1.
MR. HILLER: Yes. That goes to the issue of stare
decisis, which I am prepared to discuss.
THE COURT: Maybe we should get into that. But I’m
thinking that in those cases they held that they
had to get onto the question and they gave
different reasons than I had. But they got onto
the question. They held that the defense was not
proved. What did they hold?

App.141a
MR. HILLER: In Kiffer, the claimed constitutional
right, as Mr. Dolinger pointed out, was the
constitutional right to distribute cannabis, which
is clearly not implicated by Alexis Bortell, Jagger
Cotte or Jose Belen.
THE COURT: Slow.
MR. HILLER: With respect to Canori, Canori ’s
argument was not constitutional. Mr. Dolinger
represented to this Court that Canori was decided
on constitutional grounds but, in fact, the
defendant in Canori argued that the Ogden
memorandum had affected a de facto rescheduling
of cannabis and, therefore, he could not be
charged as having violated a classification of
schedule 1.
THE COURT: I don’t think he relies on Canori for that
purpose. I think he relies on Canori for favorable
citation of Kiffer.
Am I right, Mr. Dolinger?
MR. DOLINGER: Yes, your Honor.
MR. HILLER: With respect to Kiffer, your Honor—
THE COURT: What about Pickard?
MR. HILLER: I’m sorry.
THE COURT: What about Pickard? What was the
constitutional ruling of Pickard.
MR. HILLER: The argument in Pickard was different
from what we are arguing. The argument in
Pickard was, the ruling was that the classification
was constitutional, but the arguments and claims
were different. The arguments we are making

App.142a
here are not the same. And I would emphasize to
the Court—
THE COURT: What were the arguments in Pickard?
MR. HILLER: In Pickard, there are quite a few of
them.
THE COURT: Pick out two, the two you have the most
difficulty in answering.
MR. HILLER: I’m sorry?
THE COURT: The two that you have most difficulty
in answering. I’ll read the case again before I
issue my decision. You might as well anticipate
that I’ll focus on the two questions that you have
difficulty in answering.
MR. HILLER: The first argument in Kiffer and in

Pickard—

THE COURT: Here is the answer.
MR. HILLER: No, it’s not.
The principal claim in Pickard was that science
had reached the point where now the scientific
community had raised enough questions that
cannabis does have a medical application within
the meaning of a schedule 1 definition, which is
not the same that we are arguing.
THE COURT: It really is.
MR. HILLER: With all due respect, your Honor, it is
definitely not. I can assure you that—
THE COURT: Your clients have a medical need for
marijuana that it’s saving their lives.
MR. HILLER: That’s correct.

App.143a
THE COURT: Isn’t that the same argument?
MR. HILLER: Our argument is not that there is this
raging scientific debate that has ultimately started
to tip in our favor. That is not the argument. Our
argument is that the Federal Government knows
that cannabis is safe and effective. The reason I
would say that—
THE COURT: It doesn’t want to act.
MR. HILLER: The Federal Government has a patent
right now that was taken out by the Department
of Health and Human Services which, according
to defendants’ brief on page 5, specifically says is
binding on the Federal Government.
Now, in that patent application, the United States
Government represented that cannabis constitutes
a safe and medically effective treatment for Parkinson’s disease, HIV-induced dementia, Alzheimer’s
disease, autoimmune diseases, and also serves as
a neuroprotectant to help people with seizure
disorders. And those representations cannot be
made in bad faith by law under Section 101 of
Title 35 of the United States Code. Any
representation made in a patent application must
be in good faith based upon the invention’s utility.
So the United States Government has
represented—
THE COURT: Your clients are living proof of the
medical appropriateness of marijuana. I don’t
need a patent to tell me that. I have to take the
plausible allegations in your complaint as true.
How could anyone say that your clients’ lives
have not been saved by marijuana? How can
anyone say that your clients’ pain and suffering

App.144a
has not been alleviated by marijuana? You can’t,
right?
MR. HILLER: I could not agree with you more, your
Honor.
THE COURT: That criteria, does it trump everything
else? Suppose the administrative agency would
say, yes, yes, Mr. Hiller, you are right. But the
dangers I see in marijuana are such, dangers to
the community, are such that I feel and I hold
that there is no rescheduling. Can it do that?
MR. HILLER: No. Once cannabis does not meet Section 2 of the definition, it cannot be classified as
a schedule 1 drug.
Your Honor, in that sense you have made the point
for us. There is no real question that cannabis
provides safe or medically effective relief to our
clients. And the fact of the matter is, in order for
cannabis to be schedule 1 drug, in addition to
having to have no medical application whatsoever,
it also has to be so dangerous it can’t even be
tested under strict medical supervision and, yet,
the United States Government is allowing over
200 million Americans today to have access to
cannabis in 30 states across the country.
In addition to that, your Honor, the government
itself has its own investigational new drug program and beginning in 1976 has been distributing cannabis to medical patients all over the
country for the treatment of their diseases. If
cannabis met the requirements of a schedule 1
drug, the Federal Government, under the FDA’s
regulations, would not have been permitted to
include cannabis as a schedule 1 drug.

App.145a
THE COURT: Judge Wolford in western New York,
United States v. Green, I think looked at it in the
way that is persuasive to me. She said: It is
difficult to conclude that marijuana is not currently
being used for medical purposes. It is. There
would be no rational basis to conclude otherwise.
If that were the central question in this case,
defendants’ argument would have merit, but it is
not the central question.
The issue is not whether it is rational for Congress
or the DEA to conclude that there is no currently
accepted medical use for marijuana. That would
be the issue if a claim were brought in a circuit
court challenging the DEA’s administrative
determination.
Rather, a constitutional issue for equal protection
purposes is simply whether there is any conceivable basis to support the placement of marijuana
in the most stringent schedule under the act.
This is 222 F.Supp. 3d, 275-280.
MR. HILLER: What page were you at, your Honor?
THE COURT: 275-280.
MR. HILLER: Your Honor, I’m familiar with Green. I
read it. What I would suggest to the Court is
that—
THE COURT: Your argument is that Kiffer really
overrules Green or Green is not following Kiffer
because Kiffer holds that the district court should
retain the issue, and language does not confine it
to a criminal court, to a criminal case.
MR. HILLER: Yes, your Honor. I would also point out-

App.146a
THE COURT: I have your argument. I know the
argument. It’s a good argument. I’m not saying
it’s a win argument. It’s a good argument.
MR. HILLER: I appreciate it, your Honor.
THE COURT: I don’t know if it’s a win argument.
That’s one of the things I have to decide.
MR. HILLER: May I address one other point on the
issue of stare decisis before we change the
subject?
THE COURT: Of course.
MR. HILLER: I’ll try to do it quickly.
THE COURT: Don’t do it quickly.
MR. HILLER: I won’t say it quickly. I’ll just try to do
it quickly.
In United States v. Pickard, one of the arguments
that the Federal Government made is another
argument that was made here, specifically that
the presence of a prior decision by the Ninth
Circuit specifically foreclosed any constitutional
challenge because in that case, just like, for
example, in Kiffer, the Court ruled that the
Controlled Substances Act, as it pertains to
cannabis’ classification as a schedule 1 drug, is
constitutional.
So the government argued then, argued today. The
name of that case that Pickard was referring to
was Miroyan. And what the Court in Pickard
ruled was, the decision in Miroyan does not
foreclose a Court’s consideration of future constitutional challenges to the classification of marijuana
as a schedule 1 drug. That case does not stand for

App.147a
the proposition that even if defendants proffer
credible evidence raising serious questions regarding the constitutional soundness of marijuana’s
listing on schedule 1, that district courts cannot
entertain a constitutional challenge.
Then the Court in Pickard specifically relied on the
decision in Gonzalez v. Raich for the proposition
that it had no choice but to consider the constitutional challenge, notwithstanding defendants’
argument.
And what the Court said, and I quote, to read
Miroyan so broadly as to preclude constitutional
challenges to marijuana scheduling under any
circumstances would be inconsistent with the
Supreme Court’s relatively recent observation in
Raich, specifically that evidence proffered by the
defendants regarding the effective medical uses
for marijuana, if found credible after trial, would
cast serious doubt on the accuracy of the findings
that require marijuana to be listed as a schedule
1 drug.
I would also cite for the Court’s attention Jeno v.
Commissioner of Patents & Trademarks, which
talks about changes of circumstances warranting
a departure from prior decisions. The Court in
Jeno said: Nor does the doctrine of stare decisis
apply to the present action. Contrary to the
defendants’ reasoning, there is a strong possibility
that plaintiff can show changed circumstances.
Stare decisis may not be so mechanically applied
so as to ignore changing facts and inequitable
results.

App.148a
And a case that opposing counsel cited, Gately v.
Massachusetts, held, as stare decisis is concerned
with rules of law, a decision dependent upon its
underlying facts is not necessarily controlling
precedent as to a subsequent analysis of the same
question on different facts and on a different
record, which is exactly what we are saying here.
Although Mr. Dolinger pointed out in his brief that
Gately is a First Circuit case, Gately also cites a
Second Circuit decision, In Re Tug Helen B.
Moran, Inc., 607 F.2d 1029 (2d Cir. 1979). This is
the Second Circuit. We find no merit in the state’s
attempt to invoke the doctrine of stare decisis
since the doctrine is not applicable to
determinations of fact.
In view of the fact that stare decisis is concerned
with rules of law, a decision dependent on the
facts is not controlling precedent as to a subsequent
determination of the same question on different
facts and on a different record.
THE COURT: What is the determination of fact? Who
determined it?
MR. HILLER: Your Honor would determine the facts.
There is no jury in this case because we are
asking for equitable relief.
THE COURT: But issue is not a factual issue. It’s a
motion to dismiss a complaint as a matter of law.
MR. HILLER: I agree.
THE COURT: The issue that the government raises is
that since Congress had a rational basis to have
the law in 1970 instead of a procedure for change,

App.149a
the law is constitutional. That’s as far as the
argument goes.
The question I would pose as a judge hearing it
might go a little further. It might say that even
though there was a rational basis for the law when
it was promulgated, the inability or unwillingness
of the agency to act on changing facts indicates
that there is some kind of unconstitutionality. I
don’t know how to complete that argument. I
think that is really your argument.
MR. HILLER: It is, your Honor. It’s one of them.
THE COURT: The next question is, you asked for a
reclassification. What would happen with a reclassification?
MR. HILLER: We are not asking for reclassification,
your Honor. We are simply asking for a declaration
that the classification of cannabis as a schedule 1
drug under the CSA is unconstitutional.
THE COURT: That would not give you complete relief.
There are other schedules that might go into this.
The implication of that argument, it should not
be schedule 1; it might be schedule something
else.
MR. HILLER: Your Honor, it is my understanding—
THE COURT: The relief you are asking is not to
remove marijuana from any and all schedules,
because that would fit the argument you are
making.
MR. HILLER: Our argument, your Honor, is that once
this Court finds that the classification, if the
Court were to find that the classification violates

App.150a
the Constitution, it would be the schedule and it
would be incumbent upon Congress to pass new
legislation to reschedule it to another level.
THE COURT: If I review what your complaint is I
have to focus on 1970.
MR. HILLER: Yes.
THE COURT: And I can’t focus on 1970 and give you
relief. I can only focus on the as-applied attitude
that the Attorney General or his delegee has not
been keeping current. That’s a different argument
and I don’t know the answer to it.
MR. HILLER: What I would say, your Honor, is that
the Court is duty bound to look at 1970, but also
look at the changing facts and circumstances that
have occurred since 1970.
THE COURT: It’s not a basis for a rational basis test
for the law passed in 1970.
MR. HILLER: Your Honor, we have cited cases that
take a different position on that issue than you
have. The cases that we have cited make very
clear that changed circumstances can be considered
and factored into a rational relation or rational
review analysis.
Your Honor, as long as we are talking about 1970,
I think it’s important not to lose sight of one
critical fact about our case, which also must be
assumed true for purposes of this motion, and
that is, your Honor, that the Controlled Substances
Act was enacted not for the purpose of preserving
health and lives, but, instead, to suppress political
rights of those that Richard Nixon and his
administration believed to be hostile to his

App.151a
administration and, also, to oppress African
Americans.
We have four witnesses who have each stated that
the Controlled Substances Act, which was passed,
your Honor, in 27 days, and written entirely by
the Attorney General at the time, John Mitchell,
who went to prison afterwards, not related to
the—
THE COURT: Mr. Hiller, what’s the point? The point
is, I’m not involved here in a discussion of the
evaluation of the Nixon administration. I’m not
here to evaluate the good faith or not of the
Attorney General in drafting this law. There are
other very important laws that were passed in
the twinkling of an eye, including the Securities
Exchange Act, the Securities Act of 1933, the law
on setting up the courts and the special master
after 9/11. Don’t argue with me that it came very
fast.
Here is the argument I’m interested in. You can’t
win on these arguments. You may have appeal on
those arguments, but you can’t win on those
arguments.
Schedule 1 requires that a drug must have a high
potential for abuse; no currently accepted medical
use and treatment in the United States; third,
there is a lack of accepted safety for use of the
drug or other substance under medical supervision.
You win on two. One, I don’t know. If these are
three criteria that have to be weighed, a district
judge would have a very hard job in weighing
medical use against potential for abuse. I think
bias and prejudice would be a danger.

App.152a
The third criteria, lack of accepted safety for use
of the drug or other substance under medical
supervision, the opioid epidemic has occurred in
a prescription drug. Who was there to say that a
requirement of a prescription for marijuana will
save the community from the danger of the drug?
My point is this. I don’t know if these are
conjunctive criteria that all have to be satisfied or
disjunctive criteria. But my experience with
criteria is that they have to be weighed and
evaluated. If as a matter of law I’m wrong on that,
I would like you to tell me.
MR. HILLER: Your Honor, as a matter of law, you are
wrong on that one, I’m sorry. All three have to be
met. I don’t think the government is going to tell
you differently. I don’t believe there is any
weighing process—
THE COURT: Are you going to tell me differently, Mr.
Dolinger?
MR. DOLINGER: No, your Honor. That is true for the
DEA. As your Honor cited, United States v. Green
holds that that’s not the proper analysis for a
district court.
THE COURT: I’ll hear you in a minute. I think Mr.
Hiller is drawing to a close.
MR. HILLER: Absolutely, Judge.
I want to point to two more points, if I may.
The first is, I respect that the Court doesn’t want
to get involved in the inner machinations of the
Nixon administration, but I would respectfully
urge the Court to review footnote 45 to our brief

App.153a
on page 47. Because even if the defendants are
given the benefit of the doubt and they are
entitled to argue their rational and review, even
under those circumstances, if there is a basis to
infer antipathy or bad faith in the enactment or
passage of a statute, then, your Honor, those
factors are actually very relevant.
And if it’s also true that the rational basis, the socalled rational basis is merely a subterfuge for
something more sinister, your Honor, I would
respectfully submit that if we could prove those
facts, if we could prove that the Nixon administration, or those that were working for it, were
involved in a predatory effort to break up protests
and infiltrate opposition groups, your Honor,
then the Controlled Substances Act doesn’t get
rationality review.
THE COURT: As a judge I will not get into that. It’s a
political question. I will not get into it. The law is
the law. I’m sworn to enforce the laws. If it’s
constitutional, I uphold it. Constitutionality will
not depend on what may have been in President
Nixon’s mind at the time or in Attorney General
Mitchell’s mind at the time, or in all the legislators’
minds at the time. This bill passed by votes.
MR. HILLER: It’s not my practice—
THE COURT: Passed the house, passed the Senate,
signed by the president. It’s either constitutional
or not and I will follow those arguments.
What’s the last point?
MR. HILLER: I think I want to make that my last
point.

App.154a
THE COURT: Thank you very much, Mr. Hiller. You
raised provocative questions.
MR. HILLER: Thank you.
THE COURT: Mr. Dolinger, last few words. We will
wrap up the argument and I will reserve decision.
MR. DOLINGER: Just a few points very briefly, your
Honor.
The first on the question of the administrative
remedy, it is true that Kiffer looked past the
administrative remedy and ruled on the constitutional question. That is because it cited two
rationales for that. The first was that it was a
criminal case, as your Honor pointed out.
THE COURT: Mr. Hiller told me it was not one of the
rationales.
MR. DOLINGER: Your Honor, it was, in fact, one of
the rationales that it was a pending criminal case.
THE COURT: Was it explicitly a rationale?
MR. DOLINGER: Yes, your Honor. I can get you a
page cite, if that would be helpful.
THE COURT: Here is the wording. I think Mr. Dolinger is right. 477, F.2d at 352.
MR. HILLER: Are we talking about Canori or Kiffer?
THE COURT: Kiffer.
MR. HILLER: Let me just pull it out.
THE COURT: Got it?
MR. HILLER: I don’t have it yet, your Honor. I’m sorry.
THE COURT: I’ll wait for you.

App.155a
Page 352.
MR. HILLER: I’m sorry?
THE COURT: Page 352. Right at the top. You see
where it says second? Second, even assuming the
existence of a viable administrative remedy,
application of the exhaustion doctrine in criminal
cases is generally not favored because of the
severe burden it imposes on defendants.
MR. DOLINGER: Thank you, your Honor.
The other rationale cited by the Second Circuit
was the position of the head of the Bureau of
Narcotics and Dangerous Drugs, which is the
predecessor to the DEA as of 1973, which is that
he had a concurrent obligation under a drug
regulation treaty that also had the force of
statute. That position is no longer—
THE COURT: Give me that again. I missed it.
MR. DOLINGER: The head of the Bureau of Narcotics
and Dangerous Drugs came to the conclusion at
the time that rescheduling marijuana was
separately prohibited to him as part of the
administrative process by a treaty obligation. The
DEA does not take that position and has
considered a number of petitions to reschedule
marijuana since that time.
THE COURT: None of which has succeeded.
MR. DOLINGER: That’s right, your Honor.
THE COURT: Let me ask you this. Go back to these
three criteria established by 21 U.S.C. Section
812(b)(1). High potential for abuse, no currently

App.156a
accepted medical use, lack of accepted safety for
use of the drug under medical supervision.
Let’s say that only criterion 2 is no longer applicable, but 1 and 3 are. Does that mean it cannot be
on schedule 1?
MR. DOLINGER: If the DEA is considering a rescheduling petition, it is a conjunctive test, so all three
factors must be met.
THE COURT: What happens if two out of the three
are met? Does it hit another schedule?
MR. DOLINGER: It may be rescheduled at that point
into schedule 2.
The DEA did conclude—
THE COURT: If that were the case, plaintiff can win
on schedule 1, maybe not here, but in the administrative process, only to find it comes onto
schedule 2 or 3.
MR. DOLINGER: That’s right, your Honor.
THE COURT: With lesser penalties but nevertheless
criminal penalties.
MR. DOLINGER: And among the factors that the
DEA considered in making the determination
that it has no currently accepted medical use, this
is different from the question of whether there
could possibly be any medical utility to the drug.
Among other things—
THE COURT: You can’t argue that. Given the allegation in the complaint that it saved the life and
eliminated epileptic seizures, how can you say
that? You have to accept these allegations as
true. I can’t say they are not plausible.

App.157a
MR. DOLINGER: We do accept them as true for
purposes of the motion. The issue is that the
agency must also consider whether there are
sufficient studies of the drug and sufficient
studies of high enough quality to show its
effectiveness such that it can be permitted—
THE COURT: It says no currently accepted medical
use and treatment in the United States. Judge
Wolford has said, and what I understand to be the
case, that there is. It may not be universal, but
some statements in their legislative findings
have found that there is accepted medical use.
You can’t say what you are arguing. Your
argument doesn’t hold.
MR. DOLINGER: Your Honor, I understand—
THE COURT: I think the argument is, Mr. Dolinger,
if this were an administrative process I might
hold, if I were the agency head, that, no, it’s not a
schedule 1 drug, but it is a schedule 2 or schedule
3 drug. So nobody has argued the schedules. But I
look at them because it’s judicial notice.
Therefore, we will reschedule it. The relief that’s
sought by the plaintiff to travel and to petition
Congress and the like won’t be changed in the
slightest by that reclassification. What they are
fearing now they can fear later. I think that’s the
critical issue.
Thank you very much. Thank you both sides.
Thank you all for attending and being so patient
and laughing at my jokes. I’ll take this under
advisement.
MR. DOLINGER: Thank you, your Honor.

App.158a
MR. HILLER: Your Honor, may we afforded the
opportunity for supplemental briefing?
THE COURT: No, no supplemental briefs.
MR. HILLER: Thank you, your Honor.

App.159a
AMENDED COMPLAINT
(SEPTEMBER 6, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________________
MARVIN WASHINGTON, DEAN BORTELL,
as Parent of Infant ALEXIS BORTELL,
JOSE BELEN, SEBASTIEN COTTE,
as Parent of Infant JAGGER COTTE,
CANNABIS CULTURAL ASSOCIATION INC.,

Plaintiffs.
v.
WILLIAM PELHAM BARR, in His
Official Capacity as United States Attorney General,
UNITED STATES DEPARTMENT OF JUSTICE
UTTAM DHILLON, in His Official Capacity as the
Acting Administrator of the Drug Enforcement
Administration, UNITED STATES DRUG
ENFORCEMENT ADMINISTRATION,
UNITED STATES OF AMERICA,

Defendants.
________________________
No. 17 Civ. 5625
PLAINTIFFS MARVIN WASHINGTON, DEAN
BORTELL, as Parent/Guardian for Infant ALEXIS
BORTELL, JOSE BELEN, SEBASTIEN COTTE, as
Parent/Guardian for Infant JAGGER COTTE, and the

App.160a
CANNABIS CULTURAL ASSOCIATION, INC.
(collectively, “Plaintiffs”), as and for their Amended
Complaint against defendants (“Defendants”), allege as
follows:
PRELIMINARY STATEMENT
1. This action is brought on behalf of two young
children, their fathers, an American military veteran,
a retired professional football player and a non-profit
membership organization, all of whom have suffered
harm, and who are continuously threatened with
additional harm, by reason of the provisions of the
Controlled Substances Act (“CSA”). 21 U.S.C. § 801,
et. seq. The CSA has wrongfully and unconstitutionally
criminalized the cultivation, distribution, sale, and
possession of Cannabis (comprised of Cannabis Sativa,
Cannabis Indica, and Cannabis Ruderalis), which,
historically, has been harvested to produce, among
other things, medicine, industrial hemp, and a substance known as tetrahydrocannabinol (“THC”).1
2. Although not styled as a class action, this
lawsuit stands to benefit tens of millions of Americans
who require, but are unable to safely obtain (and in far
too many instances, unable to obtain at all, safely or
not), Cannabis for the treatment of their illnesses,
diseases and medical conditions, the successful
treatment of which is dependent upon its curative properties. 2 In addition, this lawsuit, if successful,
1 Robert Deitch, HEMP-AMERICAN HISTORY REVISITED: THE PLANT
WITH A DIVIDED HISTORY 3 (2003); Editors of the Encyclopedia
Britannica, Cannabis, ENCYCLOPEDIA BRITANNICA, https://www.
britannica.com/plantkannabis-plant.
2 Cannabis, as used in this Complaint, refers to whole-plant
Cannabis, with its full spectrum of cannabinoids, including THC,

App.161a
would aid in the restoration of communities hardest
hit and most egregiously stigmatized by the Federal
Government’s misguided, Crusades-like “War on
Drugs.”
3. As shown below, despite the relatively recent
and inappropriate stigmatization of Cannabis in the
United States as a supposed “gateway drug” used
primarily used by “hippies” and minorities, there is a
long and rich history, dating back thousands of years,
of people from virtually every part of the world using
Cannabis for medical, industrial, spiritual, and recreational purposes.3 Indeed, those who have cultivated,
encouraged the cultivation of, and/or used Cannabis
include, inter cilia, George Washington, Thomas
Jefferson, John Adams, James Madison, James Monroe,
John F. Kennedy, Jimmy Carter, Bill Clinton, and
Barack Obama—an assortment of the most intelligent
and accomplished statesmen in American history.
4. As further shown below, the criminalization of
Cannabis—a drug that has never killed anyone—
arose out of the enactment of legislation underwritten
by illegal racial and ethnic animus, and implemented
and enforced at the federal level by those who choose
which is separately mis-classified as a Schedule I drug. 21 C.F.R
1308(d)(31).
3 Deitch, supra note 1 at 1; History of Marijuana as Medicine2900 BC to Present, PROCON.ORG, http://medicalmarijuana.procon.
org/view.timeline.php?timelineID=000026 (last updated Jan. 30,
2017) [hereinafter referred to as “PROCON.ORG”]; Lecia Bushak,
A Brief History of Medical Cannabis: From Ancient Anesthesia
to the Modern Dispensary, MEDICAL DAILY (Jan. 21, 2016),
http://www.medicaldaily.com/brief-history-medical-cannabis-ancient-anesthesia-modern-dispensary-370 344 [hereinafter referred
to as “MEDICAL DAILY”].

App.162a
to disregard its scientific properties and benefits,
and/or have been motivated by hatred and outright
bigotry.4
5. The consequences of the Federal Government’s
misguided War on Drugs have been disastrous. Persons
of color are four times as likely as white Americans to
be investigated, charged, prosecuted and incarcerated for
possession and/or use of Cannabis, even though it is
used in approximately equal proportions among the
races. In addition, those who are administered medical Cannabis for the treatment of illnesses, disease
and other health-related conditions, have been required to forfeit their First, Fifth, Ninth and
Fourteenth Amendment Rights, plus their fundamental
right to travel.
OVERVIEW OF THE CLAIMS
6. Plaintiffs seek a declaration that the CSA, as
it pertains to the classification of Cannabis as a
Schedule I drug, is unconstitutional, because it violates
the Due Process Clause of the Fifth Amendment, an
assortment of protections guaranteed by the First,
Ninth and Tenth Amendments, plus the fundamental
Right to Travel, the right to Equal Protection, and
right to Substantive Due Process. Further, Plaintiffs
seek a declaration that Congress, in enacting the CSA
4 Notably, although a powerful and vocal minority of public
officials have continued their irrational opposition to rescheduling
or de-scheduling of Cannabis, the overwhelming majority of
Americans desire a change. According to an April 20, 2017
Quinnipiac Poll, nearly 94% of Americans support legalization of
medical marijuana. And 60% of Americans support full
legalization and decriminalization of Cannabis for all purposes
(Exh. 1).

App.163a
as it pertains to Cannabis, violated the Commerce
Clause, extending the breadth of legislative power
well beyond the scope contemplated by Article I of the
Constitution.5 The claims are as follows:
7. First, as shown below, the CSA as it pertains
to Cannabis, violates the Due Process Clause of the
Fifth Amendment to the United States Constitution
because the CSA is so irrational as a matter of law
that it cannot be said to be rationally related to any
legitimate government purpose. Cannabis is classified
as a Schedule I drug under the CSA, along with such
psychotropic drugs as heroin, mescaline and LSD. To
have been assigned this Schedule I classification, the
Federal Government was required to have determined
that Cannabis: (i) has a high potential for abuse; (ii)
has absolutely no medical use in treatment; and (iii)
cannot be used or tested safely, even under strict medical supervision (“Three Schedule I Requirements”).
Significantly, however, as also shown below, the Federal Government does not believe, and upon information and belief, never has believed, that Cannabis
meets or ever met the Three Schedule I Requirements.
8. Under Federal Law, it is not enough for a government, in arguing in favor of a statute’s constitutionality, merely to manufacture a supposedly “legitimate government interest” to which a law is rationally
related for the purpose of responding to a lawsuit; the
government must also actually believe its own argument. And, as shown below, the Federal Government,
at a minimum, does not, and cannot possibly, believe
5 In interposing this particular claim, Plaintiffs explicitly seek the
overturn of the Supreme Court’s decision in Gonzalez v. Raich,
545 U.S. 1 (2005).

App.164a
that there is no acceptable medical use for Cannabis
or that it cannot be used or tested safely under medical supervision. In other words, the Federal Government has recognized that Cannabis does not meet (or
come close to meeting) two of the Three Schedule I
Requirements. Indeed, the Federal Government has
admitted repeatedly in writing, and implemented
national policy reflecting, that Cannabis does, in fact,
have medical uses and can be used and tested safely
under medical supervision. On that basis, the Federal
Government has exploited Cannabis economically for
more than a decade by securing a medical cannabis
patent and entering into license agreements with
medical licensees. The Federal Government has also
been dispensing medical Cannabis to Americans
through a certain Investigational New Drug Program
since the late 1970s for the treatment of an
assortment of diseases. The notion that the Federal
Government genuinely believes that Cannabis has no
medical application and is so dangerous that, as with
heroin, it cannot be tested even under strict medical
supervision, is so absurd that it must be rejected as a
matter of law. The Federal Government does not
believe in the factual prerequisites underlying its own
statute.
9. Because the Federal Government does not
believe the factual predicate underlying its own arguments in support of the CSA as it pertains to
Cannabis, the CSA is irrational and thus unconstitutional (First Cause of Action).
10. Second, as shown below, the CSA as it
pertains to Cannabis was enacted and subsequently
implemented, not to control the spread of a dangerous
drug, but rather to suppress the rights and interests

App.165a
of those whom the Nixon Administration wrongly
regarded as hostile to the interests of the United
States—African Americans and protesters of the
Vietnam War. In particular, members of the Nixon
Administration have confirmed that, when the CSA
was enacted, President Nixon regarded those who
opposed the Vietnam War as a threat to America’s
Cold War against Communism. And President Nixon
and associates in the Nixon Administration, including
and especially, Myles Ambrose (America’s First Drug
Czar), harbored considerable antipathy towards African
Americans.
11. The Nixon Administration recognized that
African Americans could not be arrested on racial
grounds, and war protesters could not be prosecuted for
opposing America’s involvement in Vietnam. However,
the members of the Nixon Administration decided that
Cannabis was the drug of choice for these two groups.
Consequently, the Nixon Administration ushered the
CSA through Congress and insisted that Cannabis be
included on Schedule I so that African Americans and
war protesters could be raided, prosecuted and
incarcerated without identifying the actual and unconstitutional basis for the government’s actions.
12. Unfortunately, the Federal Government has
been quite successful in using the CSA to harass,
intimidate and incarcerate African Americans in
disproportionate numbers over the years, ruining the
lives of generations of black men and women and
other persons of color. War protesters were similarly
subjected to unconstitutional enforcement activity by
the Federal Government, resulting in convictions that
stained reputations and limited the career options of
countless politically active Americans. In so doing, the

App.166a
Federal Government violated (and continues to
violate) the First Amendment and the Equal Protection
Clause as implied by the Due Process Clause of the
Fifth Amendment to the United States Constitution
(Second Cause of Action).
13. Third, as shown below, the CSA as it pertains
to Cannabis violates the constitutional Right to Travel.
As of this writing, 29 States plus Washington, DC and
U.S. Territories have legalized the use of Cannabis containing high concentrations of THC for the treatment
of scores of illnesses, diseases and conditions. Indeed,
more than 62% of Americans currently live in States
in which Cannabis with high concentrations of THC
may be recommended by physicians for medical treatment.
14. Some patients who live in State-legal medicalCannabis jurisdictions are, for the moment, able, as a
practical matter, to avail themselves of medical
Cannabis, notwithstanding the provisions of the CSA,
based upon a series of federal initiatives which have
created temporary, de facto impediments to its enforcement at the federal level. However, those temporary
federal initiatives do not have the force of law and, in
many instances, explicitly state that they do not provide a legal defense to prosecutions under the CSA.
15. Thus, those who cultivate, distribute, sell, recommend and/or use medical Cannabis in conformity
with State-legal medical Cannabis programs remain
vulnerable to federal enforcement.
16. Worse, those patients who rely upon medical
Cannabis, even in State-legal medical-Cannabis jurisdictions, cannot safely travel by airplane; cannot
travel onto federal lands or into federal buildings

App.167a
(even if those federal lands and buildings are situated
within State-legal medical-Cannabis jurisdictions);
cannot enter facilities owned by the Federal Government, including military bases; and cannot travel to
or through States in which medical Cannabis has not
been legalized, without risk of arrest and prosecution.
Consequently, the physicians who recommend medical Cannabis, the businesses that manufacture and
distribute medical Cannabis, and the patients who
need and use it remain at constant risk that they
could be arrested, prosecuted and incarcerated by the
Federal Government at any time.
17. In the context of the Right to Travel, medical
Cannabis patients in particular are subjected to a
Hobson’s Choice of: (i) using their medication but relinquishing their Right to Travel; (ii) exercising their
Right to Travel while carrying their medication with
them, thereby risking seizure, arrest, prosecution,
conviction and incarceration; or (iii) exercising their
Right to Travel but foregoing physician-recommended
medical treatment that maintains their health and
lives. Engaging in an open violation of the CSA and
subjecting themselves to the risk of arrest does not
constitute a viable option for Plaintiffs. The alternative of leaving their life-sustaining and life-saving
medication behind would threaten those Plaintiffs
treating with medical Cannabis (and for whom it
constitutes a life-saving and-sustaining medicine) with
the loss of their health and lives which, as demonstrated below, would constitute a deprivation of their
fundamental rights to Substantive Due Process (Third
Cause of Action).
18. Fourth, the CSA as it pertains to medical
Cannabis violates the Commerce Clause and the

App.168a
Tenth Amendment to the United States Constitution.
While empowered by Article I to regulate interstate
and international commerce, Congress does not have
the authority to regulate purely intra-state activities
which do not have any impact on the national economy.
Any use of medical Cannabis that is legalized and
regulated entirely within an individual State’s borders
does not have any appreciable impact on the national
economy. And Congress, in enacting the CSA, never
believed that the cultivation, distribution and sale of
Cannabis, purely at the intra-state level, ever affected
or will affect the national economy.
19. Regulation of doctor-patient relationships and
the administration of medical advice has been, since
ratification of the United States Constitution and
subsequent adoption of the Tenth Amendment, consistently interpreted as falling within the exclusive
regulatory jurisdiction of the States (not the Federal
Government) under the provisions of the Tenth Amendment. By injecting itself into the exclusive regulatory
jurisdiction of the States, Congress exceeded its powers
under the Commerce Clause and violated principles of
federalism and the Tenth Amendment of the United
States Constitution (Fourth Cause of Action).
20. Fifth, the Schedule I classification as it
pertains to Cannabis constitutes a completely and
utterly irrational legislative construct and thus violates
the Due Process Clause of the Fifth Amendment. Specifically, under the CSA, Schedule I drugs are
classified as so dangerous that they generally cannot
be tested safely; however, in order to obtain the evidence necessary to persuade the Federal Government
that Cannabis is safe enough to be rescheduled or descheduled, it must be tested. By imposing as

App.169a
precondition to re-classification, the testing of a purportedly un-testable drug, Congress created a legislative
Gordian Knot—a statute that functions as a one-way,
dead end street.6
21. What transforms this poorly-conceived provision into an unconstitutional one is that Cannabis
was categorized as a Schedule I drug, not because the
evidence presented during the legislative process actually demonstrated that it was dangerous, but rather
because certain members of Congress pretextually
claimed that the data for classifying Cannabis in the
first instance was, at the time, supposedly insufficient. Accordingly, Cannabis was to be tested and
then rescheduled, de-scheduled or left under the
provisions of Schedule I. In classifying Cannabis as a
Schedule I drug in the first instance, however, Congress permanently resigned Cannabis to that designation because in the absence of testing, those seeking to
petition to reclassify Cannabis are deprived of the
opportunity to collect the very evidence deemed necessary by the Federal Government to reschedule or deschedule it (Fifth Cause of Action).
22. Sixth, the CSA, as applied to Plaintiffs Alexis
Bortell (“Alexis”) and Jagger Cotte (“Jagger”), deprives
them of their rights under the First Amendment to
free speech and to petition the Federal Government
for a redress of grievances. Specifically, Alexis and
Jagger cannot travel to the Capitol in Washington, DC
to petition the Federal Government to enact
6 This is not to suggest that no one has ever obtained permission
from the Federal Government to test medical Cannabis; but the
vetting process renders the approval process substantially
impracticable.

App.170a
legislation which they regard as beneficial, or to
repeal laws which they regard as harmful unless they
leave their life-saving and-sustaining Cannabis
medication behind—a substantial risk for each of
these Plaintiffs. Thus, for example, Alexis and Jagger
cannot visit their elected representatives to lobby in
favor of repealing the CSA or in favor of the Marijuana
Justice Act (“MJA”), which Senator Cory Booker of
New Jersey is preparing to introduce during the next
legislative session. The availability of other forms of
communication from a distance does not, as a matter
of law, constitute an effective or appropriate substitute
for in-person advocacy under the First Amendment,
particularly under the circumstances of this case.
23. Under principles of Substantive Due Process,
the right to preserve one’s health and life by continuing
to treat with life-sustaining and life-saving medication,
is deeply-rooted in our Nation’s history and traditions,
and implicit in the concept of ordered liberty. By requiring Alexis and Jagger to forfeit that fundamental
right in order to exercise their First Amendment
rights (and vice versa), the CSA imposes an unconstitutional Hobson’ s Choice upon the aforementioned
Plaintiffs and thus violates the Constitution (Sixth
Cause of Action).
24. Lastly, the Federal Government cannot
maintain its position on the existing record that continued enforcement of the CSA as it pertains to
Cannabis is “substantially justified.” Accordingly, under
the Equal Access to Justice Act (28 U.S.C. § 2412),
Plaintiffs are entitled to an award of legal fees and
costs.

App.171a
JURISDICTION AND VENUE
25. This Court has subject matter jurisdiction
over this controversy under 5 U.S.C. § 8912, 28 U.S.C.
§§ 1331, 1346(a)(2), 2201 and 2202.
26. Venue is proper under 28 U.S.C. §§ 1391(e)
and 1402(a)(1).
PLAINTIFFS

Marvin Washington
27. Plaintiff Marvin Washington (“Washington”)
is, and at all relevant times has been, a citizen,
resident and domiciliary of the County of Dallas in the
State of Texas.
28. Washington is a graduate of the University of
Idaho and is a member of the University’s Sports Hall
of Fame.
29. From 1989 to 1999, Washington played professional football as a defensive lineman for such
National Football League franchises as the New York
Jets, San Francisco 49ers and Denver Broncos,
winning a Super Bowl with the latter.
30. After his retirement from professional football,
Washington entered the business world, working for
Kannalife, a Long Island company that has been
developing Cannabis-based medications to minimize
the damage caused by head injuries and to reduce and
ultimately eliminate opioid addiction among professional athletes. Washington is currently working with
a Swiss company known as Isidiol that has
launched, among other things, a line of products
infused with Cannabidiol, also known as CBD, produced

App.172a
in the European Union, outside the confines of the
CSA.7
31. Washington would like to expand his business
to include whole-plant Cannabis (including THC)
products, but is concerned that, even in States in
which whole-plant Cannabis is legal for medical
and/or recreational use, he may be subject to arrest
and prosecution.
32. Washington would like to avail himself of the
benefits associated with the Federal Minority Business Enterprise program (“MBE”) in connection with
whole-plant Cannabis products, but he is ineligible for it
solely because such activities would be illegal under
the CSA. Were Washington to open a whole-plant
Cannabis business and apply for participation in the
MBE, he would be admitting to the commission of a
felony under Federal Law.
33. According to the Federal Government, CBD
falls within the ambit of the classification of Cannabis
as a Schedule I drug, unless extracted from industrial
hemp or a part of the Cannabis plant exempted from
the CSA.
34. Washington is concerned that, although CBD
products generally have a low concentration or no
concentration of THC, his existing business could be
subjected to enforcement under the CSA.
35. Washington is African American.

7 CBD, although part of the Cannabis plant, generally has no
psychoactive effect. Nonetheless, it is currently the position of
the Federal Government that the cultivation and/or sale of CBD
is prohibited under the CSA.

App.173a

Dean Bortell and Alexis Bortell
36. Plaintiff Dean Bortell is, and at all relevant
times has been, a citizen of Texas and Colorado,
currently residing in Larkspur, Colorado (“Dean”).
37. Dean is a former member of the Navy, and is
a 100% permanently-disabled veteran of foreign wars
(“VFW”).
38. As a disabled VFW, his children are entitled
to receive certain veteran’s benefits (“Veterans’
Benefits”), including, inter alia, health insurance and
the right to use the commissary of any nearby military
base.
39. Dean is Alexis’s father.
40. Alexis is, and at all relevant times has been,
a citizen of Texas and Colorado, currently residing in
Larkspur, Colorado.
41. Alexis is an 11-year-old girl, who lives with
her parents.
42. At the age of seven, Alexis began experiencing
seizures, and was eventually diagnosed with a condition
known as “intractable epilepsy.”
43. Intractable epilepsy is a seizure disorder in
which a patient’s seizures cannot be safely controlled
with FDA approved medical treatments and procedures.
44. By reason of her intractable epilepsy, Alexis
often suffered from multiple seizures per day, and
spent most of her school-day afternoons in the nurse’s
office.
45. Alexis, with the assistance of her family and
treatment providers, attempted to treat, control and

App.174a
cure her intractable epilepsy for years without success.
Nothing she tried worked.
46. After two years of doctor visits, tests, urgent
trips to the emergency room, and pill after pill, all
with their assortment of negative side effects, her
family exhausted traditional pharmaceutical options
to stop what Alexis referred to as the “seizure monster.”
At that point, they turned to the last known option
available: whole-plant Cannabis containing high concentrations of THC.
47. Whole-plant Cannabis with high THC content
provided Alexis immediate relief from her seizures,
but it is not legal in Texas, where she resided at the
time. Accordingly, Alexis and her family were forced
to move from her home State of Texas to seek lifesaving treatment in Colorado. There, Alexis was
thrust into a very grown-up world and joined a thenlargely unknown community of Cannabis patients
known as “Medical Marijuana Refugees.”
48. Since being on whole-plant medical Cannabis,
Alexis has gone more than two years seizure-free,
without taking any other medication to control her
seizures.
49. Without her use of whole-plant medical
Cannabis, Alexis would likely have no quality of life,
and instead be resigned to spending her days at home
inside or worse, in a hospital bed, as medical caregivers surround her with offers of palliative care
which fail to provide any actual palliative relief. In
addition, Alexis would be subjected to traditional
forms of treatment which, aside from being ineffectual,
threaten her with serious and life-altering side effects,
including infertility.

App.175a
50. Alexis co-authored the book, Let’s Talk About
Medical Cannabis, which was launched on April 20,
2017. In her book, she shares her and her family’s
experiences as “Medical Marijuana Refugees” and
gives readers a perspective into the Cannabis refugee
community.
51. Alexis was also named a PACT National
Pediatric Ambassador (2015-16), and received the
Texas Liberty Award (along with her sister) in 2016.
52. Alexis’s drive to help those around her led to
her newest project, “Patches of Hope.” She and her
sister Avery are growing USDA certified organic
garden vegetables on their family farm to donate to
hungry people in need, including her beloved Medical
Marijuana Refugees. Her story and advocacy have
been featured in documentaries, newspapers, magazines, TV, and on radio stations worldwide.
53. While thrilled with the success she has
experienced in treating her intractable epilepsy and
eliminating her daily seizures with medical Cannabis,
Alexis would like to move back to Texas, where she
would be eligible for free college tuition through
Texas’s State Department of Education. Alexis is not
eligible for free state education in Colorado.
54. In addition, Alexis would like to travel to
other States and to federal lands (including, for
example, national parks and monuments), but cannot
safely do so without fear that: (i) her parents, with
whom she would travel, might be prosecuted for
possession of Cannabis; or worse (ii) her parents might
be subjected to proceedings which would imperil their
parental rights.

App.176a
55. Separate and apart from her desire to travel
to other States, national parks and monuments,
Alexis would like to visit, and has been invited to
speak with, members of Congress at the Capitol, inter
alia, to lobby in favor of repealing the CSA and in
favor of the MJA, which would have the effect of descheduling Cannabis.
56. However, Alexis cannot make a trip to the
Capitol and visit with her elected representatives and
other public officials unless she were to leave her medical Cannabis behind, endangering her life.
57. There is no comparable substitute for the
opportunity to visit public officials and engage in inperson advocacy.
58. Insofar as Alexis is a minor, she cannot vote;
her ability to influence her elected representatives is
limited to efforts by her to advocate in support of
beneficial legislation and against-laws she regards as
harmful.
59. Alexis would also like to avail herself of the
Veterans Benefits for which she is eligible and which
she would otherwise receive were it not for her necessary Cannabis use; however, Alexis cannot enter the
neighboring military base, where she would be able to
avail herself of such Benefits, including, for
example, commissary benefits, unless she were to
leave her medication behind, risking her health. And,
although currently receiving health insurance
(another of the Veterans Benefits to which she is
entitled) through her father’s veteran’s benefit plan,
Alexis will almost certainly lose her eligibility within
the next three years, as she would be required to enter
a United States military base to renew her health

App.177a
insurance card—a trip she cannot safely make
without taking her State-legal, but federally-illegal,
medication with her. Thus, Alexis and her family are
subjected to an unacceptable Hobson’s Choice: (A)
discontinuing the only medication that has ever
eliminated her seizures (thereby resigning herself to
living permanently with a dangerous and disabling
illness) so that she could return to Texas; or (B)
continuing to use her medication but refusing to
relinquish her Right to Travel, risking arrest, prosecution and her parents’ loss of parental rights; or (C)
continuing to use her medication within the State of
Colorado but foregoing her rights to: (i) live in Texas;
(ii) receive free tuition in Texas; (iii) travel to other
States; (iv) use an airplane to travel to any other
State; (v) step onto federal lands or into federal
buildings; (vi) access military bases; and (vii) receive
her father’s Veteran’s Benefits (“Hobson’s Choice”).

Jose Belen
60. Plaintiff Jose Belen is a citizen of the State of
Florida, with a residence in Seminole County
(“Jose”).
61. On January 16, 2002, at the age of 19, Jose
enlisted in the United States Army.
62. Soon after enlisting in the Army, Jose was
deployed to Germany, where he participated in training
exercises and awaited further deployment.
63. On March 20, 2003, the United States Military
began an invasion of Iraq, under the code-name
“Operation Iraqi Freedom.”
64. In or around May 2003, Jose and his battalion
were deployed to Kuwait.

App.178a
65. Jose’s battalion was then pushed directly into
active combat, receiving orders to cross the IraqKuwait border and march on to enter Baghdad.
66. In connection with this mission, Jose then
served in Iraq for 14 months, often witnessing brutal
armed combat first-hand.
67. During his deployment, Jose came to know
many of his fellow soldiers personally, developing
strong, emotional bonds.
68. During his deployment, Jose was in grave
danger and witnessed the killing of several fellow
soldiers, including his best friend and roommate.
69. After he was honorably discharged, Jose
moved to Florida.
70. It soon became clear to Jose that he was
unable to forget and/or otherwise cope with his memory
of the horrors of war that he had lived through in Iraq.
71. Jose developed
Disorder (“PTSD”).

Post-Traumatic

Stress

72. PTSD is an ailment which commonly afflicts
members of the armed forces who have seen active
combat.
73. Because of his PTSD, the Veterans Affairs
Administration declared Jose “70% disabled.”
74. Jose sought treatment for his PTSD from the
medical staff at the Veterans Affairs Administration and
other treatment centers.
75. The medical staff at the Veteran Affairs
Administration issued Jose prescriptions for different
opioid medications.

App.179a
76. The aforesaid and described prescriptions
were ineffective and often further disabling.
77. Jose’s PTSD intensified, and became so severe
that Jose often contemplated taking his own life.
78. Statistics show that an average of 22 American military veterans commit suicide every day.
79. Upon information and belief, most of these
suicides are directly linked to PTSD.
80. Jose subsequently discovered that Cannabis
is the only substance which actually reduced his
PTSD symptoms.
81. Since he began treating with medical
Cannabis, Jose has been able to cope with his PTSD.
82. Jose has disclosed his need for medical
Cannabis to his Veterans Administration physicians.
83. Jose’s treatment providers at the Veterans
Administration informed Jose that they are unable to
prescribe medical Cannabis because it is illegal under
the CSA.
84. As with Alexis, Jose cannot, while possessing
his medical Cannabis: (i) enter a military base; (ii)
travel by airplane; (iii) step onto federal lands or into
federal buildings; (iv) travel to States where medical
Cannabis is illegal and enforced under the CSA; (v)
request medical Cannabis from his treating physicians;
and/or otherwise (vi) avail himself of the Veterans
Benefits for which he is otherwise eligible and to
which he is legally entitled. Thus, as with Alexis, Jose
is subjected to a similar Hobson’s Choice—his life and
health, or the exercise of his constitutional rights and
the risk of arrest.

App.180a
85. Separate and apart from his desire to receive
Veterans Benefits, Jose would like to visit and speak
with members of Congress at the Capitol to lobby in
favor of, inter cilia, repealing the CSA and in favor of
the MJA, which would have the effect of de-scheduling
Cannabis.
86. However, Jose cannot make a trip to the
Capitol and visit with his elected representatives and
other public officials unless he were to leave his medical Cannabis behind.
87. There is no comparable substitute for the
opportunity to visit public officials and engage in inperson advocacy.

Sebastien Cotte and Jagger Cotte
88. Sebastien Cate is, and at all relevant times
has been, a citizen and domiciliary of the State of
Georgia, with a residence in Dekalb County (“Sebastien”).
89. Jagger Cotte is, and at all relevant times has
been, a citizen and domiciliary of the State of Georgia,
with a residence in Dekalb County.
90. Sebastien is Jagger’s father.
91. Jagger is a six-year old boy who lives with his
parents, including his father, Sebastien.
92. Jagger suffers from a rare, congenital disease
known as “Leigh’s Disease,” which disables and then
kills approximately 95% of people afflicted with it (if
diagnosed before age 2) by the time that they reach
the age of four.
93. Consistent with his diagnosis and prognosis,
Jagger, beginning at age one, became a hospice patient,

App.181a
unable to communicate, walk, masticate food, and/or
otherwise handle any activities of daily living.
94. Worse, Jagger began experiencing nearconstant pain, shrieking in agony as he tried to get
through each day.
95. As Sebastien and his wife prepared for what
they expected would be their son’s inevitable demise,
they turned to Cannabis with high concentrations of
THC, in the hope of reducing his pain and prolonging
his life.
96. Since he began treating with medical Cannabis with high concentrations of THC, Jagger has
stopped screaming in pain, has been able to interact
with his parents, and has prolonged his life by more
than two years.
97. Cannabis with a THC concentration of greater
than 5% is illegal in the State of Georgia.
98. Because his required dosage for effective
treatment of his condition requires a THC content
greater than 5%, Jagger cannot obtain his medical
Cannabis in State.
99. Worse, Georgia has no regulatory protocol for
the cultivation, distribution and sale of Cannabis.
Thus, assuming that medical Cannabis with a THC
content of 5% were sufficient to treat Jagger’s
condition—and it isn’t—obtaining State-legal medical
Cannabis in Georgia is impossible, as it is unavailable
for purchase in a dispensary or otherwise.
100. At one point, Jagger and his family relocated
to Colorado so as to facilitate the administration of his
medication; however, maintaining two residences and
caring for a dying child full time rendered this

App.182a
prospect economically infeasible. Consequently, the
Cotte family returned to Georgia (by car).
101. As with Alexis and Jose, Jagger cannot
travel by airplane, enter onto federal lands or into federal buildings, and/or travel to and/or through States
in which medical Cannabis, by reason of the CSA and
other legislation, is illegal. Thus, Jagger is resigned to
a Hobson’s Choice of: (i) relinquishing his constitutional rights because of his treatment with medical
Cannabis; or (ii) retaining his constitutional rights
but foregoing his medical treatment and subjecting
himself to the uncompromisingly painful and ultimately fatal effects of his illness; or (iii) traveling
without regard to where Cannabis is legal or illegal
and risking his or his father’s arrest.
102. Jagger would like to visit with members of
Congress at the Capitol and, through his father, lobby
in favor of repealing the CSA and in favor of the MJA,
which would have the effect of de-scheduling Cannabis.
103. However, Jagger cannot make a trip to the
Capitol and visit with his elected representatives and
other public officials unless he were to leave his medical Cannabis behind, thereby endangering his life.
104. There is no comparable substitute for the
opportunity to visit public officials and engage in inperson advocacy.
105. Insofar as Jagger is a minor, he cannot vote;
his ability to influence his elected representatives is
limited to efforts by him (through his father) to
advocate in support of beneficial legislation and against
laws he regards as harmful.

App.183a

Cannabis Cultural Association, Inc.
106. Cannabis Cultural Association, Inc. (“CCA”)
is, and at all relevant times has been, a not-for-profit
corporation organized and existing under the laws of
the State of New York, with a principal headquarters
in the City and County of New York.
107. The CCA was founded to provide a voice and
forum to assist persons of color to develop a presence
in the Cannabis industry—an industry in which they
are and, at all relevant times have been, grossly
under-represented except when it comes to being
arrested.
108. People of color, especially black males, are
up to four times as likely to be arrested in connection
with Cannabis than white Americans, and make up
nearly 70% of the 2.5 million people in prison for drug
crimes (even though use among races is virtually
equal).
109. Convictions for violations of the CSA and
other statutes criminalizing cultivation, distribution
and/or use of Cannabis frequently disqualify individuals
from participating in State-legal medical Cannabis
businesses. By reason of the foregoing, persons of
color, who are disproportionately investigated and
prosecuted for drug offenses, have been unfairly and
inequitably excluded from the Cannabis industry.
110. Members of the CCA include persons of color
who have been arrested, prosecuted, convicted and/or
incarcerated for violating the CSA as it pertains to
Cannabis.

App.184a
DEFENDANTS

Sessions
111. Defendant Jefferson Beauregard Sessions,
III (“Sessions”) is, and since on or about February 8,
2017 has been, the Attorney General of the United
States.8
112. Before his ascension to Attorney General,
Sessions, from 1997 until in or about late 2016, served
as a United States Senator on behalf of the people of
the State of Alabama.
113. Prior to his installation as a United States
Senator, Sessions was a United States Attorney for
the Southern District of Alabama.
114. While serving as a United States Attorney,
Sessions was nominated to serve as a United States
District Court Judge; however, his nomination was
withdrawn following a series of Senate hearings at
which witnesses testified that Sessions had:
•

made racially insensitive remarks to African
American Assistant U.S. Attorneys;

•

spoken favorably of the Ku Klux Klan;

•

referred to a white civil rights attorney as
“maybe” a “disgrace to his race;”

•

repeatedly referred to an African American
Assistant U.S. Attorney as “boy” and had
instructed the latter to “be careful what you say
to white folks;”

8 Sessions is sued only in his official capacity as Attorney General.

App.185a
•

remarked that the NAACP and ACLU were
“un-American” and “Communist-inspired,” and
that they were trying to force civil rights “down
the throats of people;” and

•

complained that he had wished he could decline
all civil rights cases.9

115. Sessions was never again nominated to sit
on the Federal Bench.
116. Upon information and belief, Sessions is,
and at all relevant times since 1997 has been, a citizen
of Alabama, and a resident of both Alabama and
Washington, DC.
117. Sessions, as Attorney General, is authorized
to re-schedule, de-schedule and/or decline to reschedule or de-schedule any drug classified under the
provisions of the CSA. 21 U.S.C. § 811.
118. As shown below, Sessions has announced
that:
•

he was “heartbroken” that former President
Obama said that “Cannabis is not as dangerous
as alcohol;”

•

he believes that Cannabis is “a dangerous drug;”

9 Sessions admitted that he had made favorable comments about
the Ku Klux Klan, but claimed he was not being serious and later
apologized. He claimed not to remember saying that a white civil
rights lawyer was “maybe” a “disgrace to his race.” As to the
comments about the ACLU and NAACP, Sessions claimed to
have been referring to the organizations’ supposed support for
the Sandinistas in Nicaragua. He denied making the other
above-referenced statements attributed to him.

App.186a
•

he believes that “good people don’t smoke marijuana;” and

•

he thought favorably of the Ku Klux Klan, but
then changed his view when he learned that its
members supposedly smoke “pot.”

119. On or about May 1, 2017, Sessions sent correspondence to Congress requesting that funding be
provided that could allow the United States Department of Justice (“DOJ”) to resume criminal prosecutions of: (i) State-legal medical marijuana patients, (ii)
State-legal businesses that provide medical Cannabis to
patients, and (iii) physicians who recommend such
treatment.10
120. On July 19, 2017, Sessions announced his
intention to resume civil forfeiture activity, previously
discontinued under the Obama Administration, as
part of his continued war against those whom Sessions
claims are engaged in dangerous, illegal drug activity.11

United States Department of Justice
121. Defendant DOJ is, and since in or about
1870 has been, an executive department of the United
States, “with the Attorney General as its head.”12

10 As discussed below, Congress had previously enacted legislation
that prevents the Attorney General and Department of Justice
from using legislative appropriations to prosecute those in Statelegal medical Cannabis jurisdictions operating in conformity with
State law.
11 https://www.politico.com/story/2017/07/19/jeff-sessions-drugwar-seizures-240706.
12 https://wwwjustice.gov/about.

App.187a
122. According to the mission statement contained
on its website, the DOD’s purpose is:
[t]o enforce the law and defend the interests
of the United States according to the law; to
ensure public safety against threats foreign
and domestic; to provide federal leadership
in preventing and controlling crime; to seek
just punishment for those guilty of unlawful
behavior; and to ensure fair and impartial
administration of justice for all Americans.13
123. To the extent that the DOJ treats medical
Cannabis as a dangerous and illegal substance, Plaintiffs and everyone else who may need to use, or who
desire to cultivate and/or sell, medical Cannabis are
at risk of investigation and prosecution by the DOJ.

Charles “Chuck” Rosenberg and the DEA
124. Defendant Charles “Chuck” Rosenberg
(“Rosenberg”) is, and since May 2015 has been, the
acting head of the defendant Drug Enforcement
Administration (“DEA”).14
125. Defendant DEA is, and since 1973 has been,
a Federal agency charged with the responsibility of
investigating and, together with the DOJ, enforcing,
the CSA, and any other controlled substances laws
and regulations of the United States.

13 Id.
14 Rosenberg is sued only in his official capacity as Acting
Administrator of the DEA.

App.188a
126. Since at least 2002, the DEA’s position has
been that enforcement of Federal Laws against medical
Cannabis is the responsibility of the DEA.
127. On or about November 10, 2015, Rosenberg
publicly announced to CBS News that he believes that
“medical marijuana” is a “joke.”15

United States of America
128. The United States of America is named as a
defendant because this action challenges the constitutionality of an Act of Congress. 28 U.S.C. § 2403(A).
STATEMENT OF FACTS
I.

Cannabis Has Been Cultivated and Safely Used
Throughout World History

10,000 BC until the Birth of Christ
129. Cannabis has been utilized in a multitude of
ways by diverse groups of people all over the world for
the last 10,000 years.16
130. The first documented use of Cannabis took
place in the area of modern day Taiwan where hemp
cords were identified in pottery found in an ancient
village dating back to about 10,000 years ago.17

15 http://www.cbsnews.cominews/dea-chief-says-smokingmarijuana-as-medicine-is-a-joke.
16 See Deitch, supra note 1 at 1, 7-8; Leslie Iversen, THE
SCIENCE OF MARIJUANA 122 (2000);
17 Deitch, supra note 1 at 7-8; 10,000-year History of Marijuana
Use in the World, ADVANCED HOLISTIC HEALTH, http://www.

App.189a
131. In 6,000 B.C., China became the first country
known to utilize Cannabis seeds and oil for food and,
along with Turkestan, China began cultivating hemp
for the purpose of producing textiles in 4,000 B.C.18
132. The first documented medical use of Cannabis
also occurred in China (in or around 2900 B.C.) when
Chinese Emperor Fu Hsi, the father of Chinese
civilization, noted that “Ma,” the Chinese word for
Cannabis, was a “very popular medicine that possessed
both yin and yang.”19 Its popularity at that time has
been confirmed by the “Pen ts’ao,” a Chinese digest of
herbal medicines which was first published in or about
2800 B.C.
133. The Pen ts’ao “recommended Cannabis for
the treatment of constipation, gout, malaria, rheumatism, and menstrual problems.”20
134. Hemp in particular was so important in
ancient China that the Chinese people referred to
their country as the “land of mulberry and hemp.”21
135. The ancient Egyptians began to use Cannabis
as medicine in or about 2000 B.C.22
advancedholistichealth.org/history.html (last visited July 20,
2017) [hereinafter referred to as “ADVANCED HOLISTIC HEALTH”].
18 Advanced Holistic Health, supra note 17.
19 Deitch, supra note 1 at 9.
20 Iversen, supra note 16 at 122.
21 Deitch, supra note 1 at 9.
22 Claire Rankin, Marijuana use in ancient Egypt, NEWS
TARGET (Feb. 26, 2016), https://www.newstarget.com/2016-0226-marijuana-use-in-ancient-egypt.html; see also In the Matter
of Rescheduling Marijuana, 86-22 at p. 33 (1988) (in a proceeding

App.190a
136. The ancient Egyptians used Cannabis at
that time to treat sore eyes and cataracts, inflammation, hemorrhoids, menstrual bleeding, and
Glaucoma.23 And while the ancient Chinese were the
first people known to use Cannabis as medicine, “it
was the ancient Egyptians who first identified cancer
as an illness and then treated it with Cannabis.”24
137. Beginning in 2,000 B.C., the use of Cannabis
expanded to suit religious and spiritual purposes as
well.25 Around this time, a sacred Hindu text,
Atharvaveda, first refers to “Bhang,” an intoxicant
made from the leaves of the female Cannabis plant, as
one of the five sacred plants of India.26
138. Bhang was used in ancient India medicinally
as an anesthetic and anti-phlegmatic.27
139. Bhang was used in ancient India religiously
as an offering to the god Shiva.28
140. In approximately 1450 B.C., when the events
of the Book of Exodus (30:22-23) are alleged to have
contested by the DEA, the ALJ observed: “Uncontroverted evidence [o]n this record indicates that marijuana was being used
therapeutically by mankind 2000 years before the Birth of
Christ” (citation omitted).
23 Rankin supra note 22; See also PROCON.ORG, supra note 3.
24 Rankin supra note 22.
25 See ADVANCED HOLISTIC HEALTH, supra note 17.
26 Id.; Charukesi Ramadurai, The Intoxicating Drug of an Indian
God, BBC (March 13, 2017), http://www.bbc.com/travellstory/
20170307-the-intoxicating-drug-of-an-indian-god.
27 PROCON.ORG, supra note 3.
28 ADVANCED HOLISTIC HEALTH, supra note 17.

App.191a
occurred, Cannabis was purportedly one of the
ingredients contained in the Holy anointing oil passed
from God to Moses.29
141. According to the analyses of a number of
well-respected etymologists, linguists, anthropologists,
and botanists, the recipe for the Holy anointing oil
contained over six pounds of “kaneh-bosem,” a Hebrew
term these professionals have identified as meaning
Cannabis.30
142. The use of Cannabis as a medicinal substance
continued to spread throughout Asia and Europe for
centuries.
143. The Venidad, a Persian text dating back to
700 BC, cited Cannabis as being one of the most
significant of 10,000 medicinal plants.31
144. By 600 B.C. India began using Cannabis to
treat leprosy.32

29 See PROCON.ORG, supra note 3.
30 Id.; See also Jane Marcus, Holy Cannabis: The Bible Tells Us
So, Huffington Post, http://www.huffingtonpost.com/janemarcus-phd/holy-cannabis-the-bible-t_b_4784309.html (last updated Apr. 16, 2014).
31 Rob Streisfeld, NMD, The Role of the EndoCannabinoid System
& Cannabinoids Linked to Gut Health, NYANP 13, http://www.
nyanp.org/wp-content/uploads/2015/10/Streisfeld_Cannabis-FNYANP.pdf (last visited May 10, 2017);PROCON.ORG, Supra
note 3 (citing Martin Booth, CANNABIS: A HISTORY (2005)).
32 PROCON.ORG, supra note 3 (citing Jonathan Green, CANNABIS
(2002)).

App.192a
145. In 200 B.C. Greece, Cannabis was utilized as
a remedy for earaches, edema, and inflammation.33

Cultivation and Use of Cannabis from the Birth of
Christ Through the Period of Colonial America
146. An important Roman medical text, De
Materia Medica, was published in 70 A.D.
147. De Materia Medica refers to the Cannabis
plant as “produc[ing] a juice” that was “used to treat
earache[s] and to suppress sexual longing.”34
148. By 200 A.D., a Chinese physician, Hua T’o,
became the first known surgeon to use Cannabis as an
anesthetic during surgeries such as “organ grafts, resectioning of intestines, laparotomies (incisions into
the loin), and thoracotomies (incisions into the
chest).”35
149. Ancient civilizations cultivated the Cannabis
plant, not merely for medicinal and religious needs,
but also to produce industrial hemp for the manufacturing of items such as paper, rope, sails, and linen.

33 U.S. NATIONAL COMMISSION ON MARIHUANA AND DRUG ABUSE,
MARIHUANA, A SIGNAL OF MISUNDERSTANDING, Appendix,
Chapter One, Part 1(1972).
34 PROCON.ORG, supra note 3 (citing Martin Booth, CANNABIS:
A HISTORY (2005)).
35 Ernest L. Abel, THE FIRST TWELVE THOUSAND YEARS 9 (1980),
https://cannabis-truth.yolasite.com/resources/Abel.%20mari
huana%20the%20first%20twelve%20thousand%20years.pdf; Deitch,
supra note 1 at 10.

App.193a
150. China was among the first known civilizations
to produce paper from hemp.36
151. Between 900-1200 A.D., the Arab world,
Spain, Italy, England, France, and Germany all began
replicating China’s hemp-paper manufacturing
process.37
152. The Venetian Republic, the first known
Western European nation to industrialize around the
production of hemp and the first European country to
experience genuine economic progress emerging from
the Dark Ages in the late 10th Century A.D., elevated
the art of processing raw hemp into rope, sails and
fine linen-like cloth.38 This reliance upon Cannabis to
produce industrial hemp lasted well into the Middle
Ages and spread all across Europe.39
153. Britain became the “industrial goliath of
Western Europe” in large part due to its exploitation
of hemp for the manufacture of, among other things,
rope and sail-commodities that were essential to its
large merchant and naval fleet.40
154. In 1533, King Henry VIII imposed a law
mandating that farmers grow hemp.41
155. Three decades after King Henry VIII’ s law
mandating the cultivation of hemp, Queen Elizabeth
36 Abel supra note 35 at 6-7.
37 Id.
38 Deitch, supra note 1 at 11.
39 Id.
40 Id. at 11-12.
41 Id. at 12.

App.194a
I increased the mandated quota imposed on farmers
growing hemp and increased the penalties for failing
to meet the quota.42
156. Britain’s reliance on Cannabis was not limited
to its navy-related needs; Britain’s economy had also
become largely driven by its production of hemp-based
domestic goods such as fabrics and cordage.43
157. Britain, during the 16th and 17th Centuries,
utilized Cannabis for its medicinal properties as
well.44

The Importance of Cannabis to Colonial America
158. By the 17th Century, Britain began colonizing
much of the world, including the Americas in particular.
159. Britain’s colonization empire was built, in
part, upon its cultivation, distribution and use of
hemp; however, Britain began to exhaust its geographic
agricultural resources to produce adequate amounts
of hemp.45

42 Id.
43 Id. at 14.
44 Queen Elizabeth I’s doctor prescribed Cannabis to her to
relieve her menstrual pain. History of Cannabis, BBC NEWS,
https://news.bbc.co.uld2/hi/programmes/panorama/1632726.stm
(last visited May 10, 2017).
45 Deitch, supra note 1 at 12. “The fundamental reason for
America’s predominately Protestant British heritage is that
Britain encouraged its people to colonize America—and they did
that primarily because Britain’s domestic hemp-based industry,
the lifeblood of the economy, desperately needed a stable, reliable, and relatively cheap source of raw hemp.” Id. at 13.

App.195a
160. England’s need for hemp was so substantial
that, in 1611, after its establishment of the Jamestown
Colony in the Americas, England gave direct orders to
the colonists to grow hemp for the production of rope,
sails, and clothing.46
161. In 1619, “[t]he Virginia Company, by decree
of King James I . . . , ordered every [property-owning]
colonist . . . to grow 100 [hemp] plants specifically for
export.”47
162. In 1663, the English Parliament passed
legislation, granting rights and privileges of naturalborn citizens to “any foreigner who settled in England
or Wales and established a hemp-related industry
within three years,” in order to encourage those
fleeing persecution in Europe to seek refuge in
England.48
163. The value of hemp was so well-recognized in
the Americas during the colonial period that it was
frequently used as a barter medium, and farmers
were permitted to pay part of their taxes using the
plant in the colonies of Virginia (1682), Maryland
(1683), and Pennsylvania (1706).49
164. Britain’s colonization of the Americas was
intended to provide England with raw materials for

46 Id. at 14; Marijuana Timeline, PBS, http://www.pbs.org/wgbh/
pages/frontline/shows/dope/etc/cron.html (last visited May 10, 2017)
[hereinafter referred to as “PBS”].
47 Deitch, supra note 1 at 16.
48 Id. at 18.
49 Id. at 19.

App.196a
its own production of goods.50 However, a combination
of America’s first textile and shipbuilding industries
created a burgeoning domestic market for local hemp,
which led the colonists to retain the vast majority of
American raw hemp for their own local production of
rope, paper, and cloth, rather than for export to
England.51 These growing American industries, based
principally upon hemp, helped pave the way for
America’s economic independence from England.52

The Founding Fathers’ Cultivation, Distribution and
Sale of Cannabis in All its Variations
165. Among the colonists to benefit economically
from the commercial uses of hemp in the Americas
were the Founding Fathers—several of whom derived
significant portions of their wealth from the production
of hemp or hemp-based goods.53
166. The men who cultivated and/or used hemp
included, inter alia, George Washington, Thomas
Jefferson, Benjamin Franklin and one of America’s
richest colonists, Robert “King” Carter.54
167. Indeed, “Jefferson received the first United
States patent for his invention of a machine that

50 Id. at 20.
51 Id.
52 Id.
53 Id. at 19.
54 Id.

App.197a
would break hemp (that is, start the process of
extracting the fibers).55
168. Benjamin Franklin, America’s leading paper
producer, became wealthy from the cultivation of
hemp, since that was what paper was made from at
that time.56
169. Hemp was so widely utilized in the late
1700s that early drafts of the Declaration of
Independence and the United States Constitution
were written on it;57 many of the supplies and uniforms
needed for the Revolutionary War were made from
it;58 and the first United States flag was made from
hemp cloth.59
170. In fact, all official American flags were made
of hemp until 1937, when Congress enacted the
Marijuana Tax Act, discussed infra.60
171. Colonial America’s use of the Cannabis plant
was by no means restricted to industrial uses. “[C]olonial Americans were aware of the medicinal properties
55 Id. Hemp was viewed so favorably by Thomas Jefferson that
he was quoted as saying that “[h]emp is of first necessity to the
wealth & protection of the country.” Robbie Gennett, On Role
Models and their Bongs, HUFFINGTON POST, http://www.huffing
tonpost.com/robbie-gennetion-role-models-and-their_b_164387.
html (last updated May 25, 2011).
56 Id. Until 1883, 75-90% of all the paper the world produced was
made with hemp fiber. Id. at 21.
57 Deitch, supra note 1 at 35; Gennett, supra note 55.
58 Deitch, supra note 1 at 35.
59 Id.
60 Id.

App.198a
of Cannabis. It was one of the few medicines they had,
and they used it as commonly as we [in America] use
aspirin today.”61
172. Some of the Founding Fathers also smoked
Cannabis (known at that time as “hemp” or “sweet
hemp”) for both medicinal and recreational purposes.62
173. Entries from George Washington’s diary
reveal that Washington grew hemp at his plantation,
Mount Vernon, for approximately 30 years.63
174. George Washington specifically grew Cannabis with high THC concentrations—the very substance
that today, would subject him to prosecution and
incarceration under the CSA.64
175. Thomas Jefferson, who was also a hemp
farmer, mentioned in his diary that he smoked hemp
as a remedy for migraine headaches.65
61 Id. at 25.
62 Id. at 25-26.
63 Id. at 25.
64 Id. Washington’s diary entries read: “‘Sowed hemp [presumably Indian hemp] at muddy hole by swamp’ (May 12-13, 1765);”
“Began to separate the male from female plants at do [sic]—
rather too late’ (August 7, 1765);” and “Pulling up the (male)
hemp. Was too late for the blossom hemp by three weeks or a
month’ (August 29, 1766)” which all indicate that he was growing
the Cannabis away from the hemp for fiber and that he was
trying to grow female plants, which produce high THC content.
Id. (citing Washington’s Diary Notes, Library of Congress
(Volume 33, page 270)); see also George Andrews and Simon
Vinkenoog, THE BOOK OF GRASS: AN ANTHOLOGY OF INDIAN HEMP
34 (1967).
65 Deitch, at note 1 supra at 25.

App.199a
176. James Madison stated that sweet hemp “gave
him insight to create a new and democratic nation.”66
177. The notion that Cannabis negatively impairs
a user’s mental or physical abilities is rendered
ludicrous by the fact that the visionaries of our
democratic system of government were known to use
(and admitted using) Cannabis on a regular basis.67

Post-Revolutionary War Use of Cannabis for NonMedical and Medical Purposes
178. At the conclusion of the Revolutionary War
in 1781, the value of industrial hemp plummeted.
179. By 1850, hemp dropped to the third most
commonly-grown agricultural crop in America—it had
been the first until this time—behind only cotton and
tobacco.68
180. During the mid-19th Century, due to the
introduction of more modern sailing ships, hemp
became obsolete for military purposes.69
66 Julian Sonny, The Presidents Who Admitted to Smoking
Weed, ELITE DAILY (Feb. 18 2013), http://elitedaily.com/news/
politics/presidents-admitted-smoking-weed/.
67 Deitch, supra note I at 27. Aside from George Washington and
Thomas Jefferson, whose Cannabis use is discussed supra, other
American Presidents known to have smoked cannabis include:
James Madison, James Monroe, Andrew Jackson, Zachary Taylor,
Franklin Pierce, Abraham Lincoln, John F. Kennedy, Jimmy
Carter, George W. Bush, Bill Clinton, and Barack Obama. Id. at
26-27; Gennett supra note 55; Sonny supra note 66; Chris
Conrad, HEMP: LIFELINE TO THE FUTURE 192 (1994).
68 Deitch supra note 1 at 38.
69 Id.

App.200a
181. At or about the time that hemp became
obsolete for military purposes, Cannabis was still a
mainstream form of medicine in the West and particularly in the United States.
182. Cannabis was formally introduced into Western medicine in the 1830s by William O’Shaughnessy,
a doctor working for the British East India Company.70
183. After experimenting with Cannabis on both
animals and humans for years, Dr. O’Shaughnessy
concluded that Cannabis was an “anti-convulsive
remedy of the highest value”71 and that it was highly
effective in treating conditions such as rheumatoid
arthritis, spasticity, and pain.72
184. Shortly after making the aforementioned
and described discoveries, Dr. O’Shaughnessy and a
London pharmacist created an extract from Cannabis,
later termed “Squire’s Extract.”
185. Dr. O’Shaughnessy put Squire’s Extract on
the market as an analgesic.73

70 Martin Booth, CANNABIS: A HISTORY 109-10 (2003); Steve
DeAngelo, THE CANNABIS MANIFESTO: A NEW PARADIGM FOR
WELLNESS 48 (2015).
71 Id.
72 DeAngelo, supra note 70 at 48.
73 Booth, supra note 70 at 112. Indeed, Squire’s Extract and
similar medicines became quite popular among physicians who
found that the only other pain killer that was equally effective
was opium, which unlike Cannabis-based products, they found
to be highly addictive and riddled with adverse side effects. Id.
at 113.

App.201a
186. After the development of Squire’s Extract,
Cannabis made its way further into American medicine
as “Tilden’s Extract.”74
187. As early as 1840, studies regarding the medical uses of Cannabis appeared in American medical
academic publications.75
188. By 1850, the widely-distributed United States
Pharmacopoeia, a highly selective listing of America’s
most widely taken medicines, listed Cannabis as a
treatment for “neuralgia, tetanus, typhus, cholera,
rabies, dysentery, alcoholism, and opiate addiction,
anthrax, leprosy, incontinence, snake bite, gout,
convulsive-inducing conditions, tonsillitis, insanity
. . . [ ]excessive menstrual bleeding[ ], and uterine
hemorrhaging.”76

74 Id. at 112-13.
75 DeAngelo, supra note 70 at 50.
76 Booth, supra note 70 at 113-14; Edward M. Brecher, et al.,

The Consumers Union Report on Licit and Illicit Drugs,

CONSUMER REPORTS MAGAZINE (1972), http://www.druglibraty.
org/schaffer/Library/studies/cuku54.html#Anchor-35882;
PROCON.ORG, supra note 3. Interestingly, “pharmaceutical
supplies of Cannabis indica were entirely imported from India
(and occasionally Madagascar), in accordance with the Pharma–
copoeia, which specified that it come from flowering tops of the
Indian variety.” PROCON.ORG, supra note 3. However, by 1913,
the U.S. Department of Agriculture Bureau of Plant Industry
determined that it had succeeded in growing Cannabis of equal
quality to the Indian variety. Id. Thus, when World War I
disrupted America’s receipt of foreign supplies, the United States
was able to be self-sufficient in the production of Cannabis. Id.
“By 1918, some 60,000 pounds were being produced annually, all
from pharmaceutical farms east of the Mississippi.” Id.

App.202a
189. Thereafter, the Pharmacopoeia included Cannabis, later known as “Extractum Cannabis” or
“Extract of Hemp,” as a treatment for additional ailments and conditions.77
190. In 1860, the Ohio State Medical Society’s
Committee on Cannabis Indica found Cannabis to be
medically effective for ailments including stomach
cramps, coughs, venereal disease, postpartum
depression, epilepsy, and asthma.78
191. By the latter half of the 19th century, “every
pharmaceutical company [in America was] . . . busy
manufacturing [C]annabis-based patent cures
[including] E.R. Squibb & Sons [which] marketed
their own Chlorodyne and Corn Collodium; Parke,
Davis, [which] turned out Utroval, Casadein and a
veterinary [C]annabis colic cure; Eli Lilly [which]
produced Dr[.] Brown’s Sedative Tablets, Neurosine
and the One Day Cough Cure, a mixture of [C]annabis
and balsam which was a main competitor for another

77 Id.; Brecher supra 76.
78 Booth, supra note 70 at 114; DeAngelo, supra note 70 at 50.
There is even evidence that suggests that none other than
Abraham Lincoln smoked “sweet hemp.” According to
Huffingtonpost.com, Lincoln is reported to have written, while
serving as President of the United States:
Two of my favorite things are sitting on my front
porch smoking a pipe, and smoking a pipe of sweet
hemp and playing my Hohner harmonica.

See http://m.huffpost.com/us/entry/164387. There are those who
have disputed the authenticity of the evidence underlying this
claim, but it is not without significance that the claim has been
reported by reputable media sources.

App.203a
new cough cure released
pharmaceutical firm, Bayer.”79

by

the

German

192. During the latter half of the 19th Century
and the beginning of the 20th Century, Cannabis was
also commonly used to treat asthma in the United
States80 Specifically, pharmaceutical companies began
manufacturing cigarettes containing Cannabis
(“Legal Cannabis Cigarettes”) for the purpose of
treating asthma in both England and the United
States.81
193. Legal Cannabis Cigarettes were so highly
regarded as a remedy for asthma in late 19th Century
America that the Boston Medical and Surgical Journal,
in its 1860 publication, advertised Legal Cannabis
Cigarettes, which were manufactured by Grimault &
Co., as being able to “promptly” cure or relieve
“Asthma, Bronchitis, Loss of Voice, and other infections
of the respiratory organs.”82

79 Booth, supra note 70 at 116.
80 Viewers’ Guide to the Botany of Desire: Based on the book by
Michael Pollan, Chapter 3, p. 7, PBS, https://www-te.pbs.org/
thebotanyofdesire/pdf/Botany_of Desire_Viewers_Guide.pdf (last
visited June 29, 2017).
81 Id. Grimault & Co. manufactured “Indian cigarettes” containing Turkish tobacco and Cannabis, which “were promoted as
an asthma and cough treatment which would also dull facial pain
and aid insomniacs.” Id.; see also Iversen supra note 16 at 130;
Rowan Robinson, THE GREAT BOOK OF HEMP: THE COMPLETE
GUIDE TO THE ENVIRONMENTAL, COMMERCIAL, AND MEDICINAL
USES OF THE WORLD’S MOST EXTRAORDINARY PLANT 47 (1996).
82 Cupples, Upham & Company, Medical Journal Advertising
Sheet, 83 B. MED. & SURGICAL J. 260 (1870-1871).

App.204a
194. Legal Cannabis Cigarettes continued to be
widely advertised and recommended for the treatment
of asthma in the United States until the Marijuana
Tax Act of 1937 (“MTA”) was enacted.
195. As discussed in greater depth infra, the MTA
effectively outlawed Cannabis in all of its forms.83
196. Nineteenth Century Americans utilized the
plant for social purposes as well.84 A “Cannabis fad”
took place in the mid-1800s among intellectuals, and
the open use of hashish (i.e., compressed Cannabis
containing a very high THC content) continued into
the 20th Century.85

The Beginning of Marijuana Regulation and Prohibition in America
197. The Food and Drugs Act (“FDA”) was enacted
in 1906, requiring the labeling of over-the-counter
drugs, including, inter alia, Cannabis.86
198. When the Mexican Revolution resulted in a
wave of Mexican immigrants to America’s Southern
border States in 1910, articles in the New York Sun,
Boston Daily Globe and other papers decried the “evils
of ganjah smoking” and suggested that some
83 DeAngelo, supra note 70 at 52.
84 See Brecher et al. supra note 76, PBS supra note 46; The Associated Press, As pot goes proper, a history of weed, NY DAILY
NEWS (Dec. 6, 2012), http://www.nydailynews.com/news/
nationallpot-proper-history-weed-article-1.1214613.
85 Brecher, et al., supra note 79; PBS supra note 46; The Associated Press supra note 84.
86 PBS supra note 46; The Associated Press supra note 84;
PROCON.ORG supra note 3.

App.205a
immigrants used it “to key themselves up to the point
of killing.”87
199. The vast majority of stories urging the
public to fear the effects of “marijuana” appeared in
newspapers published by William Randolph Hearst, a
man who had financial interests in the lumber and
paper industries, and therefore, saw the hemp industry
as an obstacle to his path to economic success.88
200. As a result of the hysteria created by the
aforementioned and described horror stories published
by pro-paper entrepreneurs, Cannabis-became associated with Mexican immigrants, and because there was
tremendous fear and prejudice with respect to these
newcomers, Cannabis likewise became vilified across
the country.89
87 Id.
88 PROCON.ORG supra note 3 (citing Mitchell Earleywine, PhD,
UNDERSTANDING MARIJUANA: A NEW LOOK AT THE SCIENTIFIC
EVIDENCE (2005). “William Randolph Hearst was an up-andcoming newspaper tycoon, owning twenty-eight newspapers by
the mid-1920s . . . Hearst then dropped the words Cannabis and
hemp from his newspapers and began a propaganda campaign
against ‘marijuana,’ (following in Anslinger’s footsteps).” Id
(citation omitted).
89 PBS supra note 46. “The prejudices and fears that greeted
these peasant immigrants also extended to their traditional
means of intoxication: smoking marijuana. Police officers in
Texas claimed that marijuana incited violent crimes, aroused a
‘lust for blood,’ and gave its users ‘superhuman strength.’
Rumors spread that Mexicans were distributing this ‘killer weed’
to unsuspecting American schoolchildren. . . . In New Orleans
newspaper articles associated the drug with African-Americans,
jazz musicians, prostitutes, and underworld whites. The
Marijuana Menace,’ as sketched by anti-drug campaigners, was
personified by inferior races and social deviants.” Eric Schlosser,

App.206a
201. The aforementioned and described xenophobia precipitated anti-Cannabis legislation across
America. States across the country began outlawing
Cannabis.90
202. By 1931, 29 states had outlawed Cannabis.91
203. This domino effect was largely triggered by
the spread, in the 1890s, of false, racist and bigoted
horror stories regarding alleged marijuana-induced
violence.92
204. The aforementioned and described xenophobia was exacerbated by job losses associated with
the Great Depression. During that time, “massive
unemployment increased public resentment and fear
of Mexican immigrants, escalating public and governmental concern [regarding] the [supposed] problem
[associated with] marijuana.”93
205. Harry J. Anslinger (“Anslinger”), the first
U.S. Commissioner of the Federal Bureau of Narcotics,
initially doubted the seriousness of the so-called
“marijuana”94 problem, but after the repeal of alcohol
Reefer Madness, THE ATLANTIC (Aug. 1994), https://www.
theatlantic.com/magazine/archive/1994/08/reefer-madness/
303476/
90 See The Associated Press supra note 84; PROCON.ORG supra
note 3.
91 PBS supra note 46.
92 See The Associated Press supra note 84.
93 PBS supra note 46.
94 The term ‘‘‘[Marijuana’ came into popular usage in the U.S. in
the early 20th century because anti-cannabis factions wanted to
underscore the drug’s ‘Mexican-ness.’ It was meant to play off of
anti-immigrant sentiments.” Matt Thompson, The Mysterious

App.207a
Prohibition in 1933, he began to push vigorously for
the nationwide prohibition of Cannabis, ostensibly to
create new work for himself.95
206. Anslinger then publicly claimed that the use
of “evil weed” led to murder, sex crimes, and mental
insanity.96
207. Anslinger authored sensational articles
falsely associating Cannabis with violence and death,
with titles such as “Marijuana: Assassin of Youth.”97

History of Marijuana’, NPR (July 22, 2013), http://www.npr.org/
sections/codeswitch/2013/07/14/201981025/the-mysterioushistory-of-marijuana.
95 The Associated Press, supra note 84; Schlosser, supra note 89.
“Harry [Anslinger] was aware of the weakness of his new
position. A war on narcotics alone-cocaine and heroin, outlawed
in 1914 wasn’t enough . . . they were used only by a tiny
minority, and you couldn’t keep an entire department alive on
such small crumbs. He needed more.” Cydney Adams, The man
behind the marijuana ban for all the wrong reasons, CBS NEWS
(Nov. 17, 2016), http://www.cbsnews.com/news/harry-anslingerthe-man-behind-the-marijuana-ban/.
96 Schlosser, supra note 89. Much of his rhetoric was blatantly
racist in nature. “He claimed that black people and Latinos were
the primary users of marijuana, and it made them forget their
place in the fabric of American society. He even went so far as to
argue that jazz musicians were creating ‘Satanic’ music all
thanks to the influence of pot . . . [and that] cannabis promotes
interracial mixing, interracial relationships.” Adams, supra note
95.
97 Id. In this article, he said: “No one knows, when he places a
marijuana cigarette to his lips, whether he will become a
philosopher, a joyous reveler in a musical heaven, a mad insensate,
a calm philosopher, or a murderer.” The Associated Press, supra
note 84.

App.208a
208. Anslinger also made a series of racist statements pertaining to African Americans and Cannabis,
including, inter alia:
(a) “Reefer makes darkies think they’re as good
as white men;”
(b) “Marihuana influences Negroes to look at
white people in the eye, step on white men’s
shadows, and look at a white women [sic]
twice;”
(c) “Colored students at the University of
Minnesota partying with (white) female
students, smoking [marijuana] and getting
their sympathy with stories of racial persecution. Result: pregnancy;”
(d) “There are 100,000 total marijuana smokers
in the US, and most are Negroes, Hispanics,
Filipinos and entertainers. Their Satanic
music, jazz and swing, result from marijuana
usage. This marijuana causes white women
to seek sexual relations with Negroes,
entertainers and any others;”
(e) “Marijuana is the most violence causing drug
in the history of mankind. Most marijuana
smokers are Negroes, Hispanics, Filipinos
and entertainers;” and
(f)

“The primary reason to outlaw marijuana is
its effect on the degenerate races.98

209. The hysteria that followed was captured in
propaganda films such as “Reefer Madness,” which
98 AZQuotes. Harry J. Anslinger Quotes. http://www.azquotes.
com/author/23159-Harry_JAnslinger

App.209a
purported to show young adults turning to violence
and becoming insane after smoking marijuana.99
210. This Cannabis-related propaganda ultimately
resulted in the passage of the MTA.100
211. The MTA effectively outlawed Cannabis by
requiring physicians and pharmacists to register and
report use of the plant, as well as pay an excise tax for
authorized medical and industrial uses.101
212. The MTA was passed even though members
of Congress neither understood the chemical properties
of Cannabis, nor had they even read the bill itself.102

99 Id.; PBS, supra note 46.
100 PBS, supra note 46; Thompson, supra note 94.
101 PBS, Supra, note 46. “The Federal law . . . maintained the
right to use marijuana for medicinal purposes but required physicians and pharmacists who prescribed or dispensed marijuana
to register with federal authorities and pay an annual tax or
license fee . . . After the passage of the Act, prescriptions of
marijuana declined . . . ” PROCON.ORG supra note 3 (citing
Rosalie Liccardo Pacula, PhD, State Medical Marijuana Laws:
Understanding the Laws and Their Limitations, JOURNAL OF
PUBLIC HEALTH POLICY (2002).
102 The following exchange between members of Congress several days after the MTA’s passage provides some insight into this
ignorance: “Bertrand Snell of New York, confessed, “I do not
know anything about the bill.” The Democratic majority leader,
Sam Rayburn of Texas, educated him. “It has something to do
with something that is called marihuana,” Rayburn said. “I
believe it is a narcotic of some kind.” Jacob Sullum, Marijuana

Prohibition Is Unscientific, Unconstitutional And Unjust,
FORBES (May 14, 2015), https://www.forbes.com/sites/
jacobsullum/2015/05/14/marijuana-prohibition-is-unscientificunconstitutional-and-unjust/#3 d9bbddf6cf0

App.210a
213. Worse, Congress enacted the MTA despite
failing to garner support from the medical community
for the notion that marijuana was a dangerous
substance.103
214. During Congressional hearings regarding
the proposed MTA, Dr. William Woodward testified:
There is nothing in the medicinal use of
Cannabis that has any relation to Cannabis
addiction. I use the word “Cannabis” in
preference to the word “marihuana,” because
Cannabis is the correct term for describing
the plant and its products. The term
“marihuana” is a mongrel word that has
crept into this country over the Mexican
border and has no general meaning, except
as it relates to the use of Cannabis preparations for smoking . . . To say, however, as
has been proposed here, that the use of the
drug should be prevented by a prohibitive tax,
loses sight of the fact that future investigation may show that there are substantial
medical uses for Cannabis.104
215. Despite enactment of the MTA, the United
States Department of Agriculture (“DOA”) and the
103 “[The]re was little scientific evidence that supported
Anslinger’s claims. He contacted 30 scientists . . . and 29 told
him cannabis was not a dangerous drug. But it was the theory of
the single [so-called] [‘]expert[’] who agreed with him that he
presented to the public—cannabis was an evil that should be
banned—and the press ran with this sensationalized version.”
Adams, supra note 95.
104 William C. Woodward, MD, Statement to the U.S. House of
Representatives Committee on Ways and Means (May 4, 1937).

App.211a
New York Academy of Medicine (“NYAM”) both recognized the beneficial uses of Cannabis.105
216. In 1942, after America lost its access to
Asian fiber supplies during World War II, the DOA
released a film entitled “Hemp For Victory” (Exh, 2),
which encouraged farmers to grow hemp, praising its
uses for production of parachutes and rope to support
the war effort.106
217. In 1944, NYAM issued the “LaGuardia
Report,” concluding that, “use of marijuana did not
induce violence, insanity or sex crimes, or lead to
addiction or other drug use.”107
218. Despite the lack of evidence that Cannabis
is or ever was dangerous, and notwithstanding the
DOA’s insistence that American fanners continue
growing hemp for war supplies, Anslinger continued
his anti-Cannabis campaign throughout the 1940s and
1950s.108

105 The Associated Press, supra note 84.
106 Id,; Gennett supra note 55.
107 The LaGuardia Report found that: “The practice of smoking
marihuana does not lead to addiction in the medical sense of the
word . . . The use of marihuana does not lead to morphine or
heroin or cocaine addiction and no effort is made to create a
market for these narcotics by stimulating the practice of marijuana smoking . . . Marihuana is not the determining factor in
the commission of major crimes . . . The publicity concerning the
catastrophic effects of marihuana smoking in New York City is
unfounded.” PROCON.ORG supra note 3 (citing LaGuardia Committee Report on Marihuana, THE MARIHUANA PROBLEM IN THE
CITY OF NEW YORK (1944)).
108 The Associated Press, supra note 84.

App.212a
219. As heroin addiction in America grew worse
during the 1950s, Congress responded by increasing
penalties on Cannabis-related offenses,109 in large
measure because of Anslinger’s bogus claim that
“marijuana” was a “gateway drug” that would
eventually lead its users to heroin.110
220. The 1960’s saw a cultural shift in the way
Americans viewed Cannabis. “Use of the drug became
widespread among members of the white upper middle
class.”111
221. Reports requested by Presidents Kennedy
and Johnson concluded that Cannabis was not a
“gateway drug” nor did its use induce violence.112
222. In 1969, the United States Supreme Court,
in Leary v. United States, 395 U.S. 6 (1969) struck
down the MTA, ruling that it unconstitutionally
violated the Fifth Amendment right against selfincrimination.113
109 Congress included “marijuana” in the Narcotics Control Act
of 1956, providing stricter mandatory sentences for marijuanarelated offenses. PROCON.ORG supra note 3; PBS supra note 46.
Under the statute, “[a] first-offense marijuana possession
carrie[d] a minimum sentence of 2-10 years with a fine of up to
$20,000.” PROCON.ORG supra note 3; PBS supra note 34.
110 The Associated Press, supra note 84.
111 Id.; PBS, supra note 46.
112 PBS, supra note 46.
113 Leary v. United States, 395 U.S. 6 (1969); Yasmin Tayag,

Timothy Leary’s Arrest for Marijuana Possession Still Matters
50 Years Later, INVERSE (Mar. 13, 2016), https://www.inverse.
com/artiele/12782-timothy-leary-s-arrest-for-marijuanapossession-still-matters-50-y ears-later.

App.213a
II.

How the Nixon Administration’s Bigotry and
Hostility toward War Protesters Contributed to
Enactment of the CSA

Enactment of the CSA and the Mis-Classification of
Cannabis as a Schedule I Drug
223. After the Supreme Court decision in Leary,
the Nixon Administration urged Congress to enact
legislation that would classify drugs under separate
schedules according to their medical utility,
dangerousness, and addictive potential.114 Congress
heeded the President’s request by passing the CSA on
October 27, 1970.115
224. At the request of the Nixon Administration
and upon the temporary recommendation of the
Department of Health, Education, and Welfare

114 Kevin A. Sabe, The “Local” Matters: A Brief History of the

Tension Between Federal Drug Laws and State and Local Policy,
J. Global drug Pol’y. & Prac. 4 (2006-2010), http://www.
globaldrugpolicy.org/IssuesNol%201%20Issue%204/The%
20Loca1%20Matters.pdf.
115 The Controlled Substances Act, Pub. L. No. 91-513, 84 Stat.
1242, https://www.gpo.gov/fdsys/pkg/Statute-84/pdf/Statute-84Pg1236.pdf.

App.214a
(“HEW”),116 Congress placed “Marihuana”117 under
Schedule I, thereby “subject[ing Cannabis] to the most
stringent controls under the bill.”118
225. While “[t]here is almost total agreement
among competent scientists and physicians that
marihuana is not a narcotic drug like heroin or
morphine . . . [and to] equate its risks with the risks
inherent in the use of hard narcotics is neither medically or legally defensible[,]”119 Congress nonetheless
listed Cannabis under the same schedule as opiates
and opium derivatives.120

116 It should be noted that HEW recommended that Cannabis
remain under Schedule I only “until the completion of certain
studies now underway to resolve this issue.” H.R. Rep. 91-1444
at 2111 (1970). However, despite HEW’s temporary recommendation, President Nixon and his Administration subsequently
ignored the CSA-required report (discussed infra) which (i)
explored the pharmacological effects of Cannabis and (ii) recommended decriminalization of the personal use and possession of
Cannabis.
117 “Under the CSA, “The term ‘marihuana’ means all parts of
the plant Cannabis sativa L., whether growing or not; the seeds
thereof; the resin extracted from any part of such plant; and
every compound, manufacture, salt, derivative, mixture, or
preparation of such plant, its seeds or resin.” Pub. L. No. 91-513,
84 Stat. 1244.
118 H.R. Rep. 91-1444 at 2063 (1970).
119 Drug Abuse Control Amendment-1970: Hearings Before the
Subcomm. on Public Health and Welfare, 91 Cong. 179 (1970)
(Statement of Dr. Stanley F. Yolles).
120 Pub. L. No. 91-513, 84 Stat. 1248-49.

App.215a
226. The placement of Cannabis under Schedule
I was intended by Congress to be temporary and subject to further research.121
227. The aforementioned and described “further
research” was to be conducted by the National Commission on Marihuana and Drug Abuse—a commission established by the CSA for the purpose of
studying, inter alia, Cannabis’s pharmacological
makeup and the relationship (if any) of its use to the
use of other drugs (Shafer Commission, defined
hereafter).122
228. Upon completion of its research, the Shafer
Commission was required under the CSA to submit a
comprehensive report to the President and to Congress
within one year after it received funding to conduct its
research.123
229. The aforementioned and described report
was to consist of the Shafer Commission’s findings as
well as its recommendations and proposals for
legislation and administrative actions with respect to
Cannabis.124
230. President Nixon thereafter appointed
Raymond Shafer (the former “law and order” Governor
of Pennsylvania) to Chair the National Commission
121 See H.R. Rep. 91-1444 at 2111 (1970); COMMON SENSE FOR
DRUG POLICY, NIXON TAPES SHOW ROOTS OF MARIJUANA
PROHIBITION: MISINFORMATION, CULTURE WARS AND PREJUDICE
1 (2002) [hereinafter “CSDP”].
122 Pub. L. No. 91-513, 84 Stat. 1281.
123 Id.
124 Id.

App.216a
on Marihuana and Drug Abuse which consisted of
Shafer and 12 other individuals, including four medical
doctors and four members of Congress (“Shafer Commission”).125

The Shafer Commission, Created Pursuant to the CSA,
Recommends De-Scheduling Cannabis for Personal
Use
231. The Shafer Commission conducted “more
than 50 projects, ranging from a study of the effects of
marihuana on man to a field survey of enforcement of
the marihuana laws in six metropolitan jurisdictions.”126
232. Among the Shafer Commission’s findings
were
(a) “No significant physical, biochemical, or
mental abnormalities could be attributed solely
to . . . marihuana smoking.”127
(b) “No verification is found of a causal relationship
between
marihuana
use
and
128
subsequent heroin use.”
(c) “[T]he weight of the evidence is that
marihuana does not cause violent or
aggressive behavior, if anything, marihuana

125 NATIONAL COMMISSION ON MARIHUANA AND DRUG ABUSE,
MARIHUANA: A SIGNAL OF MISUNDERSTANDING, at iv (1972).
126 Id. at 2.
127 Id. at 61.
128 Id. at 88.

App.217a
serves to inhibit the expression of such
behavior.”129
(d) “Neither the marihuana user nor the drug
itself can be said to constitute a danger to
public safety.”130
(e) “Most users, young and old, demonstrate an
average or above-average degree of social
functioning, academic achievement, and job
performance.”131
(f)

“Marihuana’s relative potential for harm to
the vast majority of individual users and its
actual impact on society does not justify a
social policy designed to seek out and firmly
punish those who use it.”132

(g) Despite the media’s portrayal of Vietnam
War protesters as being violent while high
on Cannabis, the vast majority of those
protesters were peaceful and the few who
were violent were not under the influence of
Cannabis.133
(h) “The actual and potential harm of use of the
drug is not great enough to justify intrusion
by the criminal law into private behavior, a

129 Id. at 73.
130 Id. at 61.
131 Id. at 96.
132 Id. at 130.
133 Id. at 99-100.

App.218a
step which our society takes only with the
greatest reluctance.”134
(i)

“[A]ll policy-makers have a responsibility to
consider our constitutional heritage when
framing public policy . . . we are necessarily
influenced by the high place traditionally
occupied by the value of privacy in our constitutional scheme. Accordingly, we believe
that government must show a compelling
reason to justify invasion of the home in
order to prevent personal use of marihuana.
We find little in marihuana’s effects or in its
social impact to support such a determination.”135

233. The Shafer Commission recommended that
possession of Cannabis for personal use be decriminalized on both the State and Federal levels.136
234. The Nixon Administration rejected the findings and recommendations by the Shafer Commission.
235. The Nixon Administration refused to accept
the findings and recommendations by the Shafer
Commission because they were not consistent with: (i)
the preordained outcome Nixon demanded; and (ii) the
Administration’s agenda with respect to Cannabis,
which was focused on racism and suppression of
political and civil rights.
236. John Ehrlichman, who served as the Nixon
Administration’s Domestic Policy Chief and was one
134 Id. at 140.
135 Id. at 142.
136 Id. at 151.

App.219a
of the President’s closest political advisors, confirmed
that the enactment and enforcement of the CSA
criminalizing Cannabis was directed toward political
suppression and racial discrimination. In this regard,
Mr. Ehrlichman said:
You want to know what this was really all
about? The Nixon campaign in 1968, and the
Nixon White House after that, had two
enemies: the antiwar left and black people.
You understand what I’m saying? We knew
we couldn’t make it illegal to be either
against the war or black, but by getting the
public to associate the hippies with marijuana
and blacks with heroin and then criminalizing
both heavily, we could disrupt those communities. We could arrest their leaders, raid
their homes, break up their meetings, and
vilify them night after night on the evening
news. Did we know we were lying about the
drugs? Of course we did.
N.Y. Daily News, A. Edelman, Nixon Aide: “War on
Drugs” was tool to target “black people” (March 23,
2016) (Exh. 3); see also Harper’s Magazine, D. Baum,
Legalize it All: How to Win the War on Drugs (April
2016) (Exh. 4) (“Nixon’s invention of the war on drugs
as a political tool was cynical . . . ”).
237. Thus, the findings and recommendations of
the Shafer Commission were irrelevant to Congress
and the Nixon Administration, insofar as the purpose
of the CSA was never to “protect” people from the
supposed “scourge” of Cannabis use, but rather to
harass, intimidate, prosecute and ultimately incarcerate
those whom members of the Nixon Administration
irrationally regarded as enemies.

App.220a
238. The irrationality of the Nixon Administration’s support for enactment of the CSA and rejection
of the Shafer Commission’s findings and recommendations is further revealed by tape recordings made by
the former President of his Oval Office conversations.
239. Although ostensibly established for the
purpose of properly educating lawmakers about
Cannabis with respect to the issue of scheduling or decriminalization,137 the Shafer Commission was
resigned by the Nixon Administration to the status of
a bureaucratic, kangaroo court.
240. Nixon repeatedly made clear that the real
purpose of the Shafer Commission was to justify what
he had already decided to do with respect to Cannabis,
ultimately linking support for its decriminalization to
Jews, whom Nixon irrationally claimed were mostly
psychiatrists:
NIXON: Now, this is one thing I want. I want a
Goddamn strong statement on marijuana.
Can I get that out of this sonofabitching, uh
Domestic Council?
HALDERMAN: Sure.
NIXON: I mean, one on marijuana that just tears
the ass out of them. I see another thing in
the news summary this morning about it.
You know, it’s a funny thing—every one of
the bastards that are out for legalizing
marijuana is Jewish. What the Christ is the
matter with the Jews, Bob? What’s the
matter with them? I suppose it’s because
137 H.R. Rep. 91-1444 at 2111 (1970); CSDP, supra note 121 at 1.

App.221a
most of them
know . . . .138

are

psychiatrists,

you

241. In September 1971, before his Commission’s
report was issued, Raymond Shafer visited the White
House to speak with Nixon about a morale problem he
was experiencing on the Commission—specifically,
that the members of the Shafer Commission were concerned that it was “put together by a President to
merely tow the party line . . . ”139
242. In response, Nixon made absolutely clear
that he did not care what the Shafer Commission’s
conclusions were.140
243. During Shafer’s meeting with Nixon, the
latter proceeded to direct the Shafer Commission to
ignore the obvious differences between Cannabis, and
heroin and other dangerous, addictive drugs:
NIXON: I think there’s a need to come out with a
report that is totally, uh, uh, oblivious to
some obvious, uh, differences between
marijuana and other drugs, other dangerous
drugs, there are differences.141
244. When Shafer tried to assure Nixon that the
Commission would not go “off half-cocked,” ostensibly
promising to conclude that Cannabis should remain a
Schedule I drug, along with drugs that actually were
138 Tape Recording, May 26, 1971 (Conversation 505-4).
139 Tape Recording, September 9, 1971 (Oval Office Conversation No. 568-4).
140 Id.
141 Id.

App.222a
(and are) dangerous, Nixon responded tersely, “Keep
your Commission in line!”142
245. Nixon threatened Shafer with public
recriminations, asserting that conclusions contrary to
Nixon’s demands “would make your Commission just
look as bad as hell.”143
246. Nixon’s threats were not limited to Shafer
and his Commission. When Nixon became aware
that Bertram Brown, then-director of the National
Institute of Mental Health, called for decriminalization
of Cannabis, Nixon responded:
Now, did you see this statement by [Bertram]
Brown, the National Institute of Mental
Health, this morning? Uh, he should be out.
I mean today, today. If he’s a presidential
appointee, [what we should] do is fire the son
of bitch and I mean today! Get the son of a
bitch out of here.144
247. In that same conversation, Nixon also tied
protesters to use of Cannabis:
. . . these, uh, radical demonstrators that were
here the last, . . . two weeks ago. They’re all
on drugs. Oh yeah, horrible, it’s just a—
when, I say “all,” virtually all. And uh, uh,
just raising hell.145
142 Id.
143 Id.
144 Tape Recording, May 18, 1971 (Oval Office Conversation No.
500-17).
145 Id.

App.223a
248. The so-called “radical demonstrators” to
whom Nixon was referring were those opposed to the
Vietnam War, which, at the time, deeply divided the
Country.
249. When the Shafer Commission issued its
findings and recommendations, which controverted
the Nixon Administration’s preordained conclusions
and agenda against African Americans and war
protesters, Nixon responded, predictably:
Um, I met with Mr. Shafer, uh, I’ve read the
report, uh, eh, it is a report that deserves
consideration and will receive it. However,
as to one aspect of the report I am in
disagreement. I was before I read it, and
reading it did not change my mind. Uh, I, uh,
oppose the legalization of marijuana, and
that includes the sale, its possession and its
use.146
250. If incarceration of antiwar protestors and
African Americans constitutes the measure of the War
on Drugs’ success, the Nixon Administration’s efforts
must be characterized as “successful.” According to the
New York Daily News, “by 1973, about 300,000 people
were arrested under the law [the CSA]—the majority
of whom were African American” (Exh. 3).
251. The Nixon Administration’s anti-Cannabis
policies thus were manifested in two distinct, but
related, efforts—to usher the CSA through Congress
and then to use the law as a tool to incarcerate, harass

146 March 24, 1972 Press Conference (Oval Office Conversation
No. 693-01).

App.224a
and undermine those whom members of the Nixon
Administration considered hostile to their interests.
252. Those who opposed Nixon’s agendas were
cast aside, vilified or ignored. The Shafer Commission’s
conclusions which conflicted with Nixon’s plans were
treated similarly.
III. The Evidence Confirms That, Despite the Language of the CSA and Nixon’s Enforcement of It,
the Federal Government Does Not and Has Never
Believed That Cannabis Meets the Requirements
of a Schedule I Drug
253. Under the CSA, drugs are classified by five
Schedules, with Schedule I drugs identified as the
most dangerous to human life, and Schedule V drugs
regarded as the most benign.
254. Cannabis is classified as a Schedule I drug
under the CSA.147
255. To meet the requirements of a Schedule I
drug under the CSA, the following elements must all
be met:
1.

the drug has a high potential for abuse;

2.

the drug has “no currently accepted medical
use in the United States;” and

3.

there is a lack of accepted safety for use of
the drug even under medical supervision.148

147 21 C.F.R. 1308.11(d)(23) and (31) (wrongly listed as a
hallucinogenic drug, along with heroin, mescaline and LSD).
148 Pub. L. No. 91-513, 84 Stat. 1247.

App.225a
(the Three Schedule I Requirements, previously
defined).
256. The Federal Government does not genuinely
believe that Cannabis meets the Three Schedule I
Requirements.
257. The Federal Government cannot genuinely
believe that Cannabis meets the Three Schedule I
Requirements.
258. Upon information and belief, the Federal
Government has never believed that Cannabis meets
the Three Schedule I Requirements.

The Federal Government Has Authorized Dispensing
Medical Cannabis to Patients for More than 30 Years
259. In or about 1978, the United States began
subsidizing a program pursuant to which medical
patients were provided with Cannabis, directly or
indirectly, by the Federal Government.
260. The aforesaid and described program, which
exists to this day, is known as the Investigational New
Drug Program (“IND Program”).
261. The first patient to receive Cannabis under
the auspices of the IND Program was Robert Randall.
262. Upon information and belief, Mr. Randall
used medical Cannabis provided under the auspices of
the IND Program to treat his Glaucoma.
263. Thereafter, at least 12 other individuals participated in the IND Program and received Cannabis for
treatment of an assortment of diseases and
conditions.

App.226a
264. Upon information and belief, the Federal
Government, as of the date of this filing, continues to
sponsor and/or provide medical Cannabis to patients
pursuant to the IND Program.
265. Upon information and belief, the number of
patients currently receiving medical Cannabis through
the IND Program is eight.
266. Pursuant to the IND Program, the Federal
Government has authorized the University of
Mississippi to harvest acres and acres of Cannabis.
267. Upon information and belief, the acres of
land harvested by University of Mississippi produce
50,000 to 60,000 Cannabis cigarettes per year.
268. Upon information and belief, none of the
patients who have participated in the IND Program
have suffered any serious side effects from their
Cannabis treatments.
269. Upon information and belief, none of the
patients who have participated in the IND Program
have suffered any harm from their Cannabis treatments.
270. Upon information and belief, no Federal
Agencies have ever collected any scientific data from
the IND Program reflecting serious adverse impacts
caused by Cannabis.
271. Upon information and belief, the Federal
Government does not have any information suggesting
that any of the patients who have participated in the
IND Program have ever suffered any harm or serious
side effects from their Cannabis treatments.

App.227a
272. The Missoula Chronic Clinical Cannabis
Use Study evaluated the long-term effects of heavy
Cannabis use by four patients in the IND Program
(“Missoula Study”).
273. The Missoula Study demonstrated clinical
effectiveness in these patients in treating Glaucoma,
chronic musculoskeletal pain, spasm and nausea, and
spasticity of multiple sclerosis.
274. All four patients who were the subject of the
Missoula Study were stable with respect to their
chronic conditions.
275. Upon information and belief, none of the
four patients who were the subject of the Missoula
Study suffered any serious side effects from their
Cannabis treatments.
276. Upon information and belief, none of the
four patients who were the subject of the Missoula
Study suffered any harm from their Cannabis treatments.
277. Upon information and belief, the Federal
Government does not have any information suggesting
that any of the four patients who were the subject of
the Missoula Study suffered any harm or serious side
effects from their Cannabis treatments.
278. Upon information and belief, all four patients
who were the subject of the Missoula Study were
taking fewer standard pharmaceuticals than before
they began treatment with medical Cannabis.149
279. The Missoula Study is one of thousands of
studies which have confirmed that Cannabis provides
149 http://—cannabis-med.org/jcant/russochronic_use.pdf.

App.228a
measurable health benefits while resulting in minimal
or no negative side effects.

United States Administrative Law Judge, Francis L.
Young, Concludes That Cannabis Safely Provides
Medical Benefits to Patients with an Assortment of
Illnesses Without Serious Side Effects
280. In 1988, Administrative Law Judge Francis
Young, In the Matter of Marijuana Rescheduling,
DEA Docket No. 86-22, issued a determination arising
from a petition by the National Organization for the
Reform of Marijuana Laws (“NORML”) to reschedule
Cannabis (“ALJ Decision”) (Exh. 5).
281. In determining whether to recommend
rescheduling Cannabis under the CSA, Judge Young
focused on two issues—(i) whether Cannabis “has a
currently accepted medical use in treatment in the
United States, or a currently accepted medical use
with severe restrictions;” and (ii) “whether there is a
lack of accepted safety for use of the marijuana plant,
even under medical supervision” (Id. at 6).
282. The two issues analyzed by Judge Young
focus on the latter two of the Three Schedule I
Requirements necessary under the CSA to classify a
drug as a “Schedule I” substance (Id. at 8; see also
Pub. L. No. 91-513, 84 Stat. 1247).
283. If a drug has no medically-accepted use and
cannot be safely used or tested even under medical
supervision, it may qualify as a Schedule I drug; if the
drug does not meet either of these Schedule I Requirements, it cannot be classified as a Schedule I drug
(Id.).

App.229a
248. In resolving these issues, Judge Young made
a series of “findings of fact” (ALJ Decision at 10-26,
35-38, 40-54, 56-64, Exh. 5)
285. The aforesaid and described findings of fact
by Judge Young were “uncontroverted” by the parties
(ALJ Decision at 10, 54, 56, Exh. 5).
286. One of the aforesaid and described parties to
the proceeding over which Judge Young presided was
defendant DEA (ALJ Decision at 10).
287. Judge Young thereafter devoted the next 15
pages of the ALJ Decision to evidence adduced during
the hearing process, confirming that Cannabis constitutes a recognized, well-accepted and superior method
of treatment of cancer patients suffering from nausea,
emesis and wasting (Id. at 10-25).
288. As part of his analysis, Judge Young cited to
studies, patient histories, State legislative findings and
other evidence of the medical efficacy of Cannabis (Id.
at 10-26).
289. The DEA did not attempt to dispute the facts
upon which the aforesaid analysis by Judge Young
was based (Id. at 26).
290. Judge Young concluded, based upon “overwhelming” evidence, that:
marijuana has a currently accepted medical
use in treatment in the United States for
nausea and vomiting resulting from chemotheraphy treatments in some cancer patients.
To conclude otherwise, on this record, would
be unreasonable, arbitrary and capricious
(Id. at 34).

App.230a
291. Judge Young proceeded to analyze the record
with respect to the use of medical Cannabis for the
treatment of multiple sclerosis, spasticity and hyperparathyroidism (Id. at 40-54).
292. After reviewing the extensive record, Judge
Young concluded:
[Marijuana has a currently accepted medical
use in treatment in the United States for
spasticity resulting from multiple sclerosis
and other causes. It would be unreasonable,
arbitrary and capricious to find otherwise
(Id. at 54).
293. The DEA did not attempt to dispute the facts
comprising the “extensive record” upon which Judge
Young relied in reaching the aforesaid and described
conclusion pertaining to the medical efficacy of
Cannabis for the treatment of spasticity resulting
from multiple sclerosis and other causes.
294. Judge Young similarly concluded that medical
Cannabis provides therapeutic benefits to those
suffering from hyperparathyroidism (Id. at 54-55).
295. The DEA did not attempt to dispute the facts
comprising the “extensive record” upon which Judge
Young relied in reaching the aforesaid and described
conclusion pertaining to the medical efficacy of
Cannabis for the treatment of hyperparathyroidism.
296. After concluding that Cannabis does, in fact,
have currently-accepted medical uses, Judge Young
turned to the issue of whether it may be used or tested
safely under medical supervision—the third of the
Three Schedule I Requirements (Id. at 56).

App.231a
297. After reviewing the uncontroverted evidence,
Judge Young ruled in a series of enumerated paragraphs that, not only is Cannabis not dangerous; it is
extraordinarily safe. In this regard, Judge Young
ruled:
4.

Nearly all medicines have toxic, potentially
lethal effects. But marijuana is not such a
substance. There is no record in the extensive
medical literature describing a proven, documented cannabis-induced fatality.

5.

This is a remarkable statement. First, the
record on marijuana encompasses 5,000 years
of human experience. Second, marijuana is
now used daily by enormous numbers of
people throughout the world. Estimates
suggest that from 20 million to 50 million
Americans routinely, albeit illegally, smoke
marijuana without the benefit of direct medical supervision. Yet, despite this long
history of use and the extraordinarily high
numbers of social smokers, there are simply
no credible medical reports to suggest that
consuming marijuana has caused a single
death.

6.

By contrast, aspirin, a commonly-used, overthe-counter medicine, causes hundreds of
deaths each year.

Id. at 56-57 (emphasis added).
298. Judge Young found that, to induce a lethal
response to Cannabis, the patient would be required
to consume approximately 1,500 pounds of marijuana
within 15 minutes—an amount and time frame which,

App.232a
as a practical matter, are completely unrealistic (Id.
at 57).
299. Judge Young thereafter concluded that:
In strict medical terms, marijuana is far safer
than many foods we commonly consume (Id.
at 58) (emphasis added).
300. If these findings were not sufficiently damning to the CSA’s mis-classification of Cannabis as a
Schedule I drug, Judge Young made it even more clear
when he wrote:
Marijuana, in its natural form, is one of the
safest therapeutically active substances
known to man. By any measure of rational
analysis, marijuana can be safely used within
a supervised routine of medical care.

Id. at 58-59 (emphasis added).
301. Judge Young thereafter recommended that
Cannabis be removed from Schedule I of the CSA (Id.
at 66).
302. The DEA did not accept Judge Young’s findings or recommendation.
303. The ALJ’s Decision was issued years before
29 States and the District of Columbia legalized
Cannabis for medical use; before eight States plus the
District of Columbia legalized Cannabis for recreational
use; before two U.S. Territories approved the use of
whole-plant Cannabis.

States Begin to Legalize Cannabis
304. In 1996, California became the first State to
legalize Cannabis for medical use.

App.233a
305. Oregon, Alaska and Washington (State)
followed soon thereafter and also legalized Cannabis
for medical use.
306. Today, the following States have legalized
Cannabis for medical and/or recreational use:
•

California

•

Oregon

•

Alaska

•

Washington (State)

•

Maine

•

Hawaii

•

Colorado

•

Nevada

•

Montana

•

Vermont

•

New Mexico

•

Michigan

•

New Jersey

•

Arizona

•

Massachusetts

•

New York

•

Maryland

•

Minnesota

•

Florida

•

Delaware

App.234a
•

Ohio

•

Pennsylvania

•

Illinois

•

North Dakota

•

Arkansas

•

Connecticut

•

New Hampshire

•

Rhode Island

•

West Virginia

307. In addition to the States, the following territories, protectorates and other areas under United
States jurisdiction have legalized Cannabis for medical
and/or recreational uses:
•

Washington, DC150

•

Puerto Rico

•

Guam

308. The method of legalization of Cannabis by
States and other areas within Federal jurisdiction has
150 Although initially barring Washington, DC from implementing
a medical Cannabis program in or about 1998, Congress took no
action to prevent enactment of a medical legalization program in
our Nation’s Capitol in 2011. Thus, Washington, DC was able to
institute a medical Cannabis program in 2011. Thereafter, in
2014, Washington, DC approved a decriminalization program for
Cannabis. Although subjected to a mandatory 30-day review
period to be undertaken by Congress under the District of Columbia
Home Rule Act, Congress took no action. Thus, although afforded
the opportunity to stop implementation of Washington, DC’s
decriminalization program, Congress decided not to do so.

App.235a
varied from State constitutional amendment, to legislative enactment, to voters’ referenda.
309. Today, more than 62% of Americans live
within a jurisdiction in which Cannabis is legal to
consume for medical and/or other purposes.
310. California, the world’s sixth largest economy,
has legalized Cannabis for recreational purposes as
well.
311. State-legal Cannabis has been available to
millions of Americans for decades.
312. Cannabis has been available illegally (i.e.,
on the “black market”) to millions of Americans for
approximately 100 years.
313. Upon information and belief, no credible
medical report has confirmed a single fatality in the
United States from the consumption of Cannabis.
314. By contrast, the following “legal” substances
have caused the following number of deaths in the
United States on an annual basis:
(a) tobacco-480,000 deaths per year;151
(b) alcohol—88,000 deaths per year;152
(c)

pharmaceutical opioid analgesics—18,893 per
year;153

151 https://www.cdc.gov/tobacco/data_statistics/fact_sheets/
health_effects/tobacco_related_mortality/index.html
152 https://www.niaaa.nih.gov/alcohol-health/overview-alcoholconsumption/alcohol-facts-and-statistics
153 hitps://www.edc.gov/nchs/data/factsheets/factsheet_drug_
poisoning.pdf.

App.236a
(d) acetaminophen—1,500 deaths from 2001 to
2010.154

The Federal Government Admits and Obtains a
Medical Patent Based Upon its Assertion That
Cannabis Provides Medical Benefits
315. In or about 1999, the United States Government filed a patent application, entitled:
CANNABINOIDS AS ANTI-OXIDANTS
AND NEUROPROTECTANTS

See Exh. 6 (“U.S. Cannabis Patent”) (capitalization and
underscoring in original).
316. In the U.S. Cannabis Patent application
(“U.S. Cannabis Patent Application”), the Federal
Government made representations to the United
States Patent and Trademark Office (“USPTO”) relative
to the effects of Cannabis on the human body (Id.).
317. In the U.S. Cannabis Patent Application,
the Federal Government represented to the USPTO
that Cannabis provides medical benefit to, and thus
has medical uses for, patients suffering with an
assortment of diseases and conditions. In this regard,
the Federal Government asserted that:
Cannabinoids have been found to have
antioxidant properties, unrelated to NMDA
receptor antagonism. This new found property
makes cannabinoids useful in the treatment
154 http://wwwhuffingtonpost.com.2013/09/24/tylenol-overdose_
n_3976991.html. This does not include the 78,000 Americans
who are rushed to emergency rooms annually, or the 33,000 hospitalizations in the United States each year, all due to ingestion
of acetaminophen. Id.

App.237a
and prophylaxis of wide variety of oxidation
associated diseases, such as ischemic, agerelated, inflammatory and autoimmune
diseases. The cannabinoids are found to have
particular application as neuroprotectants,
for example, in limiting neurological damage
following ischemic insults, such as stroke
and trauma, or in the treatment of
neurodegenerative diseases, such as
Alzheimer’s Disease, Parkinson’s Disease,
and HIV Dementia (Id. at Abstract).
318. In support of its U.S. Cannabis Patent Application, the Federal Government cited a series of studies
and academic papers, which, the Federal Government
represents, support its conclusion that Cannabis does,
in fact, provide medical benefits, including conditions
which are listed and which are not listed on the U.S.
Cannabis Patent Application (Id.).
319. The U.S. Cannabis Patent Application
directly and unmistakably controverts the Federal
Government’s continued classification of Cannabis as
a Schedule I drug, which, it is emphasized, requires a
finding that it lacks any medical use.
320. Simply put—the Federal Government cannot
maintain, on its U.S. Cannabis Patent Application,
that Cannabis does, in fact, have curative properties
that provide medical benefits to patients suffering from
an assortment of diseases while also simultaneously
“finding” that Cannabis has no medical application

App.238a
whatsoever for purposes of application and enforcement of the CSA.155

The Justice Department Issues Guidelines for Prosecution of Medical Cannabis Patients (2009)
321. As State-legal Cannabis legislation and other
approvals of medical Cannabis continued to pass
throughout the United States, the Federal Government
was confronted with a problem—under the CSA, the
cultivation, harvesting, extraction, distribution, sale
and/or use of Cannabis was (and is) illegal; however,
States were granting their citizens permission to
cultivate, distribute, sell, and/or use Cannabis for
medical purposes.
322. On or about October 19, 2009, defendant
DOJ, while professing the importance of enforcing the
CSA as it pertains to Cannabis, acknowledged the
existence of State laws authorizing the use of “medical
marijuana,” and directed that United States Attorneys:
should not focus federal resources in your
States on individuals whose actions are in
clear and unambiguous compliance with
existing State laws providing for the medical
use of marijuana. For example, prosecution
of individuals with cancer or other serious
illnesses who use marijuana as part of a recommended treatment regimen consistent
with applicable State law, or those caregivers
in clear and unambiguous compliance with
155 Because the U.S. Cannabis Patent was granted by the USPTO,
the Federal Government is estopped from contesting the
assertions contained in its Application.

App.239a
existing state law who provide such individuals with marijuana, is unlikely to be an
efficient use of limited federal resources.

See October 19, 2009 Memorandum by Deputy Attorney
General of the United States, David W. Ogden (“Ogden
Memorandum”), Exh. 7.
323. Thus, notwithstanding the provisions of the
CSA, prohibiting cultivation, distribution, sale, possession and/or use of Cannabis, as a drug so dangerous
that it cannot be tested under strict medical supervision, the DOJ expressly discouraged United States
Attorneys from using federal resources to prosecute
violations of the CSA by users of Cannabis for medical
purposes in State-legal jurisdictions.

The Justice Department Adopts the Cole Memorandum
324. On or about August 29, 2013, defendant
DOJ promulgated what has come to be known as the
“Cole Memorandum” (Exh. 8).
325. Under the Cole Memorandum, the DOJ, consistent with the Ogden Memorandum, officially recognized that patients using State-legal-medical
Cannabis, in accordance with the laws of the States in
which they reside, and businesses cultivating and/or
selling State-legal Cannabis for medical purposes, are
not appropriate targets for federal investigation, prosecution and incarceration (Id. at 3).
326. The net effect of the Cole Memorandum was
to inform medical-Cannabis businesses operating in
accordance with the laws of the States in which such
businesses operate, and patients who use medical
Cannabis in accordance with the laws of the States in
which such patients reside, that they would not be

App.240a
prosecuted, provided that such Cannabis businesses
and medical Cannabis patients did not engage in
conduct which encroached upon eight (8) specific federal priorities, identified in the Cole Memorandum as
follows:
1.

Preventing the distribution of marijuana to
minors;

2.

Preventing revenue from the sale of marijuana from going to criminal enterprises,
gangs, and cartels;

3.

Preventing the diversion of marijuana from
States where it is legal under State law in
some form to other States;

4.

Preventing State-authorized marijuana
activity from being used as a cover or pretext
for the trafficking of other illegal drugs or
other illegal activity;

5.

Preventing violence and the use of firearms
in the cultivation and distribution of marijuana;

6.

Preventing drugged driving and the exacerbation of other adverse public health
consequences allegedly associated with marijuana use;

7.

Preventing the growing of marijuana on public
lands and the supposed attendant public
safety and environmental dangers posed by
marijuana production on public lands; and

8.

Preventing marijuana possession or use on
federal property.

See Cole Memorandum, Exh. 8.

App.241a

The Treasury Department Provides Federal Authorization to Banks to Transact with Cannabis Businesses
327. On February 14, 2014, the Financial Crimes
Enforcement Network (“FinCEN”) issued a Memorandum providing guidance to clarify Bank Secrecy Act
(“BSA”) expectations for financial institutions seeking
to provide services to marijuana-related businesses
(“FinCen Guidance”) (Exh. 9 at 1).
328. FinCEN issued the FinCEN Guidance “in
light of recent state initiatives to legalize certain
marijuana-related activity and related guidance by
the DOJ [i.e., the Cole Memorandum] concerning
marijuana-related enforcement priorities” (Id.).
329. In essence, the FinCEN Guidance was the
Treasury Department’ s own version of the Cole
Memorandum, except that the FinCEN Guidance was
sent to private actors (banks and other financial
institutions), informing them how it is that they can
transact with Cannabis businesses—businesses that
are technically illegal under the CSA.
330. FinCEN provides guidance and advice to
banks and other financial institutions concerning how
they can engage in conduct which is illegal under the
CSA, as well as under 18 U.S.C. § 1956 (laundering of
monetary instruments).
331. By the FinCEN Guidance, the Treasury
Department provided, inter alia, the following instructions on how to transact with Cannabis businesses:
The Financial Crimes Enforcement Network
[ ] is issuing guidance to clarify Bank
Secrecy Act (“BSA”) expectations for financial

App.242a
institutions seeking to provide services to
marijuana-related businesses. FinCEN is
issuing this guidance in light of recent state
initiatives to legalize certain marijuanarelated activity and related guidance by the
U.S. Department of Justice (“DOJ”) concerning marijuana-related enforcement priorities.
This FinCEN guidance clarifies how financial
institutions can provide services to marijuanarelated businesses consistent with their BSA
obligations, and aligns the information provided by financial institutions in BSA reports
with federal and state law enforcement
priorities. This FinCEN guidance should
enhance the availability of financial services
for, and the financial transparency of,
marijuana-related businesses.

See FinCEN Guidance at 1 (Exh. 9) (emphasis added).
332. Under the provisions of the FinCEN Guidance, the Federal Government provided authorization to banks and other financial institutions to
transact with Cannabis businesses.
333. Under the provisions of the FinCEN Guidance, the Treasury Department directed that
financial institutions, prior to engaging in transactions
with medical Cannabis businesses, undertake due diligence to ascertain whether the latter are operating in
conformity with the provisions of the Cole Memorandum (Id.).
334. The Ogden Memorandum, Cole Memorandum
and FinCEN Guidance each state, in form and substance, that the CSA has not been superseded and

App.243a
remains in effect; however, each aforesaid Memorandum/Guidance makes equally clear that the United
States Government should not interfere with Statelegal medical-Cannabis businesses, and should not
otherwise enforce the CSA as against such businesses
or the patients who use the products cultivated and
dispensed by such businesses, provided that all such
businesses and patients act in conformity with the laws
of the States in which such businesses operate and in
which such patients reside.
335. The 2009 Ogden Memorandum, 2013 Cole
Memorandum and 2014 FinCEN Guidance cannot be
reconciled with the Federal Government’s classification
of Cannabis as a Schedule I drug that is so dangerous
that it has no medical purpose and cannot be tested
even under strict medical supervision.

The United States Surgeon General Acknowledges
Medical Benefits of Cannabis Use/The DEA Removes
a Series of False Statements Concerning Cannabis
from its Website
336. On or about February 4, 2015, the thenUnited States Surgeon General, Dr. Vivek Murthy,
appeared on CBS This Morning, a nationally-televised
daily talk show.
337. While on CBS This Morning, the U.S. Surgeon General publicly acknowledged that Cannabis
can safely provide bonafide medical benefits to patients
(“Surgeon General’s Acknowledgment”).
338. The DEA, earlier this year, removed from its
website: all references to Cannabis as a supposed
“gateway drug;” as a drug that causes “permanent

App.244a
brain damage;” and as a drug that leads to psychosis
(“DEA’s Website Revision”).
339. The DEA’s Website Revision is consistent
with the Surgeon General’s Acknowledgment.
340. Prior to the DEA’ s Website Revision, a
petition was filed on behalf of Americans for Safe
Access, alleging that the DEA’s website contained
false information (“ASA Petition”) (Exh. 10).
341. The ASA Petition was filed under the Information Quality Act (“IQA”) (Id.).
342. Under the IQA, Federal Agencies are required
to devise guidelines to ensure the “quality, objectivity,
utility, and integrity of information” they disseminate.156
343. These requirements are designed to ensure
that, inter alia, the information contained on the
websites maintained by Federal Agencies is accurate.
344. Upon information and belief, it was in
response to the ASA Petition, asserting that the information contained on the DEA website was inaccurate,
that the DEA effected its Website Revision. In other
words, the DEA, rather than litigating the inaccuracy
of the information contained on its website, changed
that information and effected its Website Revision in
recognition that the language asserting that Cannabis
is a supposed “gateway drug” that causes psychosis
and permanent brain damage was and is false.157

156 44 U.S.C. § 3516, Statutory and Historical Notes.
157 The FDA also removed all references to Cannabis as a
supposed “gateway drug” on its website.

App.245a

Congress Precludes the DOJ from Using Legislative
Appropriations to Prosecute State-Legal Cannabis
Cultivation, Distribution, Sale and Use
345. In December 2014, Congress enacted a rider
to an omnibus appropriations bill, funding the Federal
Government through September 30, 2015 (“2014
Funding Rider”).
346. Under the 2014 Funding Rider, Congress
expressly prohibited the DOJ from using the appropriations provided thereby to prosecute the use,
distribution, possession or cultivation of medical
Cannabis in States where such activities are legal.
347. The 2014 Funding Rider includes the following language:
None of the funds made available in this Act
to the Department of Justice may be used,
with respect to the States of Alabama,
Alaska, Arizona, California, Colorado,
Connecticut, Delaware, District of Columbia,
Florida, Hawaii, Illinois, Iowa, Kentucky,
Maine, Maryland, Massachusetts, Michigan,
Minnesota, Mississippi, Missouri, Montana,
Nevada, New Hampshire, New Jersey, New
Mexico, Oregon, Rhode Island, South
Carolina, Tennessee, Utah, Vermont, Washington, and Wisconsin, to prevent such States
from implementing their own State laws
that authorize the use, distribution, possession, or cultivation of medical marijuana.

See Consolidated and Further Continuing Appropriations Act, 2015, Pub. L. No. 113-235, § 538, 128
Stat. 2130, 2217 (2014).

App.246a
348. The States referenced in the 2014 Funding
Rider are those that, as of the date of the 2014
Funding Rider, had established State-legal medical
Cannabis programs.
349. Various short-term measures extended the
2014 Funding Rider through December 22, 2015.
350. On December 18, 2015, Congress enacted a
new appropriations act, which appropriated funds
through the fiscal year ending September 30, 2016,
and included essentially the same rider as the 2014
Funding Rider. Consolidated Appropriations Act, 2016,
Pub. L. No. 114-113, § 542, 129 Stat. 2242, 2332-33
(2015) (adding Guam and Puerto Rico and changing
“prevent such States from implementing their own
State laws” to “prevent any of them from implementing
their own laws”).
351. In 2017, Congress enacted another rider,
updating the 2014 Funding Rider to include the
States that added medical-Cannabis programs over
the preceding three years, and again restricting the
use of Congressional appropriations to prosecute only
those violations of the CSA in which the defendants
cultivate, distribute, and/or sell Cannabis in a manner
that violates State-legal medical marijuana programs
(“2017 Funding Rider”). In this regard, the 2017
Funding Rider states:
None of the funds made available in this Act
to the Department of Justice may be used,
with respect to any of the States of Alabama,
Alaska, Arkansas, Arizona, California,
Colorado, Connecticut, Delaware, Florida,
Georgia, Hawaii, Illinois, Iowa, Kentucky,
Louisiana, Maine, Maryland, Massachusetts,

App.247a
Michigan, Minnesota, Mississippi, Missouri,
Montana, Nevada, New Hampshire, New
Jersey, New Mexico, New York, North
Carolina, Ohio, Oklahoma, Oregon, Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, Utah, Vermont, Virginia, Washington, West Virginia, Wisconsin, and Wyoming, or with respect to the District of
Columbia, Guam, or Puerto Rico, to prevent
any of them from implementing their own
laws that authorize the use, distribution,
possession, or cultivation of medical marijuana.

See Consolidated Appropriations Act, 2017, Pub. L.
No. 115-31, § 537 (2017).
IV. Summary of the Allegations and Evidence That
the Federal Government Does Not and Cannot
Believe That Cannabis Meets the Three Schedule
I Requirements
352. The net effect of the foregoing allegations
and evidence confirms beyond serious question that
the Federal Government does not and cannot believe
that Cannabis: (i) has no medical use, and (ii) cannot
be used or tested even under strict medical supervision.
Indeed, it bears emphasis that Cannabis:
•

has been widely used as a legal medication for
more than 10,000 years, including by the
Founding Fathers of this Country;

•

was legal until the end of Prohibition threatened
to leave Anslinger without any responsibilities;

•

was found by the Shafer Commission to be safe
enough to decriminalize for personal use;

App.248a
•

has been dispensed by the Federal Government
to participants in the IND Program for more
than 30 years without evidence of harm to any
of the patients;

•

was found by ALT Young to be the safest drug
available in the world, based upon evidence
that the DEA never attempted to contest;

•

has been used continuously as part of Statelegal programs for medical purposes throughout
the United States, beginning in 1996;

•

has been available to millions of Americans on
a daily basis for decades without a single
fatality—a record that neither coffee nor aspirin
can claim;

•

is the subject of the successful U.S. Cannabis
Patent Application, in which the Federal Government admitted (indeed, bragged) that
Cannabis provides safe, medical benefits to
patients suffering from an assortment of
illnesses, diseases and conditions;

•

was identified by the U.S. Surgeon General as
having medical benefits-a conclusion that has
been separately reached by doctors, scientists,
and academics during the course of conducting
thousands of studies and tests;

•

cannot be the subject of a federal criminal prosecution under the CSA unless cultivated,
distributed, sold or used in violation of State
law; and

•

is the subject of established federal policy which
recognizes the medical benefits of Cannabis.

App.249a
353. Indeed, the notion that the Federal Government persists in classifying Cannabis as a Schedule I
drug, while ignoring the undeniable addictive and
lethal chemical properties of nicotine and tar, and
alcohol, which kill millions of Americans every year,
renders this misclassification of Cannabis utterly
irrational and absurd.
V.

The Petitioning Process Is Illusory and Futile

Prior Petitions to Re-Schedule and/or De-Schedule
Cannabis
354. Under the CSA, members of the public are
afforded the supposed opportunity to file petitions to
request that medications and drugs be re-scheduled
and/or de-scheduled. 21 U.S.C. § 811 and 21 C.F.R.
§ 1308.
355. The legal mechanism available to the public
to file petitions to change the classification of drugs
and medications previously scheduled under the
auspices of the CSA is illusory. Petitions filed with the
DEA and/or any other Federal agency linger for years,
often decades, without any substantive action.
356. The following chart of petitions filed with
the DEA, reflects the futility of the petitioning process:
Requested Action

Transfer any injectable
liquid containing
Pentazocine (opioid
derivative) from Schedule
V to Schedule III

Type of Petitioner(s) 7 Individuals

App.250a

Date Filed

10/5/1971

Date Decided

1/10/1979

Delay

8 years

Outcome

Denied

Requested Action

Remove Cannabis from
Schedule I or transfer to
Schedule V

Type of Petitioner(s) NORML, Cannabis
Corporation of America
(CCA); Alliance for
Cannabis Therapeutics
(ACT); Individuals
Date Filed

5/18/72

Date Decided

3/26/92

Delay

20 years

Outcome

Denied

Requested Action

Transfer Cannabis from
Schedule I to Schedule II

Type of Petitioner(s) Individual
Date Filed

9/6/92

Date Decided

5/16/94

Delay

N/A

App.251a

Outcome

DEA declined to accept the
filing of the petition

Requested Action

Transfer Marinol from
Schedule II to Schedule III

Type of Petitioner(s) UNIMED Pharmaceutica
Is Inc. (manufacturer of
Marinol)
Date Filed

2/3/95

Date Decided

7/2/99

Delay

4 years

Outcome

Granted

Requested Action

Remove Cannabis from
Schedule I
Individual; High Times
Magazine

Type of Petitioner(s)
Date Filed

7/10/95

Date Decided

3/20/01

Delay

5.5 years

Outcome

Denied

Requested Action

Remove Cannabis
containing 1 % or less of
THC Schedule I

App.252a
when used for Industrial
Hemp
Type of Petitioner(s)

Individual

Date Filed

3/23/98

Date Decided

12/19/00

Delay

2.5 years

Outcome

Denied

Requested Action

Transfer Hydrocodone
combination products
(i.e., products mixing
Hydrocodone with other
drugs) from Schedule III
to Schedule II

Type of Petitioner(s) Physician
Date Filed

Jan 99

Date Decided

8/22/14

Delay

15.5 years

Outcome

Granted

Requested Action

Transfer Cannabis to
Schedule III, IV, or V

Type of Petitioner(s) The Coalition for
Rescheduling Cannabis
Date Filed

10/9/02

App.253a

Date Decided

6/21/11

Delay

8.75 years

Outcome

Denied

Requested Action

Remove Cannabis from
Schedule I

Type of Petitioner(s)

Individual

Date Filed

May 12, 2008

Date Decided

Dec 19, 2008

Delay

N/A

Outcome

DEA declined to accept the
filing of the petition

Requested Action

Transfer Cannabis to any
Schedule other than
Schedule I

Type of Petitioner(s)

Individual

Date Filed

12/17/09

Date Decided

7/19/16

Delay

6.45 years

Outcome

Denied

App.254a

Requested Action

Transfer Cannabis to
Schedule II

Type of Petitioner(s)

Governors Chafee &
Gregoire

Date Filed

11/30/11

Date Decided

7/19/16

Delay

5.45 years

Outcome

Denied

Requested Action

Remove Industrial Hemp
plants (i.e., Cannabis
sativa L. plants with a
THC concentration of not
more than three tenths of
one percent) from
Schedule I

Type of Petitioner(s) Hemp Industries
Association (“HIA”) & the
Kentucky Hemp Industry
Council
Date Filed

6/1/16

Date Decided

Pending

Delay

N/A

Outcome

Pending

App.255a

The Petition Process for Changes in the Classification
of Cannabis is Futile, Rife with Delays, Subject to
Systemic and Institutional Bias and Otherwise
Constitutes a Hollow Remedy
357. Excluding the petitions which are either still
pending or were never decided at all (because they
were rejected based upon standing or other grounds),
the average delay from filing a petition to reschedule
a drug under the CSA to the date of the petition’s
resolution is approximately nine (9) years.
358. Persons seeking to re-classify a Schedule I
drug or medication based upon an urgent medical
need, including and especially, Alexis and Jagger, are
resigned to waiting until ostensibly the drug would no
longer serve any useful purpose, because the illness,
disease and/or condition has resolved or the patient
has died.
359. The petitioning process is a hollow remedy.
360. Worse than the entrenched, systemic delays
imposed by the Federal Government is the institutional
bias of government officials which all but assures
denial of applications pertaining to Cannabis.
361. As referenced supra, in November 2015,
defendant Rosenberg of the defendant DEA, which is
responsible for responding to petitions to reclassify
drugs under the CSA, publicly asserted that medical
Cannabis is “a joke”—essentially pre-judging any
petition to re-schedule or de-schedule Cannabis.
362. As reported by Politico, defendant Sessions,
“[a]s a U.S. Attorney in Alabama in the 1980s, [ ] said
he thought the KKK ‘were [sic] OK until I found out
they smoked pot.’’’

App.256a
363. On December 5, 2016, Politico reported that,
in April 2016, defendant Sessions disclosed that he
believes that: “Good people don’t smoke marijuana.”
364. As the Attorney General of the United States,
defendant Sessions would have the opportunity to
reclassify Cannabis; however, as with defendant
Rosenberg, defendant Sessions has pre-judged the
issue.
365. Upon information and belief, Rosenberg did
not review any medical or scientific studies prior to
asserting, in or about November 2015, that medical
Cannabis is a joke.
366. Upon information and belief, Sessions did
not review any medical or scientific studies prior to
issuing his statement in the 1980s, in which he said
that he thought the KKK “were [sic] OK until I found
out they smoked pot.”
367. Upon information and belief, Sessions did
not review any medical or scientific studies prior to
issuing his statement on or about December 5, 2016
that “Good people don’t smoke marijuana.”
368. Upon information and belief, defendants
Sessions and Rosenberg, in condemning medical
Cannabis and those who recommend and/or use it,
were not speaking from experience or an in-depth
medical or scientific understanding of the chemical
properties of Cannabis and its impact on the body’s
metabolic systems and processes; nor were their
assertions the product of an analysis concerning
whether medical Cannabis has been accepted by the
medical community. Rather, the opinions of defendants
Sessions and Rosenberg are based upon political (not
scientific) distinctions made by a diminishing minority

App.257a
of vocal public officials who, without conducting any
scientific review or analysis, assume that any conduct
associated with Cannabis is necessarily dangerous
and otherwise bad based upon unconstitutional criteria.
369. The unconscionable delays in processing
petitions, coupled with the institutional bias at the
DOJ and DEA against re-classifying Cannabis, renders
the petitioning process illusory and futile. In short,
the Federal Government does not provide real “due
process” to those aggrieved by the misclassification of
Cannabis under the CSA. This lawsuit is the only
mechanism by which patients in need of medical
Cannabis can lawfully and without risk of prosecution
safely obtain and use it.
370. Even assuming arguendo that the petitioning
process were not futile—and it is—it would not provide a meaningful remedy for Plaintiffs insofar as the
petition process: (i) cannot resolve the substantial constitutional issues which Defendants have repeatedly
declined to address in a manner consistent with the
provisions of the United States Constitution; and (ii)
cannot provide Plaintiffs with a genuine opportunity
for adequate relief (specifically, a declaration that the
CSA, as it pertains to Cannabis, is unconstitutional),
insofar as the relief requested herein is beyond the
authority of Defendants DEA, DOJ, Sessions and/or
Rosenberg.
FIRST CAUSE OF ACTION
(on behalf of all Plaintiffs)
371. Plaintiffs repeat and reallege each and every
allegation of the preceding ¶¶ 1-370, as if set forth
fully herein.

App.258a
372. Under the Due Process Clause of the Fifth
Amendment, no person may be “deprived of life,
liberty or property without due process of law” (“Due
Process Clause”).
373. Under
well-established
constitutional
jurisprudence, laws which are not rationally related
to a legitimate interest of the Federal Government
violate the Due Process Clause.
374. The CSA classifies drugs into five scheduled
categories—Schedule I, Schedule II, Schedule HI,
Schedule IV, and Schedule V.158
375. Cannabis has been classified as a Schedule I
drug, along with, among others, heroin, mescaline,
and LSD. As such, under the CSA as it pertains to
Cannabis, the cultivation, distribution, prescription,
sale, and/or use of Cannabis constitutes a violation of
Federal Law, subjecting those accused of such a crime
to prosecution and incarceration.
376. The stated basis for enactment and implementation of the CSA as it pertains to Cannabis was
that the drug meets the Three Schedule I
Requirements, i.e.:
1.

the drug has a high potential for abuse;

2.

the drug has “no currently accepted medical
use in the United States;” and

3.

there is a lack of accepted safety for use of
the drug even under medical supervision.159

158 Pub. L. No. 91-513, 84 Stat. 1247.
159 Id.

App.259a
377. In view of the facts and evidence set forth
above and summarized below, the Federal Government
does not believe that Cannabis meets the aforementioned Three Schedule I Requirements.
378. Cannabis has been cultivated and used as a
medication for thousands of years.
379. Cannabis was cultivated and used as a
medication in Colonial America and in post-Colonial
America, including by the Framers of our Constitution.
380. Cannabis was cultivated and used throughout
the 19th Century, during which it was one of America’s
three leading crops for cultivation.
381. Cannabis was listed in prominent pharmacological publications throughout the second half of the
19th Century and the beginning of the 20th Century
as a medication that treats dozens of diseases and
conditions.
382. The Shafer Commission confirmed that Cannabis is not dangerous and should be decriminalized
for personal use.
383. Since in or about 1978, the Federal Government has been continuously dispensing and/or
authorizing the dispensing of Cannabis to between at
least 8 to 13 patients for the treatment of an assortment
of diseases, illnesses and medical conditions.
384. In 1988, ALJ Francis Young, after a review
of the uncontroverted medical evidence, concluded
that Cannabis provides medical benefits to patients,
none of whom have been endangered by it (Exh. 5).

App.260a
385. Beginning in 1996, States throughout the
Country have instituted medical and recreational
Cannabis programs without federal intervention.
386. Today, more than 62% of the American
public resides in States in which whole-plant Cannabis
is legal for medical and/or recreational purposes; thus,
millions of Americans have the opportunity to use
Cannabis on a daily basis.
387. Upon information and belief, there have
never been any documented deaths in the United
States due to the consumption of Cannabis.
388. Since 2009, the DOJ has consistently directed
its U.S. Attorneys to refrain from prosecuting patients,
physicians-and businesses involved in the use, cultivation and/or sale of Cannabis if the same is consistent
with State-legal medical-Cannabis programs (Exhs. 8
and 9).
389. Since 2014, the Treasury Department has
authorized banking and other financial institutions to
engage in transactions with Cannabis businesses that
act in conformity with State-legal medical-Cannabis
programs (Exh. 9).
390. For the last three years, Congress has defunded the DEA and DOJ from prosecuting individuals
and businesses engaging in conduct that is consistent
with State-legal medical-Cannabis programs.
391. In or about 2002, the United States Government repeatedly asserted in its U.S. Cannabis Patent
Application that, based upon a series of scientific
studies, Cannabis has accepted medical uses for the
treatment of brain diseases and disorders (Exh. 6).

App.261a
392. After obtaining a U.S. Cannabis Patent, the
Federal Government executed license agreements to
private businesses to engage in medical Cannabis
cultivation and extraction.
393. While the Federal Government may conceivably argue that the initial and continued classification
of Cannabis as a Schedule I drug is necessary
because of its alleged high potential for abuse, supposed
lack of medical use, and purported risks of potential
harm to those who use it even under medical
supervision, the foregoing history confirms that the
United States Government does not believe the story
it is telling.
394. Based upon the foregoing, the Federal Government, not only does not believe that Cannabis
meets the Three Schedule I Requirements of the CSA,
but further, upon information and belief, no rational
person could reasonably believe that it meets such
Requirements.
395. There is no credible evidence that Cannabis
has a high potential for abuse.
396. There is no credible evidence that Cannabis
lacks any medical benefit; to the contrary, the
overwhelming weight of evidence confirms that
Cannabis has, for millennia, from Ancient Chinese
and Egyptian societies, to our Founding Fathers, to
modern-day America, provided substantial medical
benefits to the patients who have been treated with
medical Cannabis.
397. There is no credible evidence that Cannabis
poses a serious risk of harm when used under medical
supervision; to the contrary, the overwhelming weight
of evidence confirms that, although virtually all

App.262a
medications have some toxic, potentially lethal effects,
“marijuana is not such a substance” (ALJ Decision at
56, Exh. 5). And no one in the United States has ever
died from using Cannabis (Id.).160
398. Because Cannabis does not meet the criteria
required for classification of a Schedule I drug and is,
in fact, safe for use, and because the Federal Government is fully aware of the foregoing but nonetheless
insists upon continuing the misclassification of
Cannabis as a Schedule I drug, the CSA and its implementation is irrational, arbitrary, capricious and is not
rationally related to any legitimate government interest.
399. The only credible explanation for the enactment of the CSA and its subsequent and continuing
enforcement by the Federal Government lies in the
politically-repressive, xenophobic and racial animus
described by John Ehrlichman and other members of
the Nixon Administration—an animus proscribed by
the Constitution of the United States.
400. As set forth above, the petitioning process for
drug scheduling does not constitute “due process”
within the meaning of the Fifth Amendment to the
Constitution, insofar as the petition process: (i) is rife
with unconstitutional delays that render review impracticable for the Plaintiffs {and most medical Cannabis
patients); (ii) is rife with institutional bias, by which
a vocal minority of public officials refuse to consider
the overwhelming weight of medical evidence establishing that Cannabis provides safe medical benefits;
(iii) cannot resolve the substantial constitutional
issues which Defendants have repeatedly declined to
160 This allegation does not include reference to those who may
have used black-market synthetic Cannabis.

App.263a
address in a manner consistent with the provisions of
the United States Constitution; and (iv) cannot provide
Plaintiffs with a genuine opportunity for adequate
relief, insofar as the relief requested requires correcting
an Act of Congress which is beyond the authority of
Defendants DEA, DOJ, Sessions and/or Rosenberg.
401. Alexis, Jose, and Jagger need medical
Cannabis for the treatment of their diseases and
conditions, but cannot safely use it without risking
their freedom or other rights to which they are legally
and constitutionally entitled. Washington desires to
open a Cannabis business through the use of the
MBE Program, but cannot do so, as he would be
ineligible to receive such benefits and would be
risking potential incarceration were he to file the
required paperwork for MBE benefits. The CCA seeks,
on behalf of its membership, termination of
disproportionate enforcement of the CSA as it
pertains to Cannabis against persons of color. Defendants maintain, notwithstanding the overwhelming
weight of the evidence in the record (including statements made by the Federal Government itself that
Cannabis has curative properties and is safe), that
Cannabis is somehow an addictive, dangerous and
lethal drug on par with heroin, mescaline and LSD
without any medical benefits whatsoever and thus
must remain illegal and continue to be enforced in the
manner practiced today.
402. Meanwhile, substances that undeniably provide no medical benefit whatsoever, are highly
addictive and cause hundreds of thousands of deaths
per year, including for example, tobacco, remain
widely available and un-scheduled under the CSA.

App.264a
403. An actual case in controversy exists between
Plaintiffs and Defendants, by which Plaintiffs need
and/or desire to use and/or engage in business transactions involving Cannabis, whereas Defendants
falsely and unconstitutionally maintain that possession
and use of Cannabis is lethally dangerous and thus
must remain illegal.
404. By reason of the foregoing, Plaintiffs are
entitled to issuance of an order and judgment: (i)
declaring that the CSA, as it pertains to Cannabis, is
irrational, arbitrary, capricious and not rationally
related to any legitimate governmental interest, and
thus unconstitutional; and (ii) permanently enjoining
Defendants from enforcing the CSA.
405. Plaintiffs have no remedy at law.
SECOND CAUSE OF ACTION
(on behalf of the CCA Only)
406. Plaintiffs repeat and reallege each and every
allegation of the preceding ¶¶ 1-405, as if set forth
fully herein.
407. The United States Supreme Court has consistently held that discrimination may be so
unjustifiable as to constitute a violation of the Due
Process Clause of the Fifth Amendment.161
408. The mis-classification of Cannabis as a
Schedule I drug under the CSA was effectuated in an
environment tainted by racial discrimination and

161 Davis v. Passman, 442 U.S. 228, 234-35 (1979); Weinberger
v. Wiesenfeld, 420 U.S. 636, 638 n. 2 (1975); Cruz v. Hauck, 404
U.S. 59, 62 n. 10 (1971); Bolling v. Sharpe, 347 U.S. 497, 499 (1954).

App.265a
animus, hostile to the interests of African Americans
and other persons of color.
409. The CSA, as it pertains to Cannabis, was
implemented in an environment tainted by racial discrimination and animus, hostile to the interests of
African Americans and other persons of color.
410. The CSA, as it pertains to Cannabis, has
been enforced in a mariner reflective of racial discrimination and animus, hostile to the interests of African
Americans and other persons of color.
411. Although Cannabis is consumed and used
equally by African Americans and White Americans,
African Americans are disproportionately the subject
of investigations, prosecutions, convictions and incarcerations under the CSA.
412. Upon information and belief, the racial
animus underwriting the mis-classification of Cannabis
as a Schedule I drug under the CSA continues to this
day, resulting in convictions and the incarceration of
African Americans and other persons of color in
disproportionate numbers.
413. The misclassification of Cannabis as a
Schedule I drug under the CSA was also intended to
suppress the First Amendment rights and interests of
those protesting the Vietnam War, including such
rights as freedom of speech and the right to petition
the government for a redress of grievances.
414. Upon information and belief, the Federal
Government tactically enforced the CSA against war
protesters and persons of color insofar as members of
the Nixon Administration irrationally believed such
persons to be enemies of America’s war on communism.

App.266a
415. In enacting and disproportionately enforcing
the CSA against persons of color, the Federal Government violated, and continues to violate, the Due
Process Clause of the Fifth Amendment and the
requirements of Equal Protection.
416. In enacting and disproportionately enforcing
the CSA against those protesting the Vietnam War,
the Federal Government violated, and continues to
violate, the First Amendment, the Due Process Clause
of the Fifth Amendment and the requirements of
Equal Protection.
417. The Federal Government lacks a compelling
interest in the enactment of a statute that discriminates
against persons of color, and violates and has violated
the First and Fifth Amendment rights of members of
the CCA, and their rights to Equal Protection,
418. Upon information and belief, even assuming
arguendo that the Federal Government were to have
a compelling interest in enacting and enforcing the
CSA in the manner herein described, the CSA is not
narrowly tailored to satisfy and achieve that compelling
interest (whatever it might be).
419. An actual case in controversy exists between
Plaintiff CCA on the one hand, and Defendants on the
other, by which the CCA maintains that the CSA was
enacted on the basis of racism and political
suppression of the rights guaranteed under the First
Amendment, and enforced in a manner that is so discriminatory as to rise to the level of a violation of Due
Process and Equal Protection, whereas Defendants
irrationally and unconstitutionally maintain that the
CSA constitutes a valid exercise of federal power.

App.267a
420. By reason of the foregoing, the CCA is
entitled to issuance of an order and judgment: (i)
declaring that the CSA, as it pertains to Cannabis,
violates the rights of its members under the First and
Fifth Amendments to the United States Constitution
and under principles of Equal Protection.
421. CCA has no remedy at law.
THIRD CAUSE OF ACTION
(on behalf of all Plaintiffs except Washington)
422. Plaintiffs repeat and reallege each and every
allegation of the preceding ¶¶ 1-421, as if set forth
fully herein.
423. Freedom to travel throughout the United
States, including between and among States of the
Union, has long been recognized as a basic right under
the Constitution.162
424. Alexis requires medical Cannabis to preserve
and sustain her life, but cannot travel with medical
Cannabis without risking prosecution, incarceration,
and/or the loss of other liberty rights and interests.
425. Dean cannot travel without his wife, who, as
Alexis’s caregiver, cannot leave Alexis alone; thus,
Dean cannot safely travel either.
426. Jagger requires medical Cannabis to live
without excruciating pain and to avoid death, but
cannot travel with medical Cannabis without risking
prosecution, incarceration, and/or the loss of other
liberty rights and interests.

162 See, e.g., Williams v. Fears, 179 U.S. 270, 274 (1900).

App.268a
427. Sebastien is required to travel in order to
obtain the medical Cannabis Jagger requires to
eliminate his pain and continue to live; however, if
Sebastien were to travel by plane, or on land across
State lines or on a federal highway, he would be
threatened with seizure of Jagger’ s medicine, arrest,
prosecution, incarceration, loss of his parental rights
and/or other consequences attendant with a conviction
for a felony under the CSA.
428. Plaintiffs Alexis and Jagger desire to travel
to the Capitol in Washington, DC to meet with their
elected representatives and other public officials to
advocate in favor of enacting the MJA and repealing
the CSA, or otherwise de-scheduling Cannabis; however, they cannot exercise their fundamental right to
travel to the Capitol, as such travel would threaten
them with seizure of lifesaving medicine, arrest,
prosecution, incarceration, and other consequences
attendant with a conviction for a felony under the
CSA. Plaintiff Jose desires to travel without leaving
his medication behind, but cannot do so because, under
the CSA, any air travel or travel to a State where
Cannabis is legal but does not exercise reciprocity (or
does not otherwise permit his possession and use within
the State) would expose him to seizure of his medicine,
arrest, prosecution, incarceration, and other consequences attendant with a conviction for a felony
under the CSA.
429. Alexis and Jagger are unconstitutionally required to choose between depriving themselves of
their fundamental right to continue treating with lifesustaining and life-saving medications to preserve
their lives, and depriving themselves of the opportunity
to: (i) travel to other States; (ii) use an airplane to

App.269a
travel to any other State; (iii) step onto federal lands
or into federal buildings; (iv) access military bases;
and/or (v) receive certain federal benefits. Jose is unconstitutionally required to choose between depriving
himself of his fundamental right to continue treating
with his life-sustaining medication and depriving
himself of the opportunity to: (i) travel to other States;
(ii) use an airplane to travel to any other State; (iii)
step onto federal lands or into federal buildings; (iv)
access military bases; and/or (v) receive certain federal
benefits.
430. Certain members of the CCA desire to travel
between and among the States with their medical
Cannabis, but cannot do so without risk of investigation, prosecution, conviction and incarceration under
the CSA, which is disproportionately enforced against
persons of color.
431. Defendants maintain that, notwithstanding
the overwhelming weight of the evidence in the record
(including statements made by the Federal Government
itself that Cannabis has curative properties and is
safe), Cannabis is supposedly an addictive, dangerous
and lethal drug on a par with heroin, mescaline and
LSD, and without any medical benefits whatsoever
and thus the CSA must be enforced.
432. An actual case in controversy exists between
Plaintiffs Alexis, Dean, Jose, Sebastien, Jagger and
the CCA on the one hand, and Defendants on the
other, by which such Plaintiffs require the use of
Cannabis and desire to travel, whereas Defendants
irrationally and unconstitutionally maintain that such
conduct is lethally dangerous and thus must remain
illegal.

App.270a
433. By reason of the foregoing, the aforesaid
Plaintiffs are entitled to issuance of an order and judgment: (i) declaring that the CSA, as it pertains to
Cannabis, violates their constitutional Right to
Travel; and (ii) permanently enjoining Defendants
from enforcing the CSA.
434. Plaintiffs have no remedy at law.
FOURTH CAUSE OF ACTION
(on behalf of all Plaintiffs)
435. Plaintiffs repeat and reallege each and every
allegation of the preceding 1-434, as if set forth fully
herein.
436. The framework of the United States Constitution created a government of limited and enumerated powers.
437. Under Article I, § 8, cl. 3 of the United States
Constitution, Congress has the limited power:
To regulate Commerce with foreign Nations,
and among the several States, and with the
Indian Tribes.163
Hereinafter, the “Commerce Clause.”
438. The Commerce Clause does not include a
general power to regulate intra-State commerce.
439. The United States Constitution does not
include a federal police power.
440. Under the Tenth Amendment to the United
States Constitution:

163 U.S. Const. art. I, § 8, cl. 3.

App.271a
The powers not delegated to the United
States by the Constitution, nor prohibited by
it to the States, are reserved to the States
respectively, or to the people.164
441. Congress is not empowered and/or otherwise
authorized to legislate as to matters of intra-State
commerce that have no appreciable impact on interstate
commerce or commerce with foreign nations and/or
with Native American Tribes. Such commerce is
reserved to the States and the people who live there.
442. Historically, the regulation of the doctorpatient relationship and decisions pertaining to
dispensing medications have been reserved to the
States under the Tenth Amendment.
443. The Constitution does not empower Congress
to regulate doctor-patient relationships.
444. The CSA, proscribing and criminalizing the
use of Cannabis, was not enacted for the purpose of
regulating interstate commerce; Congress enacted the
CSA based upon a series of irrational and discriminatory motives that cannot be justified or even
explained when considered against an incontrovertible
record that includes evidence that the United States
Government has acknowledged in its U.S. Cannabis
Patent Application that Cannabis is an effective treatment for, inter alia, Parkinson’s Disease and
Alzheimer’s.
445. By legislating subject matter outside its constitutional delegation of enumerated powers, and
encroaching upon the powers expressly reserved to
the States, Congress engaged in an unauthorized and
164 U.S. Const. amend. X.

App.272a
thus unconstitutional exercise of power that violates
well-recognized principles of federalism.
446. Even assuming arguendo that distribution
and/or sale of Cannabis that occurs on an entirely
intrastate level could be deemed to have an appreciable
impact on interstate commerce—and, respectfully, it
cannot—individual use of Cannabis cannot rationally
be claimed to have an effect on the national economy.
Thus, it is alleged in the alternative that, even
assuming that Congress were to have the power to
regulate purely intrastate economic activity that has
no relationship with interstate commerce, Congress
lacks the power to regulate use as a purely intrastate,
non-economic activity.
447. An actual case in controversy exists between
Plaintiffs and Defendants, by which Defendants
maintain that use of Cannabis is lethally dangerous
and thus must remain illegal, whereas Plaintiffs
maintain that the CSA, as it pertains to Cannabis,
constitutes an unconstitutional exercise of power not
authorized by the Constitution.
448. By reason of the foregoing, Plaintiffs are
entitled to issuance of an order and judgment: (i)
declaring that the CSA, as it pertains to Cannabis,
constitutes an unauthorized exercise of power by Congress, rendering the CSA, as it pertains to Cannabis, unconstitutional; and (ii) permanently enjoining Defendants from enforcing the CSA.
449. Plaintiffs have no remedy at law.

App.273a
FIFTH CAUSE OF ACTION
(on behalf of all Plaintiffs)
450. Plaintiffs repeat and reallege each and every
allegation of the preceding ¶¶ 1-449, as if set forth
fully herein.
451. Under the provisions of the CSA, de-scheduling or rescheduling a drug such as Cannabis must be
supported by medical and/or scientific evidence—
such as, for example, the evidence cited in the U.S.
Cannabis Patent Application.
452. To acquire and accumulate such medical
and/or scientific evidence, studies and tests must be
conducted; however, because Cannabis has been
classified as a Schedule I drug, it cannot legally be
tested unless special permission has been obtained
from the Federal Government.165
453. Upon information and belief, in the 47 years
since the CSA was enacted, the Federal Government
has granted only one application to conduct scientific
and/or medical testing of Cannabis.
454. The Federal Government has thus created a
legislative construct which, by design, is completely
dysfunctional. The CSA requires testing and studies
to reclassify Cannabis, but prevents such tests and
studies from being conducted because Cannabis is
supposedly so dangerous that it cannot be tested—
except that the stated basis for classifying Cannabis
as a Schedule I drug was that Cannabis supposedly
had not yet been tested.

165 Pub. L. No. 91-513, 84 Stat. 1255.

App.274a
455. After creating the Shafer Commission to
conduct such tests and studies, the Federal Government, led by the biased and unstable Nixon Administration, promptly rejected its findings.
456. By creating a process that, by its terms,
necessarily requires all petitions for de-scheduling or
rescheduling to be denied—and, as regards Cannabis,
that is exactly what has occurred with respect to every
petition—Congress enacted an irrational, arbitrary
and capricious law.
457. Simply put—if, by its terms, the CSA created
a petition process to allow aggrieved individuals to file
futile challenges to the classification of Schedule I
drugs, then the procedure serves no lawful purpose
and is thus unconstitutionally irrational and violates
the Due Process Clause of the Fifth Amendment.
458. An actual case in controversy exists between
Plaintiffs and Defendants, by which Plaintiffs need
and/or desire to use, prescribe and/or engage in business
transactions involving Cannabis, whereas Defendants
falsely and unconstitutionally maintain that cultivation, distribution, possession and use of Cannabis is
lethally dangerous and thus must remain illegal.
459. By reason of the foregoing, Plaintiffs are
entitled to issuance of an order and judgment: (i)
declaring that the CSA, as it pertains to Cannabis,
constitutes an unauthorized exercise of power by
Congress, rendering the CSA, as it pertains to Cannabis, unconstitutional; and (ii) permanently enjoining
Defendants from enforcing the CSA as it pertains to
Cannabis.
460. Plaintiffs have no remedy at law.

App.275a
SIXTH CAUSE OF ACTION
(on behalf of all Plaintiffs except
Washington and Jose)
461. Plaintiffs repeat and reallege each and every
allegation of the preceding ¶¶ 1-460, as if set forth
fully herein.
462. The First Amendment to the Constitution of
the United States confirms that:
Congress shall make no law . . . abridging
the freedom of speech . . . or the right of the
people to . . . petition the Government for a
redress of grievances.
U.S. Const. amend. I.
463. The protections afforded by the First Amendment include, inter alia, the right to meet with public
officials into advocate in favor or against governmental
action.
464. In order for Alexis, Jagger, and certain
members of the CCA who treat with medical Cannabis
to meet with public officials at-the Capitol, they would
be required to leave their medical Cannabis behind—
otherwise, under the CSA, their medicine could be
seized and they (and/or, in the case of Alexis and
Jagger, their parents) could be detained, arrested,
prosecuted and/or incarcerated.
465. If Alexis’s or Jagger’s parents were to be
detained, arrested, prosecuted and/or incarcerated,
their parental rights could be terminated, depriving
Alexis and Jagger of the opportunity to be raised by
one or more of their biological parents.

App.276a
466. The CSA, as applied to Alexis, Jagger, and
certain members of the CCA, violates their First
Amendment rights to free speech and the opportunity
to petition the Government for a redress of grievances
by requiring them, as a condition of their entry into
the Capitol (or any federal Senate or House office
building), to risk their health and their lives in order
to engage in in-person advocacy with their elected
representatives and other federal public officials.
467. Under the provisions of the Ninth Amendment and Substantive Due Process, Alexis, Jagger, and
certain members of the CCA have a fundamental right
to continue treating with a medication that, for years,
has provided life-saving and-sustaining treatment of
their conditions. This fundamental right to life and to
preserve one’s right to life is deeply rooted in this
Nation’s history and traditions and is implicit in the
concept of ordered liberty.
468. An actual case in controversy exists between
Plaintiffs Alexis, Jagger, and certain members of the
CCA on the one hand, and Defendants on the other,
by which such Plaintiffs need to treat with medical
Cannabis while maintaining their constitutional rights
to free speech and to petition the federal government
for a redress of grievances through in-person advocacy,
whereas Defendants unconstitutionally maintain that
the CSA must be enforceable on federal lands and in
federal buildings, thereby precluding such in-person
advocacy. Alternatively, the Federal Government may
maintain that the-aforesaid Plaintiffs may travel to
Washington, DC to engage in in-person advocacy, but
without their life-saving and-sustaining medication—
a prospect which threatens each of the aforesaid
Plaintiffs with the loss of their lives and health.

App.277a
469. The Federal Government cannot require
persons to sacrifice one fundamental right in order to
exercise another.
470. By reason of the foregoing, Plaintiffs are
entitled to issuance of an order and judgment: (i)
declaring that the CSA, as applied to Alexis, Jagger,
and the CCA, constitutes a violation of their First
Amendment guarantees of free speech and the right
to petition the Federal Government for a redress of
grievances, rendering the CSA, as applied to the
aforesaid Plaintiffs, unconstitutional; (ii) declaring that
the CSA, as applied to Alexis, Jagger, and members of
the CCA, constitutes a denial of Substantive Due
Process and/or fundamental rights guaranteed by the
Ninth Amendment; and (iii) permanently enjoining
Defendants from enforcing the CSA as it pertains to
Cannabis, as against the aforesaid Plaintiffs.
471. Plaintiffs have no remedy at law.
SEVENTH CAUSE OF ACTION
(on behalf of all Plaintiffs)
472. Plaintiffs repeat and reallege each and every
allegation of the preceding ¶¶ 1-471, as if set forth
fully herein.
473. The Federal Government cannot maintain
its position on the existing record that continued
enforcement of the CSA as it pertains to Cannabis is
“substantially justified.”
474. By reason of the foregoing, Plaintiffs are
entitled to reasonable legal fees and costs pursuant to
the Equal Access to Justice Act, 28 U.S.C. § 2412.

App.278a
WHEREFORE, for the reasons stated, Plaintiffs
demand judgment, over and against Defendants,
declaring that the CSA as it pertains to the cultivation,
distribution, marketing, sale, prescription and use of
Cannabis, is unconstitutional under the Due Process
Clause of the Fifth Amendment, the Free Speech and
Right to Petition Clauses of the First Amendment, the
Equal Protection Clause of the Fourteenth Amendment
(as implied through the Due Process Clause of the
Fifth Amendment), the Right to Travel, Substantive Due
Process, fundamental rights secured under the Ninth
Amendment, and the Commerce Clause, together
with: (i) a permanent injunction (and associated temporary relief if so required), restraining Defendants
from enforcing the CSA as it pertains to Cannabis; (ii)
reasonable legal fees and costs pursuant to the Equal
Access to Justice Act, 28 U.S.C. § 2412; and (iii) any
and all other and further relief this Court deems just
and proper.
HILLER, PC

Pro Bono Attorneys for Plaintiffs
600 Madison Avenue
New York, New York 10022
(212) 319-4000
By: /s/ Michael S. Hiller
Michael S. Hiller (MH 9871)
Lauren A. Rudick (LR 4186)
Fatima Afia (FA 1817)166

166 Admission pending.

App.279a

And Pro Bono Co-Counsel for Plaintiffs
LAW OFFICES OF DAVID
CLIFFORD HOLLAND, P.C.
Member, New York Cannabis Bar
Association
Biltmore Plaza
155 East 29th Street I Suite 12G
New York, New York 10016
By: /s/ David C. Holland
David C. Holland
LAW OFFICES OF
JOSEPH A. BONDY
1841 Broadway, Suite 910
New York, N.Y. 10023
By: /s/ Joseph A. Bondy
Joseph A. Bondy
Dated: September 6, 2017
New York, New York

App.280a
LETTER FROM PETITIONERS’ COUNSEL
MICHAEL S. HILLER TO THE CLERK OF COURT
OF THE SECOND CIRCUIT COURT OF APPEALS
(SEPTEMBER 10, 2019)
Attorneys at Law
641 Lexington Avenue, 29th Floor New York, NY
10022 (212) 319-4000 Facsimile: (212) 753-4530
Email: mhiller@hillerpc.com
www.hillerpc.com
________________________
Catherine O’Hagan Wolfe, Clerk of Court
United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, New York 10007
Re: Washington, et al. v. Barr, et al., Docket No. 18859-cv (2d. Cir.)
Dear Madam Clerk:
We represent plaintiffs Marvin Washington, Dean
Bortell (as parent of infant Alexis Bortell), Jose Belen,
Sebastien Cotte (as parent of infant Jagger Cotte),
and the Cannabis Cultural Association (collectively,
“Plaintiffs”) in the above-referenced action (the
“Action”) against defendants William Barr (in his
capacity as U.S. Attorney General), the U.S. Department of Justice, Uttam Dhillon (in his capacity as
Acting Administrator of the U.S. Drug Enforcement
Administration), the U.S. Drug Enforcement
Administration (“DEA”), and the United States of
America (collectively, “Defendants”). We submit this
letter in response to the Court’s request for an update

App.281a
with respect to the status of a certain petition which
this Court authorized Plaintiffs to file, by December
31, 2019, with the DEA (“DEA Petition”), relative to
the misclassification of cannabis under the Controlled
Substances Act (“CSA”).
As discussed below, Plaintiffs have not yet filed
the DEA Petition because, in the course of its
preparation, we learned that the DEA, through which
the Attorney General typically decides whether to reschedule and de-schedule substances under the CSA,
has already taken the position that cannabis cannot
be de-scheduled; rather, according to the DEA, the
Attorney General can only re-schedule cannabis and
only under Schedule II of the CSA. Such an outcome
would: (i) be inconsistent with prevailing medical
evidence; and, more importantly (ii) comprise relief—
re-classification under Schedule II—that Plaintiffs
have never requested and do not seek. Accordingly, it
is Plaintiffs’ intention to file a motion for an extension
of time within which to file the DEA Petition to
December 31, 2020, and to commence a new action
against the DEA and Attorney General for declaratory
relief, confirming that the DEA is mistaken with
respect to the Attorney General’s powers under the
CSA. As reflected below, this would allow Plaintiffs to
obtain the relief that, according to the Court, would be
equivalent to what Plaintiffs’ requested in the Action.
As further reflected below, re-classification of cannabis
under Schedule II would actually constitute a
substantial step backward in the fight to legalize and
de-stigmatize medical cannabis.

App.282a
Background
By the Action, Plaintiffs requested, inter alia: (i)
a declaratory judgment that the classification of
cannabis as a Schedule 1 drug under the CSA is
unconstitutional; and (ii) “a permanent injunction
(and associated temporary relief if so required),
restraining Defendants from enforcing the CSA as it
pertains to Cannabis” (Amended Complaint, Second
Circuit Dkt. No. 39, pp. 96-97). Plaintiffs never
requested that cannabis be re-classified under the
CSA, much less as a Schedule II substance. See
Memorandum of Law, dated December 1, 2017, SDNY
Dkt. Nos. 44-46, p. 106) (“Plaintiffs bring this action
challenging the constitutionality of the CSA; they are
not asking for the Court to reschedule Cannabis or to
compel the DEA to do so”) (emphasis added). Had the
constitutional claims recited in the Amended Complaint
been accepted and sustained by the District Court
and/or this Court, and the injunction granted, cannabis
would have been de-scheduled on a de facto basis,
particularly insofar as unconstitutional acts of Congress
are void ab initio, and Plaintiffs requested a permanent
injunction to restrain enforcement of the CSA as it
pertains to cannabis.1
1 Bond v. U.S., 564 U.S. 211 (2011); see also Medical Center
Pharmacy v. Mukasey, 536 F.3d 383 (5th Cir. 2008) (“If that act
of amendment is invalid—for instance, because its unconstitutional portions cannot be severed—the act is void ab initio, and
it is as though Congress had not acted at all”); U.S v. Morgan,
230 F.3d 1067 (8th Cir. 2000) (“Congress exceeded its proper
authority in enacting [the law]; the law is [thus]
unconstitutional, void ab initio”); Mester Mfg. Co. v. I.N.S., 879
F.2d 561 (9th Cir. 1989) (“A law passed in violation of the
Constitution is null and void ab initio”).

App.283a
Before the District Court and on appeal, we
argued that a DEA Petition would be futile because,
inter alia, “administrative review would not afford
Plaintiffs the relief that they seek—a declaratory
judgment and injunction, restraining the Federal
Government from enforcing the CSA as it pertains to
Cannabis” (App. Br. at 5, Second Circuit Dkt. No. 37).
We interposed the same argument before the District
Court. This Court, nonetheless, ruled that Plaintiffs
are required to seek a re-scheduling or de-scheduling
of cannabis by filing the DEA Petition. In this regard,
the Court explained its rationale as follows:
the gravamen of [Plaintiffs’] argument is
that marijuana should not be classified as a
Schedule I substance under the CSA. Were a
court to agree, the remedy would be to reschedule or deschedule cannabis. It cannot
be seriously argued that this remedy is not
available through the administrative process.

See Decision, dated May 30, 2019 at 18-19 (“Decision”)
(Second Circuit Dkt. No. 101) (emphasis added).
As discussed below, a review of a prior DEA
decision denying a petition to re-schedule or deschedule cannabis confirms that the specific remedies
sought by Plaintiffs—the de-scheduling of cannabis
and an injunction against enforcement of the CSA as
it pertains to that substance—is, in fact, not available
based upon the DEA’s current position on the issue.
Discussion
In 2016, the DEA denied a petition to initiate
rulemaking proceedings to re-schedule cannabis
(“Previous DEA Determination”). See 21 CFR Chapter

App.284a
II and Part 1301, Fed. Register, Vol. 156, 53688, Aug,
12, 2016.2 In the Previous DEA Determination, in a
section entitled “Preliminary Note Regarding Treaty
Obligations,” the DEA advanced the position that, due
to United States’ obligations under international drug
control treaties, cannabis cannot be de-scheduled under
the CSA. Id. at 53688. According to the DEA, under
the Single Convention on Narcotic Drugs, 1961
(“Single Convention”), of which the United States is a
party, the United States is “obligated to maintain
various control provisions related to the drugs that
are covered by the treaty,” which includes cannabis.
In this regard, the DEA wrote that:
the DEA Administrator is obligated under
[the CSA] to control marijuana in the
schedule that he deems most appropriate to
carry out the U.S. obligations under the
Single Convention. It has been established in
prior marijuana rescheduling proceedings
that placement of marijuana in either
schedule I or schedule II of the CSA is
“necessary as well as sufficient to satisfy our
international obligations” under the Single
Convention. NORML v. DEA, 559 F.2d 735,
751 (D.C. Cir. 1977). As the United States
Court of Appeals for the DC Circuit has
stated, “several requirements imposed by
the Single Convention would not be met if
cannabis and cannabis resin were placed in
CSA schedule III, IV, or V.” Id. Therefore, in

2 The Previous DEA Determination states that “marijuana”
refers to “cannabis.”

App.285a
accordance with [the CSA], DEA must place
marijuana in either schedule I or schedule II.

Id. at 53688-89.
Based upon the Previous DEA Determination,
the DEA, at least currently, would not entertain a
petition to de-schedule cannabis, but rather would
consider only whether to re-classify cannabis under
Schedule II. And, if cannabis were re-classified to
Schedule II, Plaintiffs would be saddled with an
outcome that, not only would be inconsistent with
their prayer for relief, but worse, would exacerbate
their situations. Currently, although illegal under
federal Law, medical cannabis is available to Plaintiffs
and other patients across the United States (in
varying degrees) pursuant to 34 state-legal programs.
While such programs contain deficiencies and limit
cannabis patients in terms of their ability to exercise
their constitutional rights, inter alia, to travel, free
speech and federal benefits and entitlements, such
patients can nonetheless, in most instances, travel to
an instate dispensary and purchase their medications.
And, because the Federal Government has attached
funding riders to appropriations legislation annually
since 2014, the DEA and Justice Department are
prohibited from using federal monies to enforce the
CSA as it pertains to cannabis in those states that
have implemented medical-cannabis programs. See
Consolidated and Further Continuing Appropriations
Act, 2015, Pub. L. No. 113-235, § 538, 128 Stat. 2130,
2217 (2014); Consolidated Appropriations Act, 2016,
Pub. L. No. 114-113, § 542, 129 Stat. 2242, 2332-33
(2015); Consolidated Appropriations Act, 2017, Pub.
L. No. 115-31, § 537 (2017); Consolidated Appropriations Act, 2018, Pub. L. No. 115-141, § 538, 132 Stat.

App.286a
445 (2018). Thus, while far from perfect-indeed, cannabis patients are required to forfeit their constitutional rights in order to obtain the medication to
sustain their health and lives-the current state of the
law permits Plaintiffs some level of access to medical
cannabis in state-legal jurisdictions. If, however,
cannabis were to be re-classified under Schedule II,
overly-burdensome regulation would resume under
federal law, creating substantial increases in the cost
of cultivating, extracting, packaging and distributing
cannabis, and resulting in built-in increases in cost.3
Pharmaceutical companies would be able to exploit
their vast and superior resources to navigate the
regulatory process, monopolizing the cannabis market,
and allowing them to charge exorbitant prices for
medication that is currently otherwise available to
patients at a fraction of the cost. Indeed, the Court
need look no further than the pricing for Epidiolex—a
cannabis medication approved by the FDA for the
treatment of epilepsy in children and classified as a
Schedule V drug under the CSA.4 Currently,
pharmaceutical companies charge in excess of $32,000

3 Rescheduling Marijuana in the U.S. Could Backfire, S.
Williams, Motley Fool.com, 5/27/2018. https://www.fool.com/
investing/2018/05/27/rescheduling-marijuana-in-the-us-couldbackfire.aspx
4 21 C.F.R. § 1308.15(f). See also The United States Department
of Justice, FDA-Approved Drug Epidiolex Placed in Schedule V
of Controlled Substances Act, Office of Public Affairs (Sept. 27,
2018), https://www.justice.gov/opa/pr/fda-approved-drug-epidiolexplaced-schedule-v-controlled-substances-act (“Epidiolex, the
newly approved medication by the Food & Drug Administration
(FDA), is being placed in schedule V of the Controlled
Substances Act”).

App.287a
per annum for regular administrations of Epidiolex.5
By contrast, the cannabis medication upon which
Plaintiff Alexis Bortell relies daily to treat her
epilepsy and otherwise maintain her health and life is
less than $5,800 per year-84% less than the cost of
Epidiolex. Re-classifying cannabis under another CSA
Schedule would constitute merely an invitation to big
pharmaceutical companies to fleece a new population
of patients, many of whom are currently able to obtain
their medical cannabis at a fraction of the cost. Thus,
Plaintiffs, not only never requested that the Court reclassify cannabis under Schedule II, but further,
would resist any such effort in its entirety. Plaintiffs
were seeking a ruling under the constitution that
would effectively de-schedule cannabis.6
The Decision herein completely controverts the
Previous DEA Determination. In particular, this Court
interpreted the DC Circuit’s decision in NORML v.
DEA (upon which the DEA previously relied) as
holding that “foreign treaty commitments have not
divested the Attorney General of the power to re-or de5 Peter Loftus, New Marijuana-Based Epilepsy Treatment to
Cost $32,500 a Year, THE WALL STREET JOURNAL (Aug. 8,
2018), https://www.wsj.com/articles/new-marijuana-based-epilepsytreatment-to-cost-32-500-a-year-1533761758 (“GW Pharmaceuticals PLC said it plans to charge about $32,500 per patient
annually in the U.S. for its new treatment for rare forms of
epilepsy, the first prescription drug derived from the marijuana
plant”).
6 The recent concerns over lung damage caused by “vaping”
appear to pertain to black-market products that exist outside any
regulatory environment—a problem which would be cataclysmically worsened were cannabis to be rendered unaffordable
to those who treat with state-legal cannabis daily in regulated
state-legal markets.

App.288a
schedule marijuana” (Decision at 21) (citing NORML v.
DEA, 559 F.2d 735). Because the Previous DEA
Determination and DEA’ s interpretation of the ruling
in NORML v. DEA are inconsistent with this Court’s
Decision herein, Plaintiffs should be entitled to
declaratory relief—specifically, a ruling that the DEA
and Attorney General do, in fact, have the power to
de-schedule cannabis. To obtain such a result, however,
we need to interpose another pro Bono action on
behalf of Plaintiffs. And because the declaratory
judgment action would likely require at least six to
nine months to complete, Plaintiffs need an extension
of time within which to file their DEA Petition.
Plaintiffs intend to file the motion to extend their
time to file the DEA Petition within thirty (30) days.
Alternatively, the Court could endorse this
correspondence to grant the extension without the
necessity of a motion.
Respectfully submitted
/s/ Michael S. Hiller
MSH: me
c:

Benjamin H. Torrance, Esq.
Samuel Dolinger, Esq.

App.289a
UNITED STATES PATENT:
CANNABINOIDS AS ANTIOXIDANTS
AND NEUROPROTECTANTS
(OCTOBER 7, 2003)
United States Patent
Hampson et al.
Patent No.: US 6,630,507 B1
Date of Patent: Oct. 7, 2003
________________________
CANNABINOIDS AS ANTIOXIDANTS AND
NEUROPROTECTANTS
Inventors: Aldan J. Hampson, Irvine, CA (US);
Julius Axelrod, Rockville, MD (US); Maurizio Grimaldi,
Bethesda, MD (US)
Assignee: The United States of America as
represented by the Department of Health and Human
Services, Washington, DC (US)
Notice: Subject to any disclaimer, the term of this
patent is extended or adjusted under 35 U.S.C. 154(b)
by 0 days.
Appl. No.: 09/674,028
PCT Filed: Apr. 21, 1999
PCT No.: PCT/US99/08769
§ 371(c)(l),
(2), (4) Date: Feb 2, 2001
PCT Pub. No.: WO99/53917
PCT Pub. Date: Oct. 28, 1999
Related U.S. Application Data

App.290a
Provisional application No. 60/082,589, filed on
Apr. 21, 1998, and provisional application No. 60/095,
993, filed on Aug, 10, 1998.
ABSTRACT
Cannabinoids have been found to have antioxidant
properties, unrelated to NMDA receptor antagonism.
This new found property makes cannabinoids useful
in the treatment and prophylaxis of wide variety of
oxidation associated diseases, such as ischemic, agerelated, inflammatory and autoimmune diseases. The
cannabinoids are found to have particular application
as neuroprotectants, for example in limiting neurological damage following ischemic insults, such as stroke
and trauma, or in the treatment of neurodegenerative
diseases, such as Alzheimer’s disease, Parkinson’s
disease and HIV dementia. Nonpsychoactive cannabinoids, such as cannabidoil, are particularly
advantageous to use because they avoid toxicity that
is uncounted with psychoactive cannabinoids at high
doses useful in the method of the present invention. A
particular disclosed class of cannabinoids useful as
neuroprotective, antioxidants is formula (I) wherein
the R group is independently selected from the group
consisting of H, CH3, and COCH3.

App.291a

App.292a

App.293a

App.294a

App.295a
GUIDANCE MEMORANDUM FROM
THE UNITED STATES DEPARTMENT OF
TREASURY (FINCEN GUIDANCE)
(FEBRUARY 14, 2014)
DEPARTMENT OF THE TREASURY
FINANCIAL CRIMES ENFORCEMENT NETWORK
GUIDANCE
________________________
FIN-2014-G001
Subject: BSA Expectations Regarding MarijuanaRelated Businesses
The Financial Crimes Enforcement Network
(“FinCEN”) is issuing guidance to clarify Bank Secrecy
Act (“BSA”) expectations for financial institutions
seeking to provide services to marijuana-related businesses. FinCEN is issuing this guidance in light of
recent state initiatives to legalize certain marijuanarelated activity and related guidance by the U.S.
Department of Justice (“DOJ”) concerning marijuanarelated enforcement priorities. This FinCEN guidance
clarifies how financial institutions can provide services
to marijuana-related businesses consistent with their
BSA obligations, and aligns the information provided
by financial institutions in BSA reports with federal
and state law enforcement priorities. This FinCEN
guidance should enhance the availability of financial
services for, and the financial transparency of,
marijuana-related businesses.
Marijuana Laws and Law Enforcement Priorities
The Controlled Substances Act (“CSA”) makes it
illegal under federal law to manufacture, distribute,

App.296a
or dispense marijuana. 1 Many states impose and
enforce similar prohibitions. Notwithstanding the
federal ban, as of the date of this guidance, 20 states
and the District of Columbia have legalized certain
marijuana-related activity. In light of these developments, U.S. Department of Justice Deputy Attorney
General James M. Cole issued a memorandum (the “Cole
Memo”) to all United States Attorneys providing
updated guidance to federal prosecutors concerning
marijuana enforcement under the CSA.2 The Cole
Memo guidance applies to all of DOJ’s federal
enforcement activity, including civil enforcement and
criminal investigations and prosecutions, concerning
marijuana in all states.
The Cole Memo reiterates Congress’s determination that marijuana is a dangerous drug and that the
illegal distribution and sale of marijuana is a serious
crime that provides a significant source of revenue to
large-scale criminal enterprises, gangs, and cartels.
The Cole Memo notes that DOJ is committed to enforcement of the CSA consistent with those determinations.
It also notes that DOJ is committed to using its
investigative and prosecutorial resources to address
the most significant threats in the most effective,
consistent, and rational way. In furtherance of those
objectives, the Cole Memo provides guidance to DOJ

1 Controlled Substances Act, 21 U.S.C. § 801, et seq.
2 James M. Cole, Deputy Attorney General, U.S. Department of
Justice, Memorandum for All United States Attorneys: Guidance
Regarding Marijuana Enforcement (August 29, 2013), available at
http://www.justice.gov/iso/opa/resources/3052013829132756857467.
pdf.

App.297a
attorneys and law enforcement to focus their enforcement resources on persons or organizations whose
conduct interferes with any one or more of the
following important priorities (the “Cole Memo
priorities”):3
● Preventing the distribution of marijuana to
minors;
● Preventing revenue from the sale of marijuana
from going to criminal enterprises, gangs, and
cartels;
● Preventing the diversion of marijuana from
states where it is legal under state law in some
form to other states;
● Preventing state-authorized marijuana activity from being used as a cover or pretext for the
trafficking of other illegal drugs or other illegal
activity;
● Preventing violence and the use of firearms in
the cultivation and distribution of marijuana;
● Preventing
drugged
driving
and
the
exacerbation of other adverse public health
consequences associated with marijuana use;
● Preventing the growing of marijuana on public
lands and the attendant public safety and
environmental dangers posed by marijuana
production on public lands; and
● Preventing marijuana possession or use on
federal property.

3 The Cole Memo notes that these enforcement priorities are
listed in general terms; each encompasses a variety of conduct
that may merit civil or criminal enforcement of the CSA.

App.298a
Concurrently with this FinCEN guidance, Deputy
Attorney General Cole is issuing supplemental guidance
directing that prosecutors also consider these
enforcement priorities with respect to federal money
laundering, unlicensed money transmitter, and BSA
offenses predicated on marijuana-related violations of
the CSA.4
Providing Financial Services to Marijuana-Related
Businesses
This FinCEN guidance clarifies how financial
institutions can provide services to marijuana-related
businesses consistent with their BSA obligations. In
general, the decision to open, close, or refuse any
particular account or relationship should be made by
each financial institution based on a number of factors
specific to that institution. These factors may include
its particular business objectives, an evaluation of the
risks associated with offering a particular product or
service, and its capacity to manage those risks
effectively. Thorough customer due diligence is a
critical aspect of making this assessment.
In assessing the risk of providing services to a
marijuana-related business, a financial institution
should conduct customer due diligence that includes:
(i) verifying with the appropriate state authorities
whether the business is duly licensed and registered;
(ii) reviewing the license application (and related
documentation) submitted by the business for obtaining
4 James M. Cole, Deputy Attorney General, U.S. Department of
Justice, Memorandum for All United States Attorneys: Guidance
Regarding Marijuana Related Financial Crimes (February 14,
2014).

App.299a
a state license to operate its marijuana-related
business; (iii) requesting from state licensing and
enforcement authorities available information about
the business and related parties; (iv) developing an
understanding of the normal and expected activity for
the business, including the types of products to be sold
and the type of customers to be served (e.g., medical
versus
recreational
customers);
(v)
ongoing
monitoring of publicly available sources for adverse
information about the business and related patties;
(vi) ongoing monitoring for suspicious activity, including
for any of the red flags described in this guidance; and
(vii) refreshing information obtained as part of
customer due diligence on a periodic basis and
commensurate with the risk. With respect to information regarding state licensure obtained in connection
with such customer due diligence, a financial institution
may reasonably rely on the accuracy of information
provided by state licensing authorities, where states
make such information available.
As part of its customer due diligence, a financial
institution should consider whether a marijuanarelated business implicates one of the Cole Memo
priorities or violates state law. This is a particularly
important factor for a financial institution to consider
when assessing the risk of providing financial services
to a marijuana-related business. Considering this
factor also enables the financial institution to provide
information in BSA reports pertinent to law enforcement’s priorities. A financial institution that decides
to provide financial services to a marijuana-related
business would be required to file suspicious activity
reports (“SARs”) as described below.

App.300a
Filing Suspicious Activity Reports on MarijuanaRelated Businesses
The obligation to file a SAR is unaffected by any
state law that legalizes marijuana-related activity. A
financial institution is required to file a SAR if,
consistent with FinCEN regulations, the financial
institution knows, suspects, or has reason to suspect
that a transaction conducted or attempted by, at, or
through the financial institution: (i) involves funds
derived from illegal activity or is an attempt to
disguise funds derived from illegal activity; (ii) is
designed to evade regulations promulgated under the
BSA, or (iii) lacks a business or apparent lawful
purpose.5 Because federal law prohibits the distribution
and sale of marijuana, financial transactions involving
a marijuana-related business would generally involve
funds derived from illegal activity. Therefore, a financial
institution is required to file a SAR on activity
involving a marijuana-related business (including
those duly licensed under state law), in accordance
with this guidance and FinCEN’s suspicious activity
reporting requirements and related thresholds.
One of the BSA’s purposes is to require financial
institutions to file reports that are highly useful in
criminal investigations and proceedings. The guidance
below furthers this objective by assisting financial
5 See, e.g., 31 CFR § 1020.320. Financial institutions shall file
with FinCEN, to the extent and in the manner required, a report
of any suspicious transaction relevant to a possible violation of
law or regulation. A financial institution may also file with
FinCEN a SAR with respect to any suspicious transaction that it
believes is relevant to the possible violation of any law or
regulation but whose reporting is not required by FinCEN
regulations.

App.301a
institutions in determining how to file a SAR that
facilitates law enforcement’s access to information
pertinent to a priority.
“Marijuana Limited” SAR Filings
A financial institution providing financial services
to a marijuana-related business that it reasonably
believes, based on its customer due diligence, does not
implicate one of the Cole Memo priorities or violate
state law should file a “Marijuana Limited” SAR. The
content of this SAR should be limited to the following
information: (i) identifying information of the subject
and related parties; (ii) addresses of the subject and
related parties; (iii) the fact that the filing institution
is filing the SAR solely because the subject is engaged
in a marijuana-related business; and (iv) the fact that
no additional suspicious activity has been identified.
Financial institutions should use the term
“MARIJUANA LIMITED” in the narrative section.
A financial institution should follow FinCEN’s
existing guidance on the timing of filing continuing
activity reports for the same activity initially reported
on a “Marijuana Limited” SAR.6 The continuing
activity report may contain the same limited content
as the initial SAR, plus details about the amount of
deposits, withdrawals, and transfers in the account
since the last SAR. However, if, in the course of
conducting customer due diligence (including ongoing
monitoring for red flags), the financial institution
6 Frequently Asked Questions Regarding the FinCEN Suspicious
Activity Report (Question #16), available at: http://fincen.gov/
whatsnew/html/sar_faqs.html (providing guidance on the filing
timeframe for submitting a continuing activity report).

App.302a
detects changes in activity that potentially implicate
one of the Cole Memo priorities or violate state law,
the financial institution should file a “Marijuana
Priority” SAR.
“Marijuana Priority” SAR Filings
A financial institution filing a SAR on a marijuanarelated business that it reasonably believes, based on
its customer due diligence, implicates one of the Cole
Memo priorities or violates state law should file a
“Marijuana Priority” SAR. The content of this SAR
should include comprehensive detail in accordance with
existing regulations and guidance. Details particularly
relevant to law enforcement in this context include: (i)
identifying information of the subject and related
parties; (ii) addresses of the subject and related
parties; (iii) details regarding the enforcement priorities
the financial institution believes have been implicated;
and (iv) dates, amounts, and other relevant details of
financial transactions involved in the suspicious
activity. Financial institutions should use the term
“MARIJUANA PRIORITY” in the narrative section to
help law enforcement distinguish these SARs.7
7 FinCEN recognizes that a financial institution filing a SAR on
a marijuana-related business may not always be well-positioned
to determine whether the business implicates one of the Cole
Memo priorities or violates state law, and thus which terms
would be most appropriate to include (i.e., “Marijuana Limited”
or “Marijuana Priority”). For example, a financial institution
could be providing services to another domestic financial institution
that, in turn, provides financial services to a marijuana-related
business. Similarly, a financial institution could be providing
services to a non-financial customer that provides goods or
services to a marijuana-related business (e.g., a commercial
landlord that leases property to a marijuana-related business).

App.303a
“Marijuana Termination” SAR Filings
If a financial institution deems it necessary to
terminate a relationship with a marijuana-related
business in order to maintain an effective anti-money
laundering compliance program, it should file a SAR
and note in the narrative the basis for the termination.
Financial institutions should use the term “MARIJUANA TERMINATION” in the narrative section. To
the extent the financial institution becomes aware that
the marijuana-related business seeks to move to a
second financial institution, FinCEN urges the first
institution to use Section 314(b) voluntary information
sharing (if it qualifies) to alert the second financial
institution of potential illegal activity. See Section
314(b) Fact Sheet for more information.8
Red Flags to Distinguish Priority SARs
The following red flags indicate that a marijuanarelated business may be engaged in activity that
implicates one of the Cole Memo priorities or violates
state law. These red flags indicate only possible signs
of such activity, and also do not constitute an exhaustive
In such circumstances where services are being provided indirectly,
the financial institution may file SARs based on existing
regulations and guidance without distinguishing between
“'Marijuana Limited” and “Marijuana Priority.” Whether the
financial institution decides to provide indirect services to a
marijuana-related business is a risk-based decision that depends on
a number of factors specific to that institution and the relevant
circumstances. In making this decision, the institution should
consider the Cole Memo priorities, to the extent applicable.
8 Information Sharing Between Financial Institutions: Section
314(b) Fact Sheet, available at: http://fincen.gov/statutes_regs/
patriot/pdf/314bfactsheet.pdf.

App.304a
list. It is thus important to view any red flag(s) in the
context of other indicators and facts, such as the
financial institution’s knowledge about the underlying
parties obtained through its customer due diligence.
Further, the presence of any of these red flags in a
given transaction or business arrangement may
indicate a need for additional due diligence, which
could include seeking information from other involved
financial institutions under Section 314(b). These red
flags are based primarily upon schemes and typologies
described in SARs or identified by our law enforcement
and regulatory partners, and may be updated in
future guidance.
● A customer appears to be using a state-licensed
marijuana-related business as a front or pretext to
launder money derived from other criminal activity
( i.e ., not related to marijuana) or derived from
marijuana-related activity not permitted under
state law. Relevant indicia could include:
○ The business receives substantially more
revenue than may reasonably be expected given
the relevant limitations imposed by the state
in which it operates.
○ The business receives substantially more
revenue than its local competitors or than
might be expected given the population
demographics.
○ The business is depositing more cash than is
commensurate with the amount of marijuanarelated revenue it is reporting for federal and
state tax purposes.
○ The business is unable to demonstrate that its
revenue is derived exclusively from the sale of

App.305a

○

○

○

○
○

○

○

○

○

marijuana in compliance with state law, as
opposed to revenue derived from (i) the sale of
other illicit drugs, (ii) the sale of marijuana not
in compliance with state law, or (iii) other
illegal activity.
The business makes cash deposits or
withdrawals over a short period of time that
are excessive relative to local competitors or
the expected activity of the business.
Deposits apparently structured to avoid
Currency
Transaction
Report
(“CTR”)
requirements.
Rapid movement of funds, such as cash
deposits followed by immediate cash
withdrawals.
Deposits by third parties with no apparent
connection to the accountholder.
Excessive commingling of funds with the
personal account of the business’s owner(s) or
manager(s), or with accounts of seemingly
unrelated businesses.
Individuals conducting transactions for the
business appear to be acting on behalf of other,
undisclosed patties of interest.
Financial statements provided by the business
to the financial institution are inconsistent
with actual account activity.
A surge in activity by third parties offering
goods or services to marijuana-related
businesses, such as equipment suppliers or
shipping servicers.
The business is unable to produce satisfactory
documentation or evidence to demonstrate

App.306a
that it is duly licensed
consistently with state law.

and

operating

● The business is unable to demonstrate the legitimate source of significant outside investments.
● A customer seeks to conceal or disguise involvement in marijuana-related business activity. For
example, the customer may be using a business
with a non-descript name (e.g., a “consulting,”
“holding,” or “management” company) that
purports to engage in commercial activity
unrelated to marijuana, but is depositing cash that
smells like marijuana.
● Review of publicly available sources and databases
about the business, its owner(s), manager(s), or
other related parties, reveal negative information,
such as a criminal record, involvement in the illegal
purchase or sale of drugs, violence, or other potential
connections to illicit activity.
● The business, its owner(s), manager(s), or other
related parties are, or have been, subject to an
enforcement action by the state or local authorities
responsible for administering or enforcing
marijuana-related laws or regulations.
● A marijuana-related business engages in international or interstate activity, including by receiving
cash deposits from locations outside the state in
which the business operates, making or receiving
frequent or large interstate transfers, or otherwise
transacting with persons or entities located in
different states or countries.
● The owner(s) or manager(s) of a marijuana-related
business reside outside the state in which the
business is located.

App.307a
● A marijuana-related business is located on federal
property or the marijuana sold by the business was
grown on federal property.
● A marijuana-related business’s proximity to a
school is not compliant with state law.
● A marijuana-related business purporting to be a
“non-profit” is engaged in commercial activity
inconsistent with that classification, or is making
excessive payments to its manager(s) or
employee(s).
Currency Transaction Reports and Form 8300’s
Financial institutions and other persons subject
to FinCEN’s regulations must report currency transactions in connection with marijuana-related businesses the same as they would in any other context,
consistent with existing regulations and with the same
thresholds that apply. For example, banks and money
services businesses would need to file CTRs on the
receipt or withdrawal by any person of more than
$10,000 in cash per day. Similarly, any person or
entity engaged in a non-financial trade or business
would need to report transactions in which they
receive more than $10,000 in cash and other monetary
instruments for the purchase of goods or services on
FinCEN Form 8300 (Report of Cash Payments Over
$10,000 Received in a Trade or Business). A business
engaged in marijuana-related activity may not be
treated as a non-listed business under 31 C.F.R. § 1020.
315(e)(8), and therefore, is not eligible for consideration
for an exemption with respect to a bank’s CTR
obligations under 31 C.F.R. § 1020.315(b)(6).
*****

App.308a
FinCEN’s enforcement priorities in connection
with this guidance will focus on matters of systemic or
significant failures, and not isolated lapses in
technical compliance. Financial institutions with
questions about this guidance are encouraged to contact
FinCEN’s Resource Center at (800) 767-2825, where
industry questions can be addressed and monitored
for the purpose of providing any necessary additional
guidance.

App.309a
JUSTICE DEPT PRESS RELEASE:
“JUSTICE DEPARTMENT ISSUES MEMO ON
MARIJUANA ENFORCEMENT”
(JANUARY 4, 2018)
Department of Justice
Office of Public Affairs
The Department of Justice today issued a memo
on federal marijuana enforcement policy announcing
a return to the rule of law and the rescission of
previous guidance documents. Since the passage of
the Controlled Substances Act (CSA) in 1970, Congress
has generally prohibited the cultivation, distribution,
and possession of marijuana.
In the memorandum, Attorney General Jeff
Sessions directs all U.S. Attorneys to enforce the laws
enacted by Congress and to follow well-established
principles when pursuing prosecutions related to
marijuana activities. This return to the rule of law is
also a return of trust and local control to federal
prosecutors who know where and how to deploy
Justice Department resources most effectively to
reduce violent crime, stem the tide of the drug crisis,
and dismantle criminal gangs.
“It is the mission of the Department of Justice to
enforce the laws of the United States, and the
previous issuance of guidance undermines the rule of
law and the ability of our local, state, tribal, and
federal law enforcement partners to carry out this
mission,” said Attorney General Jeff Sessions. “Therefore, today's memo on federal marijuana enforcement
simply directs all U.S. Attorneys to use previously
established prosecutorial principles that provide them

App.310a
all the necessary tools to disrupt criminal organizations, tackle the growing drug crisis, and thwart
violent crime across our country.”

App.311a
PRESS RELEASE BY
SENATOR CORY GARDNER (R-CO)
(APRIL 13, 2018)
GARDNER PROTECTS COLORADO’S
LEGAL MARIJUANA INDUSTRY
Receives Commitment from President Trump to
Support Legislation to Protect States’ Rights
354 Russell Senate Office Building,
Washington, DC 20515
(202) 224-5941
________________________
Washington, DC—Senator Cory Gardner (R-CO) today
released the below statement regarding the current
status of the Administration’s policy toward legal marijuana.
In response to the Department of Justice’s January
4 announcement that Attorney General Jeff Sessions
had rescinded the Cole Memorandum, Senator Gardner
placed a hold on all DOJ nominees until he received a
commitment that Colorado’s rights would not be
infringed. After positive discussions with DOJ, Gardner
lifted some of his holds but kept the rest in place until
he received a full commitment that the guidelines of the
Cole Memo would be respected.
“Since the campaign, President Trump has consistently supported states’ rights to decide for themselves
how best to approach marijuana,” said Gardner. “Late
Wednesday, I received a commitment from the
President that the Department of Justice’s rescission
of the Cole memo will not impact Colorado’s legal
marijuana industry. Furthermore, President Trump

App.312a
has assured me that he will support a federalism-based
legislative solution to fix this states’ rights issue once
and for all.
“Because of these commitments, I have informed
the Administration that I will be lifting my remaining
holds on Department of Justice nominees. My colleagues and I are continuing to work diligently on a
bipartisan legislative solution that can pass Congress
and head to the President’s desk to deliver on his
campaign position.”
###
Cory Gardner is a member of the U.S. Senate
serving Colorado. He sits on the Energy & Natural
Resources Committee, the Foreign Relations Committee, the Commerce, Science, & Transportation
Committee, and the Budget Committee, and is the
Chairman of the Subcommittee on East Asia, the
Pacific, and International Cybersecurity Policy.
354 Russell Senate Office Building
Washington, DC 20515
(202) 224-5941

App.313a
ISU MISSOULA STUDY (2002)
CHRONIC CANNABIS USE IN THE COMPASSIONATE
INVESTIGATIONAL NEW DRUG PROGRAM:
AN EXAMINATION OF BENEFITS AND
ADVERSE EFFECTS OF LEGAL CLINICAL CANNABIS
[Authors]:
Ethan Russo; Mary Lynn Mathre;
Al Byrne; Robert Velin; Paul J. Bach;
Juan Sanchez-Ramos; Kristin A. Kirlin
________________________
ABSTRACT. The Missoula Chronic Clinical Cannabis Use Study was proposed to investigate the
therapeutic benefits and adverse effects of prolonged
use of “medical marijuana” in a cohort of seriously ill
patients. Use of cannabis was approved through the
Compassionate Investigational New Drug (IND)
program of the Food and Drug Administration (FDA).
Cannabis is obtained from the National Institute on
Drug Abuse (NIDA), and is utilized under the supervision of a study physician. The aim of this study is to
examine the overall health status of 4 of the 7
surviving patients in the program. This project provides the first opportunity to scrutinize the long-term
effects of cannabis on patients who have used a known
dosage of a standardized, heat-sterilized quality-controlled supply of low-grade marijuana for 11 to 27 years.
Results demonstrate clinical effectiveness in these
patients in treating glaucoma, chronic musculoskeletal
pain, spasm and nausea, and spasticity of multiple
sclerosis. All 4 patients are stable with respect to their
chronic conditions, and are taking many fewer standard pharmaceuticals than previously.

App.314a
Mild changes in pulmonary function were observed
in 2 patients, while no functionally significant attributable sequelae were noted in any other physiological
system examined in the study, which included: MRI
scans of the brain, pulmonary function tests, chest Xray, neuropsy-chological tests, hormone and immunological assays, electroencephalography, P300 testing,
history, and neurological clinical examination.
These results would support the provision of
clinical cannabis to a greater number of patients in
need. We believe that cannabis can be a safe and effective medicine with various suggested improvements
in the existing Compassionate IND program. [Article

copies available for a fee from The Haworth Document
Delivery Service: 1-800-HAWORTH. E-mail address:
<getinfo@haworthpressinc.com> Website: <http://
www.HaworthPress.com> © 2002 by The Haworth
Press, Inc. All rights reserved.]
KEYWORDS. Cannabis, medical marijuana,
hashish, investigational new drug, compassionate use,
NIDA, FDA, herbal medicine, analgesia, spasticity,
chronic pain, glaucoma, multiple sclerosis, epidemiology, history of medicine, drug policy
INTRODUCTION
The Missoula Chronic Clinical Cannabis Use
Study was proposed to investigate the therapeutic
benefits and adverse effects of prolonged use of “medical marijuana” in a cohort of seriously ill patients
approved through the Compassionate Investigational
New Drug (IND) program of the Food and Drug
Administration (FDA) for legal use of cannabis obtained
from the National Institute on Drug Abuse (NIDA),
under the supervision of a study physician. The aim

App.315a
was to examine the overall health status of 8 surviving
patients in the program. Four patients were able to
take part, while three wished to remain anonymous,
and one was too ill to participate. Unfortunately, that
person, Robert Randall, succumbed to his condition
during the course of the study. Thus, 7 surviving
patients in the USA remain in the Compassionate IND
program.
Despite the obvious opportunity to generate data
on the use of cannabis and its possible sequelae in
these patients, neither NIDA, other branches of the
National Institutes of Health, nor the FDA has
published an analysis of information from this cohort.
An examination of the contents of the National
Library of Medicine Database (PubMed), and search
engines of NIDA employing multiple combinations of
key words failed to retrieve a single citation. The
Missoula Chronic Cannabis Use Study thus provides
a unique and important opportunity to scrutinize the
long-term effects of cannabis on patients who have
used a known dosage of standardized, heat-sterilized
quality-controlled supply of low-grade medical marijuana for 11 to 27 years.
The results are compared to those of past chronic
use studies in an effort to gain insight into the benefits
and sequelae of this controversial agent in modern
health care.
PREVIOUS CHRONIC CANNABIS USE STUDIES
The first systematic modern study of chronic cannabis usage was the Indian Hemp Drugs Commission
Report at the end of the 19th century (Kaplan 1969;
Indian Hemp Drugs Commission 1894). The British
government chose not to outlaw cultivation and

App.316a
commerce of the herb after ascertaining that it had
negligible adverse effects on health, even in chronic
application.
Similar conclusions were obtained in the “LaGuardia Report” of 1944 (New York, NY), Mayor’s
committee on marihuana (Wallace, and Cunningham
1944), which was the first to employ clinical and scientific methods of analysis.
Three important systematic epidemiological
studies undertaken by research teams in the 1970’s
exhaustively examined medical issues in chronic cannabis use, but remain obscure due to limited press
runs and out-of-print status. The first of these was
Ganja in Jamaica: A Medical Anthropological Study
of Chronic Marihuana Use (Rubin and Comitas 1975).
Therapeutic claims for cannabis were mentioned, but
the focus of study was on “recreational use.” Sixty men
were included in a hospital study of various clinical
parameters if they had maintained a minimum intake
of 3 spliffs a day for a minimum of 10 years. Jamaican
ganja “spliffs” formed of unfertilized female flowering
tops (sinsemilla) tend to be much larger than an
American “joint” of 500-1000 mg. The potency of the
cannabis was analyzed with measures in 30 samples
ranging from 0.7-10.3% THC, with an average of 2.8%.
In 1977, a detailed study was undertaken in
Greece, titled Hashish: Studies of Long-Term Use
(Stefanis, Dornbush, and Fink 1977). Once again 60
subjects smoking for more than 10 years were selected.
Hashish potency was 4-5% THC and was generally
mixed with tobacco. Alcoholics were excluded.
In 1980, Cannabis in Costa Rica: A Study of
Chronic Marihuana Use was published (Carter 1980).

App.317a
Forty-one subjects smoking for 10 years or more were
recruited. Although 10 or more cigarettes per day
were smoked, the weight of material was only 2 g with
an estimated THC range of 24-70 mg per day.
Thirteen samples were assayed with a range of 1.273.72%, and average of 2.2% THC. Claims of benefit for
cough, asthma, headache, hangovers, anorexia,
impotence, depression and malaise were mentioned,
but once more, the focus was on social use.
The current study is the first designed to examine
clinical benefits and side effects of chronic clinical cannabis usage in which known amounts of quality-controlled material has been employed.
A BRIEF HISTORY OF THE COMPASSIONATE IND
Robert Randall was diagnosed with severe glaucoma at age 24 and was expected to become totally
blind long before he turned 30. He soon began a
fascinating medical odyssey that has been memorialized in his “personal reflection” co-authored by his
wife, Alice O’Leary, titled Marijuana Rx: The Patients’
Fight for Medicinal Pot (Randall and O’Leary 1998), and
other books (Randall 1991a; Randall 1991b). Until the
day he died on June 2, 2001 at age 52 of complications
of AIDS, Randall retained his vision, and remained a
vocal advocate for the benefits of clinical cannabis.
His own journey commenced when he independently discovered that smoking a certain amount of
cannabis eliminated the annoying visual haloes
produced by his glaucoma. A subsequent arrest in
August 1975 for cannabis cultivation led in turn to his
dogged pursuit of the right to a legal means to supply
his medicine of choice. He subsequently learned of medical support for his treatment (Hepler and Frank

App.318a
1971). D. Pate has published two more recent reviews
(Pate 1999; Pate 2001).
Through painstaking documentation and experimentation, Randall subsequently confirmed the
inability of medical science to control his intraocular
pressure (IOP) by any legal pharmaceutical means. In
contrast, smoked cannabis in large and frequent
amounts was successful, where even pure THC was
not. As Dr. Hepler observed in their experiments
together (Randall and O’Leary 1998, p. 60), “ . . . clearly,
something other than THC or in addition to THC is
helping to lower your pressures. . . . It seems that
marijuana works very, very well.”
After a great deal of bureaucratic wrangling,
Randall obtained his first government supplied cannabis in November 1976, and the legal case against
him was subsequently dismissed. The material he
received from his study physician was cultivated in a
5-acre plot at the University of Mississippi, mostly
from seeds of Mexican origin, and was rolled and
packaged at the Research Triangle Institute in North
Carolina under the supervision of the National Institute
on Drug Abuse (NIDA).
Randall was encouraged to be thankful, but silent,
about his treatment. Instead, he chose a different path
(Randall and O’Leary 1998, p. 134), “Having won, why
go mum? There were souls to save. Better to trust my
fellow citizens and shout into the darkness than rely on
a devious Government dedicated to a fraudulent
prohibition.” He chose to make it his mission to seek
approval of clinical cannabis for other patients. He
developed protocols for glaucoma, multiple sclerosis,
chronic pain, and AIDS that he shared with prospective
medical marijuana candidates. Randall proved to be a

App.319a
tireless and persistent researcher, ferreting out
hidden facts useful to his cause. Through the Freedom
of Information Act (FOIA), he discovered in 1978 that
the government’s cost of cannabis cultivation and
production was 90 cents per ounce (28 g), with 2/3 of
this cost attributable to security measures. Thus, the
actual cost of production approximated 1 cent per
gram (US $0.01/g).
Supply and quality control issues arose frequently,
and Randall and other patients experienced delays in
receipt of shipments or substitution of weaker strains
that required doubling of smoked intake.
The AIDS epidemic and its subsequent involvement in the medical marijuana issue suddenly provided an unlimited supply of available patients for the
Compassionate IND program, and Randall assisted
them as well. Some succumbed before their supply
was approved, or shortly thereafter. By 1991, 34
patients were enrolled in the program according to
Randall (Randall and O’Leary 1998), while other
sources cite the number as only 15. Facing an onslaught
of new applications, the Public Health Service (PHS)
in the Bush administration closed the program to new
patients in March 1992. A significant number had
received medical approval but were never supplied.
Randall sought to ascertain who signed the ultimate
termination order through the FOIA, but was never
successful in this endeavor. At the time of this writing,
7 patients survive in the program.
METHODS
The identities of 6 of 8 of the original Compassionate IND program subjects were known to Patients

App.320a
Out of Time and were contacted in relation to participating in a study of the clinical parameters cited as
concerns with chronic cannabis usage. Four subjects
agreed to participate, and 3 traveled to Missoula, MT
for testing at Montana Neurobehavioral Specialists,
and Saint Patrick Hospital on May 3-4, 2001. One
patient was tested to the extent possible in her local
area due to physical limitations on travel (Patient
Demographics: Table 1). Tests included the following
(Tests Performed: Table 2): MRI scans of the brain,
pulmonary function tests (spirometry), chest X-ray (P-A
and lateral), neuropsychological test battery, hormone
and immunological assays (CD4 counts), electroencephalography (EEG), P300 testing (a computerized
EEG test of memory), and neurological history and
clinical examination.
Past medical records were reviewed insofar as
possible and the histories were supplemented with
additional information. All patients signed informed
consent documents, and the St. Patrick Hospital/
Community Hospital Joint Investigational Review
Board (IRB) reviewed the protocol.
RESULTS AND DISCUSSION
Case Histories and Test Data on Four Compassionate
IND Program Patients
In the following section case histories, clinical examinations and objective test results are presented.
Patient A

Medical History: This almost 62-year-old female
was born with congenital cataracts in Cali, Colombia
and spent 13 years of her life there. There was a ques-

App.321a
tion of possible maternal exposure to malaria or quinine. Over time the patient required a series of 11
surgeries on the right eye and 3 on the left for the
cataracts and had resulting problems with glaucoma.
Her last surgery was complicated by hemorrhaging,
leading to immediate and complete loss of vision OD.
By 1976, the patient’s intraocular pressure was
out of control with all available drugs, many of which
caused significant side effects. At that time she started
eating and smoking cannabis to treat the condition.
She underwent extensive testing in that regard,
measuring pressures to titrate the dosage of cannabis.
She initially had personal issues with the concept of
smoking. Without cannabis her intraocular pressures
may run into the 50’s, while with it, values are in the
teens to 20’s. In 1988, she was arrested for cultivation
of 6 cannabis plants. Her ophthalmologist noted
(Randall and O’Leary 1998, p. 303), “it’s quite clearcut this is the only thing that will help her.” At her
trial, she stated in her own defense (Randall and
O’Leary 1998, p. 305), “Marijuana saved my sight. I
don’t think the law has the right to demand blindness
from a citizen.” She was acquitted on the basis of
“medical necessity,” but her approval for the Compassionate IND program took 6 months. She had smoked
cannabis on her own from black market sources for 12
years previously. MRI scan of the brain.
TABLE 2. TESTS PERFORMED:
CHRONIC CANNABIS IND STUDY
Pulmonary function tests (Spirometry)
Chest X-ray, P-A & lateral (Patients A-C)
Neuropsychological tests

App.322a
Wechsler Adult Intelligence Scale–
3rd Edition (WAIS-III)
Wechsler Memory Scale–3rd Edition
(WMS-III)
California Verbal Learning Test (CVLT)
Halstead-Reitan Battery
Trail Making Test A & B
Grooved Peg Board
Finger Tapping and Category Subtests
Controlled Oral Word Association Test
Thurstone Word Fluency Test
Category Fluency Test (animal naming)
Wisconsin Card Sorting Test (WCST)
Conner’s Continuous Performance Test–
2nd Edition (CPT-II)
Beck Depression Inventory–
2nd Edition (BDI-II).
Endocrine assays
FSH, LH, prolactin, estradiol, estrone,
estrogen, testosterone, progesterone
Immunological assays
CBC, CD4 count
Electroencephalography (EEG) (Patients A-C)
P300 testing (Patients A-C)
Neurological examination

App.323a
At present, she also uses Timoptic . . . (timolol, betablocker) eye drops daily in the morning, but has concerns about resulting bronchoconstriction.
She normally uses cannabis 3-4 grams smoked
and 3-4 grams orally per day. She feels that the
amount that she receives legally from NIDA is insufficient for her medical needs. At times she accepts
donations from cannabis buyers’ clubs. She admits
that the results of these outside cannabis samples on
her intraocular pressure are unclear. She has had
occasion to go to Amsterdam where intraocular pressures were measured in the teens simply employing
cannabis available there. She has used Marinol . . . on
an emergency basis, such as on traveling to Canada,
in doses of up to 5-10 mg qid. She reports that it lowers
intraocular pressure for one day, but within 3-5 days
becomes useless for that purpose.
The patient has a history of cigarette smoking as
well, 1-2 packs a day. She quit in 1997, but subsequently went on a “binge” of cigarette smoking for 13
months, finally quitting on New Year’s Day 2001. She
feels that past pulmonary function has been normal.
She also notes lifelong insomnia that is alleviated
by eating cannabis. Without such treatment, she feels
she would sleep 4 hours, whereas with it she sleeps 67. She also feels that the drug produces antidepressant and antianxiety effects for her. She has a
history of scoliosis, but notes no symptoms from this
and feels that muscle relaxant effects of cannabis have
made her quite limber.
The patient had a history of delirium associated
with malaria as a child. She had some hardware in her
foot from a 1980 surgery after a fall from platform

App.324a
shoes. She had a hysterectomy for fibroids. The
patient was menopausal at age 48 and has had no
hormone replacement treatment. There is no known
history of specific meningitis, encephalitis, head
trauma, seizures, diabetes, or thyroid problems. She
is on no medicine save for cannabis and timolol eye
drops. There are allergies to penicillin and tetracycline.
She completed the equivalent of high school, and is
right handed.
Family history is largely negative, although her
2 children had some cataract involvement.
Social history revealed that the patient has
worked in the past as a switchboard operator. She is
currently disabled due to legal blindness from her condition. She supports herself on Social Security Disability Income (SSDI). She has been an activist with
respect to clinical cannabis. The patient drinks alcohol
at a rate of about a bottle of wine a week. She had past
heavy use of caffeine, but now drinks decaf only. The
patient walks for exercise about an hour a day.

Medical Test Results: Objective: Weight: 132 lbs.
OFC (Occipitofrontal Circumference): 55.5 cm. BP:
104/62. General: Very pleasant, cooperative 62-yearold female. Head: normocephalic without bruits. ENT:
noteworthy as below. Neck: supple. Carotids: full. Cor:
S1, S2 without murmur. On auscultation of the chest,
there seemed to be a prolonged expiratory phase, but no
wheezing. Mental Status: The patient was alert and
fully oriented. Fund of knowledge, right-left
orientation, praxis and naming skills were normal. She
was unable to read a grade 6 paragraph with large
type due to visual blurring. When it was read to her,
memory of the contents was within normal limits. She
performed serial 3’s well. She remembered 3 objects

App.325a
for 5 minutes. On a word list task she named 15
animals in 30 seconds (normal 10-12). Speech and
affect were normal.

Cranial Nerves: I: intact to coconut scent. II: acuity

had recently been measured. There was no vision OD,
20/200 OS corrected. Visual fields OS intact to confrontation. Optokinetic nystagmus (OKNs) was present in that eye in all fields. The patient is aphakic
with an irregular eccentric pupil OS and clouding OD.
The disk on the left appeared normal. There was
prominent horizontal nystagmus resembling a congenital pattern. External extraocular movements were
normal. Remaining cranial nerves V and VII-XII
appeared intact in full.

Motor: The patient had normal tone and strength
with no drift. Sensation was intact to fine touch,
sharp/dull, vibration, position and graphesthesia.
Romberg was negative. The patient performed fingerto-nose and heel-to-shin well. Rapid alternating movements of the hands were slightly clumsy and fine
finger movements slightly deliberate. Gait including
toe and heel were normal with tandem gait normal,
but very carefully done. Reflexes were 2-3+, symmetric
with downgoing toes.
The patient underwent a battery of tests. On
pulmonary function tests (Table 3), a Functional Vital
Capacity (FVC) was 103% predicted. Forced Expiratory
Volume in 1 second (FEV1) was 84% of predicted and
the FEV1/FVC ratio was 0.67. This was read as
showing a mild obstructive defect based on the above
ratio and flow volume curve morphology. No restrictive
abnormality was noted. A CBC was wholly within
normal limits (Table 4). Absolute lymphocyte count
was 4.0, CD4 61.6% and absolute CD4 count 2465, all

App.326a
within normal limits. A full endocrine battery was
performed (Table 5), including FSH, LH, prolactin,
estradiol, estrone, estrogen, testosterone, and progesterone, all within normal limits for age and gender.
The patient had a P300 test performed with a
latency of 355 milliseconds, within normal limits for a
normed population in this laboratory (Figure 1).
The patient had an MRI brain study without contrast. This was read as showing a mild, symmetric, age
consistent cerebral atrophy. A small focus of T2 hyperintensity and increased signal was noted on the
FLAIR sequence in the mid-pons to the left of midline
with no surrounding mass effect or edema. This was
felt to be a nonspecific finding representing gliosis
most likely from microvascular ischemic change. No
corresponding signal abnormality was seen in the
same area on a diffusion-weighted sequence.
A chest x-ray showed slight hyperinflation of the
lung fields with no other findings.
Patient A was very pleasant and cooperative
throughout the neuropsychological assessment and
appeared to put forth very good effort. She did have
very significant visual deficits and as a result, several
instruments were dropped from the battery, including
Grooved Peg Board, Picture Arrangement, Symbol
Search, and the Faces and Family Pictures Subtests
from the Wechsler Memory Scale–3rd Edition (WMSIII). She was able to complete the Trail-Making Test
A & B from the Halstead-Reitan Neuropsychological
Battery, Spatial Span from the Wechsler Memory
Scale–3rd Edition (WMS-III), and the Wechsler Adult
Intelligence Scale–3rd Edition (WAIS-III)-Picture Completion, Digit Symbol, and Matrix Reasoning, but

App.327a
these were not used in interpretation secondary to the
very probable interfering effects of her limited sight.
Review of the WAIS-III revealed a Verbal IQ in
the upper end of the Average Range (VIQ = 108), and
a Performance IQ in the Extremely Low Range, at
only the 2nd percentile (PIQ = 69). This latter, however, is secondary to visual deficits as she had extremely low scores on the Digit Symbol and Picture
Completion subtests. She obtained an age scaled score
of 7 on Block Design; this performance was also
adversely impacted by her visual defects to a mild
degree.
Assessment of attention and concentration
revealed that these abilities are mildly-to-moderately
impaired relative to age-matched controls. She demonstrated an abnormally high number of omission errors
on the Conner’s Continuous Performance Test–2nd
Edition (CPT-II) as well as significant variability of
reaction time.
Formal assessment of learning and memory
revealed that this subject’s ability to acquire new
verbal material on the WMS-III is within the Average
Range relative to age-matched peers. Her Auditory
Immediate Index score was in the average range as
was her Auditory Delayed Index. She obtained index
scores of 97 and 108 on these two indices, respectively.
Recognition memory for auditory material was actually in the High Average range, the 75th percentile
(Index Score = 110). In contrast she did much more
poorly on visual measures secondary to very significant visual defects.
On the California Verbal Learning Test (CVLT),
the subject generally performed within normal limits.

App.328a
Although initial learning trials were two standard
deviations below expected limits, her ultimate
acquisition at Trial 5 was one standard deviation
above normative data sets. Short Delay Free Recall
was perfectly normal and long delay recall was only
one standard deviation below expected levels. This
loss of recalled items from short delay to long delay
free recall represented a loss that is approximately 1
standard deviation more than expected. Thus, she appeared to have mild difficulties with initial
acquisition of very complex verbal material and also
appeared to have minimal-to-mild difficulty retaining
it in memory relative to age-matched peers.
Higher-level executive functions appear to be entirely normal in this patient. The Wisconsin Card
Sorting Test (WCST) yielded a T-score of 63, while she
obtained a T-score of 42 on the Category Test. Thus,
she is still within the parameters seen in a normative
data set of age and education-matched peers.
This subject’s performance on the Thurstone
Word Fluency Test was also entirely normal with a Tscore of 51. Likewise, on the Controlled Oral Word
Association Test, she obtained an overall score placing
her at the 78th percentile. She produced 26 items on
the Animal Naming Test over a 60-second period. This
is within normal limits.
On the Beck Depression Inventory–2nd Edition,
she obtained an overall score of 6, arguing against
significant depressive symptoms.
In summary, Patient A appears to have mild-tomoderate difficulty with attention and concentration,
and minimal-to-mild difficulty with the acquisition

App.329a
and storage of very complex new verbal material. General learning, however, as measured on the Wechsler
Memory Scale–3rd Edition (WMS-III) appears to be
within normal limits. Higher-level executive functions
and verbal fluency abilities are well within normal
limits.
Patient B

Medical History: This 50-year-old white male
carries the diagnosis of the nail-patella syndrome,
also known as hereditary osteoonychodysplasia, a
rare genetic disorder producing hypoplastic nails and
kneecaps and renal insufficiency. Information was
obtained from the patient, a published affidavit
(Randall 1991b), and submitted medical records.
He first smoked cannabis in 1970, but did not
become “high.” Rather, he felt more relaxed, without
his customary muscle spasms and pain. He first actually used clinical cannabis in a different manner. At
the time he was mining, and he developed chemical
burns in his hands. A Mexican lady gave him a
tincture of cannabis flowering tops in grain alcohol to
apply. This reduced his hand swelling and burning.
He has been smoking cannabis regularly for medical purposes since about 1974. During a medical
crisis in 1985, he suffered a decrease in supply of
available cannabis. His recollection is that all the
various analgesics he received during this time were
ineffective and produced of dangerous side effects
including sedation and incapacity.
By 1988, he pursued regular usage of cannabis,
about 1/8 of an ounce (3 1/2-4 g/d) a day when available. He initiated inquiries with the FDA to obtain

App.330a
legal cannabis. Ultimately, with the assistance of
Robert Randall, he received approval from the government in March 1990.
He related a history of deformities from birth
including missing fingernails, loose finger joints, and
small patellae. He was frequently ill as a child, and at
age 10, suffered a progression from conjunctivitis to
varicella, strep throat and rheumatic fever. He was
hospitalized for 6 months, and required another 3
months of bed rest. Subsequently, he underwent four
right knee surgeries, reconstructions and rotations,
including 3 arthroscopies. He had had a right wrist
graft with non-fusion. He had had right elbow surgery
and had a “nicked” ulnar nerve. In the late 1960’s he
developed both hepatitis A and B with prolonged hospitalizations. Despite this, he pursued heavy manual
labor in mining, construction, auto bodywork and
aircraft repair. He lost all his teeth by age 21. In 1972
he dislocated his knee and had 3 subsequent
surgeries. In 1976 he had a wrist fracture with subsequent surgery and later fusion. In 1978 he was hospitalized after a nail wound in his foot failed to heal.
In 1983, he injured his back in a fall. Pain continued.
After a 1985 chiropractic session, he became
acutely ill with severe back pain. He was given
narcotics, and suffered renal failure. He was transferred to a university center. Lithotripsy sessions
were followed by transurethral procedures in attempts
to clear his nephrolithiasis. Eventually an open procedure was performed for perinephric abscess, but the
flank wound failed to heal over the course of a year.
Ultimately, it was determined that he was suffering a
tubercular nephritis. He took triple therapy with
isoniazid (INH), rifampin and pyridoxine regularly for

App.331a
18 months. Eventually, a massive debridement was
necessary, before the flank wound eventually healed.
His prolonged convalescence forced him to close his
business.
On September 3, 1987, he complained of persistent flank pain and low back discomfort increasing
over the preceding 2 years treated with multiple
modalities, including TENS unit. He also was using
an abdominal binder. Pain radiated to the buttocks and
posterior thighs. X-rays of the lumbar spine showed
spondylolisthesis grade 1 in the lumbar area with no
significant motion of flexion extension views.
On April 8, 1988, the patient was seen for right
knee pain after a twisting injury and fall. An effusion
developed. X-rays showed a micropatella consistent
with nail-patella syndrome, but no evidence of fracture.
He was treated conservatively. In October, 1988, chest
x-ray showed a diffuse nodular infiltrate unchanged
since September 1985.
By June 7, 1989, the patient was in a wheelchair,
but was able to ambulate with a cane. Previous x-rays
showed bilateral iliac spurs. His chart notes included
an FDA consent form in relation to the patient’s use
of cannabis (Figure 2). On subsequent visits, he had
been approved for the Compassionate IND program,
and was smoking 10 cannabis cigarettes a day.
On April 1, 1991, some cough was noted attributed
to cigarettes. As a baseline, very severe pain was
noted in the extremities, but this was reduced to slight
to moderate on subsequent visits. By April 17, 1991,
the patient was on no medicines except for cannabis.
By January 18, 1993, he was said to have only slight

App.332a
to moderate problems with a cane for support. There
were some abdominal spasms.
On the May 14, 1996 visit, he was smoking 10
cannabis cigarettes a day. He used occasional aspirin
for increased pain. He had resumed smoking 1/2 to 1
pack of cigarettes a day. Examination was fairly unremarkable save for orthopedic deformities. He was able
to walk on his toes and heels. The patient was given 2
more packages of 300 marijuana cigarettes.
On July 16, 1996, the patient was seen for disability examination. It was noted the patient had
suffered for many years from lack of strength, mobility
and range of motion, and persistent episodes of
nausea and muscle spasms. The note indicated, “the
marijuana helps the patient function better in the
sense that he has increased flexibility, increased
strength and range of motion. He has less nausea and
less muscle spasm.” He needed to shift into different
positions at home to get comfortable and could do a sit
down type job for an hour or two at most before experiencing spasms, pain and nausea. He had limited
backward flexion, and limited right hand strength. He
was unable to kneel. He could walk 50 feet before
needing to rest, used a cane and sometimes a
wheelchair for longer distances. It was felt he could
not be a traveling salesman, and any prospective job
would require frequent rests. Overall, he was assessed
as having a significant functional impairment due to
nail-patella syndrome, and was judged unemployable
in the short or long term, with little rehabilitation
potential.
A May 9, 1997 letter indicates, “continues to smoke
about 8-10 marijuana cigarettes per day and still continues to benefit from that medication. He has less

App.333a
pain, less spasms, he is able to ambulate better. His
nausea is improved, he is able to sleep better. He is
making some slow deterioration of this disease
process.” It goes on to say, “I personally do feel that
[Patient B] continues to benefit from marijuana and
hope that we can continue providing this unfortunate
man with marijuana medication.”
On May 10, 2000, a letter to FDA noted the patient
continued to do well on the therapy, smoking 8-10
cigarettes per day without other medication. He continued to function well using a cane and occasionally
a wheelchair when bothered by spasms and nausea.
At present, he utilizes about 7 grams a day or 1/4
ounce of NIDA material that is 3.75% THC, and was
processed in April 1999. The patient cleans the cannabis to a minimal degree first, estimating a loss of
about 25% of material. He indicates that he has been
short on his supply 3 times in 10 years, generally for
1-2 weeks, secondary to lack of supply or paperwork
problems. When this occurs he suffers more nausea
and muscle spasms and is less active as a consequence. He was never allowed to try Marinol . . . ,
and points out that he could not afford it in any event.
The patient reports continued problems with
pain in the back, hips and legs, also in the upper extremities, right greater than left. When he undergoes
spasms the pain rises to a 10 on a 10-point scale and
is associated with projectile emesis. His baseline level
of pain is 6-7/10. He notes that this pain was never
helped by prescription medicines. Morphine sulfate
produced a minimal decrement in pain for up to two
hours, but caused inebriation. By the third day of
application it would become totally ineffective. Without cannabis he feels that he would need very high

App.334a
doses of narcotics. He previously had dependency
issues and took heroin for 2 years in the mid-1960’s.
Eventually he had become allergic to most pharmaceutical preparations, or had side effects of nausea.
The latter continues, particularly in static positions,
which without cannabis treatment he rates as a 10/10.
In 1985, he was without cannabis for some 30 days
and lost 57 pounds when his supply ran out at the
same time that he had TB nephritis.
In relation to the spasms, these can occur anywhere in his body. He feels the medicine eliminates
them or substantially reduces nocturnal manifestations.
Without it he would be “running” at night.
He has no history of diabetes, thyroid problems,
meningitis, encephalitis, or head trauma. He may
have had seizures associated with fever. The patient
has taken rare antibiotics for staph infections of the
skin. He feels that he has had lots of reactions to
synthetic chemicals of various types, which he considers quite serious. The patient left school at age 14
originally, but attained a GED and had some junior
college experience. He is left-handed.
Family history is noteworthy for nail-patella
syndrome in mother, niece, two sisters, nephew and
daughter. One sister died of the disease at age 44. He
has two unaffected children. His affected daughter
does not receive legal cannabis. His father died of TB
and tumors at age 40.

Social History: He currently smoked cigarettes

about 1/2 pack a day, but as high as a pack a day in
the past. The patient drinks beer about 1 a month,
with little alcohol use in 10 years. The patient last
worked full-time in 1985, and part-time in 1990. He is

App.335a
on SSDI, but does volunteer and activist work. The
patient is able to walk very little due to pain, but bikes
when he can a short distance (about 4 miles every
other day). The patient sleeps from 10 p.m. to 6 a.m.,
but this is disrupted due to pain or nausea.

Medical Test Results: Weight: 173 lbs. Height: 69
inches (BMI: 25.6). OFC: 60 cm. BP: 122/80. General:
Very pleasant, cooperative 50 YOM who appears
somewhat wizened. Head: normocephalic without
bruits. ENT was noteworthy for edentulous state.
Neck: supple. Carotids: full, without bruit. Cor: S1, S2
without murmur. The patient has a large indentation
scar in the right flank. Palpation to the spine was unremarkable. Chest auscultation revealed a prolonged expiratory phase without wheezing. Abdominal examination was unremarkable. He had dysplastic nails.
Mental Status: The patient was alert and fully
oriented. Fund of knowledge, right-left orientation,
praxis and naming skills were normal. He read a
grade 6 paragraph well with good recall. Serial 3’s
were well done. Signature was normal. He remembered 2 of 3 objects after 5 minutes with hesitation,
failed the third with hint, but got it with choice of 3.
He had a hoarse voice. He named 11 animals in 30
seconds (normal). Affect was normal. Cranial Nerves:
I: intact. II: acuity was measured as 20/25 OD, 20/50
OS uncorrected. Fields and OKNs were normal. Fundi
were benign. Pupils equally reactive with full EOMs
and no nystagmus. Remaining cranial nerves V and
VII-XII were unremarkable. On motor examination,
the patient had hypotonicity, but decreased bulk. The
patient lacked full elbow extension on the right. His
strength was generally 4+ secondary to limitations
and pain. There was no arm drift. Sensation was intact

App.336a
to fine touch, vibration, position and graphesthesia,
but there was some slight vibratory loss in the feet.
Romberg was negative. The patient performed fingerto-nose well. Heel-to-shin required partial assist of the
hands. Rapid alternating movements of the hands
were very slow on the right secondary to mechanical
problems. Fine finger movements were normal. The
patient had a stiff, bent gait, but toe gait appeared
more normal. On heel gait he favored the left leg.
Tandem gait was difficult due to back pain and he
wavered some. I was unable to ascertain reflexes at
the biceps on the right, but responses elsewhere were
1-2+ with downgoing toes.
The patient underwent the prescribed battery of
tests. Pulmonary function tests revealed an FVC of
107% of predicted, FEV1 of 95% of predicted, and
FEV1/FVC of 0.75. This was interpreted as within
normal limits, but with a slightly prolonged forced expiratory time (Table 3). A complete blood count
showed some mild polycythemia, probably due to
tobacco smoking. An absolute lymphocyte count was
3.4 with CD4 count 68.7% and absolute count of 2324
(Table 4). The patient had a full endocrine battery.
Measurement of FSH, LH, prolactin, estradiol, estrone,
estrogen, testosterone and progesterone were wholly
within normal limits for age and gender (Table 5). An
EEG was performed during wakefulness and was
within normal limits, but did demonstrate some low
voltage fast activity in the beta range, with no focal or
epileptiform activity. The patient had a P300 response
with a latency of 338 milliseconds, within normal
limits for the laboratory (Figure 1). An MRI of the
brain without contrast was read as normal. A PA and
lateral chest was read as normal.

App.337a
Patient B was friendly and cooperative and
appeared to put forth very good effort on neuropsychological testing. On the WAIS-III, he obtained
Verbal and Performance IQ Scores in the Average
Range (VIQ = 105 and PIQ = 92). In terms of overall
intellectual functioning, he obtained an overall score
placing him at the 50th percentile (Full Scale IQ = 100).
Assessment of attention and concentration with the
CPT-II revealed that these abilities tended toward
mildly-to-moderately impaired relative to the normative data set. He made an abnormally high number
of omission errors and also demonstrated substantial
variability in his reaction time. He also became more
variable as time progressed over this 14-minute
measure.
On the WMS-III, he obtained Auditory Immediate and Auditory Delayed Index scores of 89 and 86,
placing him in the low average range. His Auditory
Recognition Delayed Index was in the average range
with an index score of 90. Visual Immediate and
Visual Delayed abilities were also in the low average
range with index scores of 88 on both. Overall, these
performances are within normal limits, albeit it in the
low average range.
On the CVLT, this patient’s initial acquisition of
items after the first trial was one standard deviation
below expected levels, and his recall after five learning
trials was two standard deviations below. Short Delay
Free Recall and Long Delay Free Recall were essentially at the same level. Thus, his acquisition of very
complex verbal material does appear at least mildly
impaired. Interestingly, he does not lose this information from memory after a delay.

App.338a
Assessment of higher level executive functions
yields an overall performance on the WCST at a
mildly impaired level relative to age and education
matched peers, with a T-score of 38. His overall performance on the Category Test was in the borderline
range with a T-score of 40. He also had difficulty
following new complex sequences with a T-score of 40
on the Trails A Subtest and a T-score of 32 (mildly-tomoderately impaired) on the Trails B component.
Simple motor testing reveals that Tapping Speed
was within normal limits, but he had difficulty with
fine motor coordination on the Groove Pegboard Test
with his dominant left hand. He obtained a T-score of
36 on this particular measure with his left hand, a Tscore of 42 with his right hand.
On the Thurstone Word Fluency Test, he obtained
a T-score of 54 and a T-score of 40.2 on the Controlled
Oral Word Association Test. Animal naming was
within normal limits with a total score of 22.
In summary, Patient B does appear to have a
mild-to-moderate impairment of attention and concentration, and his ability to acquire new, complex
detailed verbal material also appears to be mildly-tomoderately impaired. There is quite some variability
in this regard, however, with performances on the
Wechsler Memory Scale–3rd Edition (WMS-III) being
generally within normal limits, and his California
Verbal Learning Test (CVLT) performance falling
approximately 2 standard deviations below expected
levels. He had difficulty on motor tasks. His performances may have been adversely affected by peripheral
pain as he complained of such during the assessment
process. His overall score of 0 on the Beck Depression

App.339a
Inventory (BDI) argues against significant depressive
symptoms.
Patient C

Medical History: This 48-year-old male carries a

diagnosis of multiple congenital cartilaginous exostoses,
an autosomal dominant disorder. History was obtained
from the patient, a published affidavit (Randall 1991b),
and submitted progress notes dating from December
5, 1996.
He recalls few medical problems until age 10,
when he threw a baseball and his arm became paralyzed for a few hours. Radiographs revealed what was
interpreted as an old fracture that had healed with
jagged bone fragments. Multiple referrals ensued, and
ultimately 250 bony tumors were found throughout
his body. He was diagnosed as having multiple congenital cartilaginous exostoses. Each was capable of
growth, massive tissue disruption, pain, and
malignant transformation. By age 17, he underwent
multiple surgical procedures on the left leg, and right
wrist. By age 12, constant pain and frequent hemorrhages severely limited his gait along with other basic
functions. He required a home tutor by grade 7. By age
14, he required ongoing narcotics for analgesia,
escalating to Dilaudid . . . (hydromorphone), and
Sopor . . . (methaqualone, now Schedule I in USA) for
sleep. He reports resultant fatigue, ennui, and disorientation as side effects.
At age 20, he developed a large bone spur on the
right ankle, which recurred dramatically after one
surgery. Amputation was recommended, but refused.
At age 22, a fist-sized tumor was removed from the
pelvis. A medical odyssey ensued, which failed to

App.340a
identify better therapies and he required massive
doses of hydromorphone, methaqualone, and muscle
relaxants.
He described himself as a conservative young
man who was against drugs, but in college acquiesced
to try marijuana. He enjoyed chess, but was normally
able to sit for only 5-10 minutes without pain. One
day, he smoked cannabis and an hour into a chess
match he remained pain-free. After discussion with
his doctor, he experimented by smoking it regularly
for 6 months. He noted a marked enhancement of his
analgesia, and a reduction on his dependence on
hydromorphone (taken intravenously for some time),
Demerol . . . (meperidine), and hypnotics. Cannabis
analgesia exceeded that of any prescription drugs.
He began to investigate possible legal avenues to
obtain cannabis, and met Robert Randall in 1978. By
1979, he was spending $3000 annually on therapeutic
cannabis through the black market, an unsustainable
burden. A Byzantine bureaucratic process ensued over
several years, with final FDA approval of his IND
application in November 1982. Weekly monitoring
sessions including needle electromyography (EMG)
were deemed necessary to assess the effects of treatment in his protocol.
Subsequently, he described numerous instances
of delayed shipments of cannabis, or exhaustion of
supplies of higher potency product. Substitution of 1%
THC cannabis required a doubling of dosage to 20 cannabis joints a day.
He was once arrested in Florida despite documentation, handcuffed and jailed overnight, sustaining

App.341a
an ankle hemorrhage in the process. Only 4 of 7 confiscated joints were ultimately returned. Beyond this,
he describes cannabis as much safer than prescribed
medicine, and free of serious adverse effects except
chest pain with prolonged usage of inferior product.
In 1992, Patient C had occasion to try Marinol
. . . during a stockholders meeting in Canada due to his
legal proscription from traveling with cannabis. Although he had no side effects on a dose of 10 mg, it
was without any benefits, and left his muscles very
tight and painful.
Detailed progress notes from the last several
years were obtained and will be summarized. December
5, 1996, the patient was using 10-20 mg of baclofen
and 10-15 cannabis cigarettes a day. Assessment was
of multiple congenital cartilaginous exostoses with
hepatitis C, and GE reflux. He was prescribed diazepam 5 mg for spasm. An EKG was read as showing
normal sinus rhythm. February 28, 1996, the patient
had pulmonary functions with FVC 112% of predicted,
FEV1 of 79% of predicted, read as indicating mild
obstruction.
January 24, 1997, he had episodic spasm with
pain affecting both arms and legs. It was noted at the
time that the patient had a malunion of the right
radius. He was down to 2-3 cannabis cigarettes a day,
as he had received no supply from NIDA since September 1996, due to logistical problems in seeing his
study physician. A transfer of providers was recommended.
September 4, 1997, he remained on baclofen 10 mg
p.m., 5 mg a.m. and Prilosec . . . (omeprazole) for epigastric discomfort that had been going on for 7 years,

App.342a
and cannabis 12 cigarettes a day. September 9, 1997,
the patient had a chest x-ray with no findings. September 9, 1997, the patient had laboratory tests done,
including a CBC, non-reactive hepatitis A and B tests,
and normal thyroid functions. Glucose was low at 24,
potassium high at 5.4, SGOT 79 with other parameters negative. September 17, 1997, the patient was
said to be doing well smoking 10-12 cannabis
cigarettes a day with dramatic decreases in frequency
and intensity of flexor spasms. He was also taking
baclofen. It was noted that with strong spasms the
patient would bruise his skin and sometimes even
bleed. His weight was constant, appetite normal. Neurological exam was fairly unremarkable. He was asked
to slowly decrease the baclofen to 2.5 mg bid.
May 13, 1998, the patient was said to be doing
quite well. In the interim, a liver biopsy demonstrated
minimal changes secondary to hepatitis C. Chest xrays were said to show no changes. The prior December the patient had twisted his left knee with a lot of
swelling, and an MRI revealed a minor crack in the
tibial head. Pain was under good control with 12 cannabis cigarettes a day with only occasional muscle
spasms. Exam was unremarkable. He was said to be
doing quite well off of the baclofen and was asked to
continue 12 cigarettes of cannabis a day. May 26, 1999,
the patient related no difficulty breathing. Weight
was constant. There was dull pain in the ankles and
some sharp shooting also in the knees. There was
minor weakness in the right hand with no other
deficits. The remainder of the exam was normal. The
patient was felt to be doing well and advised to continue 12 cannabis cigarettes a day. October 6, 1999,
the patient was seen in follow up, was on omeprazole,

App.343a
Vitamin C, and cannabis. The patient had some congestion and mildly productive cough. He was felt to
have acute bronchitis and was given cough syrup. January 5, 2000, the patient had pulmonary functions
done with an FVC 118% of predicted, FEV1 82% of predicted. This was felt to indicate borderline obstruction.
January 13, 2000, glucose was 126, BUN 26, SGOT 71
with other parameters normal, including CBC.
Hepatitis C antibody was reactive with other titers
negative. Thyroid functions were normal. An SGPT
was 181.
May 4, 2000, the patient was occasionally playing
softball and had no complaints of shortness of breath.
Again there was mild weakness of the hand with other
muscles normal. It was felt that the patient was doing
well without aches, pains or spasms on his cannabis.
November 21, 2000, the patient had noticed some
increased discomfort following a motor vehicle
accident the prior month wherein he was rear-ended
and had neck pain. Subsequently, he noted persistent
pain in the right thigh. An x-ray was negative. He
tried physical therapy, heat and electrical stimulation.
He noted more muscle tension with weather change.
No neurological changes were observed.
December 28, 2000, the patient was on his omeprazole and cannabis. January 6, 2001, SGOT was 50,
SGPT 94 with normal CBC and PSA. A cholesterol total
was 221 with LDL 136.
At the time he was examined in Missoula, he
noted constant baseline pain of 9-10 on a 10-point
scale without cannabis. At rest, with cannabis this fell
to a 4/10. He was smoking 9 grams a day of 2.7% THC
NIDA cannabis, or 11 ounces every 25 days. At times

App.344a
he has had to cut back due to an inadequate supply.
He would sometimes have to use street cannabis at a
cost $110 per quarter ounce (circa $16/g) of an
estimated 4-5% THC content. Interestingly, although
he found the flavor was an improvement over the government supply, he noted little difference in analgesic
effect except, but perhaps greater relaxation effect.
Interestingly, even with extensive cannabis use there
are only two times he thinks that he ever may have
been “high.” One time he left his coat somewhere in
freezing
weather,
which
is
extremely
uncharacteristic, and the other he had been without
cannabis for a long time and briefly felt euphoric while
smoking. However, once he advanced to a second joint,
this feeling was gone.
The patient has the most problems with the left
arm where pain is a 7-8/10 when there are flare-ups
despite medicine. This decreases after he takes
rofecoxib (Vioxx . . . ) for a week. He experiences pain
in both knees, but usually minimal (1-2/10) with his
cannabis. He may periodically pull a muscle or
hemorrhage, especially in the ribs. He has occasional
problems in the wrist.
The patient’s sleep remains disrupted rarely
attaining 6 hours total. Typically, he is up every 45 to
60 minutes with stiffness and needs to have pillows to
position himself. He once got 8 hours of sleep with
methaqualone (now illegal in USA), waking only twice.
He feels that his hepatitis C is asymptomatic and
was probably due to a transfusion in his teens. Although he did use hydromorphone intravenously for a
long period of time, he feels that he pursued a
scrupulous aseptic technique. Besides surgeries noted
above, he has dental caps due to bruxism, and

App.345a
tonsillectomy. He has had past hypertension, which
he feels was work related. There is no history of
diabetes, thyroid problems, meningitis, encephalitis,
head trauma or seizures. He uses only omeprazole 30
mg a day regularly in addition to his cannabis. He is
allergic to barbiturates. The patient had 3 semesters
of college. He is primarily right-handed, somewhat
ambidextrous.
Family history is negative for other known
involvement, but his father was adopted. His mother
has migraine.

Social History: The patient works full time as a
stockbroker. He is also a very decorated disabled
sailor. He plays softball once a week. He may use a
stationary bike about 10 minutes at a time, but this is
subject to weather effects. He does not smoke tobacco.
The patient drinks about 1.75 liters of Jack Daniels
whiskey every 10-14 days, which helps him sleep. He
does not drink coffee.
Medical Test Results: Weight: 153 lbs. Height: 5’
4 1/2”. General: Very pleasant, cooperative 48-yearold white male who is somewhat obese (BMI: 25.5).
Head: normocephalic without bruits. ENT: unremarkable. Neck: supple. Carotids: full, without bruits.
Cor: S1, S2 without murmur. The patient had very
slight gynecomastia. He has prominent exostoses of
the left shoulder, left wrist, right shoulder, and right
calf. Auscultation of the chest revealed a prolonged expiratory phase without wheezing. Abdominal palpation was negative.

Mental Status: The patient was alert and fully

oriented. He knew the president and had normal rightleft orientation, praxis and naming skills. He read a

App.346a
grade 6 paragraph well with good recall. Serial 3’s
were done very rapidly. He remembered 3 objects for
5 minutes. He named 15 animals in 30 seconds, which
is well above the average of 10-12. Speech and affect
were normal.

Cranial Nerves: I: intact. II: fields and OKNs
were normal. Fundi were benign. Pupils were equally
reactive with full EOMs and no nystagmus. Remaining
cranial nerves V and VII-XII were unremarkable. On
motor exam, the patient had some limitation due to
pain, but seemed to have good strength throughout except for 4+/5 foot dorsiflexion on the right. There was
no drift. Sensation was intact to fine touch, vibration,
position and graphesthesia, but there was decrease in
sharp/dull discrimination at the top of the right foot
secondary to post-operative changes. Romberg was
negative. Finger-to-nose and rapid alternating movements of the hands were normal. Heel-to-shin was
incomplete on the right, better on the left. Fine finger
movements were minimally decreased. On gait testing
the patient slightly favored the right leg at the ankle.
Toe gait looked better. Heel gait was barely possible
due to pain on the right side. Tandem gait was
minimally hesitant. Reflexes were 1+, symmetric with
downgoing toes.
Medical Test Results: On pulmonary function

tests, an FVC was 108% of predicted and FEV1 67% of
predicted. A FEV1/FVC was 0.51 felt to be indicative of
a moderate obstructive defect based on the latter ratio
and flow volume curve morphology. No restrictive
abnormality was noted (Table 3).
A CBC was wholly within normal limits. An absolute lymphocyte count was 1.8 with CD4 49.1% and
CD4 absolute count of 911 (Table 4). An endocrine

App.347a
battery, including FSH, LH, prolactin, estradiol,
estrone, estrogen, testosterone and progesterone, was
wholly within normal limits for age and gender (Table
5).
An EEG was performed during wakefulness and
early stages of sleep, which was within broad normal
limits. There was a good bit of low voltage fast activity
in the beta range. No focal nor epileptiform activity
was appreciated. A P300 showed a latency of 262
milliseconds felt to be within normal limits for the lab
(Figure 1).
An MRI was performed without contrast. There
was felt to be no definite abnormality of an acute
nature. There were some minor changes in the right
parietal area suggestive of a mild degree of gliosis
with associated dilated perivascular spaces of doubtful
significance. There was a small area of abnormal
signal in the right parotid gland overlying the right
masseter muscle felt to be probably benign.
A P-A and lateral chest x-ray were performed.
This was read as showing a pulmonary nodule in the
left upper lobe with minimal airway changes. One examiner (EBR) reviewed those films and felt that the
lesion was actually located in a rib. As a result, the
patient underwent a CT scan of the chest after
returning home. This showed no evidence of mass,
lymphadenopathy, or pulmonary nodules. A small
amount of pleural calcification was noted. An exostosis was noted in the right anterior 3rd rib,
accounting for the false-positive chest x-ray.
On neuropsychological testing, Patient C was
pleasant, cooperative, and appeared to put forth very

App.348a
good effort. His attention was noted to be quite poor
at times and many instructions had to be repeated.
On the WAIS-III, he obtained Verbal and Performance IQ Scores in the Average Range with a
Verbal IQ of 103 and a Performance IQ of 104. In
terms of overall intellectual functioning, he is currently
performing at a level equal to or above 58 percent of
the general population (Full Scale IQ = 103).
Assessment of attention and concentration with
the CPT-II revealed that immediate attentional abilities
were within normal limits. His ability to concentrate,
however, did appear mildly impaired, as he tended to
lose efficiency with the passage of time. Thus, vigilance
appeared to be mildly decreased relative to a normative
data set.
On the WMS-III, Patient C obtained an Auditory
Immediate Index in the Average Range at the 70th
percentile. His Auditory Immediate Index was 108.
Auditory Delayed Index was also 108, placing him in
the Average Range, and his Auditory Recognition
Delayed Index was 115, placing him in the High
Average Range. The Visual Immediate Index was 115
with a Visual Delayed Index of 122, performances in
the High Average and Superior Ranges, respectively.
On the CVLT, this patient’s initial acquisition on
Trial One was two standard deviations below expected
levels and his acquisition of only ten items by Trial 5
was one standard deviation below expected levels.
Short Delay Free Recall was also one standard
deviation below expected levels but he performed
within normal limits if provided cues. His ultimate
free recall after a 20-minute delay was also one standard deviation below expected levels. There was not a

App.349a
substantial loss of information between Long Delay
and Short Delay Free Recall trials. Thus, his ability to
acquire very complex and detailed new verbal material does appear minimally-to-mildly decreased
relative to age matched peers, well below his ability to
acquire new thematically organized verbal material,
which was in the above average range. Memory, however, appears normal.
Assessment of higher level executive functions
yielded a T-score of 45 on the WCST and a T-score of
44 on the Category Test from the Halstead-Reitan
Neuropsychological Battery. His ability to follow new
complex sequences was entirely within normal limits
as indicated by T-scores of 52 and 62 on Trail Making
Test A and B, respectively.
Simple motor speed measured by Finger Tapping
was within normal limits, bilaterally, as was fine
motor coordination measured by the Grooved Pegboard
Test.
His performance on the Thurstone Word Fluency
Test yielded a T-score of 56, which is entirely within
normal limits relative to age and education-matched
peers. Likewise, his overall performance on the Controlled Oral Word Association Test yielded a T-score of
52.52, and Animal Naming Fluency also was within
normal limits. His overall score on the Beck Depression
Inventory-2nd Edition (BDI-II) was 0.
Overall, Patient C appears to have mild difficulty
sustaining attention and also minimal-to-mild difficulty with the acquisition of very new, complex
verbal material. Overall, however, he appears to be
functioning quite well.

App.350a
Patient D

Medical History: This 45-year-old female carries

a diagnosis of multiple sclerosis (MS). The patient was
interviewed by telephone (EBR) in lieu of the
possibility of contemporaneous examination. The
patient feels her first problem may have occurred at
age 18 when her vision sequentially went completely
black for two months with slow improvement over a
subsequent four months. A possible attribution to oral
contraception was hypothesized. She was subsequently evaluated at a quaternary referral center and diagnosed as having retro-bulbar neuritis. She was prescribed nicotinic acid. On re-evaluation in 1983, no
active disease was noted. On May 29, 1986, best corrected vision was 20/30 OD, 20/25 OS. By May 19,
1988, values fell to 20/200 OD, and 20/70 OS. The
patient was formally diagnosed as having MS April 1
of that year with associated bilateral optic
neuropathy. She had had symptoms for perhaps 6
months with blurring in both eyes and leg spasms that
interfered with walking. The patient had never used
cannabis recreationally, and began it only because of her
symptoms.
She has been followed in her local area by a
psychiatrist and neurologist. Extensive, well-documented notes commencing December 20, 1989 were
provided, and will be summarized. When first seen on
that date the patient was married for the second time.
It was noted that she had been diagnosed with MS
about a year and a half previously and had been on
diazepam from time-to-time. She was taking 10 mg tid
to cope with stress. She had previously tried
trazodone and buspirone, had become paralyzed with
her MS, and was consequently very frightened of

App.351a
these medicines. On examination she was felt to be
quite anxious and was provisionally diagnosed as
having a dysthymic disorder.
On March 20, 1990, she seemed to be suffering
from more depression, although she managed to smile.
She described difficulty with self-esteem and
hopelessness. She had only been taking diazepam
intermittently and was rather prescribed Prozac . . .
(fluoxetine) 20 mg and Xanax . . . (alprazolam) 0.25
mg up to 3 times a day. She was felt to have recurrent
major depression. On subsequent visits the patient
had slight adjustments of medicine and was feeling
better by May 2, 1990. By August 6, 1990, the patient
was having greater difficulties with insomnia. She was
given trazodone 50 mg at bedtime on a trial basis.
August 24, 1990, the patient was only sleeping until 4
a.m., which was about 2 hours better than without
medicine. This was increased to 75 mg.
The patient had heard about some studies of
using cannabis in MS as a relaxing agent. She
indicated that she had tried this with a good relaxation response. There was a discussion of possible
effects on the lungs, and her expected diminished life
expectancy because of MS. She was given a prescription for Marinol . . . (dronabinol, synthetic THC)
10 mg to be tried q 4 hours prn to see if this would
help with relaxation and nausea. When seen September 5, 1990, she had found that the Marinol . . . had
reduced the nausea considerably and had even helped
her vision. She continued on fluoxetine.
September 27, 1990, the patient was not sleeping
well, possibly due to fluoxetine, and was given a
benzodiazepine. October 17, 1990, the patient was
seen in follow up and was on Xanax . . . (alprazolam).

App.352a
It was noted that she had improvement with Marinol
. . . , but the patient noted she actually had a better
response to smoked cannabis. They began to look into
obtaining a legal supply.
December 3, 1990, the patient reported increased
depression and was increased to 40 mg a day of
fluoxetine. December 5, 1990, the patient had recurrent
depression even on the fluoxetine 2 a day and low dose
alprazolam. Apparently, her doctor had received
notification that he could no longer prescribe
Marinol . . . “off label” unless a Schedule I permit for
cannabis was being pursued. December 19, 1990, the
patient reported nausea, for which some of her
remaining Marinol . . . had helped. January 16, 1991,
the patient complained of spasticity spells and episodes of nausea. She had run out of Marinol . . . and
had no cannabis supply. She indicated she had tried
other medications without success and was resistant
to try others due to side effects.
February 20, 1991, the patient had purchased
illicit cannabis in the interim. April 16, 1991, the
patient continued on fluoxetine 20 mg bid. More
jerkiness was noted with increased spasticity. She had
not smoked cannabis before coming in. It was felt that
she would need 6 cannabis cigarettes a day to reduce
symptoms. May 10, 1991, she was taking alprazolam
about every 2 weeks. She was continuing to have some
spasms. She continued to try cannabis illicitly, but
had not yet obtained it legally. June 14, 1991, she had
lost her driver’s license due to visual problems associated with MS. During this interval there were more
marital issues. July 2, 1991, it was indicated the
patient was legally blind and there were no possible
corrective measures. Plans were in place to obtain

App.353a
legal cannabis for spasticity and nervous problems. It
was noted that cannabis seemed to be very effective for
her clinically. August 7, 1991, the patient was still
without a supply and complained of her legs jerking at
night, and increased difficulty walking. The patient
requested Marinol . . . , but this could not be prescribed. She was given baclofen 5 mg tid to try.
August 30, 1991, she received her first shipment
of NIDA cannabis, seven months after approval of the
Compassionate IND. The patient was advised that she
should confine her use to government cannabis. She
was having problems with her gait, able to walk only
with a cane. There were continued vision problems.
She complained of left sided weakness. The patient
smoked a cannabis cigarette in front of the doctor,
which led to her feeling better. It was suggested she
try 3 cannabis cigarettes a day. September 3, 1991, the
patient reported that the government supply of cannabis did not have the “punch” that street bought
material had. Her dose was increased to 5 joints a day.
It was indicated that her spasticity responded
positively to the dose increase. September 11, 1991,
the patient was on 5 NIDA cigarettes a day. This was
helping her spasticity. She was unclear as to whether
her vision was helped. September 20, 1991, it was felt
that 7 cigarettes a day would be necessary. The
patient reported increased muscular activity,
uncontrollable at times. October 2, 1991, the patient
had run out and was noticeably more spastic on examination. Her dose was increased to 10 a day. October
9, 1991, the patient was on 10 cannabis cigarettes a
day of the strongest available dosage, which seemed to
help her spasticity. She was walking without a cane.
It was not felt that her depression was improved.

App.354a
November 4, 1991, she had been out of her supply for
10 days. Spasticity increased and she complained of
pain in the left leg. Increased tone was noted throughout the body. December 5, 1991, apparently a supply
came in of lower potency cannabis. December 19,
1991, it was felt she had continued improvement of
her spasticity with better gait. February 14, 1992, she
was using 1 can of cannabis a month, equal to 300
cigarettes. The patient reported she had not been
falling. March 13, 1992, she continued the cannabis at
the same rate, plus 40 mg of fluoxetine and no
alprazolam. The patient reported she was able to
walk, swim better, and do all of her ADL’s much easier
than she could prior to the cannabis. There was no
observable gait disturbance on exam.
April 14, 1992, it was felt that she got a lot of relief
from her medicine and that it “probably offers her
greater efficacy in her spasticity, also, than Valium
would.” May 19, 1992, the patient continued to be
stable with no exacerbations of her MS and the
spasticity under good control. There were concerns
about periodontal disease from her dentist. It was
thought she might do better with less smoking of a
higher potency supply. The patient was also smoking
cigarettes and was subsequently advised to avoid
tobacco. By July 17, 1992 she continued to respond to
cannabis. September 18, 1992, reflexes were equal
and not hyperactive. November 16, 1992, there was an
increase of depression slowly and insidiously. December 9, 1992, the patient had been off of her treatment
for a week and was very shaky. Smoking a joint in
front of her doctor caused her to become calm, less
shaky and better able to walk. January 19, 1993, she
got her first cans of the stronger cannabis, which the

App.355a
patient felt more effective after smoking one joint.
March 22, 1993, she was smoking 6-7 a day. She
seemed better after smoking one in the office. April
22, 1993, the patient was smoking 10 cigarettes a day.
Smoking produced a decrease in spasticity as
observed. There were no adverse effects that were
noted in the office. May 24, 1993, the patient was tried
on lorazepam. June 24, 1993, the patient was upset
with financial issues and was placed on Mellaril . . .
(thioridazine). July 22, 1993, when she was examined,
no tremor or spasticity was noted. Again cannabis was
smoked with no adverse effects noted. August 30,
1993, the patient requested a decrease in her
fluoxetine. She felt that spasticity and depression were
both helped by the cannabis. September 29, 1993, the
patient reported that on a lower fluoxetine dose she
was getting tearful. Reflexes were not hyperactive.
November 2, 1993, the patient had some paresthesias
on the left side, but was maintaining good motor control. December 28, 1993, she was tried on bupropion.
January 4, 1994, problems had been noted on
bupropion and it was not as effective. She was tried
on sertraline. She reported that the cannabis helped
her to not think about her MS. She was having fewer
spasticity problems.
February 4, 1994, when the patient smoked cannabis in the office, she seemed to be a little more
talkative and relax significantly with less spasticity
and no adverse effects. February 28, 1994, again
significant relief from spasticity was noted upon
smoking. March 30, 1994, the patient had some
numbness and tingling in the limbs. The patient
reported the new material was stronger and had a
better effect. May 9, 1994, some increase in emotional

App.356a
lability was noted. The patient was taken off of
sertraline and put on Effexor . . . (venlafaxine). May
25, 1994, she was unable to tolerate the latter and was
started back on fluoxetine. August 29, 1994, she continued on fluoxetine and cannabis. Smoking a joint
calmed her and limited tremor. September 28, 1994,
it was indicated in relation to cannabis “it seems to
have a positive effect on her mental status overall.”
October 31, 1994, the patient was felt to be without
signs of depression. She actually lowered her dose on
a higher potency material. February 1, 1995, the
patient was on diazepam again. February 14, 1995,
she was increasingly shaky and tearful. March 29,
1995, she was hardly able to walk due to an exacerbation. May 2, 1995, she still needed support. At
the same time the patient was having marital difficulties. August 4, 1995, the patient reported she could
see much better with the cannabis. By September 6,
1995, she was walking quite well and was no longer
on diazepam, merely the fluoxetine and cannabis. October 4, 1995, she continued to walk well with no
problems.
January 17, 1996, an MRI revealed multiple
bilateral periventricular and diffuse white matter
changes in the cerebrum and cerebellum, but seemingly
fewer than on a April 4, 1995 study.
April 19, 1996, the patient had been out of cannabis for a week and was experiencing more spasticity
and ambulation difficulties. She was more depressed.
May 17, 1996, the patient had been tried on a stimulant. July 10, 1996, the patient reported that cannabis
was the only thing that had helped her with her
symptoms over the course of her illness.

App.357a
By September 25, 1996, the patient had been
without medicine for a month and had to buy it on the
street. She had lost weight and her condition had
reportedly decompensated to some degree. The patient
reported a 10-pound weight loss. November 13, 1996,
the patient was having difficulty sleeping, but did not
wish to take trazodone. November 27, 1996, the
patient had fallen and had a brief loss of consciousness.
December 5, 1996, she had had an episode of spasticity
that was the worse she had ever had, starting in the
neck and going down her back. January 8, 1997, cannabis came in after a summer drought since September 25. An emergency supply was requested. January
22, 1997, the patient remained concerned about lack
of cannabis supply. February 5, 1997, she continued
with this concern. February 19, 1997, there was discussion of difficulty the patient had experienced with
the authorities in an airport.
April 2, 1997, it was felt the patient continued to
get a great deal of relief from smoking 10 joints a day
without any adverse effects. July 2, 1997, the patient
was observed to become more loquacious and interactive after dosing.
January 29, 1998, the patient was not complaining
of spasticity, seeming to have considerable relief with
cannabis. Her fluoxetine was lowered to 20 mg a day.
March 24, 1998, it was felt that she had a very slow
progression of her MS helped by her consumption of
cannabis. September 22, 1998, the patient said that
the medicine took away her fear of the disease and
when she would get a pain she would be able to smoke
and take it away.
October 27, 1998, she apparently had been out of
her supply for 6 weeks, but had gotten by smoking

App.358a
only 4 cigarettes a day instead of the usual 10. January 24, 1998, the patient was doing relatively well and
was walking with a cane. December 22, 1998, she was
having increasing problems. January 26, 1999, the
patient indicated that medicine helped her maintain
her weight. March 24, 1999, it was observed, “I think
her spasticity is being helped with the cannabis.” April
23, 1999, she continued to get good relief with 10
cigarettes a day. June 24, 1999, the patient reported
some increasing difficulty with walking in the heat
and hot weather. July 20, 1999, she was said to have
no tremor or spasticity. September 1, 1999, she was
having some exacerbation and difficulty walking and
limping because her right leg was not working as well.
October 20, 1999, the patient reported the only bad side
effect would be when she smoked too much she would
tend to go to sleep. She discussed alternative treatments for multiple sclerosis with her doctor and they
agreed not to pursue them. November 19, 1999, the
patient was walking on a wide base felt to be the
result of a mild exacerbation. November 24, 1999
neurological examination confirmed greater ataxia.
Methylphenidate was prescribed.
December 1, 1999, an MRI of the brain was said
to reveal multiple focal white matter changes in
bilateral cerebral areas especially in the basal ganglia
and in the cerebellar peduncle, compatible with MS.
January 12, 2000, the patient was tried on
Ritalin . . . (methylphenidate). She was switched to
Remeron . . . (mirtazapine) from fluoxetine. February
22, 2000, the patient reported that her eyes were
improved. March 9, 2000, visual acuity was 20/200 OD
and 20/80 OS. April 6, 2000, it was felt that she had
no declines in function from cannabis use.

App.359a
June 27, 2000, her cannabis had been late coming
in and she had cut from 10 to 6 or 7 cigarettes a day,
feeling that that had hurt her physically and that she
was not walking as well. January 31, 2001, the patient
was a little bit down and labile, but by February 28,
2001, she was not depressed or hyper. April 11, 2001,
she was having some trouble walking due to a flare of
symptoms, which had been present for a month, but
she noted no changes in vision.
When the patient was interviewed by EBR (June
2001), she reported that her vision was currently clear
with cannabis. She was able to ambulate without aids,
but has to stop after a block or less due to weakness.
She swims a few days a week. She feels that there is no
nystagmus in her vision and no diplopia. She
characterizes her MS as mildly progressive.
The patient indicated that she received the cannabis legally in 1991 and continues to smoke 10
cigarettes a day. She currently receives material of
3.5% THC content that was processed April 1999. Her
study physician requests the highest potency material
available, which has recently varied between 2.9-3.7%
THC. When she uses outside cannabis of higher
potency, she feels that she gets twice the relaxation.
There is no chronic cough or other difficulties. The
patient feels that Marinol . . . at 10 mg was too strong.
She used it for 6 months before the cannabis.
Customarily she splits each of her supplied cigarettes
in two, and manicures it slightly. When she is not on
cannabis she has had no withdrawal symptoms, but
has had increase in movement problems.
The patient has had a tubal ligation. She continues to menstruate on a regular monthly basis. Her
main problems have been depression and some degree

App.360a
of anxiety. I asked about other diagnoses and she
replied that she had “10 personalities and they are all
feeling fine!” She denied history of diabetes, thyroid
problems, meningitis, encephalitis, head trauma or
seizures. The patient remains on fluoxetine 40 mg a
day. She is allergic to penicillin. The patient had 1
year of college. She is right handed.
Family history is noteworthy for father having
narcolepsy and a sister who is bipolar.

Social History: She had one child by choice. The
patient is a retired clothier, and is unable to work at
this time. She is currently smoking 1/2 pack of
cigarettes a day, previously 1 pack a day, and has
smoked since age 20. The patient does not drink at all,
has not for 5 years, nor has she ever had a problem
with alcohol. She does not drink coffee. She customarily sleeps 8 hours.
Medical Test Results: The patient is 5 feet tall and
97 pounds (BMI: 19). On pulmonary function tests, an
FVC was 79% of predicted, and FEV1 76% of predicted. The FEV1/FVC was 86 (Table 3). There was felt
to be no obstruction based on this ratio or analysis of
the F/V curve morphology. Early small airway disease
and borderline restrictive disease (e.g., due to MS)
were not excluded.
A CBC was wholly within normal limits. An absolute lymphocyte count was 2.3 with CD4 of 58% and
CD4 absolute count of 1325 (Table 4). An endocrine
battery was performed, with values of FSH, LH,
prolactin, estradiol, estrone, estrogen, testosterone
and progesterone, all within normal limits for age an
gender (pre-menopausal female) (Table 5).

App.361a
Neuropsychological tests were performed in her
home on June 17, 2001. Some confusion was noted
throughout the evaluation and significant fatigue over
the course of the day was also apparent. She did not
have significant difficulty with instructions, however,
and effort and cooperation were sufficient to obtain
what is believed to be valid data. As a result of significant visual deficits, many visually based tests were
omitted and interpretations from those requiring
significant visual input were provided in a very
cautious manner. For example, this patient required
a magnifying glass in order to accomplish the Picture
Completion and Trails subtests that very likely had a
significant negative impact on her overall performance.
On the WAIS-III, the patient obtained a Verbal IQ
of 93. A Performance IQ was not calculated secondary
to significant visual deficits that interfered with
assessment in this realm. On the WMS-III, the patient performed, on verbal measures, in the Low
Average Range. Immediate auditory memory was at
the 18th percentile, with an auditory delayed index in
the Average Range. Her ability to acquire nonthematically-organized verbal material was in the
mildly impaired range relative to age-matched peers,
but her retention was actually very good. Also, she did
very well on a test measuring her ability to acquire
verbal paired associates with a learning slope actually
in the above average range, and excellent retention.
Her ability to acquire more detailed and nonthematically-organized verbal information was
moderately-to-severely impaired relative to agematched peers. Overall performances on the CVLT

App.362a
ranged from two to five standard deviations below expected levels. Numerous intrusions during both free
and cued recall were noted at levels above and beyond
what is generally seen in the normative population.
She made eight false-positive errors on recognition
testing, which are also an abnormally high number of
errors.
Concentration was noted to be markedly impaired
in this patient, following the mildly-to-moderately
impaired range overall. Assessment of Executive
Functions reveals that abstract concept formation and
logical analysis abilities were significantly reduced,
falling in the moderately impaired range overall. The
patient was also noted to be quite perseverative,
having difficulty shifting cognitive strategies. In slight
contrast, flexibility of thought as measured by the
Similarities Subtest from the WAIS-III, was within
normal limits. Verbal Fluency was within normal
limits relative to age and education-matched peers.
In summary, this patient appears to have decrements in concentration, low average learning, and
memory efficiency for new thematic material and
verbal paired associates. Her ability to acquire more
detailed and non-thematically-organized verbal information is at least moderately impaired. Memory
functions, however, appear to be normal in the sense
that once she acquires information, she seems to hold
it quite effectively. Higher level executive functions
are reduced at a moderate level despite a very
remarkable psychiatric history. Responses to the BDIII were well within normal limits.
Patient D thus demonstrates numerous neurocognitive impairments. The general pattern is not particularly uncommon in the context of multiple

App.363a
sclerosis and significant psychiatric dysfunction. This
profile, when combined with the others from the data
set do not provide any consistent pattern that one
could reasonably ascribe to the therapeutic use of cannabis.
Review of Neuropsychological and Cognitive Data
The scientific study of the effects of chronic cannabis on cognition has remained problematical since
such concerns were first raised. Despite intensive
effort in this regard, little in the way of “hard findings”
or consistent results has emerged. A complete review
of alleged problems is beyond the scope of this article,
but a few citations are meritorious.
In the Jamaican studies (Rubin and Comitas
1975), 19 neuropsychological tests were administered
to chronic cannabis users and controls with no major
significant differences between groups. In fact, ganja
smokers scored the highest on Wechsler Adult Intelligence Scale (WAIS) Digit Span performance (p <
0.05). The authors concluded (p. 119), “in a wide variety
of human abilities, there is no evidence that long-term
use of cannabis is related to chronic impairment.”
In Greece (Kokkevi and Dornbush 1977), no differences were noted between hashish users and age and
socio-economically matched controls in total or Performance IQ (PIQ) scores on the WAIS. Controls performed better on three subtests: Comprehension (p <
0.01), Similarities (p < 0.005), and Digit Symbol Substitution (p < 0.05). Control Verbal IQ (VIQ) surpassed
that of users (p < 0.05). However, these results must
be viewed in light of the fact that normal population
studies in Greece revealed PIQ:VIQ differences of 7
points. Thus, the authors concluded (p. 46), “These

App.364a
observations do not provide evidence of deterioration
of mental abilities in the hashish users.”
In Costa Rica, an extensive battery of neuropsychological measures showed no pathological changes
(Carter 1980). It was observed (p. 188), “we failed to
uncover significant differences between user and nonuser groups–even in those subjects who had consumed
cannabis for over eighteen years.”
Subsequently follow-up studies were performed
on some of this cohort, and certain significant differences were claimed, including learning of word lists
and selective and divided attention tasks (Fletcher et
al. 1996). However, a detailed critical analysis of those
results in Marijuana Myths, Marijuana Facts
(Zimmer and Morgan 1997) seems to deflate any such
claim.
Lyketsos et al. (1999) studied effects of cannabis
on cognition in 1318 adults over a period of 12 years.
No differences were noted in the degree of decline
between heavy, light, and non-users of cannabis on
the Mini-Mental State Examination (MMSE). Critics
have indicated that the latter represents too crude a
tool to measure the issue properly.
In a series of studies in the 1990’s summarized in
a book, Cannabis and Cognitive Functioning (Solowij
1998), Nadia Solowij studied subjects employing cannabis at least twice a week on average for a period of
3 years. After a review of data, the author stated (p.
227), “the weight of the evidence suggests that the
long-term use of cannabis does not result in any
severe or grossly debilitating impairment of cognitive
function.” She did note more subtle difficulties in

App.365a
attention parameters including distraction, loose associations and intrusion errors in memory tasks. In a
recent review of cognitive effects of cannabis (Solowij
and Grenyer 2001), it was observed (p. 275), “the long
term risks for most users are not severe and their
effects are relatively subtle. . . . ”
Results from the current study seem to indicate
similar findings. As part of a Comprehensive
Neuropsychological Evaluation, all subjects were
administered a battery of instruments including the
WAIS-III, the WMS-III, the CVLT, the Trail Making
Test A and B, Grooved Peg Board, Finger Tapping,
and Category Test, the Controlled Oral Word Association Test, the Thurstone Word Fluency Test, a Category Fluency Test (Animal Naming), the WCST, the
CPT-II, and the Beck Depression Inventory–2nd
Edition (BDI-II).
Comparing Patients A-D, it appears that all four
do have at least mild difficulty with attention and concentration, and verbal acquisition of varying complex
new verbal material (as measured on the CVLT),
which is at least minimally impaired. Importantly,
however, higher-level executive functions generally
appear to be within normal limits in two of the subjects.
Difficulties in attention and concentration as well
as new complex verbal learning may be directly
related, and must be understood in the context of not
only these subjects’ chronic cannabis use, but also
their underlying chronic diseases and clinical
syndromes, with attendant fatigue and preoccupation.
Interestingly, depressive symptoms are not currently
noted at a clinical level in any of the subjects despite

App.366a
their chronic medical conditions or long-term cannabis use. None displayed evidence of social withdrawal
or apathy characteristic of the alleged “a motivational
syndrome.” Rather, all were animated, engaging in
conversation and demonstrating an active involvement with their ongoing care and the current research.
Overall, once more, no significant attributable
neuropsychological sequelae are noted due to chronic
cannabis usage.
Review of Neuroimaging
In 1971, it was reported that “consistent cannabis
smoking” of 3-11 years in ten patients produced evidence for cerebral atrophy employing air encephalography (Campbell et al. 1971), an excruciatingly
painful and long abandoned technique. Subsequent
study by Kuehnle et al. (1977) employing CT scans on
19 men with long durations of heavy cannabis usage
failed to show any changes in the ventricles or subarachnoid spaces. They criticized the prior study for
lacking controls on antecedent head trauma or other
causes of neurological damage. In the same issue of
the Journal of the American Medical Association, Co
et al. (1977) studied an additional 12 heavy cannabis
smokers who displayed no CT abnormalities.
In 1983, an additional 12 subjects who smoked
more than 1 g of cannabis daily for 10 years were
studied by CT scans of the brain, and only one with
concomitant history of alcoholism showed any
abnormalities compared to controls (Hannerz and
Hindmarsh 1983).
Most recently, Block et al. (2000) employed automated imaging analysis with MRI to examine 18

App.367a
young heavy users of cannabis. No abnormalities were
ascertained. The authors stated (p. 495), “frequent
marijuana use does not produce clinically apparent
MRI abnormalities or detectable global or regional
changes in brain tissue volumes of gray or white
matter, or both combined.” It was recently noted
(Solowij and Grenyer 2001, p. 270), “There is no evidence from human studies of any structural brain
damage following prolonged exposure to cannabinoids.”
Despite this additional documentation, the claim
of brain damage and cerebral atrophy remains a
popular myth in prohibitionist rhetoric. Current MRI
studies on Patients A-C with a General Electric Sigma
LX MR 1.5 Tesla magnet system reveal no clear
abnormalities. Patient A had age-compatible atrophy,
and Patient C had minor tissue changes of a non-specific nature, commonly seen in middle-aged
populations. Patient D has previously demonstrated
MRI brain lesions consistent with MS, with possible
improvement observed during the period of clinical
cannabis usage.
Review of Neurophysiology Tests
In discussing the issue of cannabis and cerebral
effects, Homer Reed observed (Reed 1975, pp. 122-123),
“The association between many of the EEG measures
used to indicate CNS changes and the clinical condition of the patient is approximately zero.” That notwithstanding, various researchers have advanced
numerous claims of pertinent EEG changes due to
cannabis. Cohen (1976) noted differences in computerized EEG measures of delta band power and theta
band phase angle (lead/lag) relationship. No mention

App.368a
was made of the alleged significance of these tests, or
of the results of standard EEG.
All the Jamaican subjects had EEG examinations
(Rubin and Comitas 1975). As previously noted in
other studies, 9 of 30 cannabis smokers had significant low voltage fast activity in the beta range. Although this finding may indicate sedative effects of
medication, it is often ascribed to a normal variant.
Three of the 30 were said to have unequivocal focal
abnormalities, but 4 of 30 controls had similar findings, and another had diffuse abnormalities. Overall,
no significant differences were noted between ganja
smokers and controls.
Similarly, in Greece (Panayiotopoulos et al. 1977),
8.8% of 46 hashish smokers had abnormal EEGs,
while 15% of 40 normal controls were so characterized.
The authors stated (p. 62), “We failed to find either an
abnormality or an particular EEG change in the
resting EEG records of chronic hashish users. . . . ”
Current results, performed on a 21-channel Nicolet
Voyageur digital EEG system and read by EBR, confirm the presence of low voltage fast activity in
Patients A-C, and intermittent sharp waves and rare
subtle slowing in the left frontal area in Patient A. Age
appropriate atrophy was seen in the same patient on
MRI, but she has no history of seizures or CNS
insults. There are no corresponding abnormalities on
neurological examination. Similar abnormalities are
identified on EEGs of 6% of patients, whereas there is
only a 0.5% prevalence of seizure disorders in the general population. In essence, no EEG pathology of an
attributable nature seems apparent in the study
group on the basis of cannabis usage.

App.369a
With respect to P300 responses, a type of electrophysiological event related potential, even greater
caution is necessary. This parameter is offered as an
electrophysiological measure of memory, inasmuch as
prolongation of its latency occurs with age. The test
was popular in the 1980’s as an objective test for
dementia. Amplitude differences have also been noted
in different clinical conditions, but were termed (Spehlmann 1985, p. 370), “of uncertain diagnostic importance
because of the great normal variability of the P300
amplitude.” Overall, these issues and significant
incidence of false positives and false negatives have
largely relegated use of this technique to the sidelines
as a clinical tool.
Solowij (1998) studied the P300 in chronic cannabis users vs. controls, and noted results felt to be
indicative of (p. 150), “inefficient processing of information and impaired selective attention.” These
consisted of reduced processing negativity to relevant
attended stimuli, inappropriately large processing
negativity to a source of complex irrelevant stimuli,
and reduced P300 amplitude to attended target stimuli
to that of controls.
In contrast, Patrick et al. (1995) examined the
P300 in psychologically normal chronic cannabis users
and controlled the data for age. Results showed no
amplitude differences.
More recent studies have shown significant
reductions in P300 amplitude in schizophrenia (MartinLoeches et al. 2001), but also in cigarette smokers
(Anokhin et al. 2000), with notable effects according
to motivational instructions (Carrillo-de-la-Pena and
Cadaveira 2000), and even diurnal variations (Higuchi
et al. 2000).

App.370a
Our study employed a Nicolet Viking 3P 4-channel
system with a P300 oddball paradigm. Patients A-C
displayed P300 latencies that were well within norms
for age-matched controls (Figure 1).
Review of Pulmonary Issues
Pulmonary concerns remain paramount in relation to chronic cannabis smoking. Excellent recent
reviews are available (Zimmer and Morgan 1997;
Tashkin 2001; Tashkin 2001). In brief, cannabis
smoking produces an increase in cough and bronchitis
symptoms, but to a lesser degree than in tobacco
smokers (Sherrill et al. 1991). Daily cannabis smokers
seek medical care for smoking-associated health concerns at a slightly higher rate than non-smokers
(Polen et al. 1993). In a large epidemiological study,
cannabis use was associated with little statistical
association on total mortality in women, and nonAIDS mortality in men (Sidney et al. 1997).
One of the primary associated risks of tobacco
smoking is the development of emphysema and lesser
declines in bronchial function over time. A careful
longitudinal study of chronic smokers has demonstrated a longitudinal decline in the FEV1 in tobacco
smokers, but not heavy cannabis smokers (Tashkin et
al. 1997).
Some association of cannabis smoking has been
observed to head and neck cancers (Zhang et al. 1999),
and pre-cancerous cytological changes have been
noted in the lungs in bronchoscopy studies (Fligiel et
al. 1988), but to date, no cases of pulmonary carcinoma
have been noted in cannabis-only smokers.

App.371a
In examining the data from chronic cannabis use
studies, in Jamaica, a slight downward trend not
attaining statistical significance was noted on forced
vital capacity (FVC) values (Rubin and Comitas 1975).
A similar downward trend was observed on FEV1
without statistical significance. No differences
between cannabis smokers, occasional smokers and
non-smokers were observed on FEV1/FVC ratios.
Results of all tests may have been affected by concomitant tobacco usage.
The Greek studies did not closely examine pulmonary function, and although an increase in
bronchitis symptoms was noted in hashish smokers
over abstainers, the former group also smoked more
tobacco. Differences were not statistically significant
in any event (Boulougouris, Antypas, and Panayiotopoulos 1977).
In the Costa Rican studies, no spirometry
measures were significantly different between cannabis users and non-users. However, statistical trends
were, in fact, positive with respect to cannabis usage.
Cannabis smokers displayed larger indices of smallairway patency. The authors suggested that in concomitant smoking of tobacco, cannabis seemed to
counteract the expected effects of tobacco on small airways. The author stated (Carter 1980, p. 171), “at
least it cannot be said of the users that they have
suffered an additive of [sic-”or”] synergistic decrement
in pulmonary function over that attributable to tobacco
alone.”
In our Patients A-C, no ultimate chest radiographic
changes of significance were noted, despite a falsepositive reading of pulmonary nodule in Patient C. It
is of particular note that he has had a previous

App.372a
bronchos-copy procedure with no reported cytological
changes.
Observed pulmonary function values in this
cohort reveal no clear trends except a slight downward
trend in FEV1 and FEV1/FVC ratios, and perhaps an
increase in FVC (Patients A-C) (Table 3). Concomitant
tobacco smoking (Patients A, B, and D) complicates
analysis. It is particularly interesting that Patient B,
a current concomitant smoker of tobacco displayed the
best spirometry values, while those in Patient C, a
never-smoker of tobacco were the worst. His underlying connective tissue disease may have played an
active role in this finding. His use of the lowest grade
cannabis and highest amount per day are the more
likely explanation.
Significant questions remain as to the role of lowgrade NIDA cannabis as a contributor to the above
findings, which will subsequently discussed.
Review of Hematological Studies
No effects on complete blood counts or hemoglobin
were observed in the LaGuardia Commission report
(New York, NY). Mayor’s committee on marihuana
(Wallace and Cunningham 1944). In the Jamaican
studies, slight increases were observed in hematocrit
and hemoglobin readings in cannabis smokers over
controls, but results were affected by concomitant
tobacco use (Rubin and Comitas 1975). No hematological data was obtained from the Greek studies.
In Costa Rica, a downward trend was observed in
hematocrit readings of cannabis smokers, but this was
not statistically noteworthy (Carter 1980).

App.373a
In our studies (Table 4), Patient B, a concomitant
tobacco smoker, displayed a mild degree of polycythemia and slightly elevated WBC. No other
hematological changes of any type were evident in the
other three patients.
Review of Immunological Parameters
Immune system damage remains an area of contention with respect to cannabis usage (Zimmer and
Morgan 1997), but one in which there is considerably
more heat than light. A closer examination of the
available literature may allay concern.
In the chronic use studies in Jamaica, no
decrement was observed in cannabis smokers vs. controls in either lymphocyte or neutrophils counts
(Rubin and Comitas 1975). Neither were significant
changes noted in the data in Costa Rica (Carter 1980).
In the 94-Day Cannabis Study, initial acute low
values were observed in T cell counts, but these
returned to normal over the course of the testing
(Cohen 1976).
A closer examination of the pertinent literature
raises concerns on theoretical levels to a greater
degree than practical ones. Excellent reviews are
available (Klein, Friedman, and Specter 1998; Hollister
1992; Cabral 2001; Cabral 2001).
Early reports of inhibition of cell mediated
immunity in cannabis smokers (Nahas et al. 1974)
were refuted by later studies in which no impairment
of lymphocytic response to phytohemagglutinin in
hashish smokers was observed (Kaklamani et al.
1978).

App.374a
A seminal review of the topic was undertaken by
Hollister (1992), who stated (p. 159), “evidence of
altered immune functions is derived mainly from in
vitro tests or ex vivo experiments, which employed
doses of cannabinoids far in excess of those that prevail during social use of marijuana.” More recently,
Klein, Friedman and Specter (1998) have similarly
noted (p. 102), “Although cannabinoids modulate immune cell function, it is also clear that these cells are
relatively resistant to the drugs in than many effects
appear to be relatively small and totally reversible,
occur at concentration higher than needed to induce
psychoactivity (> 10 µM or > 5 mg/kg), and occur
following treatment with nonpsychoactive cannabinoid
analogues.” They added (p. 102), “The public health
risk of smoking marijuana in terms of increased
susceptibility to infections, especially opportunistic
infections, is still unclear.” Finally, despite concerns
raised by THC effects on immunity in animals and in
vitro, Cabral and Dove Pettit (1998) admitted (p. 116),
“Definitive data which directly link marijuana use to
increased susceptibility to infection in humans
currently is unavailable.”
A particular public health concern surrounds
cannabis effects on HIV/AIDS. Four studies among
others may reduce related concern. Kaslow et al.
(1989) demonstrated no evidence that cannabis accelerated immunodeficiency parameters in HIV-positive
patients. Di Franco et al. (1996) ascertained no
acceleration of HIV to full-blown AIDS in cannabis
smokers. Whitfield, Bechtel and Starich (1997) observed
no deleterious effects of cannabis usage in HIV/AIDS
patients, even those with the lowest CD4 counts.

App.375a
Finally, Abrams et al. (2000) studied the effects of cannabis smoking on HIV positive patients on protease
inhibitor drugs in a prospective randomized, partially
blinded placebo-controlled trial. No adverse effects on
CD4 counts were observed secondary to cannabis.
In our studies of four subjects (Table 4), Patient
B had an elevated WBC count, probably attributable
to the stress of phlebotomy, but without accompanying
disorders of cell count differential. All patients had CD4
counts well within normal limits.
Review of Endocrine Function
Topical reviews of this topic are contained in two
recent publications (Murphy 2001; Zimmer and Morgan
1997). As with other physiological systems, much data
is based on animal studies, and early claims of deleterious effects on acute endocrine function are not
necessarily supported by subsequent investigations or
chronic use studies.
One long held claim is the production of gynecomastia in males associated with cannabis use. A
case study or 3 cannabis smokers with this malady
was reported by Harmon and Aliapoulios (1972). A
more thorough investigation a few years later failed
to show any differences in cannabis use in affected
males between users and controls (Cates and Pope
1977).
Similarly, Kolodny et al. (1974) reported decreased
testosterone levels in chronic marijuana smokers, while
no differences in testosterone or luteinizing hormone
(LH) levels were identified in a 3-week trial of
smokers vs. non-smokers (Mendelson et al. 1978).

App.376a
LH levels in menopausal women showed no
significant changes after cannabis usage (Mendelson
et al. 1985), but the next year, a similar group noted a
30% suppression of LH in women by smoking a single
cannabis cigarette during the luteal phase
(Mendelson et al. 1986).
Subsequently, a more in-depth study of both sexes
was undertaken to assess multiple hormone effects
comparing subjects with different levels of cannabis
usage vs. controls (Block, Farinpour, and Schlechte
1991). No significant effects were noted on testosterone,
LH, FSH, prolactin or cortisol in young women and
men.
Jamaican chronic use studies were confined to examinations of thyroxine and steroid excretion with no
significant findings observed due to cannabis use
(Rubin and Comitas 1975).
In the 94-Day Cannabis Study, acute drops in
testosterone and LH levels were noted after smoking
a cannabis cigarette (Cohen 1976). Subsequent drops
in testosterone levels were noted after the 5th week of
daily usage. LH levels fell after the 4th week and FSH
after the 8th week to unspecified degrees.
In Costa Rica, no differences were noted in male
testosterone levels between abstainers and cannabis
smokers stratified according to amount of use (Carter
1980). Similarly, fertility was unimpaired, with both
groups having identical numbers of progeny. The
author stated (p. 172), “These findings cast serious
doubt on cause-and-effect relationship between
marihuana smoking and plasma testosterone level in
long-term use.”

App.377a
Zimmer and Morgan (1997) summarized their
observations by stating (p. 92), “There is no scientific
evidence that marijuana delays adolescent sexual
development, has a feminizing effect on males, or a
masculinizing effect on females.”
The latter statement would seem to be borne out
by our findings. While one male subject had a minor
degree of gynecomastia associated with obesity, none
of the Patients A-D displayed any abnormal values in
any endocrine measure (Table 5).
Patient A has two children, Patient B has three,
and Patient D had one by choice.
Problems in the Compassionate IND Program
All four patients described varying degrees of
logistical difficulties in obtaining their medicine. All
have to travel or make special arrangements with
their study physician, who is the arbiter of the potency
of received material. All described incidents of
inadequate supply or provision of inferior quality cannabis. All have had to supplement their supplies of
cannabis from illegal black market sources at times.
All have experienced inconveniences or security
concerns when traveling. One, Patient C, was arrested,
detained, and had some of his medicine permanently
confiscated without replacement.
Patients A-C decried the lack of an official
identity card that might be readily recognized and
accepted by law enforcement and security personnel.
Rather, all used combinations of letters and other documents to convey their legal status to interested
authorities, often to the accompaniment of much
doubt and suspicion. All describe significant worry

App.378a
and anxiety about their medicine supplies, and whether
official promises of continuation of the program will
be honored.
A paramount issue affecting the Compassionate
IND patients revolves around cannabis quality. It has
been well established that recreational cannabis
smokers prefer higher potency materials (Herning,
Hooker, and Jones 1986; Chait and Burke 1994; Kelly
et al. 1997). The same pertains for most clinical cannabis patients.
Chait and Pierri (1989) published a detailed analysis of NIDA marijuana cigarettes that is worthy of
review in this context. NIDA marijuana is grown outside, one crop per biennium, harvested from a 5-acre
facility at the University of Mississippi. Average yield
of “manicured material” is 270 g per plant or 270 g per
square foot (letter from NIDA, Steven Gust to Chris
Conrad, August 18, 1999). Material is shipped to the
Research Triangle Institute in North Carolina where
it is chopped and rolled on modified tobacco cigarette
machines, then stored partially dehydrated and
frozen. Cigarettes average 800-900 g in weight. Material requires rehydration before usage, which the IND
patients usually achieve by storage overnight in a
refrigerated plastic bag with leaves of lettuce.
As of 1999 (letter, Steven Gust to EBR, June 7,
1999), NIDA had available cannabis cigarettes of
1.8%, 2.8%, 3.0%, and 3.4% THC, and bulk cannabis of
up to 5% THC content. Other cannabinoid components
were not quantitated. It was further stated that the
strongest material was not provided to patients in
their cigarette shipments because it was too sticky and
would interfere with the rolling machine’s functioning

App.379a
(Personal Communication to EBR, Steven Gust,
December 1999).
Static burn rates of NIDA cannabis cigarettes
were inversely related to potency (Chait and Pierri
1989), while the number of puffs that could be drawn
from each cigarette averaged 8.8. While total particulate
matter increased with potency, arguably less smoked
material is necessary for medicinal effect. Of more
concern, carbon monoxide levels were highest in the
lower potency material; that is, CO was inversely
proportional to THC content. Finally, test subjects in
their study of NIDA cannabis reported (pp. 66-67),
“that the marijuana is inferior in sensory qualities
(taste, harshness) than the marijuana that they
smoke outside the laboratory. Some have stated that
it was the worst marijuana they had ever sampled, or
that it tasted ‘chemically treated.’ “
All the study patients criticize the paper employed
to roll the cannabis cigarettes as harsh, and tasting
poorly. NIDA cannabis cigarettes resemble Pall Mall
. . . brand tobacco cigarettes without the logo (Figure
3).
All study patients clean their cannabis and re-roll
the material to varying degrees, although at least one
former IND patient, now deceased, used the NIDA
cigarettes unaltered.
NIDA cannabis is shipped to patients in labeled
metal canisters containing 300 cigarettes (Figure 4),
and material is frequently two or more years old upon
receipt. Even under optimal storage conditions, a
certain degree of oxidation of cannabinoids can be expected (Grotenhermen 2001). Most consumers prefer
a supply of cured cannabis that is as fresh as possible.

App.380a
A close inspection of the contents of NIDAsupplied cannabis cigarettes reveals them to be a
crude mixture of leaf with abundant stem and seed
components (Figures 5-6). The odor is green and
herbal in character. The resultant smoke is thick,
acrid, and pervasive.
In contrast, a typical sinsemilla “bud” is seedless,
covered with visible glandular trichomes (see journal
cover), and emits a strong lemony or piney terpenoid
scent. The smoke is also less disturbing from a sensory
standpoint to most observers.
Whittle, Guy, and Robson (2001) describe in
detail the markedly contrasting steps undertaken in a
government approved clinical cannabis program in
the United Kingdom. Their material is organically
grown in soil with no chemical treatment under controlled indoor conditions. All male plants are
eliminated, and only unfertilized female flowering
tops are harvested for further processing. This material
is assayed for cannabinoid and terpenoid content,
with controlled ratios through genetic selection of seed
strains before extraction. THC yields obtained are
routinely 15-20% (Personal Communication, GW
Pharmaceuticals, 2000).
Harm reduction techniques in relation to clinical
cannabis consumption are well advanced (Russo 2001;
Grotenhermen 2001a, 2001b). Particular attention is
merited toward vaporization techniques that provide
cannabinoid and terpenoid component administration
to prospective clinical cannabis patients without
pyrolysis (Gieringer 1996a; Gieringer 1996b; Gieringer
2001). Sublingual administration of cannabis extracts
is another most promising technique of clinical cannabis administration (Whittle, Guy, and Robson 2001).

App.381a
Three of the four study subjects have employed
Marinol . . . , and found it inadequate or a poor substitute for cannabis in symptomatic relief of their clinical
syndromes.
CONCLUSIONS AND RECOMMENDATIONS
1. Cannabis smoking, even of a crude, low-grade
product, provides effective symptomatic relief of pain,
muscle spasms, and intra-ocular pressure elevations
in selected patients failing other modes of treatment.
2. These clinical cannabis patients are able to
reduce or eliminate other prescription medicines and
their accompanying side effects.
3. Clinical cannabis provides an improved quality
of life in these patients.
4. The side effect profile of NIDA cannabis in
chronic usage suggests some mild pulmonary risk.
5. No malignant deterioration has been observed.
6. No consistent or attributable neuropsychological
or neurological deterioration has been observed.
7. No endocrine, hematological or immunological
sequelae have been observed.
8. Improvements in a clinical cannabis program
would include a ready and consistent supply of
sterilized, potent, organically grown unfertilized female
flowering top material, thoroughly cleaned of extraneous inert fibrous matter.
9. It is the authors’ opinion that the Compassionate IND program should be reopened and extended to other patients in need of clinical cannabis.

App.382a
10. Failing that, local, state and federal laws
might be amended to provide regulated and monitored
clinical cannabis to suitable candidates.
ACKNOWLEDGMENTS
The authors would like to dedicate this study to
the loving memory of Robert Randall, the first patient
in the Compassionate IND program.
The authors would like to acknowledge the
generous financial support of John Gilmore, Preston
Parish in memory of W. Erastus Upjohn, the Zimmer
Family Foundation, and MAPS (Multidisciplinary
Association for Psychedelic Studies).
William Bekemeyer, MD generously provided
interpretation of pulmonary function tests.
Jennifer Moe and Donna Francisco typed dictated
portions of the manuscript. Amy Shoales, administrator
of Montana Neurobehavioral Specialists, provided a
great deal of logistical support. Lola Goss and Jim
Gouaux, MD of the St. Patrick Hospital/Community
Medical Center Joint Investigational Review Board
were most helpful in aiding study review.
The authors also thank Eve Wall, Janet Kenter,
Barbara Pencek, and the many technicians and staff
of Montana Neurobehavioral Specialists, St. Patrick
Hospital and the Red Lion Inn in Missoula for their
patience, understanding, service and hospitality shown
to the study subjects. Most of all, the authors thank
the patients themselves for their selfless contributions to the advancement of knowledge of clinical cannabis.

App.383a
IN THE MATTER OF MARIJUANA
RESCHEDULING, DEA DKT.NO.: 86-22 (1988)
(RELEVANT EXCERPTS)
UNITED STATES DEPARTMENT OF JUSTICE
Drug Enforcement Administration
________________________
In The Matter of
MARIJUANA RESCHEDULING PETITION,
________________________
No. Docket No. 86-22
________________________

OPINION AND RECOMMENDED RULING, FINDINGS OF
FACT, CONCLUSIONS OF LAW AND DECISION OF
ADMINISTRATIVE LAW JUDGE
I.

Introduction

This is a rulemaking pursuant to the Administrative Procedure Act, 5 U.S.C. § 551, et seq., to determine
whether the marijuana plant (Cannabis sativa L)
considered as a whole may lawfully be transferred
from Schedule I to Schedule II of the schedules established by the Controlled Substances Act (the Act), 21
U.S.C. § 801, et seq. None of the parties is seeking to
“legalize” marijuana generally or for recreational purposes. Placement in Schedule II would mean,
essentially, that physicians in the United States
would not violate Federal law by prescribing marijuana
for their patients for legitimate therapeutic purposes.

App.384a
It is contrary to Federal law for physicians to do this
as long as marijuana remains in Schedule I.
This proceeding had its origins on May 18, 1972
when the National Organization for the Reform of
Marijuana Laws (NORML) and two other groups submitted a petition to the Bureau of Narcotics and
Dangerous Drugs (BNDD)1, predecessor
[...]
VIII. Accepted Safety for Use Under Medical Supervision
With respect to whether or not there is “a lack of
accepted safety for use of [marijuana] under medical
supervision”, the record shows the following facts to
be uncontroverted.
Findings of Fact
1. Richard J. Gralla, M.D., an oncologist and
Professor of Medicine who was an Agency witness,
accepts that in treating cancer patients oncologists
can use the cannabinoids with safety despite their side
effects.
2. Andrew T. Weil, M.D., who now practices
medicine in Tucson, Arizona and is on the faculity of
the College of Medicine, University of Arizona, was a
member of the first team of researchers to perform a
Federal Government authorized study into the effects
of marijuana on human subjects. This team made its
study in 1968. These researchers determined that
1 The powers and authority granted by the Act to the Attorney
General were delegated to the Director of BNOD and subsequently to the Administrator of DEA. 28 C.F.R. § 0.100, et seq.

App.385a
marijuana could be safely used under medical supervision. In the 20 years since then Dr. Weil has seen no
information that would cause him to reconsider that conclusion. There is no question in his mind but that
marijuana is safe for use under appropriate medical
supervision.
3. The most obvious concern when dealing with
drug safety is the possibility of lethal effects. Can the
drug cause death?
4. Nearly all medicines have toxic, potentially
lethal effects. But marijuana is not such a substance.
There is no record in the extensive medical literature
describing a proven, documented cannabis-induced
fatality.
5. This is a remarkable statement. First, the
record on marijuana encompasses 5,000 years of human
experience. Second, marijuana is now used daily by
enormous numbers of people throughout the world.
Estimates suggest that from twenty million to fifty
million Americans routinely, albeit illegally, smoke
marijuana without the benefit of direct medical
supervision. Yet, despite this long history of use and
the extraordinarily high numbers of social smokers,
there are simply no credible medical reports to suggest
that consuming marijuana has caused a single death.
6. By contrast aspirin, a commonly used, overthe-counter medicine, causes hundreds of deaths each
year.
7. Drugs used in medicine are routinely given
what is called an LD-50. The LD-50 rating indicates
at what dosage fifty percent of test animals receiving
a drug will die as a result of drug induced toxicity. A
number of researchers have attempted to determine

App.386a
marijuana’s LD-50 rating in test animals, without
success. Simply stated, researchers have been unable
to give animals enough marijuana to induce death.
8. At present it is estimated that marijuana’s LD50 is around 1:20,000 or 1:40,000. In layman terms this
means that in order to induce death a marijuana
smoker would have to consume 20,000 to 40,000 times
as much marijuana as is contained in one marijuana
cigarette. NIDA-supplied marijuana cigarettes weigh
approximately .9 grams. A smoker would theoretically
have to consume nearly 1,500 pounds of marijuana
within about fifteen minutes to induce a lethal
response.
9. In practical terms, marijuana cannot induce a
lethal response as a result of drug-related toxicity.
10. Another common medical way to determine
drug safety is called the therapeuic ratio. This ratio
defines the difference between a therapeutically
effective dose and a dose which is capable of inducing
adverse effects.
11. A commonly used over-the-counter product
like aspirin has a therapeutic ratio of around 1:20.
Two aspirins are the recommended dose for adult
patients. Twenty times this dose, forty aspirins, may
cause a lethal reaction in some patients, and will
almost certainly cause gross injury to the digestive
system, including extensive internal bleeding.
12. The therapeutic ratio for prescribed drugs is
commonly around 1:10 or lower. Valium, a commonly
used prescriptive drug, may cause very serious biological damage if patients use ten times the recommended (therapeutic) dose.

App.387a
13. There are, of course, prescriptive drugs which
have much lower therapeutic ratios. Many of the
drugs used to treat patients with cancer, glaucoma
and multiple sclerosis are highly toxic. The therapeutic
ratio of some of the drugs used in antineoplastic
therapies, for example, are regarded as extremely toxic
poisons with therapeutic ratios that may fall below
1:1.5. These drugs also have very low LD-50 ratios and
can result in toxic, even lethal reactions, while being
properly employed.
14. By contrast, marijuana’s therapeutic ratio,
like its LD-50, is impossible to quantify because it is
so high.
15. In strict medical terms marijuana is far safer
than many foods we commonly consume. For example,
eating ten raw potatoes can result in a toxic response.
By comparison, it is physically impossible to eat
enough marijuana to induce death.
16. Marijuana, in its natural form, is one of the
safest therapeutically active substances known to
man. By any measure of rational analysis marijuana
can be safely used within a supervised routine of medical care.
17. Some of the drugs most widely used in
chemotherapy treatment of cancer have adverse effects
as follows:
Ciplatin, one of the most powerful chemotherapeuic agents used on humans-may cause
deafness; may lead to life-threatening kidney
difficulties and kidney failure; adversely
affects the body’s immune system, suppressing
the patient’s ability to fight a host of common
infections.

App.388a
Nitrogen Mustard, a drug used in therapy for
Hodgkins disease-nauseates; so toxic to the
skin that, if dropped on the skin, this
chemical literally eats it away along with
other tissues it contacts; if patient’s intravenous lead slips during treatment and this
drug gets on or under the skin the patient
may suffer serious injury including temporary, and in extreme cases, permanent, loss of
use of the arm.
Procarbizine, also used for Hodgkins disease–
has known psychogenic, i.e., emotional, effects.
Cytoxin, also known as Cyclophosphanide–
suppresses patient’s immune system response;
results in serious bone marrow depletion;
studies indicate this drug may also cause
other cancers, including cancers of the bladder.
Adriamycan, has numerous adverse effects;
is difficult to employ in long term therapies
because it destroys the heart muscle.
While each of these agents has its particular adverse
effects, as indicated above, they also cause a number
of similar, disturbing adverse effects. Most of these
drugs cause hair loss. Studies increasingly indicate all
of these drugs may cause other forms of cancer. Death
due to kidney, heart or respiratory failure is a very
real possibility with all of these agents and the margin
for error is minimal. Similarly, there is a danger of
overdosing a patient weakened by his cancer. Put
simply, there is very great risk associated with the
medical . . . .
[...]

App.389a
INVITATION FROM CONGRESSMAN
J. LUIS CORREA TO ALEXIS BORTELL
(SEPTEMBER 6, 2017)
From: Mendez, Emilio
[mailto:Emilio.Mendez@mail.house.gov]
Sent: Wednesday, September 06, 2017 1:01 PM
To:
bortell2@hotmail.com; deanbortell@gmail.com
Cc:
Saroff, Laurie
<Laurie.Saroff@mail.house.gov>;
Kermott, Julia
<Julia.Kermott@mail.house.gov>;
Lauren Rudick lrudick@hillerpc.com
Subject: Meeting Invitation
Dear Alexis and Dean:
Congressman Lou Correa is aware that the
National Organization for Reform of Marijuana Laws
(NORML) has invited you to advocate for marijuana
policy reform alongside the organization on Capitol
Hill from September 10-12, 2017.
If you are able to participate in the 2017 NORML
Conference and Congressional Lobby Day, Congressman Correa would welcome the opportunity to
meet with you and your family to discuss your
particular experience with medical cannabis. The
Congressman believes that it is important that
Members of Congress be afforded the opportunity to
meet with you to hear your story and receive your
perspective.
The Congressman looks forward to meeting with
you.

App.390a
Best,
Emilio Mendez | Legislative Assistant
Office of Congressman J. Luis Correa (CA-46)
1039 Longworth Building | Washington DC 20515
Tel: 202-225-2965

App.391a
NEW YORK TIMES ARTICLE:
“HALDEMAN DIARY SHOWS NIXON WAS
WARY OF BLACKS AND JEWS”
(MAY 18,1984)
By The Associated Press
About the Archive
This is a digitized version of an article from The
Times’s print archive, before the start of online publication in 1996. To preserve these articles as they originally appeared, The Times does not alter, edit or update them.
Occasionally the digitization process introduces
transcription errors or other problems; we are
continuing to work to improve these archived versions.
The diaries of H.R. Haldeman, President Richard
M. Nixon’s chief of staff until the Watergate scandal
prompted Mr. Nixon to dismiss him, include references
to Mr. Nixon’s believing that there was “total Jewish
domination of the media” and that “the whole problem
is really the blacks.”
“The Haldeman Diaries,” being published today
by G.P. Putnam’s Sons, are drawn from audio
recordings and Mr. Haldeman’s daily diary entries.
In one entry, Mr. Haldeman, referring to the
President as “P,” said: “P emphasized that you have to
face the fact that the whole problem is really the
blacks. The key is to devise a system that recognizes
this while not appearing to. Pointed out that there has
never in history been an adequate black nation, and
they are the only race of which this is true. Says Africa

App.392a
is hopeless. The worst there is Liberia, which we
built.”
In another segment Mr. Haldeman states: “There
was considerable discussion of the terrible problem
arising from the total Jewish domination of the media
and agreement that this is something that would have
to be dealt with.”
Mr. Haldeman’s entry for Feb. 26, 1970, stated
that Mr. Nixon “really raged again against United
States Jews” and that the President had ordered his
chief of staff “not to let any Jews see him about the
Middle East.” Mr. Haldeman noted that the outburst
was in the presence of the national security adviser,
Henry A. Kissinger, who is Jewish. Plot to Impugn
Kennedy
In an entry on June 23, 1971, Mr. Haldeman
dictated a passage about how to use reports of sexual
escapades against Senator Edward M. Kennedy, the
Massachusetts Democrat whom Mr. Nixon considered
a likely rival for the Presidency in 1972. “We need to
take advantage of this opportunity and get him in a
compromising situation if we can,” Mr. Haldeman
said.
Mr. Nixon died last month. Mr. Haldeman died
last year.
Mr. Haldeman’s recollections also indicate that
Mr. Nixon had wanted his predecessor, Lyndon B.
Johnson, to persuade Democratic senators to halt
their Watergate inquiry and had threatened to reveal
that Mr. Johnson bugged the Nixon campaign plane
in 1968.

App.393a
Mr. Haldeman recorded that on June 25, 1972,
eight days after the Watergate break-in set in motion
the events that eventually led Mr. Nixon to resign, the
President was concerned about “the Martha Mitchell
problem.”
Mrs. Mitchell, the wife of Attorney General John
N. Mitchell, Mr. Nixon’s campaign manager and
mentor, had a habit of calling reporters, especially
Helen Thomas, the White House correspondent of
United Press International. Martha Mitchell’s Telephones
In one entry Mr. Haldeman said Mrs. Mitchell
had told Ms. Thomas that if Mr. Mitchell did not get
out of politics “she was going to kick him out of the
house, but her phones were then pulled out either by
her or someone in her room.”
After noting that Mrs. Mitchell was demanding
that her telephone be reinstalled, Mr. Haldeman said,
“She’s now threatening that if they don’t get her
phones in she’s going to blow the whole Republican
deal, whatever that means.”
The next day Mr. Haldeman recorded that it was
Mr. Nixon’s opinion that “John’s got to close her down
somehow or lock her up, but he can’t just leave her
speaking out like this; it’s going to create a major
national problem.”
Later, Mr. Haldeman learned that it had been an
agent of the Federal Bureau of Investigation who had
pulled out the phone. “She had a monumental
tantrum, started throwing things at him, demolishing
the room,” Mr. Haldeman said. “They locked her in.
She busted the window with her hand, cut herself

App.394a
badly. They had to get a doctor, who had to throw her
on the bed and give her a shot in order to subdue her.”
Mr. Mitchell resigned as head of the re-election
campaign on July 1, saying that he had “to meet the
happiness” of his wife and daughter.
Mrs. Mitchell died in 1976, and Mr. Mitchell in
1988.
Asked for comment on the racial statements the
Haldeman diaries attributed to Mr. Nixon, the director
of the Nixon Library and Birthplace in Yorba Linda,
Calif., John H. Taylor, said, “Politics and anti-Semitism
are two different things.” Mr. Nixon’s statements
about blacks and Jews “should be viewed strictly in a
political context,” he said.
“I had the privilege of serving him for 15 years
and never heard him make an anti-Semitic statement,”
Mr. Taylor said.
[...]

App.395a
HARPERS MAGAZINE ARTICLE—
“LEGALIZE IT ALL:
HOW TO WIN THE WAR ON DRUGS”
(APRIL 1, 2016)
By Dan Baum
________________________
In 1994, John Ehrlichman, the Watergate coconspirator, unlocked for me one of the great mysteries
of modern American history: How did the United
States entangle itself in a policy of drug prohibition
that has yielded so much misery and so few good
results? Americans have been criminalizing psychoactive substances since San Francisco’s anti-opium
law of 1875, but it was Ehrlichman’s boss, Richard
Nixon, who declared the first “war on drugs” and set
the country on the wildly punitive and counterproductive path it still pursues. I’d tracked Ehrlichman, who had been Nixon’s domestic-policy adviser,
to an engineering firm in Atlanta, where he was
working on minority recruitment. I barely recognized
him. He was much heavier than he’d been at the time
of the Watergate scandal two decades earlier, and he
wore a mountain-man beard that extended to the
middle of his chest.
At the time, I was writing a book about the politics
of drug prohibition. I started to ask Ehrlichman a series
of earnest, wonky questions that he impatiently waved
away. “You want to know what this was really all
about?” he asked with the bluntness of a man who,
after public disgrace and a stretch in federal prison,
had little left to protect. “The Nixon campaign in 1968,
and the Nixon White House after that, had two

App.396a
enemies: the antiwar left and black people. You
understand what I’m saying? We knew we couldn’t
make it illegal to be either against the war or black,
but by getting the public to associate the hippies with
marijuana and blacks with heroin, and then
criminalizing both heavily, we could disrupt those
communities. We could arrest their leaders, raid their
homes, break up their meetings, and vilify them night
after night on the evening news. Did we know we were
lying about the drugs? Of course we did.”
I must have looked shocked. Ehrlichman just
shrugged. Then he looked at his watch, handed me a
signed copy of his steamy spy novel, The Company,
and led me to the door.
Nixon’s invention of the war on drugs as a
political tool was cynical, but every president since—
Democrat and Republican alike—has found it equally
useful for one reason or another. Meanwhile, the
growing cost of the drug war is now impossible to
ignore: billions of dollars wasted, bloodshed in Latin
America and on the streets of our own cities, and
millions of lives destroyed by draconian punishment
that doesn’t end at the prison gate; one of every eight
black men has been disenfranchised because of a
felony conviction.
As long ago as 1949, H. L. Mencken identified in
Americans “the haunting fear that someone, somewhere, may be happy,” an astute articulation of our
weirdly Puritan need to criminalize people’s inclination to adjust how they feel. The desire for altered
states of consciousness creates a market, and in
suppressing that market we have created a class of
genuine bad guys—pushers, gangbangers, smugglers,
killers. Addiction is a hideous condition, but it’s rare.

App.397a
Most of what we hate and fear about drugs—the
violence, the overdoses, the criminality—derives from
prohibition, not drugs. And there will be no victory in
this war either; even the Drug Enforcement Administration concedes that the drugs it fights are becoming
cheaper and more easily available.
Now, for the first time, we have an opportunity to
change course. Experiments in alternatives to harsh
prohibition are already under way both in this country
and abroad. Twenty-three states, as well as the District of Columbia, allow medical marijuana, and
four—Colorado, Washington, Oregon, and Alaska—
along with D.C., have legalized pot altogether. Several
more states, including Arizona, California, Maine,
Massachusetts, and Nevada, will likely vote in November whether to follow suit. Portugal has decriminalized
not only marijuana but cocaine and heroin, as well as
all other drugs. In Vermont, heroin addicts can avoid
jail by committing to state-funded treatment. Canada
began a pilot program in Vancouver in 2014 to allow
doctors to prescribe pharmaceutical-quality heroin to
addicts, Switzerland has a similar program, and the
Home Affairs Committee of Britain’s House of
Commons has recommended that the United Kingdom
do likewise. Last July, Chile began a legislative process
to legalize both medicinal and recreational marijuana
use and allow households to grow as many as six
plants. After telling the BBC in December that “if you
fight a war for forty years and don’t win, you have to
sit down and think about other things to do that might
be more effective,” Colombian president Juan Manuel
Santos legalized medical marijuana by decree. In
November, the Mexican Supreme Court elevated the
debate to a new plane by ruling that the prohibition of

App.398a
marijuana consumption violated the Mexican Constitution by interfering with “the personal sphere,” the
“right to dignity,” and the right to “personal
autonomy.” The Supreme Court of Brazil is
considering a similar argument.
Depending on how the issue is framed, legalization
of all drugs can appeal to conservatives, who are
instinctively suspicious of bloated budgets, excess government authority, and intrusions on individual
liberty, as well as to liberals, who are horrified at
police overreach, the brutalization of Latin America,
and the criminalization of entire generations of black
men. It will take some courage to move the conversation
beyond marijuana to ending all drug prohibitions, but
it will take less, I suspect, than most politicians
believe. It’s already politically permissible to criticize
mandatory minimums, mass marijuana-possession
arrests, police militarization, and other excesses of the
drug war; even former attorney general Eric Holder
and Michael Botticelli, the new drug czar—a
recovering alcoholic—do so. Few in public life appear
eager to defend the status quo.
This month, the General Assembly of the United
Nations will be gathering for its first drug conference
since 1998. The motto of the 1998 meeting was “A
Drug-Free World—We Can Do It!” With all due
respect, U.N., how’d that work out for you? Today the
U.N. confronts a world in which those who have
suffered the most have lost faith in the old strong-arm
ideology. That the tide was beginning to turn was
evident at the 2012 Summit of the Americas in
Cartagena, Colombia, when Latin American leaders
for the first time openly discussed—much to the
public discomfort of President Obama—whether

App.399a
legalizing and regulating drugs should be the hemisphere’s new approach.
When the General Assembly convenes, it also will
have to contend with the startling fact that four states
and the capital city of the world’s most zealous drug
enforcer have fully legalized marijuana. “We’re
confronted now with the fact that the U.S. cannot
enforce domestically what it promotes elsewhere,” a
member of the U.N.’s International Narcotics Control
Board, which monitors international compliance with
the conference’s directives, told me. Shortly before
Oregon, Alaska, and the District of Columbia added
themselves to the legal-marijuana list, the State
Department’s chief drug-control official, William Brownfield, abruptly reversed his stance. Whereas before he
had said that the “drug control conventions cannot be
changed,” in 2014 he admitted that things had
changed: “How could I, a representative of the government of the United States of America, be intolerant of a
government that permits any experimentation with
legalization of marijuana if two of the fifty states of
the United States of America have chosen to walk
down that road?” Throughout the drug-reform
community, jaws dropped.
As the once-unimaginable step of ending the war
on drugs shimmers into view, it’s time to shift the conversation from why to how. To realize benefits from
ending drug prohibition will take more than simply
declaring that drugs are legal. The risks are
tremendous. Deaths from heroin overdose in the
United States rose 500 percent from 2001 to 2014, a
staggering increase, and deaths from prescription
drugs—which are already legal and regulated—shot
up almost 300 percent, proving that where opioids are

App.400a
concerned, we seem to be inept not only when we
prohibit but also when we regulate. A sharp increase
in drug dependence or overdoses that followed the
legalization of drugs would be a public-health disaster,
and it could very well knock the world back into the
same counterproductive prohibitionist mind-set from
which we appear finally to be emerging. To minimize
harm and maximize order, we’ll have to design better
systems than we have now for licensing, standardizing,
inspecting, distributing, and taxing dangerous drugs.
A million choices will arise, and we probably won’t
make any good decisions on the first try. Some things
will get better; some things will get worse. But we do
have experience on which to draw—from the end of
Prohibition, in the 1930s, and from our recent history.
Ending drug prohibition is a matter of imagination
and management, two things on which Americans
justifiably pride themselves. We can do this.
Let’s start with a question that is too seldom
asked: What exactly is our drug problem? It isn’t
simply drug use. Lots of Americans drink, but relatively
few become alcoholics. It’s hard to imagine people
enjoying a little heroin now and then, or a hit of
methamphetamine, without going off the deep end,
but they do it all the time. The government’s own data,
from the Substance Abuse and Mental Health
Services Administration, shatters the myth of
“instantly addictive” drugs. Although about half of all
Americans older than twelve have tried an illegal
drug, only 20 percent of those have used one in the
past month. In the majority of those monthly-use
cases, the drug was cannabis. Only tiny percentages
of people who have sampled one of the Big Four—
heroin, cocaine, crack, and methamphetamine—have

App.401a
used that drug in the past month. (For heroin, the
number is 8 percent; for cocaine, 4 percent; for crack,
3 percent; for meth, 4 percent.) It isn’t even clear that
using a drug once a month amounts to having a drug
problem. The portion of lifetime alcohol drinkers who
become alcoholics is about 8 percent, and we don’t
think of someone who drinks alcohol monthly as an
alcoholic.
In other words, our real drug problem—debilitating
addiction—is relatively small. One longtime drugpolicy researcher, Peter Reuter of the University of
Maryland, puts the number of people addicted to hard
drugs at fewer than 4 million, out of a population of 319
million. Addiction is a chronic illness during which
relapses or flare-ups can occur, as with diabetes, gout,
and high blood pressure. And drug dependence can be
as hard on friends and family as it is on the afflicted.
But dealing with addiction shouldn’t require spending
$40 billion a year on enforcement, incarcerating half
a million, and quashing the civil liberties of
everybody, whether drug user or not.
It’s possible, of course, that one reason we have a
relatively small number of drug addicts is precisely
that the most addictive drugs are illegal. If cocaine
were to be legalized, says Mark Kleiman, a professor
of public policy at New York University who has been
a critic of the war on drugs since the 1970s, there’s no
evidence indicating that the number of cocaine abusers
would be less than the number of alcoholics, or about
17.6 million. Moreover, legalizing cocaine might worsen
both cocaine addiction and alcoholism, Kleiman adds.
“A limit to alcoholism is you fall asleep. Cocaine fixes
that. And a limit to cocaine addiction is you can’t sleep.
Alcohol fixes that.”

App.402a
Kleiman’s prediction of a big increase in postlegalization addiction rates seems intuitively correct.
Common sense and decency dictate that any plan for
legalizing drugs ought to make provisions for a rise in
dependence. Millions of addicts already go untreated in
the United States. Although treatment is a bargain—the
government estimates that for every dollar spent on
drug treatment, seven are saved—treatment and
prevention get only 45 percent of the federal drug
budget while enforcement and interdiction get 55
percent, and that’s not including the stupendous cost
of incarcerating drug offenders. Treatment may become
more available now that the Affordable Care Act requires many insurers to pay for mental-health services,
including drug addiction, at parity with physical
illnesses. Training effective treatment providers is
time-consuming and expensive, but the billions freed
up by the end of enforcement and mass incarceration
could be used to help address that need.
It is also not a certainty that legalizing drugs
would result in the huge spike in addiction that
Kleiman predicts. In fact, some data argue against it.
The Netherlands effectively decriminalized marijuana
use and possession in 1976, and Australia, the Czech
Republic, Italy, Germany, and New York State all
followed suit. In none of these jurisdictions did
marijuana then become a significant health or publicorder problem. But marijuana’s easy; it isn’t physically
addictive. So consider Portugal, which in 2001 took
the radical step of decriminalizing not only pot but
cocaine, heroin, and the rest of the drug spectrum.
Decriminalization in Portugal means that the drugs
remain technically prohibited—selling them is a major
crime—but the purchase, use, and possession of up to

App.403a
ten days’ supply are administrative offenses. No other
country has gone so far, and the results have been
astounding. The expected wave of drug tourists never
materialized. Teenage use went up shortly before and
after decriminalization, but then it settled down,
perhaps as the novelty wore off. (Teenagers—particularly eighth graders—are considered harbingers of
future societal drug use.)
The lifetime prevalence of adult drug use in
Portugal rose slightly, but problem drug use—that is,
habitual use of hard drugs—declined after Portugal
decriminalized, from 7.6 to 6.8 per 1,000 people.
Compare that with nearby Italy, which didn’t decriminalize, where the rates rose from 6.0 to 8.6 per 1,000
people over the same time span. Because addicts can
now legally obtain sterile syringes in Portugal,
decriminalization seems to have cut radically the
number of addicts infected with H.I.V., from 907 in
2000 to 267 in 2008, while cases of full-blown AIDS
among addicts fell from 506 to 108 during the same
period.
The new Portuguese law has also had a striking
effect on the size of the country’s prison population.
The number of inmates serving time for drug offenses
fell by more than half, and today they make up only
21 percent of those incarcerated. A similar reduction
in the United States would free 260,000 people—the
equivalent of letting the entire population of Buffalo
out of jail.
When applying the lessons of Portugal to the
United States, it’s important to note that the
Portuguese didn’t just throw open access to dangerous
drugs without planning for people who couldn’t handle
them. Portugal poured money into drug treatment,

App.404a
expanding the number of addicts served by more than
50 percent. It established Commissions for the
Dissuasion of Drug Addiction, each of which is
composed of three people—often a doctor, a social
worker, and an attorney—who are authorized to refer
a drug user to treatment and in some cases impose a
relatively small fine. Nor did Portugal’s decriminalization experiment happen in a vacuum. The country
has been increasing its spending on social services
since the 1970s, and even instituted a guaranteed
minimum income in the late 1990s. The rapid expansion of the welfare state may have contributed to
Portugal’s well-publicized economic troubles, but it
can probably also share credit for the drop in problem
drug use.
Decriminalization has been a success in Portugal.
Nobody there argues seriously for abandoning the
policy, and being identified with the law is good
politics: during his successful 2009 reelection campaign,
former prime minister José Sócrates boasted of his
role in establishing it.
So why doesn’t the United States decriminalize?
It’s an attractive idea: Lay off the innocent users and
pitiable addicts; keep going after the really bad guys
who import and push the drugs. But decriminalization
doesn’t do enough. As successful as Portugal’s
experiment has been, the Lisbon government still has
no control over drug purity or dosage, and it doesn’t
make a dime in tax revenue from the sale of drugs.
Organized crime still controls Portugal’s supply and
distribution, and drug-related violence, corruption, and
gunned-up law enforcement continue. For these
reasons, the effect of drug decriminalization on crime
in Portugal is murky. Some crimes strongly associated

App.405a
with drug use increased after decriminalization—
street robberies went up by 66 percent, auto theft by
15 percent—but others dropped. (Thefts from homes
fell by 8 percent, thefts from businesses by 10 percent.)
A study by the Portuguese police found an increase in
opportunistic crimes and a reduction in premeditated
and violent crimes, but it could not conclude that the
changes were due to the decriminalization of drugs.
Heavy-handed enforcement also requires favoring
scare tactics over honest inquiry, experimentation,
and data gathering; and scare tactics are no way to
deal with substances as dangerous as heroin, cocaine,
and methamphetamine.
Portuguese-style decriminalization also wouldn’t
work in the United States because Portugal is a small
country with national laws and a national police force,
whereas the United States is a patchwork of jurisdictions—thousands of overlapping law-enforcement
agencies and prosecutors at the local, county, state,
and federal levels. Philadelphia’s city council, for
example, voted to decriminalize possession of up to an
ounce of marijuana in June 2014, and within a month
state police had arrested 140 people for exactly that
offense. “State law trumps city ordinances,” Police
Commissioner Charles Ramsey told the Philadelphia
Inquirer. And while marijuana may be legal in four
states and D.C., under federal law it is still as illegal
as heroin or LSD—and even more tightly controlled
than cocaine or pharmaceutical opioids. The Obama
Administration has decided, for the moment, not to
interfere with the states that have legalized
marijuana, but times change and so do administrations. We cannot begin to enjoy the benefits of
managing drugs as a matter of health and safety,

App.406a
instead of as a matter of law enforcement, until the
drugs are legalized at every level of American
jurisprudence, just as alcohol was re-legalized when
the United States repealed the Eighteenth Amendment in 1933.
One of the evils that led to Prohibition in the first
place was the system of “tied houses”—saloons owned
by alcohol producers that marketed their product
aggressively. As Prohibition was ending, John D.
Rockefeller commissioned a report published as
Toward Liquor Control that advocated total government control of alcohol distribution. “Only as the
profit motive is eliminated is there any hope of
controlling the liquor traffic in the interests of a decent
society,” he said. That never happened, of course. Tied
houses were banned, but Seagram, Anheuser-Busch,
and other companies became gigantic from the
manufacture and sale of alcohol; only eighteen states
assumed any direct control over the distribution process.
We’ve grown used to living with the consequences
of legal alcohol, even though alcohol is undeniably
costly to the nation in lives and treasure. But few would
argue for a return to Prohibition, in part because the
liquor industry is so lucrative and so powerful. Binge
drinkers—20 percent of the drinking population—
consume more than half of the alcohol sold, which
means that for all the industry’s pious admonitions to
“drink responsibly,” it depends on people doing the
opposite. At the same time, Big Alcohol’s clout keeps
taxation low. Kleiman, of NYU, estimates alcohol taxes
to be about a dime a drink; the societal cost in disease,
car wrecks, and violence is about fifteen times that.
Neither the binge-dependent economics of alcohol nor
the industry’s capture of the regulatory process is

App.407a
something we would want to mimic when legalizing
substances such as heroin and crack cocaine. We’ll
have to do a better job at legalizing drugs than we did
at re-legalizing alcohol if we want to hold addiction to a
minimum, keep drugs away from children, assure drug
purity and consistency of dosage, and limit drugged
driving. Last November, Ohio voters rejected
marijuana legalization, most observers believe, precisely because the proposed initiative would have
allowed only ten companies, all of which sponsored the
initiative, to grow and distribute marijuana in the
state.
If we can summon the political will, the opportunity to establish a state monopoly on drug distribution, just as Rockefeller urged for alcohol in 1933, is
now—before the genie is out of the bottle.
Switzerland, Germany, and the Netherlands have
successfully made heroin legally available to addicts
through networks of government-run dispensaries
that are divorced from the profit motive. The advantages of a state monopoly over a free market—even a
regulated one—are vast.
In the 1970s, the eighteen states that established
government control over alcohol distribution at the
end of Prohibition began to water down their systems
by feeding their wholesale or retail alcohol businesses,
or both, to private industry. Still, in 2013 a team of
researchers at the University of Michigan found that
even in “weak monopoly” states, consumption of
spirits was 12 to 15 percent lower than in states with
private liquor stores or grocery stores. In states that
retained control over retail sales, alcohol-related traffic
fatalities were about 7 to 9 percent lower than in
states that did not; crime rates were lower as well.

App.408a
Just about everybody who thinks seriously about
the end of drug prohibition agrees that we’ll want to
discourage consumption. This goal could be accomplished, at least in part, under a system of regulated,
for-profit stores: by setting limits on advertising and
promotion (or banning them altogether), by preventing marketing to children, by establishing minimum
distances from schools for retail outlets, by nailing
down rules about dosage and purity, and by limiting
both the number of stores and their hours of operation.
In a for-profit system, however, the only way government can influence price—the strongest disincentive
to consumption—is by levying a tax, and getting taxes
right is no small task. First, on what basis should the
tax apply? Federal taxes on alcohol are set according
to potency, but keeping up with the THC content of
every strain of marijuana would be impossible. Weight?
The more potent the drug, the less you need to buy, so
taxing by weight might end up promoting stronger
drugs over weaker. Price? Post-legalization prices are
likely to plummet as the “prohibition premium”—
which compensates dealers for the risk of getting
caught—disappears, competition sets in, and innovation increases production. To keep prices high enough
to discourage use, legislators will have to monitor
those prices constantly and risk their jobs by pushing
for politically unpopular tax increases.
“It’s too hard to adjust taxes quickly enough,”
said Pat Oglesby, a North Carolina tax lawyer who
was chief tax counsel for the Senate Finance Committee
from 1988 to 1990 and who now researches marijuana
taxes. “Legislatures love lowering taxes. Getting them
to raise taxes is like pulling teeth.” What’s more, if

App.409a
legislators overdo it and set taxes too high, they’ll risk
reawakening a black market in untaxed drugs.
A government monopoly on distribution solves
the problem by making the setting of prices a matter
of administration, not legislation. Government officials,
whether at the state or federal level, would have
infinite flexibility to adjust the price—daily, if necessary—to minimize use without inspiring a black
market. The production of marijuana, cocaine, and
heroin could remain in private hands, and the producers
could supply the government stores, just as Smirnoff,
Coors, and Mondavi provide their products to state
liquor stores. If the cost of producing a drug drops
because of innovation or competition, the government
agency selling that drug to the public would see an
increase in revenues. Likewise, it is much easier for
the government to set the dosage and purity of products it sells in its own outlets than to police the
dosage and purity of products that are spread
throughout a free market. And the government could
decide on its own to what extent it wants to permit
advertising, attractive packaging, and promotions.
Finally, of course, when the government holds a
monopoly, the public, not private shareholders, enjoys
the profit. The states that retain control over alcohol
distribution collect 82 to 90 percent more in revenue
than states that license private alcohol sales collect in
taxes, depending on whether they control both
wholesale and retail. That the government should
profit from a product it wants to discourage could be
seen as hypocritical, but that’s the way things stand
now with tobacco, alcohol, and gambling. States generally reduce the moral sting of those profits by
earmarking them for education or other popular

App.410a
causes. In the case of drugs, the profits could go
toward treating addicts. The great thing about trying
a state monopoly first is that if it doesn’t work, it’s
politically much easier to liberalize to a regulated free
market than to go the other way.
But as long as federal law in the United States
maintains an absolute prohibition on marijuana,
cocaine, and heroin—and stringent restrictions on
methamphetamine—it’s hard to imagine state drug
monopolies on the model of state liquor stores. Even if
the international bans on Schedule I drugs were to
lift, could our legislators muster the will to legalize
them, much less to expand government to distribute
them? It’s one thing for the chief executive to turn a
blind eye to the states’ experiments in licensed
marijuana commerce; it’s another to grind the gears
and shift conservative congressional sensibilities.
This is a pity, since a government monopoly would
be the least expensive and most flexible way to
legalize drugs. It would generate the most revenue
and—more important—it would protect public health.
Until Congress reschedules marijuana, heroin, and
cocaine, and until we get over the idea that government can do nothing right, we’re stuck with second
best: state-size experiments that ignore the federal
ban on marijuana and license private industries.
Colorado is the furthest along that path, and its
experience is instructive.
Colorado has allowed medical marijuana since
2000 through a system of licensed private dispensaries.
The state originally required marijuana businesses to
be vertically integrated; dispensaries could sell only
what they grew themselves—a replication of the old
tied houses. The theory was that it was easier to

App.411a
regulate businesses from “seed to sale.” In November
2012, 55 percent of voters approved Amendment 64 to
the Colorado constitution, which legalized recreational
marijuana. (The initiative was strategically timed;
having marijuana on the ballot helped draw young
and progressive voters to the polls to win the state for
President Obama.) After the election, Colorado chose a
system of licensed businesses over state monopoly; in
2014, it dropped the requirement that recreational
dispensaries be vertically integrated—one business
can now grow marijuana for another to sell. As soon as
Governor John Hickenlooper formalized the results, five
weeks after the vote, Coloradans twenty-one years of
age and older could legally possess and use marijuana.
Stores and commercial cultivators were not allowed to
open, though, until January 2014, fourteen months
after the vote. The delay was meant to allow the state
time to expand the Marijuana Enforcement Division,
within the Department of Revenue, to incorporate retail
marijuana into its jurisdiction, and to allow the
division to write rules concerning signage, advertising,
waste disposal, video surveillance, labeling, taxes, and
required distances from schools.
Already, legal marijuana in Colorado is following
the grim economics of alcohol. Daily smokers make up
only 23 percent of the state’s pot-smoking
population, but they consume 67 percent of the reefer.
That may have been true too when marijuana was
illegal; maybe the number of daily stoners is neither
rising nor falling. We’ll never know, because one
problem with illegal markets is that you can’t track
them. But we do know that the legal, for-profit
marijuana business in Colorado is already mimicking

App.412a
the alcohol business in its dependence on heavy users.
From a public-health standpoint, that’s troubling.
The effect of legalization on crime has been difficult
to determine. Overall, crime fell in Denver by almost
2 percent in 2014, the first year of full marijuana
legalization. And, strangely, surveys of 40,000 teenagers
before and after legalization showed that although
fewer now believed marijuana to be harmful—just as
the opponents of legalization predicted—fewer were
smoking pot. Were they lying? Was it a statistical
anomaly? Are pot dealers harder to find now that
they’re competing with legal stores? Or is it possible
that marijuana, once legalized, lost its cachet?
Colorado has run into glitches. The fourteen
months between the vote and the opening of the stores
wasn’t enough time to write regulations on such
variables as pesticide use in cultivation or dosages in
edibles. Nor was there time to write a new training
curriculum for police, who found themselves not
knowing exactly what to do about the large quantities
of marijuana they were encountering. People have been
stringing extension cords together to make their own
grow rooms—and burning down their homes. They’ve
pumped so much water into pot cultivation that
monstrous blooms of black mold have rendered their
houses uninhabitable. And Denver has seen a spate of
burglaries and robberies at marijuana greenhouses
and stores. The law let local jurisdictions decide
whether to allow retail pot stores. Only thirty-five
counties did so at first, which is partly why the state
received only $12 million in new marijuana taxes in
the first six months of legal pot sales—about a third
of what regulators had anticipated. (“That’s
changing,” said Lewis Koski, the forty-four-year-old

App.413a
who is the deputy senior director of Colorado’s
Enforcement Division, in 2014. “Just about every
week we have new jurisdictions allowing it.”) It may
also be that the state set the tax on retail marijuana
too high—10 percent on top of the usual sales tax.
Some smokers are apparently continuing to buy on
the black market, which is often cheaper. (It may be
that almost everybody who wanted to buy legal pot
already had a medical-marijuana I.D. card; 111,000
Coloradans—more than 2 percent of the population—
hold them, and medical pot carries only the regular
sales tax.) Still, in 2015, Colorado collected about $135
million in marijuana taxes and fees, almost double
what it took in the year before.
Cracking down on unlicensed growing operations
and training cops has been relatively easy. What’s
going to be tougher is keeping big business from
overwhelming the exercise and rigging the game.
Even with only four states and the District of Columbia
having legalized, and only twenty-three states allowing
the medical use of marijuana, legitimate production is
already a $5.4 billion industry. Forbes has published a
list of the “8 Hottest Publicly Traded Marijuana
Companies.” Cannabis stocks include biotech companies, makers of specialized vending machines, and
manufacturers of vaporizers that allow inhalation
without tar or burning the product. The combined
value of marijuana stocks rose by 50 percent in 2013
and by 150 percent in the first three weeks of 2014,
before settling down to a still-impressive 38 percent
gain for the year. In September 2014, MJardin, a
maker of turnkey growing operations, announced that
it was considering an initial public offering. Even the
Wall Street Journal analyzes marijuana as a serious

App.414a
investment opportunity. These enormous bets are
being placed at a time when recreational marijuana is
still illegal in forty-six states and under federal law.
The citizens of the U.S. jurisdictions that legalized
marijuana may have set in motion more machinery
than most of them had imagined. “Without marijuana
prohibition, the government can’t sustain the drug
war,” Ira Glasser, who ran the American Civil Liberties
Union from 1978 to 2001, told me. “Without marijuana,
the use of drugs is negligible, and you can’t justify the
law-enforcement and prison spending on the other
drugs. Their use is vanishingly small. I always
thought that if you could cut the marijuana head off
the beast, the drug war couldn’t be sustained.”
Even in my hometown of Boulder, which may be
the most pot-friendly city in the United States, “it’s
not marijuana gone wild,” as Jane Brautigam, the city
manager, told officials from Colorado and Washington
during a public conference call in September 2014.
People were, for the most part, “feeling okay about it,”
she said. Marijuana charges in Colorado were down
80 percent: only 2,000 or so Coloradans were charged
for marijuana offenses in 2014, as opposed to nearly
10,000 in 2011. Brautigam has had to shut down a few
marijuana businesses for violations, but no more than
in other industries. “There was an implication that
there would be people smoking all over the place,” she
said. “That hasn’t happened.” When I checked in with
her office in January, things were still going well,
Patrick von Keyserling, the city communications
director, told me, in large part because “it’s a very
well-regulated industry.”
To the extent that we in Colorado think about
legal marijuana, now that the initial excitement has

App.415a
worn off, we have a smug sense that we have taken
the lead in doing something smart. We are as divided
as any place over immigrants, guns, and climate
change, but our police don’t waste their time chasing
down pot smokers anymore. Adults don’t have to
worry, as they used to, about neighbors smelling reefer
smoke wafting from their patios. Even if marijuana
tax revenues—which are slated to help public schools—
aren’t what we’d hoped, our state is making money
from something that used to cost it money. Marijuana
is no big deal. We look at other states that treat it as
a public menace and wonder what in the world they’re
thinking.
Nobody I spoke with in the United States or
elsewhere envisioned stores selling heroin, cocaine, or
methamphetamine as freely as Colorado stores sell
marijuana or as state liquor stores sell vodka. The
way most researchers imagine hard-drug distribution,
short of a state monopoly, involves some kind of
supervision. A network of counselors—not necessarily
physicians—would monitor how a drug fits into a
person’s life. When Kleiman, at NYU, allows himself
to imagine legal cocaine, he pictures users setting
their own dose. “You can decide whether you want to
raise your quota—a bureaucratic process—or see
someone about your cocaine problem. This is to give
your long-term self a fighting chance against your
short-term self.”
Eric Sterling, the executive director of the antiprohibition Criminal Justice Policy Foundation,
envisions a similar system. “Someone might say, ‘I
want cocaine because it stimulates me in my creative
work,’ or, ‘I want cocaine to improve my orgasms.’ The
response might be, ‘Why don’t you have enough

App.416a
energy? Do you exercise?’ Or, ‘What might be interfering
with the current quality of your sex life?’ “Those who
want to try LSD or other psychedelics, Sterling
suggests, might go to licensed “trip leaders,” analogous
to wilderness guides—people trained, indemnified,
and insured to take the uninitiated into potentially
dangerous territory.
Of course, it’s easy to imagine people who enjoy
cocaine, heroin, or psychedelics saying “to hell with all
that” and continuing to buy on the black market. But,
as Sterling points out, doing so is risky. If someone as
rich and well-connected as Philip Seymour Hoffman
can die from a heroin shot, nobody is safe. Also, as
Sterling notes, “It’s a hassle to be an addict. Find a
dealer, score, find a place to get off . . . ” If a lawful,
regulated system is fine-tuned—so that drugs are
cheap and trustworthy, the process is not too
burdensome, and the taxes on them are not too high—
users will likely come to prefer it to the black market.
Competition, not violence, will destroy the criminal
gangs that control illegal drug distribution. “Ultimately this is all about building the proper cultural
context for using drugs,” Sterling says, a context in
which “the exaggerations and the falsehoods get
extinguished.”
In 2009, Britain’s Transform Drug Policy Foundation put out a 232-page report called “After the War
on Drugs: Blueprint for Regulation.” The authors
suggested issuing licenses for buying and using drugs,
with sanctions for those who screw up—much like gun
licenses in some U.S. states, or driver’s licenses. Users
would have their purchases tracked by computer, so
rising use would, in theory, be noticed, making inter-

App.417a
vention possible. Legal vendors would bear partial responsibility for “socially destructive incidents”—the
way bartenders can be held responsible for serving an
obvious drunk who later has an accident behind the
wheel. For pricing, the report suggests prices high
enough to “discourage misuse, and sufficiently low to
ensure that under-cutting . . . is not profitable for
illicit drug suppliers.” And although the British group
argued for a generally more laissez-faire market than
European and Canadian government-run heroindistribution systems, it embraced a complete ban on
any kind of advertising and marketing, and argued
instead for plain, pharmaceuticalstyle packaging.
I voted for marijuana legalization even though I
hadn’t smoked pot in years and wasn’t much interested
in doing so. Legalization seemed a sensible political
and economic measure, and a way to distinguish
Colorado as a progressive beacon of the West. But one
night in July, I was headed for the Cruiser Ride,
Boulder’s goofy, costumed weekly bicycle parade, and
I thought it might be fun to try it stoned. It was a
lightbulb-over-the-head moment. A year ago, I wouldn’t
have known where to find a joint. Now, I simply
pedaled to the Green Room, a marijuana retail store a
mile from my house. Although I wear every one of my
fifty-nine years on my face, I was carded—in a
reception room decorated with portraits of Jerry
Garcia and Jimi Hendrix. A bud tender escorted me
into the store, where I stood at a counter, separated
from the customer next to me by a discreet, bankteller-like divider. I picked up a card titled EDIBLES
EDUCATION: START LOW, GO SLOW and read that
if I bought any of the pot-laced artisanal goodies, I
should not consume them with alcohol; I should keep

App.418a
them out of the reach of children; I should start with
a single small serving and wait two hours before
taking more. “Everybody’s metabolism is different,” it
said. For a new consumer, no more than one to five
milligrams of cannabis was recommended; the potency
of the buttery candies and cookies was listed on the
labels. This was a far cry from the fibrous, foul-tasting
pot brownies I used to eat before late-night college
screenings of 2001: A Space Odyssey.
A young bud tender—tattooed and achingly professional—presided over a copious array of marijuana
blossoms in large glass apothecary jars. I confess I got
a little lost as he discoursed, with Talmudic subtlety,
on the differences between Grape Ape, Stardawg,
and Bubba Kush. The joint that I bought for $10—fat,
expertly rolled, and with a little paper filter—came in
a green plastic tube with a police-badge-shaped
sticker reading DEPARTMENT OF REVENUE,
MARIJUANA. For someone who started buying pot in
alleys when Gerald Ford was president, this felt like
Elysium.
I wasn’t allowed to light up in the store or outside
on the street; I had to go home to smoke legally. As
instructed, I started low and went slow, taking only
one hit. Twenty minutes later, I was stoned in that
good way I remembered: I felt perceptive and amused,
with none of the sluggishness or paranoia common to
the old fifteen-dollar ounces. That single joint I bought
is so strong that even though I’ve taken hits from it
half a dozen times since my Cruiser Ride, I still have
about a third left, a treat to keep around for the right
occasion.
So under legalization I have become a pot smoker
again. But I don’t drive stoned or need treatment, so

App.419a
who cares? I drink a beer or a dram of Laphroaig most
days too, and I still hit my deadline for this article.
If it is now time to start thinking creatively about
legalization, we’d be wise to remember that, like carefully laid military plans, detailed drug-liberalization
strategies probably won’t survive their first contact
with reality. “People are thinking about the utopian
endgame, but the transition will be unpredictable,”
says Sterling, of the Criminal Justice Policy Foundation. “Whatever system of regulation gets set up, there
will be people who exploit the edges. But that’s true for
speeding, for alcohol, for guns.” Without a state-run
monopoly, there will be more than one type of legal,
regulated drug market, he says, and the markets
won’t solve every conceivable problem. “Nobody
thinks our alcohol system is a complete failure
because there are after-hours sales, or because people
occasionally buy alcohol for minors.” Legalizing, and
then regulating, drug markets will likely be messy, at
least in the short term. Still, in a technocratic, capitalist,
and fundamentally free society like the United States,
education, counseling, treatment, distribution, regulation, pricing, and taxation all seem to better fit our
national skill set than the suppression of immense
black markets and the violence and corruption that
come with it.

App.420a
AFFIDAVIT OF ROGER STONE
(JUNE 16, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________________
MARVIN WASHINGTON; DEAN BORTELL as
Parent/Guardian for Infant ALEXIS BORTELL,
JOSE BELEN, SEBASTIEN COTTE as
Parent/Guardian for Infant JAGGER COTTE, and
CANNABIS CULTURAL ASSOCIATION, INC.,

Plaintiffs,
v.
JEFFERSON BEAUREGARD SESSIONS, III, in his
official capacity as United States Attorney General;
UNITED STATES DEPARTMENT OF JUSTICE;
CHARLES “CHUCK” ROSENBERG, in his official
capacity as the Acting Director of the Drug
Enforcement Agency; UNITED STATES DRUG
ENFORCEMENT AGENCY; and the UNITED
STATES OF AMERICA,

Defendants.
________________________
17 Civ. 5625
State of New York
County of New York)
ROGER STONE, having been duly sworn, deposes
and says:

App.421a
1. I am a former member of the Richard Nixon
Presidential Administration. I submit this Affidavit in
connection with plaintiffs’ Order to Show Cause for a
Temporary Restraining Order and Preliminary
Injunction. As explained below, I have personal
knowledge of the rationales and motivations underlying
enactment, administration and enforcement of the
Controlled Substances Act (“CSA”) by the Nixon
Administration.
My Background
2. I am, and for more than 40 years have been, a
political consultant and operative, working predominantly with Republican candidates and officials. I
began my political career at age 12, working for Barry
Goldwater’s 1964 Presidential Campaign. Thereafter,
while attending George Washington University, I
accepted a position with the Committee to Re-Elect
President Nixon (“CRP”). My work for CRP provided
me with close access to Nixon Administration officials
and associates, with whom I interacted regularly.
3. After Richard Nixon was re-elected as President
in 1972, 1 was offered and took a position with his
Administration’s Office of Economic Opportunity, where
I continued to work closely with Nixon Administration
officials and associates in the creation and administration of policy.
4. In addition to my tenure with the Nixon
Administration, I also worked with and/or for other
public officials, candidates and campaigns over the
years, including, among others: President Ronald
Reagan; Senator and Republican Presidential Candidate Robert Dole; Governor Thomas Keane (New
Jersey); Congressman Jack Kemp (New York); Senator

App.422a
Arlen Spector (Pennsylvania); and President Donald
J. Trump.
5. I have authored five books: The Man Who
Killed Kennedy: The Case Against LBJ (Skyhorse
Publishing 2013); Nixon Secrets: The Rise, Fall and
Untold Truth About the President, Watergate, and
the Pardon (Skyhorse Publishing 2014); The Clinton’s
War on Women (Skyhorse Publishing 2015); Jeb! and
the Bush Crime Family (Skyhorse Publishing 2016);
The Making of the President 2016: How Donald
Trump Orchestrated a Revolution (Skyhorse Publishing
2017). I also regularly appear as a guest contributor
on network and cable news and politically-focused
television shows, including, among others, CNN,
FoxNews, AB CNews, NB CNews, Meet the Press,
Real Time with Bill Maher, and C-Span.
6. In short, I have devoted most of my professional
life to politics and public policy, focusing my efforts in
support of candidates, causes and policies affiliated
with the Republican Party.
The Controlled Substances Act
7. Working with the Nixon Administration
afforded me constant contact with Administration
officials, both inside and outside the White House.
One of the officials with whom I was in regular contact
was Myles Ambrose, who, at the time, was involved in
President Nixon’s “War on Drugs” and eventually
became the first “Drug Czar” (Exhibit 23, N.Y. Times
Article). I remember that, in the winter of 1971,1 met
Mr. Ambrose at “The Exchange,” then a popular
hangout for politicos in Washington, DC. Over drinks,
Mr. Ambrose and I began to discuss the President’s
agenda. Not surprisingly, he spoke most favorably of

App.423a
the President’s plan to “win” the War on Drugs. In
particular, Mr. Ambrose said to me: “We gotta do this
drug stuff. We gotta get rid of the ‘niggers.’” He
proceeded to explain that those associated with the
President associated African Americans and hippies
protesting the Vietnam War with marijuana, which
the President and Mr. Ambrose believed was the drug
of choice for these two groups. I remember this
conversation well, because it shocked and offended
me.
8. I came to learn, and, as is known to history,
those associated with the President felt that war
protestors and those with whom they associated were
a threat to the Nation in its fight against communism.
He also had mixed emotions toward African Americans,
whom he may have associated with the anti-war left.
No legislation could be focused directly at these two
groups, as the Administration recognized that such
would draw objections based upon, among other
things, constitutional grounds. The alternative strategy
developed by the Administration was to use the War
on Drugs—and, in particular, the efforts to criminalize
and prosecute possession and use of cannabis—to
marginalize war protestors and African Americans
and “get them off the streets.” To convert these
viewpoints into policy, the President, members of his
Administration, and those whom he entrusted to liaise
with Congress dedicated themselves to enacting and
administering a legislative agenda directed toward
prosecuting, in particular, war protestors and African
Americans for use of cannabis.
9. The Administration’s efforts were successful in
enacting the CSA in 1970. Thereafter, the President
named Mr. Ambrose to lead the White House Office of

App.424a
Drug-Abuse Law Enforcement—a precursor to the
Drug Enforcement Agency, which then led the Administration’s War on Drugs.1
10. Again, all of these efforts, as they pertained
to criminalizing cannabis, were directed toward
suppressing the rights of African Americans and
protestors of the Vietnam War, whom the President
believed were threatening to undermine America’s
sense of collective purpose in the Cold War and the
battle against communism. My recollection of these
events and conversations is consistent with those of
others from the Nixon Administration. For example,
John Ehrlichman, who served as the Administration’s
Domestic Policy Chief and was one of the President’s
closest political advisors, confirmed that the enactment
and enforcement of laws criminalizing cannabis were
directed toward political suppression and racial
discrimination. In this regard, Mr. Ehrlichman said:
You want to know what this was really all
about? The Nixon campaign in 1968, and the
Nixon White House after that, had two
enemies: the antiwar left and black people.
You understand what I’m saying? We knew
we couldn’t make it illegal to be either
against the war or black, but by getting the
public to associate the hippies with marijuana
and blacks with heroin and then criminalizing
both heavily, we could disrupt those communities. We could arrest their leaders, raid
their homes, break up their meetings, and
1 Ironically, Mr. Ambrose, who was slated to become the first
director of the DEA, resigned from the Administration before
accepting the post.

App.425a
vilify them night after night on the evening
news. Did we know we were lying about the
drugs? Of course we did.

N.Y. Daily News, A. Edelman, Nixon Aide: “War on
Drugs” was tool to target “black people” (March 23,
2016) (Exh. 4); see also Harper’s Magazine, D. Baum,
Legalize it All: How to Win the War on Drugs (April
2016) (Exh. 5) (“Nixon’s invention of the war on drugs
as a political tool was cynical . . . ”).

11. If incarceration of the antiwar left and African
Americans constitutes the measure of the War on
Drugs’ success, the Administration’s efforts must be
characterized as “successful.” According to the New
York Daily News, “by 1973, about 300,000 people were
arrested under the law—the majority of whom were
African American” (Exh. 4).
12. The Administration’s anti-carmabis policies
thus were manifested in two distinct, but related,
efforts—to usher the CSA through Congress and then
to use the law as a tool to incarcerate, harass and
undermine those whom the President considered
hostile to American interests.
13. While there also may well have been those
who genuinely believed that marijuana was a
dangerous drug on par with heroin, the individuals
responsible for making and administering America’s
drug policy were, in my experience, not among them.
The driving force behind the CSA and its administration was to suppress and discriminate. It represents
a regrettable and unfortunate period in American
history which, I trust, contemporary society will, at
some point, endeavor to correct—perhaps now.

App.426a
For these reasons, I join the plaintiffs’ request for
a temporary restraining order and preliminary
injunction.
/s/ Roger Stone
Sworn before me this 16th day of June, 2017.
/s/ Michael S. Hiller
Notary Public
State of New York
Registration No. 02H16328111
Qualified in Kings County
Commission Expires July 27, 2020

App.427a
UNITED NATIONS SINGLE CONVENTION
ON NARCOTIC DRUGS, 1961,
(RELEVANT EXCERPTS)
As amended by the 1972 Protocol Amending the Single
Convention on Narcotic Drugs, 1961 including Schedules; Final Acts and Resolutions as agreed by the
1961 United Nations Conference for the Adoption of a
Single Convention on Narcotic Drugs and by the 1972
United Nations Conference to Consider Amendments
to the Single Convention on Narcotic Drugs, 1961,
respectively
FINAL ACT OF THE UNITED NATIONS CONFERENCE
FOR THE ADOPTION OF A SINGLE CONVENTION
ON NARCOTIC DRUGS
1. The Economic and Social Council of the United
Nations, by resolution 689 J (XXVI) of 28 July 1958,
decided to convene in accordance with Article 62,
paragraph 4, of the Charter of the United Nations, and
with the provisions of General Assembly resolution 366
(IV) of 3 December 1949, a plenipotentiary conference for the adoption of a single convention on
narcotic drugs to replace by a single instrument the
existing multilateral treaties in the field, to reduce the
number of international treaty organs exclusively concerned with control of narcotic drugs, and to make
provision for the control of the production of raw
materials of narcotic drugs.
2. The United Nations Conference for the Adoption
of a Single Convention on Narcotic Drugs met at
United Nations Headquarters from 24 January to 25
March 1961.

App.428a
3. The following seventy-three States were represented by representatives at the Conference:
Afghanistan
Albania
Argentina
Australia
Bolivia
Brazil
Bulgaria
Burma
Byelorussian Soviet
Socialist Republic
Cambodia
Canada

Chad
Chile
China
Congo (Leopoldville)
Costa Rica
Czechoslovakia
Dahomey
Denmark
Dominican Republic
Switzerland
Thailand
Tunisia
Turkey

Iran
Iraq
Israel
Italy
Japan
Jordan
Korea, Republic of
Lebanon
Union of Soviet
Socialist Republics
United Arab Republic
United Kingdom of
Great Britain and
Northern Ireland
Liberia
Madagascar
Mexico
Monaco
Morocco
Netherlands
New Zealand
Nicaragua
Nigeria
Norway
Pakistan
Panama
Paraguay

App.429a
Ukrainian Soviet
Socialist Republic
El Salvador
Finland
France
Germany,
Federal Republic of
Ghana
Greece
Guatemala
Haiti
Holy See
Hungary
India
Indonesia

Peru
Philippines
Poland
Portugal
Romania
Senegal
Spain
Sweden
United States of America
Uruguay
Venezuela
Yugoslavia

4. The following State was represented by an
observer at the Conference:
•

Ceylon

5. The following specialized agencies were represented at the Conference:
•

Food and Agriculture Organization of the United
Nations;

•

International Civil Aviation Organization;

•

International Labour Organisation;

•

World Health Organization.

6. The following international bodies were represented at the Conference:
•

Permanent Central Opium Board;

App.430a
•

Drug Supervisory Body.

7. The following non-governmental organizations
were also represented at the Conference:
•

International Conference of Catholic Charities;

•

International Criminal Police Organization;

•

International Federation of Women Lawyers.

8. General Safwat, Director of the Permanent
Anti-Narcotics Bureau of the League of Arab States,
at the invitation of the Conference, also attended in a
personal capacity.
9. In accordance with the resolution of the
Economic and Social Council referred to in paragraph
1 and with the rules of procedure adopted by the
Conference, the observers and the representatives of
the above-mentioned organizations and bodies participated in the work of the Conference without the
right to vote.
10. The Conference elected Mr. Carl Schurmann
(Netherlands) as President, and as Vice-Presidents
the representatives of the following States:
Afghanistan
Brazil
Dahomey
France
Hungary
India

Pakistan
Peru
Switzerland
Thailand
Turkey
United Arab Republic

App.431a
Iran

Japan
Mexico
Pakistan

United Kingdom of
Great Britain and
Northern Ireland
Union of Soviet
Socialist Republics
United States of America

FINAL ACT OF THE UNITED NATIONS CONFERENCE TO
CONSIDER AMENDMENTS TO THE SINGLE CONVENTION
ON NARCOTIC DRUGS, 1961
1. The Economic and Social Council of the United
Nations, noting that amendments had been proposed
to the Single Convention on Narcotic Drugs, 1961, and
bearing in mind article 47 of that Convention, decided
by its resolution 1577 (L) of 21 May 1971 to call, in
accordance with Article 62, paragraph 4, of the
Charter of the United Nations a conference of
plenipotentiaries to consider all amendments proposed
to the Single Convention on Narcotic Drugs, 1961.
2. The United Nations Conference to consider
amendments to the Single Convention on Narcotic
Drugs, 1961, met at the United Nations Office at
Geneva from 6 to 24 March 1972.
3. The following 97 States were represented by
representatives at the Conference:
Afghanistan
Algeria
Argentina
Australia
Austria

Poland
Ecuador
Egypt
El Salvador
Federal Republic of

App.432a

Belgium
Bolivia
Brazil
Bulgaria
Burma
Burundi
Byelorussian Soviet
Socialist Republic
Canada
Ceylon
Chile
Colombia
Costa Rica
Cuba
Cyprus
Czechoslovakia
Dahomey
Denmark
Japan
Jordan
Kenya
Khmer Republic
Kuwait
Laos
Lebanon
Liberia
Libyan Arab

Germany
Finland
France
Gabon
Gambia
Ghana
Greece
Guatemala
Haiti
Holy See
Hungary
India
Indonesia
Iran
Iraq
Ireland
Israel
Italy
Ivory Coast
Jamaica
Portugal
Republic of Korea
Republic of Viet-Nam
Saudi Arabia
Senegal
Sierra Leone
Singapore

App.433a
Republic
Liechtenstein
Luxembourg
Madagascar
Malawi
Mexico
Monaco
Mongolian People's
Republic
Morocco
Netherlands
New Zealand
Nicaragua
Niger

Nigeria
Norway
Pakistan
Panama
Peru
Philippines

South Africa
Spain
Sudan
Sweden
Switzerland
Thailand
Togo
Tunisia
Turkey
Ukrainian Soviet
Socialist Republic
Union of Soviet
Socialist Republics
United Kingdom of
Great Britain and
Northern Ireland
United States
of America
Uruguay
Venezuela
Yugoslavia
Zaire

App.434a
4. The following States were represented by
observers at the Conference:
Cameroon
Dominican Republic
Malaysia

Malta
Romania

5. The Economic and Social Council, by its
resolution 1577 (L), requested the Secretary-General
to invite to the Conference the World Health Organization and other interested specialized agencies, the
International Narcotics Control Board and the
International Criminal Police Organization. The World
Health Organization, the International Narcotics
Control Board and the International Criminal Police
Organization were represented at the Conference.
6. The Conference elected Mr. K. B. Asante
(Ghana) as President of the Conference, Mr. D. Nikolie
(Yugoslavia) as First Vice-President, and as the other
Vice-Presidents the representatives of the following
States:
Argentina
Egypt

France
India

SINGLE CONVENTION ON NARCOTIC DRUGS, 1961,
AS AMENDED BY THE 1972 PROTOCOL AMENDING
THE SINGLE CONVENTION ON NARCOTIC DRUGS, 1961
Preamble
The Parties,
Concerned with the health and welfare of
mankind,

App.435a
Recognizing that the medical use of narcotic
drugs continues to be indispensable for the relief of
pain and suffering and that adequate provision must
be made to ensure the availability of narcotic drugs
for such purposes,
Recognizing that addiction to narcotic drugs
constitutes a serious evil for the individual and is
fraught with social and economic danger to mankind,
Conscious of their duty to prevent and combat
this evil,
Considering that effective measures against abuse
of narcotic drugs require co-ordinated and universal
action,
Understanding that such universal action calls
for international co-operation guided by the same
principles and aimed at common objectives,
Acknowledging the competence of the United
Nations in the field of narcotics control and desirous
that the international organs concerned should be
within the framework of that Organization,
Desiring to conclude a generally acceptable international convention replacing existing treaties on
narcotic drugs, limiting such drugs to medical and
scientific use, and providing for continuous international co-operation and control for the achievement
of such aims and objectives,
Hereby agree as follows:2
2 Note by the Secretariat: The Preamble to the Protocol Amending
the Single Convention on Narcotic Drugs, 1961, reads as follows:
“The Parties to the Present Protocol,

App.436a
ARTICLE 1
Definitions 1
1. Except where otherwise expressly indicated or
where the context otherwise requires, the following
definitions shall apply throughout the Convention:
(a) “Board” means the International Narcotics
Control Board,
(b) “Cannabis” means the flowering or fruiting
tops of the cannabis plant (excluding the
seeds and leaves when not accompanied by
the tops) from which the resin has not been
extracted, by whatever name they may be
designated.
(c) “Cannabis plant” means any plant of the
genus Cannabis,
(d) “Cannabis resin” means the separated resin,
whether crude or purified, obtained from the
cannabis plant.
(e) “Coca bush” means the plant of any species
of the genus Erythroxylon.
(f)

“Coca leaf’ means the leaf of the coca bush
except a leaf from which all ecgonine, cocaine
and any other ecgonine alkaloids have been
removed.

“Considering the provisions of the Single Convention on
Narcotic Drugs, 1961, done at New York on 30 March 1961
(hereinafter called the Single Convention),
“Desiring to amend the Single Convention,
“Have agreed as follows:”

App.437a
(g) “Commission” means the Commission on
Narcotic Drugs of the Council.
(h) “Council” means the Economic and Social
Council of the United Nations.
(i)

“Cultivation” means the cultivation of the
opium poppy, coca bush or cannabis plant.

(j)

“Drug” means any of the substances in
Schedules I and II, whether natural or
synthetic.

(k) “General Assembly” means the General
Assembly of the United Nations.
(l)

“Illicit traffic” means cultivation or trafficking
in drugs contrary to the provisions of this
Convention.

(m) “Import” and “export” mean in their respective
connotations the physical transfer of drugs
from one State to another State, or from one
territory to another territory of the same State.
(n) “Manufacture” means all processes, other than
production, by which drugs may be obtained
and includes refining as well as the transformation of drugs into other drugs.
(o) “Medicinal opium” means opium which has
undergone the processes necessary to adapt
it for medicinal use.
(p) “Opium” means the coagulated juice of the
opium poppy.
(q) “Opium poppy” means the plant of the species
Papaver somniferum L.

App.438a
(r) “Poppy straw” means all parts (except the
seeds) of the opium poppy, after mowing.
(s)

“Preparation” means a mixture, solid or liquid,
containing a drug.

(t)

“Production” means the separation of opium,
coca leaves, cannabis and cannabis resin
from the plants from which they are obtained.

(u) “Schedule I”, “Schedule II”, “Schedule III”
and “Schedule IV” mean the correspondingly
numbered list of drugs or preparations
annexed to this Convention, as amended
from time to time in accordance with article 3.
(v) “Secretary-General” means the SecretaryGeneral of the United Nations.
(w) “Special stocks” means the amounts of drugs
held in a country or territory by the Government of such country or territory for special
government purposes and to meet exceptional
circumstances; and the expression “special
purposes” shall be construed accordingly.
(x) “Stocks” means the amounts of drugs held in
a country or territory and intended for:
(i)

Consumption in the country or territory
for medical and scientific purposes,

(ii) Utilization in the country, or territory
for the manufacture of drugs and other
substances, or
(iii) Export; but does not include the amounts
of drugs held in the country or territory,
(iv) By retail pharmacists or other authorized
retail distributors and by institutions or

App.439a
qualified persons in the duly authorized
exercise of therapeutic or scientific
functions, or
(v) As “special stocks”.
(y) “Territory” means any part of a State which
is treated as a separate entity for the application of the system of import certificates and
export authorizations provided for in article
31. This definition shall not apply to the term
“territory” as used in articles 42 and 46.
2. For the purposes of this Convention a drug
shall be regarded as “consumed” when it has been
supplied to any person or enterprise for retail distribution, medical use or scientific research; and
“consumption” shall be construed accordingly.
ARTICLE 2
Substances Under Control
1. Except as to measures of control which are
limited to specified drugs, the drugs in Schedule I are
subject to all measures of control applicable to drugs
under this Convention and in particular to those
prescribed in article 4(c), 19, 20, 21, 29, 30, 31, 32, 33,
34 and 37.
2. The drugs in Schedule II are subject to the
same measures of control as drugs in Schedule I with
the exception of the measures prescribed in article 30,
paragraphs 2 and 5, in respect of the retail trade.
3. Preparations other than those in Schedule III
are subject to the same measures of control as the
drugs which they contain, but estimates (article 19)
and statistics (article 20) distinct from those dealing

App.440a
with these drugs shall not be required in the case of
such preparations, and article 29, paragraph 2(c) and
article 30, paragraph 1 (b) (ii) need not apply.
4. Preparations in Schedule III are subject to the
same measures of control as preparations containing
drugs in Schedule II except that article 31, paragraphs 1 (b) and 3 to 15 and, as regards their
acquisition and retail distribution, article 34, paragraph
(b), need not apply, and that for the purpose of
estimates (article 19) and statistics (article 20) the
information required shall be restricted to the
quantities of drugs used in the manufacture of such
preparations.
5. The drugs in Schedule IV shall also be included
in Schedule I and subject to all measures of control
applicable to drugs in the latter Schedule, and in addition thereto:
(a) A Party shall adopt any special measures of
control which in its opinion are necessary
having regard to the particularly dangerous
properties of a drug so included; and
(b) A Party shall, if in its opinion the prevailing
conditions in its country render it the most
appropriate means of protecting the public
health and welfare, prohibit the production,
manufacture, export and import of, trade in,
possession or use of any such drug except for
amounts which may be necessary for medical
and scientific research only, including clinical
trials therewith to be conducted under or
subject to the direct supervision and control
of the Party.

App.441a
6. In addition to the measures of control applicable
to all drugs in Schedule I, opium is subject to the
provisions of article 19, paragraph 1, subparagraph
(f), and of articles 21 bis, 23 and 24, the coca leaf to
those of articles 26 and 27 and cannabis to those of
article 28.
7. The opium poppy, the coca bush, the cannabis
plant, poppy straw and cannabis leaves are subject to
the control measures prescribed in article 19, paragraph
1, subparagraph (e), article 20, paragraph 1, subparagraph (g), article 21 bis and in articles 22 to 24; 22, 26
and 27; 22 and 28; 25; and 28, respectively.
8. The Parties shall use their best endeavors to
apply to substances which do not fall under this
Convention, but which may be used in the illicit
manufacture of drugs, such measures of supervision
as may be practicable.
9. Parties are not required to apply the provisions
of this Convention to drugs which are commonly used
in industry for other than medical or scientific purposes, provided that: . . .
[...]
. . . furnished to the Board not later than 30
June following the year to which they relate.
(b) The statistical returns in respect to the
matters referred to in subparagraph (d) of
paragraph 1 shall be prepared quarterly and
shall be furnished to the Board within one
month after the end of the quarter to which
they relate.
3. The Parties are not required to furnish
statistical returns respecting special stocks, but shall

App.442a
furnish separately returns respecting drugs imported
into or procured within the country or territory for
special purposes, as well as quantities of drugs withdrawn from special stocks to meet the requirements of
the civilian population.
ARTICLE 21
Limitation of Manufacture and Importation
1. The total of the quantities of each drug
manufactured and imported by any country or
territory in any one year shall not exceed the sum of
the following:
(a) The quantity consumed, within the limit of
the relevant estimate, for medical and
scientific purposes;
(b) The quantity used, within the limit of the
relevant estimate, for the manufacture of
other drugs, of preparations in Schedule III,
and of substances not covered by this
Convention;
(c) The quantity exported;
(d) The quantity added to the stock for the purpose of bringing that stock up to the level
specified in the relevant estimate; and
(e) The quantity acquired within the limit of the
relevant estimate for special purposes.
2. From the sum of the quantities specified in
paragraph 1 there shall be deducted any quantity
that has been seized and released for licit use, as well
as any quantity taken from special stocks for the
requirements of the civilian population.

App.443a
3. If the Board finds that the quantity manufactured and imported in any one year exceeds the
sum of the quantities specified in paragraph 1, less
any deductions required under paragraph 2 of this
article, any excess so established and remaining at
the end of the year shall, in the following year, be
deducted from the quantity to be manufactured or
imported and from the total of the estimates as
defined in paragraph 2 of article 19.
4.
(a) If it appears from the statistical returns on
imports or exports (article 20) that the
quantity exported to any country or territory
exceeds the total of the estimates for that
country or territory, as defined in paragraph
2 of article 19, with the addition of the
amounts shown to have been exported, and
after deduction of any excess as established
in paragraph 3 of this article, the Board may
notify this fact to States which, in the
opinion of the Board, should be so informed;
(b) On receipt of such a notification, Parties
shall not during the year in question authorize
any further exports of the drug concerned to
that country or territory, except:
(i)

In the event of a supplementary estimate
being furnished for that country or
territory in respect both of any quantity
over-imported and of the additional
quantity required, or

(ii) In exceptional cases where the export,
in the opinion of the Government of the

App.444a
exporting country, is essential for the
treatment of the sick.
ARTICLE 21 bis
Limitation of Production of Opium
1. The production of opium by any country or
territory shall be organized and controlled in such
manner as to ensure that, as far as possible, the
quantity produced in any one year shall not exceed the
estimate of opium to be produced as established under
paragraph 1 (f) of article 19.
2. If the Board fords on the basis of information
at its disposal in accordance with the provisions of this
Convention that a Party which has submitted an
estimate under paragraph 1 (f) of article 19 has not
limited opium produced within its borders to licit purposes in accordance with relevant estimates and that
a significant amount of opium produced, whether
licitly or illicitly, within the borders of such a Party,
has been introduced into the illicit traffic, it may, after
studying the explanations of the Party concerned, which
shall be submitted to it within one month after
notification of the finding in question, decide to deduct
all, or a portion, of such an amount from the quantity
to be produced and from the total of the estimates as
defined in paragraph 2 (b) of article 19 for the next
year in which such a deduction can be technically
accomplished, taking into account the season of the
year and contractual commitments to export opium.
This decision shall take effect ninety days after the
Party concerned is notified thereof.
3. After notifying the Party concerned of the decision it has taken under paragraph 2 above with regard

App.445a
to a deduction, the Board shall consult with that Party
in order to resolve the situation satisfactorily.
4. If the situation is not satisfactorily resolved,
the Board may utilize the provisions of article 14
where appropriate.
5. In taking its decision with regard to a deduction
under paragraph 2 above, the Board shall take into
account not only all relevant circumstances including
those giving rise to the illicit traffic problem referred
to in paragraph 2 above, but also any relevant new
control measures which may have been adopted by the
Party.
ARTICLE 22
Special Provision Applicable to Cultivation
1. Whenever the prevailing conditions in the
country or a territory of a Party render the prohibition
of the cultivation of the opium poppy, the coca bush or
the cannabis plant the most suitable measure, in its
opinion, for protecting the public health and welfare
and preventing the diversion of drugs into the illicit
traffic, the Party concerned shall prohibit cultivation.
2. A Party prohibiting cultivation of the opium
poppy or the cannabis plant shall take appropriate
measures to seize any plants illicitly cultivated and to
destroy them, except for small quantities required by
the Party for scientific or research purposes.
ARTICLE 23
National Opium Agencies
1. A Party that permits the cultivation of the
opium poppy for the production of opium shall establish,
if it has not already done so, and maintain, one or

App.446a
more government agencies (hereafter in this article
referred to as the Agency) to carry out the functions
required under this article.
2. Each such Party shall apply the following
provisions to the cultivation of the opium poppy for
the production of opium and to opium;
(a) The Agency shall designate the areas in
which, and the plots of land on which,
cultivation of the opium poppy for the purpose of producing opium shall be permitted.
(b) Only cultivators licensed by the Agency shall
be authorized to engage in such cultivation.
(c) Each license shall specify the extent of the
land on which the cultivation is permitted.
(d) All cultivators of the opium poppy shall be
required to deliver their total crops of opium
to the Agency. The Agency shall purchase
and take physical possession of such crops as
soon as possible, but not later than four
months after the end of the harvest.
(e) The Agency shall, in respect of opium, have
the exclusive right of importing, exporting,
wholesale trading and maintaining stocks
other than those held by manufacturers of
opium alkaloids, medicinal opium or opium
preparations. Parties need not extend this
exclusive right to medicinal opium and
opium preparations.
[...]
2. The Parties shall so far as possible enforce the
uprooting of all coca bushes which grow wild. They
shall destroy the coca bushes if illegally cultivated.

App.447a
ARTICLE 27
Additional Provisions Relating to Coca Leaves
1. The Parties may permit the use of coca leaves
for the preparation of a flavouring agent, which shall
not contain any alkaloids, and, to the extent necessary
for such use, may permit the production, import,
export, trade in and possession of such leaves.
2. The Parties shall furnish separately estimates
(article 19) and statistical information (article 20) in
respect of coca leaves for preparation of the flavouring
agent, except to the extent that the same coca leaves
are used for the extraction of alkaloids and the
flavouring agent, and so explained in the estimates
and statistical information.
ARTICLE 28
Control of Cannabis
1. If a Party permits the cultivation of the
cannabis plant for the production of cannabis or
cannabis resin, it shall apply thereto the system of
controls as provided in article 23 respecting the
control of the opium poppy.
2. This Convention shall not apply to the cultivation of the cannabis plant exclusively for industrial
purposes (fibre and seed) or horticultural purposes.
3. The Parties shall adopt such measures as may
be necessary to prevent the misuse of, and illicit traffic
in, the leaves of the cannabis plant.

App.448a
ARTICLE 29
Manufacture
1. The Parties shall require that the manufacture
of drugs be under license except where such
manufacture is carried out by a State enterprise or
State enterprises.
2. The Parties shall:
(a) Control all persons and enterprises
carrying on or engaged in the manufacture of drugs;
(b) Control under license the establishments
and premises in which such manufacture
may take place; and
(c) Require that licensed manufacturers of
drugs obtain periodical permits specifying
the kinds and amounts of drugs which
they shall be entitled to manufacture. A
periodical permit, however, need not be
required for preparations.
3. The Parties shall prevent the accumulation, in
the possession of drug manufacturers, of quantities of
drugs and poppy straw in excess of those required for
the normal conduct of business, having regard to the
prevailing market conditions.
ARTICLE 30
Trade and Distribution
1.
(a) The Parties shall require that the trade in
and distribution of drugs be under licence
except where such trade or distribution is

App.449a
carried out by a State enterprise or State
enterprises.
(b) The Parties shall:
(i)

Control all persons and enterprises
carrying on or engaged in the trade in or
distribution of drugs;

(ii) Control under license the establishments
and premises in which such trade or
distribution may take place. The requirement of licensing need not apply to preparations.
(c) The provisions of subparagraphs (a) and (b)
relating to licensing need not apply to
persons duly authorized to perform and
while performing therapeutic or scientific
functions.
2. The Parties shall also:
(a) Prevent the accumulation in the possession
of traders, distributors, State enterprises or
duly authorized persons referred to above, of
quantities of drugs and poppy straw in
excess of those required for the normal
conduct of business, having regard to the prevailing market conditions; and
(b)
(i)

Require medical prescriptions for the
supply or dispensation of drugs to individuals. This requirement need not
apply to such drugs as individuals may

App.450a
lawfully obtain, use, dispense or administer in connexion with their duly authorized therapeutic functions; and
(ii) If the Parties deem these measures
necessary or desirable, require that prescriptions for drugs in Schedule I should
be written on officials forms to be issued
in the form of counterfoil books by the
competent governmental authorities or
by authorized professional associations.
3. It is desirable that Parties require that written
or printed offers of drugs, advertisements of every
kind or descriptive literature relating to drugs and
used for commercial purposes, interior wrappings of
packages containing drugs, and labels under which
drugs are offered for sale indicate the international
non-proprietary name communicated by the World
Health Organization.
4. If a Party considers such measure necessary or
desirable, it shall require that the inner package containing a drug or wrapping thereof shall bear a clearly
visible double red band. The exterior wrapping of the
package in which such drug is contained shall not bear
a double red band.
5. A Party shall require that the label under
which a drug is offered for sale show the exact drug
content by weight or percentage. This requirement of
label information need not apply to a drug dispensed
to an individual on medical prescription.
6. The provisions of paragraphs 2 and 5 need not
apply to the retail trade in or retail distribution of
drugs in Schedule II.

App.451a
ARTICLE 31
Special Provisions Relating to International Trade
1. The Parties shall not knowingly permit the
export of drugs to any country or territory except:
(a) In accordance with the laws and regulations
of that country or territory; and
(b) Within the limits of the total of the estimates
for that country or territory, as defined in
paragraph 2 of article 19, with the addition
of the amounts intended to be re-exported.
2. The Parties shall exercise in free ports and
zones the same supervision and control as in other
parts of their territories, provided, however, that they
may apply more drastic measures.
3. The Parties shall:
(a) Control under license the import and export
of drugs except where such import or export
is carried out by a State enterprise or enterprises;
(b) Control all persons and enterprises carrying
on or engaged in such import or export.
4.
(a) Every Party permitting the import or export
of drugs shall require a separate import or
export authorization to be obtained for each
such import or export whether it consists of
one or more drugs.
(b) Such authorization shall state the name of
the drug, the international non-proprietary
name if any, the quantity to be imported or
exported, and the name and address of the

App.452a
importer and exporter, and shall specify the
period within which the importation or
exportation must be effected.
(c) The export authorization shall also state the
number and date of the import certificate
(paragraph 5) and the authority by whom it
has been issued.
(d) The import authorization may allow an
importation in more than one consignment.
5. Before issuing an export authorization the
Parties shall require an import certificate, issued by
the competent authorities of the importing country or
territory and certifying that the importation of the
drug or drugs referred to therein, is approved and
such certificate shall be produced by the person or
establishment applying for the export authorization.
The Parties shall follow as closely as may be practicable
the form of import certificate approved by the Commission.
6. A copy of the export authorization shall accompany each consignment, and the Government issuing
the export authorization shall send a copy to the Government of the importing country or territory.
7.
(a) The Government of the importing country or
territory, when the importation has been
effected or when the period fixed for the
importation has expired, shall return the
export authorization, with an endorsement
to that effect, to the Government of the
exporting country or territory.

App.453a
(b) The endorsement shall specify the amount
actually imported.
(c) If a lesser quantity than that specified in the
export authorization is actually exported, the
quantity actually exported shall be stated by
the competent authorities on the export
authorization and on any official copy
thereof.
8. Exports of consignments to a post office box, or
to a bank to the account of a Party other than the
Party named in the export authorization, shall be
prohibited.
9. Exports of consignments to a bonded warehouse
are prohibited unless the Government of the importing
country certifies on the import certificate, produced by
the person or establishment applying for the export
authorization, that it has approved the importation
for the purpose of being placed in a bonded warehouse.
In such case the export authorization shall specify
that the consignment is exported for such purpose.
Each withdrawal from the bonded warehouse shall require a permit from the authorities having jurisdiction over the warehouse and, in the case of a foreign
destination shall be treated as if it were a new export
within the meaning of this Convention.
10. Consignments of drugs entering or leaving
the territory of a Party not accompanied by an export
authorization shall be detained by the competent
authorities.
11. A Party shall not permit any drugs consigned
to another country to pass through its territory,
whether or not the consignment is removed from the
conveyance in which it is carried, unless a copy of the

App.454a
export authorization for such consignment is produced
to the competent authorities of such Party.
12. The competent authorities of any country or
territory through which a consignment of drugs is permitted to pass shall take all due measures to prevent
the diversion of the consignment to a destination other
than that named in the accompanying copy of the export
authorization unless the Government of that country or
territory through which the consignment is passing
authorizes the diversion. The Government of the
country or territory of transit shall treat any
requested diversion as if the diversion were an export
from the country or territory of transit to the country
or territory of new destination. If the diversion is
authorized, the provisions of paragraph 7 (a) and (b)
shall also apply between the country or territory of
transit and the country or territory which originally
exported the consignment.
13. No consignment of drugs while in transit, or
whilst being stored in a bonded warehouse, may be
subjected to any process which would change the
nature of the drugs in question. The packing may not
be altered without the permission of the competent
authorities.
14. The provisions of paragraphs 11 to 13 relating
to the passage of drugs through the territory of a Party
do not apply where the consignment in question is
transported by aircraft which does not land in the
country or territory of transit. If the aircraft lands in
any such country or territory, those provisions shall
be applied so far as circumstances require.
15. The provisions of this article are without prejudice to the provisions of any international

App.455a
agreements which limit the control which may be
exercised by any of the Parties over drugs in transit.
16. Nothing in this article other than paragraphs
1 (a) and 2 need apply in the case of preparations in
Schedule III.
ARTICLE 32
Special Provisions Concerning the Carriage of Drugs
in First-Aid Kits of Ships or Aircraft Engaged in
International Traffic
1. The international carriage by ships or aircraft
of such limited amounts of drugs as may be needed
during their journey or voyage for first-aid purposes
or emergency cases shall not be considered to be
import, export or passage through a country within
the meaning of this Convention.
2. Appropriate safeguards shall be taken by the
country of registry to prevent the improper use of the
drugs referred to in paragraph 1 or their diversion for
illicit purposes. The Commission, in consultation with
the appropriate international organizations, shall recommend such safeguards.
3. Drugs carried by ships or aircraft in accordance
with paragraph 1 shall be subject to the laws, regulations, permits and licenses of the country of registry,
without prejudice to any rights of the competent local
authorities to carry out checks, inspections and other
control measures on board ships or aircraft. The
administration of such drugs in the case of emergency
shall not be considered a violation of the requirements
of article 30, paragraph 2 (b).

App.456a
ARTICLE 33
Possession of Drugs
The Parties shall not permit the possession of
drugs except under legal authority.
ARTICLE 34
Measures of Supervision and Inspection
The Parties shall require:
(a) That all persons who obtain licenses as provided in accordance with this Convention, or
who have managerial or supervisory positions
in a State enterprise established in accordance with this Convention, shall have adequate qualifications for the effective and
faithful execution of the provisions of such
laws and regulations as are enacted in
pursuance thereof; and
(b) That governmental authorities, manufacturers,
traders, scientists, scientific institutions and
hospitals keep such records as will show the
quantities of each drug manufactured and of
each individual acquisition and disposal of
drugs. Such records shall respectively be
preserved for a period of not less than two
years. Where counterfoil books (article 30,
paragraph 2 (b)) of official prescriptions are
used, such books including the counterfoils
shall also be kept for a period of not less than
two years.

App.457a
ARTICLE 35
Action Against the Illicit Traffic
Having due regard to their constitutional, legal
and administrative systems, the Parties shall:
(a) Make arrangements at the national level for
co-ordination of preventive and repressive
action against the illicit traffic; to this end
they may usefully designate an appropriate
agency responsible for such co-ordination;
(b) Assist each other in the campaign against
the illicit traffic in narcotic drugs;
(c) Co-operate closely with each other and with
the competent international organizations of
which they are members with a view to
maintaining a co-ordinated campaign against
the illicit traffic;
(d) Ensure that international co-operation
between the appropriate agencies be conducted in an expeditious manner; and
(e) Ensure that where legal papers are
transmitted internationally for the purposes
of a prosecution, the transmittal be effected
in an expeditious manner to the bodies
designated by the Parties; this requirement
shall be without prejudice to the right of a
Party to require that legal papers be sent to
it through the diplomatic channel;
(f)

Furnish, if they deem it appropriate, to the
Board and the Commission through the
Secretary-General, in addition to information
required by article 18, information relating
to illicit drug activity within their borders,

App.458a
including information on illicit cultivation,
production, manufacture and use of, and on
illicit trafficking in, drugs; and
(g) Furnish the information referred to in the
preceding paragraph as far as possible in
such manner and by such dates as the Board
may request; if requested by a Party, the
Board may offer its advice to it in furnishing
the information and in endeavoring to reduce
the illicit drug activity within the borders of
that Party.
ARTICLE 36
Penal Provisions
1.
(a) Subject to its constitutional limitations, each
Party shall adopt such measures as will
ensure that cultivation, production, manufacture, extraction, preparation, possession,
offering, offering for sale, distribution, purchase, sale, delivery on any terms whatsoever, brokerage, dispatch, dispatch in
transit, transport, importation and exportation
of drugs contrary to the provisions of this
Convention, and any other action which in
the opinion of such Party may be contrary to
the provisions of this Convention, shall be
punishable offences when committed intentionally, and that serious offences shall be
liable to adequate punishment particularly
by imprisonment or other penalties of
deprivation of liberty.

App.459a
(b) Notwithstanding the preceding subparagraph,
when abusers of drugs have committed such
offences, the Parties may provide, either as
an alternative to conviction or punishment
or in addition to conviction or punishment,
that such abusers shall undergo measures of
treatment, education, after-care, rehabilitation and social reintegration in conformity
with paragraph 1 of article 38.
2. Subject to the constitutional limitations of a
Party, its legal system and domestic law,
(a)
(i)

Each of the offences enumerated in paragraph 1, if committed in different
countries, shall be considered as a
distinct offence;

(ii) Intentional participation in, conspiracy
to commit and attempts to commit, any
of such offences, and preparatory acts
and financial operations in connexion
with the offences referred to in this
article, shall be punishable offences as
provided in paragraph 1;
(iii) Foreign convictions for such offences
shall be taken into account for the purpose of establishing recidivism; and
(iv) Serious offences heretofore referred to
committed either by nationals or by
foreigners shall be prosecuted by the
Party in whose territory the offence was
committed, or by, the Party in whose
territory the offender is found if

App.460a
extradition is not acceptable in conformity with the law of the Party to
which application is made, and if such
offender has not already been prosecuted
and judgement given.
(b)
(i)

Each of the offences enumerated in
paragraphs 1 and 2 (a) (ii) of this article
shall be deemed to be included as an
extraditable offence in any extradition
treaty existing between Parties. Parties
undertake to include such offences as
extraditable offences in every extradition
treaty to be concluded between them.

(ii) If a Party which makes extradition
conditional on the existence of a treaty
receives a request for extradition from
another Party with which it has no
extradition treaty, it may at its option
consider this Convention as the legal
basis for extradition in respect of the
offences enumerated in paragraphs 1
and 2 (a) (ii) of this article. Extradition
shall be subject to the other conditions
provided by the law of the requested
Party.
(iii) Parties which do not make extradition
conditional on the existence of a treaty
shall recognize the offences enumerated
in paragraphs 1 and 2 (a) (ii) of this
article as extraditable offences between
themselves, subject to the conditions

App.461a
provided by the law of the requested
Party.
(iv) Extradition shall be granted in conformity with the law of the Party to
which application is made, and, notwithstanding subparagraphs (b) (i), (ii)
and (iii) of this paragraph, the Party
shall have the right to refuse to grant
the extradition in cases where the competent authorities consider that the
offence is not sufficiently serious.
3. The provisions of this article shall be subject to
the provisions of the criminal law of the Party concerned on questions of jurisdiction.
4. Nothing contained in this article shall affect
the principle that the offences to which it refers shall
be defined, prosecuted and punished in conformity
with the domestic law of a Party.
ARTICLE 37
Seizure and Confiscation
Any drugs, substances and equipment used in or
intended for the commission of any of the offences,
referred to in article 36, shall be liable to seizure and
confiscation.
[...]

App.462a
Revised Schedules including all amendments made
by the Commission on Narcotic Drugs in force
as of 31 May 1999
SCHEDULES
List of Drugs Included in Schedule I
● ACETORPHINE (3- O -acetyltetrahydro-7α-(1hydroxy-1-methylbuty1)-6,14-endo-ethenooripavine)
● ACETYL-ALPHA-METHYLFENTANYL (N-[1-(αmethylphenethyl)-4-piperidyl]acetanilide)
● ACETYLMETHADOL (3-acetoxy-6dimethylamino-4, 4-diphenylheptane)
● ALFENTANIL (N-[1-[2-(4-ethyl-4,5-dihydro-5-oxo1H-tetrazol-1-yl)ethyl[-4-(methoxymethyl)-4piperidinyll-N-phenylpropanamide)
● ALLYLPRODINE (3-allyl-1-methyl-4-phenyl-4propionoxypiperidine)
● ALPHACETYLMETHADOL (alpha-3-acetoxy-6dimethylamino-4,4-diphenylheptane)
● ALPHAMEPRODINE (alpha-3-ethyl-1-methyl-4phenyl-4-propionoxypiperidine)
● ALPHAMETHADOL (alpha-6-dimethylamino-4, 4diphenyl-3-heptanol)
● ALPHA-METHYLFENTANYL (N-[1-(αmethylphenethyl)-4-piperidyl]propionanilide)
● ALPHA-METHYLTHIOFENTANYL (N-[1-[1methyl-2-(2-thienyl)ethyl]-4-piperidyl]
propionanilide)
 Note by the Secretariat: For the original Schedules see E/CONF.
34/24/Add.1.

App.463a
● ALPHAPRODINE (alpha-1,3-dimethyl-4-phenyl-4propionoxypiperidine)
● ANILERIDINE (1-para-aminophenethyl-4phenylpiperidine-4-carboxylic acid ethyl ester)
● BENZETHIDINE (1-(2-benzyloxyethyl)-4phenylpiperidine-4-carboxylic acid ethyl ester)
● BENZYLMORPHINE (3-benzylmorphine)
● BETACETYLMETHADOL (beta-3-acetoxy-6dimethylamino-4, 4-diphenylheptane)
● BETA-HYDROXYFENTANYL (N-[1-(ßhydroxyphenethyl)-4-piperidyl]propionanilide)
● BETA-HYDROXY-3-METHYLFENTANYL (N-[1(ß-hydroxyphenethyl)-3-methyl-4piperidyl]propionanilide)
● BETAMEPRODINE (beta-3-ethyl-1-methyl-4phenyl-4-propionoxypiperidine)
● BETAMETHADOL (beta-6-dimethylamino-4, 4diphenyl-3-heptanol)
● BETAPRODINE (beta-1, 3-dimethyl-4-phenyl-4propionoxypiperidine)
● BEZITRAMIDE (1-(3-cyano-3, 3-diphenylpropyl)4-(2-oxo-3-propionyl-1-benzimidazolinyl)piperidine)
● CANNABIS and CANNABIS RESIN and
EXTRACTS and TINCTURES OF CANNABIS
CLONITAZENE (2-para-chlorbenzyl-1diethylaminoethyl-5-nitrobenzimidazole)
● COCA LEAF
● COCAINE (methyl ester of benzoylecgonine)
● CODOXIME (dihydrocodeinone-6carboxymethyloxime)
● CONCENTRATE OF POPPY STRAW (the material
arising when poppy straw has entered into a

App.464a

●
●
●
●
●

process for the concentration of its alkaloids when
such material is made available in trade)
DESOMORPHINE (dihydrodeoxymorphine)
DEXTROMORAMIDE
((+)-4-[2-methyl-4-oxo-3,
3diphenyl-4-(1-pyrrolidinyl)butyl]morpholine)
DIAMPROMIDE
(N-[2-(methylphenethylamino)
propyl]propionanilide)
DIETHYLTHIAMBUTENE (3-diethylamino-1, 1-di(2’-thienyl)-1-butene)
DIFENOXIN (1-(3-cyano-3, 3-diphenylpropyl)-4phenylisonipecotic acid)
DIHYDROETORPHINE (7,8-dihydro-7α[1-(R)hydroxy-1-methylbutyl]-6,14-endo-ethanotetrahydro-otipavine)
List of Drugs included in Schedule IV

● ACETORPHINE (3-O-acetyltetrahydro-7α-(1hydroxy-1-methylbutyl)-6,14-endo-ethenooripavine)
● ACETYL-ALPHA-METHYLFENTANYL (N-[1-(amethylphenethyl)-4-pipetidyl]acetanilide)
● ALPHA-METHYLFENTANYL (N-[1-(αmethylphenethyl)-4-piperidyl]propionanilide)
● ALPHA-METHYLTHIOFENTANYL (N-[1-[1methyl-2-(2-thienypethyl]-4-piperidyl]
propionanilide)
● BETA-HYDROXYFENTANYL (N-[1-(ßhydroxyphenethyl)-4-piperidyl]propionanilide)
● BETA-HYDROXY-3-METHYLFENTANYL (N-[1-(ßhydroxyphenethyl)-3-methyl-4piperidyl]propionanilide)
● CANNABIS and CANNABIS RESIN
● DESOMORPHINE (dihydrodeoxymorphine)

App.465a
● ETORPHINE (tetrahydro-7α-(1-hydroxy-1methylbutyl)-6, 14-endo-etheno-oripavine)
● HEROIN (diacetylmorphine)
● KETOBEMIDONE (4-meta-hydroxyphenyl-1methyl-4-propionylpiperidine)
● 3-METHYLFENTANYL (N-(3-methyl-1phenethyl-4-piperidyl)propionanilide); (cis-N-[3methyl-1-(2-phenylethyl)-4-piperidyl]
propionanilide); (trans-N-[3-methyl-1-(2phenylethyl)-4-piperidyl]propionanilide)
● 3-METHYLTHIOFENTANYL (N-[3-methyl-1-[2(2-thienyl)ethyl]-4-pipetidyl]propionanilide)
● MPPP (1-methyl-4-phenyl-4-piperidinol propionate
(ester))
● PARA-FLUOROFENTANYL (4’-fluoro-N-(1phenethyl-4-piperidyppropionanilide)
● PEPAP (1-phenethyl-4-phenyl-4-piperidinol
acetate (ester))
● THIOFENTANYL (N-[1-[2-(2-thienyl)ethyl]-4piperidyl]propionanilide); and
The salts of the drugs listed in this Schedule whenever
the formation of such salts is possible.

